<html>
<title> - ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR FISCAL YEAR 2012</title>
<body><pre>[Senate Hearing 112-]
[From the U.S. Government Publishing Office]



 
    ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR FISCAL YEAR 2012

                              ----------                              

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.

                       NONDEPARTMENTAL WITNESSES

    [Clerk's note.--At the direction of the subcommittee 
chairman, the following statements received by the subcommittee 
are made part of the hearing record on the Fiscal Year 2012 
Energy and Water Development Appropriations Act.]

                      DEPARTMENT OF DEFENSE--CIVIL

                         Department of the Army

                       Corps of Engineers--Civil

 Prepared Statement of the Board of Levee Commissioners for the Yazoo-
                           Mississippi Delta
    Is this Nation's heartland worth preserving? Will the richest and 
most fertile farmland in the world be allowed to simply wash away? Are 
the lives and livelihoods of America's bread basket somehow now less 
important?
    These are the questions we must ask ourselves even in this time of 
great economic uncertainty, with opinions and counter-opinions churning 
and Americans seemingly divided as surely as this continent's greatest 
river bisects it.
    And after asking them, then we must remember that some truths 
really are self-evident.
    As we move forward with what we realize necessarily must be a new 
approach to flood control and its funding in the years ahead, we urge 
you not to lose sight of what has been the enormous success of the 
Mississippi River and Tributaries Project, a project which has made 
life as we know it in middle America possible. The land in and around 
the Mississippi River Valley has proved to be the most bountiful on 
earth. Not only is it home the salt-of-the-earth men and women who 
populate it, but it is also the producer of an increasingly important 
slice of the U.S. export pie--the food and fiber that clothe this 
country and the rest of the world.
    We understand the political and economic reality which dictates 
that now, more than perhaps ever before, every Federal dollar is 
critical and every expenditure must be prioritized. But then what 
priority of government is more critical than the protection of its 
people and the wealth that they produce?
    The administration proposes 2012 funding for the MR&T, one of our 
great continuing successes, with an almost unprecedented benefit-to-
cost ratio, at $210 million, once again less than Congress appropriated 
last year and substantially less than the Corps of Engineers' 
capability. But in such matters the founding fathers saw fit to give 
Congress the last word, and so we urge you to fund the MR&T umbrella of 
needed public works at the Corps' capability level of $335 million.
    Honorable Members of Congress, there is a simple truth in our 
region of this country: The Mainline Mississippi River Levee makes life 
and development possible within the Mississippi Delta. Therefore it is 
nothing less than our duty to ask you to fund Mississippi River levees 
construction at $77.730 million and their maintenance at $15.781 
million. A paramount priority to our levee board is the Upper Yazoo 
Projects which we sponsor, not only a much needed endeavor, but a rare 
one, as well, in that it faces no environmental opposition. We urge you 
to advance its completion in the amount of $14.2 million.
    Mississippi's four flood control reservoirs have marked another 
MR&T success, but it concerns us that they are aging, and we request 
the appropriation of $34.759 million for their continued maintenance.
    Also critical to us is the Delta Headwater Project, which helps to 
prevent our Delta streams from filling with eroded soils from the 
hills. We ask that it be funded at $23.2 million.
    We would also request that these other pieces of the flood control 
puzzle in our area be funded as follows:
    Channel Improvements--$73,270 million
    Big Sunflower River--$2.5 million
    Main Stem--$25,000
    Yazoo Basin Reformulation--$1.2 million
    Channel Maintenance--$89.936 million
    Channel Improvement Dredging--$18.029 million
    Channel Improvement Dredging--Memphis--$12.430 million
    Channel Improvement Dredging--Vicksburg--$5.023 million
    Revetments and Dikes--$71.907 million
    Big Sunflower Maintenance--$985,000
    Main Stem Maintenance--$6.248 million
    Tributaries--$1.286 million
    Whittington Auxiliary Channel--$494,000
    And finally, Members of Congress, we have all been shocked and 
sickened by the death and devastation resultant from the recent 
earthquake in Japan. And so we would remind that the strongest recorded 
earthquake on the North American continent, occurred exactly 200 years 
ago--not in California, but along the New Madrid Fault in Missouri. Any 
such event today would make the amount of this needed funding request 
look like child's play, so we urge you to also allocate necessary 
attention and funding to earthquake research and preparedness.
                                 ______
                                 
   Prepared Statement of the Ventura Harbor, Ventura Port District--
                               California
    The President's fiscal year 2012 budget request for Ventura Harbor 
reflects a request of $2,805,000 for operation and maintenance for 
annual dredging activities within and around the Federal channel area 
of Ventura Harbor. Unfortunately, funding at that level does not 
accomplish the task.
    In fiscal year 2011, the Corps of Engineers was only able to 
complete the dredging of 300,000 cubic yards of material, leaving 
500,000 cubic yards of material not dredged, and remaining in place to 
be addressed next year. It is anticipated that over 1 million cubic 
yards will need to be dredged in fiscal year 2012. Informal 
communications with the U.S. Army Corps of Engineers suggest that 
fiscal year 2012 funding of $4,500,000 is required to meet the Ventura 
Port District's dredging requirements for the next fiscal year.
    The authorizing legislation for this request is Public Law 90-483, 
section 101. The appropriations history is:
      Fiscal Year 2004--$2.9 million (Public Law 108-137)
      Fiscal Year 2005--$2.9 million (Public Law 108-447)
      Fiscal Year 2006--$2.6 million (Public Law 109-103)
      Fiscal Year 2007--$2.6 million (Public Law 110-05)
      Fiscal Year 2008--$3.4 million (Public Law 110-161)
      Fiscal Year 2008--Emergency funding $5.0 million (Public Law 110-
        252) breakwater repairs
      Fiscal Year 2009--$2.8 million (Public Law 111-8)
      Fiscal Year 2010--$6.1 million (Public Law 111-85) included 
        additional funds to complete breakwater repairs
      Fiscal Year 2011--$2.8 million
    It is noted that employment associated with the commercial fishing 
industry in the Port of Ventura area is directly related to the 
dredging activities of the Corps. In 2010, it is estimated that 71 
million pounds of seafood product were unloaded at facilities 
associated with the Port of Ventura, accounting for significant 
employment in the area.
                                 ______
                                 
         Prepared Statement of the Ohio Lake Management Society
    To the Honorable Members of the Senate Subcommittee on Energy and 
Water Development: I am writing in support of continued and expanded 
appropriations for the United States Army Corps of Engineers Aquatic 
Plant Control and Research Program [APCRP]. I write on behalf of the 
membership of the Ohio Lake Management Society, a citizen based non-
profit organization, founded in 1986, with mission to promote research 
and comprehensive management of lakes and reservoirs in Ohio.
    For the past three decades the Ohio Environmental Protection Agency 
has repeatedly reported to Congress, in their Clean Water Act section 
305(b) and section 314 documents, that the condition of Ohio's public 
lakes is being negatively impacted by nuisance growths of aquatic 
weeds, many of which are exotic species not native to the State. In 
1996, the last year such data are available, the Ohio EPA reported in 
their Ohio Water Resource Inventory that recreation opportunities in 32 
percent of 222 accessed public lakes in Ohio were threatened by 
nuisance growths of aquatic weeds. These data indicate that there 
exists a significant and widespread problem with aquatic weeds 
currently not addressed by Clean Water Act regulations passed by 
Congress in 1972.
    Public lakes in Ohio are used by millions of citizens each year for 
recreation, thus the impact of excessive growths of aquatic weeds on 
recreational opportunities is significant. The Ohio Department of 
Natural Resources, in their 2008 Statewide Comprehensive Outdoor 
Recreation Plan, reported that 33 percent of households representing 
11+ million Ohio citizens enjoy recreational boating, an activity that 
demands proper control and management of aquatic weeds.
    The extensive problems with aquatic weeds that are being faced in 
Ohio are expected to be present in lakes nationwide, thus impacting 
recreation for millions of Americans who enjoy boating, fishing, and 
swimming. Given this situation, it is inappropriate that Congress would 
eliminate funding for the Army Corps Aquatic Weed Research program, 
which provides useful scientific information that affects so many 
citizens of the Nation, for so few per capita dollars spent.
    It is imperative that the United States Senate continue to fund the 
APCRP program so that scientific research from multiple perspectives 
(chemical, biological, mechanical) is conducted to determine the most 
cost effective ways to control the multitude of aquatic weed species, 
many exotic species, that now overpopulate the Nation's recreational 
lakes. The information gained from Army Corps research is important to 
those that manage lake water quality to help them select the best 
aquatic weed control option for their specific lake situation. The data 
from the APCRP program are not only of value to State and local 
government agencies that manage public lakes, but also to the 
nationwide network of consulting firms that provide lake management 
services to citizens that own private lakes, many of which have 
problems with too many aquatic weeds.
    In conclusion, on behalf of the millions of citizens in Ohio that 
enjoy recreational activities on lakes and reservoirs, I urge you to 
support continued and expanded funding for the APCRP program to conduct 
research on the control of aquatic weeds at a minimum level of $4 
million per year. This action by the United States Senate will help 
ensure that the Army Corps of Engineers will continue to provide vital 
scientific data to those that manage and control nuisance growths of 
plants in our Nation's waterways.
                                 ______
                                 
   Prepared Statement of the Moss Landing Harbor District, California
    Mr. Chairman and members of the subcommittee, Thank you for the 
opportunity for me, Linda McIntyre, as harbormaster and general manager 
of the Moss Landing Harbor District in California to submit prepared 
remarks to you for the record in support of the fiscal year 2012 Energy 
and Water regular appropriations measure. I appear on behalf of the 
board of harbor commissioners, the fishermen, oceanographers and 
scientists, and the citizens and marine dependent businesses of the 
Monterey community which we represent.
    We respectively request an additional $3.2 million U.S. Army Corps 
of Engineers Operations and Maintenance General Account for scheduled 
authorized Federal channel maintenance as unanimously recommended by 
the California Marine Affairs and Navigation Conference [CMANC].
    The board of harbor commissioners recognizes and expresses its 
gratitude to the Honorable Diane Feinstein, a member of this 
subcommittee, and the Honorable Barbara Boxer, Chair of the Committee 
on Public Works and Transportation, and the other members of this 
subcommittee and staff, for their past efforts in funding operations 
and maintenance of the Moss Landing Harbor Navigation Project for over 
60 years. This authorized project is of significant national economic 
benefit and critical economic importance to the commercial fishing 
industry, university and private oceanographic research fleet, and 
Monterey County in the central coast region of the State of California.
    We are equally grateful to the chairman and the other members of 
this subcommittee and staff, for their continuing efforts in funding 
critically needed operations and maintenance funding of all our 
Nation's ports both large and small without discrimination.
    Moss Landing Harbor is perhaps best known as the gateway to the 
unique Monterey Bay with its Submarine Canyon and National Marine 
Sanctuary and the homeport for its oceanographic research tenants, 
including California State University Marine Consortium, Stanford 
University Hopkins Marine Institute (well known to John Steinbeck fans 
of Cannery Row) and the Monterey Bay Aquarium Research Institute 
[MBARI] an affiliate of the Monterey Bay Aquarium--America's most 
visited cultural and educational site.
    Without continued maintenance dredging of the Federal channel at 
roughly 3 year intervals, none of these scientific, educational, 
environmental research, and vital commercial fishing activities could 
continue uninterrupted. The year 2012 represents the next required 
scheduled triennial dredging event. For this purpose we are requesting 
the addition of $3.2 million to the President's budget. We are advised 
the U.S. Army Corps of Engineers San Francisco District has the 
capability to execute this maintenance dredging cycle.
    For those who are unfamiliar with the geography of Monterey Bay and 
surrounding region, we invite you to come visit. Moss Landing is 
strategically situated approximately mid-point between Santa Cruz and 
Monterey Harbors on Monterey Bay. It shares a common entrance with 
Elkhorn Slough, a critical estuary of national significance.
    Construction of the project for navigation, Moss Landing, Monterey 
Bay, California was authorized in the Rivers and Harbors Act of March 
2, 1945 at an authorized depth of 15 feet. The congressional findings 
reflected the national security and post-war economic development 
interest in maintaining and increasing commercial fish production. In 
the lexicon of national economic development. The same is true today.
    In order to help harmonize the authorization and appropriations 
processes in the future and introduce an a element of long term 
planning and budgeting stability at the Corps district level, we are 
seeking completion of a long term dredged material management plan that 
would benefit both us and the Federal Government, and save everyone, 
especially the beleaguered U.S. taxpayer, money.
    That plan would also continue our use of several grandfathered 
dredged material disposal sites as the same land and seaward geographic 
factors that make us an indispensable element of the Monterey Bay 
ecosystem also limit our options for disposal with few if any landside 
alternatives.
    In the final analysis we are just a small harbor with a big problem 
not of our creation in search of a comprehensive solution. The first 
step is funding the long overdue maintenance. We cannot wait another 
year.
    We look forward to appearing before this subcommittee on future 
occasions to provide progress reports concerning our uphill and 
upstream efforts to both preserve navigation and improve the 
environment in Moss Landing Harbor, California.
    I am prepared to supplement my prepared remarks for the record in 
response to any questions that the Chair, subcommittee members, or 
staff may wish to have me answer.
    Thank You Mr. Chairman and members of the subcommittee. This 
concludes my prepared remarks.
                                 ______
                                 
               Prepared Statement of EnviroScience, Inc.
    To the Honorable Members of the Senate Subcommittee on Energy and 
Water Development: I am writing in support of continued, and indeed, 
expanded appropriations for the Corps of Engineers Aquatic Plant 
Control and Research Program [APCRP]. My company EnviroScience, Inc. is 
a small environmental consulting firm engaged in the practical control 
of aquatic invasive plant species throughout the United States. For 
more than a decade, EnviroScience, its clients and the entire aquatic 
plant industry has benefitted from the research and technology transfer 
functions carried out by this Corps of Engineers program.
    Although I understand you are faced with complex and difficult 
decisions with regard to our Nation's budget, continued funding of this 
program and the research activities of the APCRP is critical to the 
fight against aquatic invasive species which I believe is one of the 
most important environmental issues our country faces over the next 
several decades. I see first-hand the tremendous impact these aquatic 
invasive plants have on recreational, public health and property 
values. Every day I deal with lake communities whose property has been 
devalued by aquatic invasive plants like Eurasian watermilfoil, an 
invasive nuisance species that now infests countless thousands of 
waterbodies in every continental State.
    Exotic invasive aquatic plants like water chestnut, Eurasian 
watermilfoil, and hydrilla, are continuing to expand their ranges 
virtually unchecked. There is a critical need for more and better 
information on these species and appropriate control methods. In my 
opinion, the APCRP has been the best single source of this information 
over the years. APCRP also plays a critically important role in 
researching basic ecology, biological control and native plant 
restoration. Unlike herbicide research, these are research areas that 
won't be supported by private industry, but are nonetheless very 
important in the ongoing struggle to understand and control these 
species.
    In all honesty, we haven't done a very good job of keeping these 
species out of our Nation's waterways, nor are State or Federal 
agencies able to fund the actual control of these species. At the very 
least, I believe the Federal Government should be a repository for 
current information on these invasive pests, and continue to sponsor 
and conduct research into environmentally sound control methods.
    In conclusion, I urge you to support funding for the APCRP program 
at a minimum level of $4 million per year and thereby help ensure that 
the Corps of Engineers remains a frontline defense in our Nation's 
fight against these unwanted invaders.
                                 ______
                                 
 Prepared Statement of the Mississippi Valley Flood Control Association
    The Mississippi Valley Flood Control Association respectfully 
requests that the sum of $335 million be appropriated in fiscal year 
2012 for the Mississippi River and Tributaries Project.
    The Flood Control Association was first organized in 1922 by a 
group of interested citizens from the States of Arkansas, Mississippi 
and Louisiana. From that first meeting, held in Memphis, Tennessee, a 
delegation was selected to come to Washington in an attempt to convince 
both the Congress and the executive branch that the prevention of 
catastrophic floods in the lower Mississippi River valley was beyond 
the capabilities of the local people and was in fact too large for any 
group other than the Federal Government. This group of dedicated 
citizens was without success until the record flooding of 1927 swept 
through the Mississippi River valley with a fury of devastation not 
seen before. An unknown number of people perished, along with thousands 
of head of livestock and large numbers of many species of wildlife. 
Some 7 percent of all the productive land on this planet was under 
water for a period of almost one-half year. The Congress, after 
extensive hearings, passed the Flood Control Act of May 15, 1928, which 
was then signed into law by President Calvin Coolidge.
    The Flood Control Association then disbanded, acting under the 
erroneous assumption that the United States Government would provide 
whatever was needed to prevent flooding in the valley. In 1935 it 
became apparent that additional legislation was required and the 
Association, under the leadership of Senator John Overton from 
Louisiana, was reorganized. It has been in continuous and active 
existence since, some 76 years.
    We have been fortunate since 1935 to have as our President and two 
Vice Presidents Members of the United States Congress with Congressman 
Mike Ross from the State of Arkansas serving as our President and 
Senator Roger Wicker from Mississippi and Congressman Blaine 
Luetkemeyer from Missouri serving as our Vice Presidents.
    We are a non-profit agency made up of levee boards, drainage 
districts, harbor and port commissions, States, cities and towns, 
including many other agencies and individuals that have an interest in 
the protection and betterment of the people and property in the 
Mississippi River Watershed, the third largest in the world. But we 
feel it is the greatest, because of its size coupled with its essential 
usefulness to the well-being of our Nation. In a few words we are an 
agency through which the local people may speak and act jointly on all 
flood control, bank stabilization, navigation and major drainage 
problems.
    Never before have we seen our Nation faced with such huge public 
debts and budget deficits and we do today. In our daily life we are 
made aware of the gut-wrenching sadness of seeing homes foreclosed and 
jobs disappear. We know all those things but we also know that the 
country that is and has been for generations the bright light of 
freedom and prosperity, must not and cannot let its infrastructure 
deteriorate and fall into ruin; neither can we allow one of our vital 
forms of transportation to become underutilized or useless due to the 
lack of proper and necessary maintenance.
    Unfortunately today, as usual, you are considering a budget request 
from the executive department that has insufficient funding to prevent 
either of the cases just outlined. The only recourse we have is to 
request the Congress do as you have always done, add the necessary 
supplemental funds to protect the lives, property and livelihoods of 
the citizens of this great river basin.
    Earlier in this statement it was said that the Mississippi River 
Watershed that provides drainage for 41 percent of the Nation, moves 
almost 1 billion tons of commodities--60 percent of our grain, 25 
percent of our petroleum products, 20 percent of the coal to fire our 
power plants, was the greatest watershed on the planet because of its 
size coupled with its usefulness. Useful because the river has been 
controlled and improved beginning with the first levee for flood 
protection built in New Orleans, Louisiana, in 1717. Levees came early 
because ``without flood control, nothing else matters.'' Over the years 
the Congress, the Corps of Engineers and the local people have worked 
together to make the Mississippi River Watershed, stretching from New 
York in the east to Montana in the west and from the Canadian border to 
the Gulf of Mexico, the greatest and the envy of the developed world.
    Our great country has always been a maritime nation, almost totally 
dependent during the earliest years on the oceans and unimproved 
waterways to move our commerce including, at that time in history, our 
people. Westward expansion used the rivers whenever possible, and many 
of the earliest construction projects in the new country were the 
building of canals connecting commercial waterways. Our national 
security and economic well-being has always, now more than ever, 
depended on the seas, lakes and inland waterways that give us 
accessibility to every corner of our great Nation.
    All improvements, great or small, sooner or later require 
maintenance. We have been too lax in this great country with 
maintaining and improving our basic forms of transportation. We have 
not built new airports to keep up with the demand of our growing 
population nor have we improved and properly maintained those that we 
have. Our system of railroads is in such bad shape that we no longer 
even attempt to move human cargo by train except for a very few small, 
densely populated areas of the country. The interstate highway system 
that we constructed over 50 years ago was a great source of pride, but 
we failed again to properly maintain it, and now we are paying a 
tremendous price to keep it functioning. A great majority of our 
waterway improvements, including our locks and dams and flood control 
facilities, are well past their design life. Soon we will find 
ourselves in emergency mode, repairing and replacing failures. This 
will be very expensive and an economic disaster. Farmers will be 
especially hard hit, with no efficient and economical way to transport 
their crops to international markets.
    Our principal, but certainly not our only concern, is with the 
funding of the Mississippi River and Tributaries Project. This is a 
very unique project that was conceived and developed with consideration 
for the functional relation between all its parts and the whole. It is 
a project that covers all aspects of development in the Mississippi 
River valley below the vicinity of Cape Girardeau, Missouri, from flood 
control to navigation to environmental protection and enhancement. The 
Mississippi River and Tributaries Project was well-planned, well-
organized, well-engineered, well-constructed and, until recently, well-
maintained. Unfortunately it is not yet completed, and adequate funding 
from the Congress is imperative if it is to be completed and properly 
maintained. If, because of inadequate funding and uncalled for delays 
due to countless and repetitive studies and misguided lawsuits by the 
misnamed and misled environmentalists, the lower reaches of the 
Mississippi River are not usable by commercial boats and barges and 
sea-going ships, then no amount of improvement on the upper reaches of 
the Mississippi River can have any favorable effect. ``Without flood 
control nothing else matters.''
    One of the major opportunities that we have to increase the wealth 
of our Nation is to continue the improvement and development of our 
major river systems. As noted, the major system is the Mississippi 
River Watershed. For that reason we are here today to request that the 
Congress do what it has done since 1928. That is, to appropriate 
sufficient supplemental funds, allowing the Corps of Engineers to 
continue what the Congress has directed them to do. We are not talking 
about ``earmarks'' or pork barrel politics. We are talking about funds 
to keep our navigation channels open and to provide necessary dredging 
in order that our smaller but no less critical ports may continue to 
function; funds to continue the ongoing work to bring miles of levee 
sections that are deficient in either grade or section up to the design 
required to protect our citizens against the ``greatest possible 
flood''; and funds to bring our bank stabilization program to 
completion in the most efficient manner, both economically and 
environmentally.
    The Executive Committee of the Mississippi Valley Flood Control 
Association has carefully studied the President's budget request for 
fiscal year 2012. We have arrived at the unanimous conclusion that the 
required appropriation for the Mississippi River and Tributaries 
Project is $335 million, just to be reasonably assured that the goals 
of navigation, flood control, levee improvement and bank stabilization 
are met; nothing more, nothing less.
    In a special message to Congress on flood control in the 
Mississippi Basin, dated July 16, 1947, President Harry S. Truman began 
with the following in his opening sentence, ``the major opportunity of 
our generation to increase the wealth of the Nation lies in the 
development of our great river systems.'' Later on in his message 
President Truman used these words, ``we must never forget that the 
conservation of our natural resources and their wise use are essential 
to our very existence as a Nation. The choice is ours. We can sit idly 
by--or almost as bad, resort to the false economy of feeble and 
inadequate measures--while these precious assets waste away. On the 
other hand, we can, if we act in time, put into effect a realistic and 
practical plan which will preserve these basic essentials of our 
national economy and make this a better and a richer land.'' Mr. Truman 
was speaking about the Mississippi River and Tributaries Project in 
this last quote. And these words are still true today. On July 31, 
1947, President Truman approved appropriations bills, including 
supplemental provisions for flood control on the Mississippi River and 
Tributaries Project in fiscal year 1948 of $250 million. And that was 
in 1948 dollars!
    We have attached a detailed breakdown of the requested funds of 
$355 million for the Mississippi River and Tributaries Project for 
fiscal year 2012.

   MISSISSIPPI VALLEY FLOOD CONTROL ASSOCIATION FISCAL YEAR 2012 CIVIL
 WORKS REQUESTED BUDGET MISSISSIPPI RIVER AND TRIBUTARIES APPROPRIATONS
                        [In millions of dollars]
------------------------------------------------------------------------
                                                            Fiscal Year
                      Project/Study                        2012 Request
                                                           $335 million
------------------------------------------------------------------------

                   MR&T INVESTIGATIONS

Collection & Study of Basic Data........................             500
Memphis Metro Storm Water Management, TN (FEAS).........             100
                                                         ---------------
      TOTAL INVESTIGATIONS..............................             600
                                                         ===============
                    MR&T CONSTRUCTION

Atchafalaya Basin, LA...................................           6,300
Atchafalaya Basin Floodway System, LA...................           1,900
Channel Improvement, AR, IL, KY, LA, MS, MO & TN........         111,570
Mississippi River Levees, AR, IL, KY, LA, MS, MO & TN...          58,980
Yazoo Basin, Upper Yazoo Projects.......................           5,000
                                                         ---------------
      TOTAL CONSTRUCTION................................         183,750
                                                         ===============
                    MR&T MAINTENANCE

Atchafalaya Basin, LA...................................           1,468
Atchafalaya Basin Floodway System, LA...................              42
Baton Rouge Harbor, Devils Swamp, LA....................              48
Bayou Cocodrie & Tributaries, LA........................           2,145
Bonnet Carre, LA........................................          61,230
Channel Improvement, AR, IL, KY, LA, MS, MO & TN--TOT...          32,032
Channel Improvement--Dredging...........................          21,141
Channel Improvement--Revetments & Dikes.................          48,398
Greenville Harbor, MS...................................              18
Helena Harbor, AR.......................................             122
Inspection of Completed Works...........................           1,350
Lower Arkansas River, North Bank, AR....................             223
Lower Arkansas River, South Bank, AR....................             150
Lower Red River--South Bank Levees......................             377
Mapping.................................................           1,202
Memphis Harbor McKellar Lake, TN........................           1,394
Mississippi Delta Region--Caernarvon, LA................             438
Mississippi River Levees, AR, IL, KY, LA, MS, MO & TN...           7,951
Old River Control Structure, LA.........................           6,954
Red-Ouachita Basin Levees, AR & LA......................  ..............
St. Francis River & Tributaries, AR & O.................           4,174
Tensas Basin, Boeuf & Tensas Rivers, AR & LA............           1,884
Tensas Basin, Red River Backwater, LA...................           2,473
Vicksburg Harbor, MS....................................              32
Wappapello Lake, MO.....................................           4,167
White River Backwater, AR...............................             896
Yazoo Basin, Arkabutla Lake, MS.........................           4,606
Yazoo Basin, Big Sunflower (Bogue Phalia), MS...........             185
Yazoo Basin, Enid Lake, MS..............................           4,386
Yazoo Basin, Greenwood, MS..............................             807
Yazoo Basin, Grenada Lake, MOS..........................           4,511
Yazoo Basin, Main Stem, MO..............................           1,019
Yazoo Basin, Sardis Lake, MS............................           5,687
Yazoo Basin, Tributaries, MS............................             967
Yazoo Basin, Will M. Whittington Auxiliary Channel, MS..             378
Yazoo Basin, Yazoo Backwater, MS........................             517
Yazoo Basin, Yazoo City, MS.............................             731
                                                         ---------------
      TOTAL MAINTENANCE.................................         150,650
                                                         ===============
      TOTAL MR&T........................................         335,000
------------------------------------------------------------------------

                                 ______
                                 
        Prepared Statement of the Izaak Walton League of America
    The Izaak Walton League of America appreciates the opportunity to 
submit testimony concerning appropriations for fiscal year 2012 for 
programs under the jurisdiction of the subcommittee. The League is a 
national, nonprofit organization founded in 1922. We have approximately 
38,000 members and more than 250 local chapters nationwide. Our members 
are committed to advancing common sense policies that safeguard 
wildlife and habitat, support community-based conservation, and address 
pressing environmental issues. The following pertains to programs 
administered by the U.S. Army Corps of Engineers.
     corps of engineers, operations and maintenance, missouri river
    The League joins the Missouri River Association of States and 
Tribes (MoRAST), among other groups, in urging the subcommittee to 
appropriate $72.89 million in fiscal year 2012, as requested by the 
President, for the Missouri River Recovery Program. With this funding, 
the Army Corps of Engineers, U.S. Fish and Wildlife Service [FWS], 
States, and other partners can continue important ecosystem restoration 
efforts that are producing long-term ecological and economic benefits.
    The Missouri River basin encompasses land in 10 States covering 
one-sixth of the continental United States. The Missouri, America's 
longest river, is one of the most altered ecosystems on earth. Although 
recovery and restoration efforts are ongoing, much more needs to be 
done. League members, especially those in Iowa, Nebraska, and South 
Dakota, want to see the recovery efforts continue and expand.
    The Corps, FWS, and many State agencies have been working to 
restore habitat for fish and wildlife along the river. This work is 
critical for the Interior Least Tern and Pallid Sturgeon, listed as 
endangered, and the Piping Plover, listed as threatened, under the 
Endangered Species Act. The restoration efforts also benefit many other 
species of fish and wildlife throughout the region.
    Studies conducted by the FWS show that over twice as many fish 
species are utilizing the created shallow water habitat [SWH] areas 
compared with the section of the river with a dredged channel. A Corps' 
study also shows that the emergent sandbar habitat [ESH] projects have 
had tremendous response from nesting terns and plovers. These habitat 
restoration projects are working with the river--not against it.
    These projects also generate additional economic activity in 
communities along the river. Anglers, hunters, boaters, birdwatchers, 
and others have been using these areas proving the old adage ``if you 
build it, they will come.'' In a recent report, the Missouri Department 
of Conservation and the Nebraska Game and Parks Commission found 
recreational spending provides $68 million in annual economic impact to 
communities along the Missouri River from Yankton, South Dakota to St. 
Louis, Missouri. A South Dakota Game, Fish, and Parks study shows that 
recreational benefits from angling on the Missouri River account for 
over $107 million in annual economic activity in the Dakotas and 
Montana. These projects are bringing more people to the river 
throughout the Missouri basin.
    In addition to the economic boost from tourism, restoration 
projects, including building sandbars, support job creation throughout 
the entire region. To perform this work, the Corps contracts with local 
construction companies, creating or maintaining jobs, and injecting 
dollars into local economies through purchases of materials, fuel, food 
and lodging. With the funding requested, the Corps could readily 
implement more of these important economic and river restoration 
projects.
    Missouri River Authorized Purposes Study.--The League also urges 
the subcommittee to continue to provide $5 million for the Missouri 
River Authorized Purposes Study [MRAPS], and to oppose extraneous 
policy ``riders'' that would curtail or cancel this critical 
assessment. The MRAPS will, for the first time, review the eight 
authorized Missouri River project purposes established by the Flood 
Control Act [FCA] of 1944. This study will analyze the purposes in 
terms of what is best for the American taxpayer, the people within the 
entire basin, fish and wildlife, and today's economic values and 
priorities, rather than those of nearly 70 years ago.
    The Corps is working collaboratively with tribes, Federal and State 
agencies, and other stakeholders within the Missouri River Basin and 
along the Mississippi River on this historic study--this has never 
happened before.
    The eight authorized purposes--flood control, hydropower, 
recreation, fish and wildlife, irrigation, water supply, water quality, 
and navigation--have not been reviewed since Congress passed the FCA in 
1944. In essence, the Missouri is operating on a 67-year-old business 
plan. This review is urgently needed and long overdue for the American 
taxpayer.
    The Missouri River basin is very different today than what was 
envisioned in 1944. Some of the authorized purposes meet or greatly 
surpass expectations from decades ago. Currently, recreational uses of 
the river dramatically exceed original expectations while other 
purposes, particularly navigation, have fallen far short. In spite of 
these changes, river management mostly favors navigation. This outdated 
and unbalanced approach is especially in need of review when one 
considers that navigation is being maintained largely to accommodate 
one commodity. According to the General Accounting Office [GAO], sand 
and gravel accounted for 84 percent of total tonnage shipped by barge 
on the Missouri between 1994 and 2006. Moreover, the GAO found that 54 
percent of all sand and gravel was transported for 1 mile or less. 
Today, in part because the purposes in the 1944 Flood Control Act have 
not been modernized, the river is being managed to move sand less than 
a mile rather than for more diverse and beneficial purposes.
    Continued full funding of MRAPS is a smart investment. A 
comprehensive review and accompanying changes will streamline future 
Corps operational expenses. This will save tax dollars and bring 
Missouri River management into the 21st century.
corps of engineers, operations and maintenance, upper mississippi river
    The League is an active and long-time proponent of restoring the 
Upper Mississippi River [UMR] ecosystem. We have supported the 
Environmental Management Program [EMP] since its inception and continue 
to support this vital restoration program. We urge the subcommittee to 
provide $33.2 million for EMP in fiscal year 2012 as authorized by the 
Water Resources Development Act [WRDA]. Although we are encouraged by 
the President's request for fiscal year 2012, pressing restoration 
needs on-the-ground require at least the full amount authorized for 
EMP.
    The League has also strongly expressed its opinion that the large-
scale navigation modifications included in the Recommended Plan for the 
Upper Mississippi Navigation and Ecosystem Sustainability Program 
[NESP], as authorized by the Water Resources Development Act of 2007, 
have not been justified by the Corps and should not be pursued. 
Previous reviews by the National Academy of Sciences and the Assistant 
Secretary of the Army, Civil Works found that the navigation 
construction component of NESP was not economically justifiable. A 
report released last year by the Nicollet Island Coalition, of which 
the League is a member, provides additional evidence that proposed 
locks and dams in this region are not a good investment for American 
taxpayers. With this in mind, the League supports the administration's 
decision not to request funding for NESP in fiscal year 2012.
    The League has strong roots in the Upper Mississippi River region. 
Protecting the basin has been a key issue for our members since we led 
the fight to create the Upper Mississippi River Fish and Wildlife 
Refuge in 1924. The League has spearheaded efforts to reform the lock 
and dam navigation system to ensure that flows and habitat remain as 
natural as possible. We also work to promote sustainable agriculture 
practices and implement farm conservation programs to reduce polluted 
runoff. Our testimony reflects many decades of experience on the Upper 
Mississippi River and our direct 15-year involvement with the Upper 
Mississippi River--Illinois Waterway [UMR-IWW] navigation study.
    The Upper Mississippi River is one of the most complex ecosystems 
on Earth. It provides habitat for 50 species of mammals, 45 species of 
reptiles and amphibians, 37 species of mussels, and 241 species of 
fish. The need for ecosystem restoration is unquestionable. As the 
Corps correctly stated in its study of navigation expansion, this 
ecosystem is ``significantly altered, is currently degraded, and is 
expected to get worse.'' Researchers from the National Academy of 
Sciences have determined that river habitat is disappearing faster than 
it can be replaced through existing programs such as EMP, which was 
authorized at $33.2 million annually by Congress in 1999, but has never 
received full appropriations. As habitat vanishes, scientists warn that 
many species will decline and some will disappear.
    Our Nation relies on a healthy Mississippi River for commerce, 
recreation, drinking water, food, and power. More than 12 million 
people annually recreate on and along the Upper Mississippi River 
spending $1.2 billion and supporting 18,000 jobs. More people recreate 
on the Upper Mississippi than visit Yellowstone National Park. Notably, 
barge traffic has remained static on the river for more than two 
decades with real declines in recent years.
    In assembling the UMR-IWW navigation study, the Corps recognized 
the critical need for ecosystem restoration and encouraged Congress to 
invest approximately $130 million annually in Upper Mississippi River 
habitat restoration efforts. With this demonstrated need in mind, the 
League strongly encourages the subcommittee to prioritize investment in 
ecosystem restoration by appropriating $33.2 million for the 
Environmental Management Program in fiscal year 2012. Appropriating 
additional funding for restoration will support economic development 
and job creation in communities along the UMR and provide long-term 
conservation and economic benefits for the region and the Nation.
    We appreciate the opportunity to submit this testimony and look 
forward to working with the subcommittee to strengthen the investment 
in ecosystem restoration and recovery along the Upper Mississippi and 
Missouri Rivers.
                                 ______
                                 
Prepared Statement of the Board of Commissioners, Fifth Louisiana Levee 
                                District
    The Board of Commissioners for the Fifth Louisiana Levee District 
respectfully requests that construction funding for Mississippi River 
Levees be increased from the $24,180,000 contained in the proposed 
budget for fiscal year 2012, to the U.S. Army Corp of Engineers' 
capability of $59,980,000.
    Reduced funding, combined with the inability to let construction 
contracts under a continuing contract clause, has left thousands of 
people in Louisiana vulnerable to the adverse effects of a deficient 
levee system. Construction of levee enlargements is essential if the 
levee is to contain the ``Project Flood'' which is estimated to be 20 
percent greater than the record Flood of 1927.
    The effect of fully funded contracts for levee construction, now 
required under Public Law 109-103, (sec. 106 and 108), adopted by the 
109th Congress in 2005, as opposed to the previous system of continuing 
contract clauses, has virtually halted enlargement of the Mississippi 
River Levee System in Louisiana. Year after year, as the cost of 
projects and maintenance has increased, funding for levee systems and 
flood control has been reduced. The current proposed budget is no 
exception, with only $210 million allocated for the entire Mississippi 
River and Tributaries [MR&T] project. We request that be increased to 
the Corp's capabilities of $335 million.
    Since the Mississippi River and Tributaries project was 
established, less than $11 billion has been invested. This investment 
provides benefits far beyond their actual cost to the taxpayer by 
offering protection to the 4 million citizens, 1.5 million homes, 
33,000 farms, and countless vital transportation routes from 
destructive floods.
    With the help of Congress, great progress has been made in the 
Mississippi River Valley over the years, but there is still much to be 
done, and because of that, we urge Congress to increase funding to the 
Corp of Engineers in fiscal year 2012, to insure that the Corp is not 
forced to halt or delay contracts for levee construction essential to 
the well being of this Nation. It is vital that the MR&T project(s) be 
completed at the earliest possible date. This can only be accomplished 
through adequate funding and repeal of the mandate for contracts to be 
fully funded prior to the beginning of construction.
                                 ______
                                 
   Prepared Statement of the Board of Mississippi Levee Commissioners
    Mr. Chairman and members of the subcommittee: This statement is 
prepared by Peter Nimrod, Chief Engineer for the Board of Mississippi 
Levee Commissioners, Greenville, Mississippi, and submitted on behalf 
of the Board and the citizens of the Mississippi Levee District. The 
Board of Mississippi Levee Commissioners is comprised of seven elected 
commissioners representing the counties of Bolivar, Issaquena, Sharkey, 
Washington, and parts of Humphreys and Warren counties in the Lower 
Yazoo Basin in Mississippi. The Board of Mississippi Levee 
Commissioners is charged with the responsibility of providing 
protection to the Mississippi Delta from flooding of the Mississippi 
River and maintaining major drainage outlets for removing the flood 
waters from the area. These responsibilities are carried out by 
providing the local sponsor requirements for the Congressionally 
authorized projects in the Mississippi Levee District. The Mississippi 
Levee Board and the Mississippi Valley Flood Control Association 
support an appropriation of $335 million for fiscal year 2012 for the 
Mississippi River & Tributaries Project. This is the minimum amount 
that we consider necessary to allow for an orderly completion of the 
remaining work in the Valley and to provide for the operation and 
maintenance, as required, to prevent further deterioration of the 
completed flood control and navigation work.
    It is apparent that the administration loses sight of the fact that 
the Mississippi River and Tributaries Project provides protection to 
the Lower Mississippi Valley from waters generated across 41 percent of 
the Continental United States. These waters flow from 31 States and 2 
provinces of Canada and must pass through the Lower Mississippi Valley 
on its way to the Gulf of Mexico. We will remind you that the 
Mississippi River and Tributaries Project is one of, if not the most 
cost effective project ever undertaken by the United States Government. 
The foresight of the Congress in their authorization of the many 
features of this project is exemplary.
    The many projects that are part of the Mississippi River and 
Tributaries Project not only provide protection from flooding in the 
area, but the award of construction contracts throughout the Valley 
provides assistance to the overall economy of this area. The employment 
of the local workforce and purchases from local vendors by the 
contractors help stabilize the economy in one of the most impoverished 
areas of our country.
    We are concerned about the ``earmark moratorium'' that Congress has 
adopted for the next 2 years. Basically Congress has essentially given 
up their right to appropriate money. They have relinquished this right 
to the Office of Management and Budget [OMB]. OMB always provides a 
budget that undercuts our projects in the MR&T Project because they 
know that Congress will provide ``congressional adds.'' Unfortunately 
people think that the ``congressional adds'' for the MR&T Project are 
``earmarks.'' ``Earmarks'' account for less than 1 percent of the 
entire Federal budget, but it is these ``earmarks'' that provide money 
for much needed and essential projects and provide jobs for the 
economy. The Stimulus money spent the past 2 years created jobs, built 
projects and stimulated the economy. This ban on ``earmarks'' will 
cause many projects to be stopped, jobs will be lost and the economy 
will fall right back into a recession. Congress needs to define what an 
``earmark'' is and they need to be able to do ``congressional adds'' 
for our projects.
    Thanks to the additional funding provided by the Congress over the 
last several years over and above the administration's budget, work on 
the Mainline Mississippi River Levee Enlargement Project is continuing. 
Of the original 69 miles of deficient levees in the Mississippi Levee 
District, 32.0 miles of work have been completed and 8.1 miles are 
currently under contract. We are requesting $77.73 million for 
construction on the Mainline Mississippi River Levees in the Lower 
Mississippi Valley Division which will allow the Vicksburg and Memphis 
districts to keep existing contracts on schedule and award contracts to 
avoid any future unnecessary delays in completing this vital project. 
We are all well aware that the Valley some day will have to endure a 
Project Flood, we just don't know when. We must be prepared.
    The President's fiscal year 2011 budget did not include funding for 
any construction projects within the Yazoo Basin. This action is 
especially difficult to understand during a time when our Nation needs 
an economic boost. These are all projects authorized and funded so 
wisely by the Congress. All of these projects are encompassed in the 
footprint of the Delta Regional Authority, an area recognized by the 
Congress as requiring special economic assistance to keep pace with the 
rest of our great Nation. We cannot lose sight of the fact that all of 
these projects are required to return more than a dollar in benefits 
for each dollar spent.
    The recommended plan for the Yazoo Backwater Project includes a 
pump that will lower the 100-year flood event by 4.5 feet thereby 
reducing urban and rural structural damages, providing benefits to the 
remaining agricultural lands, and reducing the frequency and duration 
of floods. The plan also includes reforestation easements to be 
purchased on up to 55,600 of existing agricultural land which will 
provide benefits in every environmental category--wetlands, 
terrestrial, aquatics, and waterfowl resources as well as vastly 
improving water quality. This is a model project that should be the 
standard for future public works projects in the United States. On 
August 31, 2008, the Environmental Protection Agency [EPA] wrongly used 
it's authority under section 404(c) of the Clean Water Act [CWA] to 
veto the Yazoo Backwater Project even though it is exempt by section 
404(r) of the CWA. The Mississippi Levee Board is currently engaged in 
a lawsuit against EPA asking the Federal Court to determine if this 
project is indeed exempt from an EPA 404(c) veto by the exemption in 
section 404(r) of the CWA. The administration has ordered the 
cancellation of $57 million in reserves for the Yazoo Backwater 
Project. If we lose this money, we will have to start from scratch with 
the appropriations cycle. Please do everything you can to keep the $57 
million for the Yazoo Backwater Project and prevent this cancellation 
from happening. These funds will allow the Corps to begin acquisition 
of the reforestation easements and initiate the award of the pump 
supply contract. These funds were appropriated to solve flooding in the 
South Mississippi Delta, therefore, they should be used to alleviate 
flooding in the Mississippi South Delta!
    We are requesting $4.575 million for the Yazoo Backwater less Rocky 
Bayou Project. This money will be used to start the Environmental 
Impact Statement for the Yazoo Backwater Levee Enlargement Project. 
This levee is designed to overtop during a project design flood, but it 
needs to be raised 7 feet to get to the required elevation. Today this 
levee will overtop if we get a flood on the Mississippi River greater 
than the 100-year event.
    Work on the Big Sunflower (Upper Steele Bayou) Project has proved 
to be very beneficial. The Steele Bayou Sedimentation Reduction Project 
has installed drop-pipe structures at headcut locations all along 
Steele Bayou. These control structures stop the movement of sediment 
into Steele Bayou. Sediment is bad for flood control and water quality. 
We are requesting $2.5 million to keep this project moving forward.
    Work on the Delta Headwaters Project has proven effective in 
reducing sediments to downstream channels. To discontinue this project 
will only diminish water quality by increasing sediment, reducing the 
level of flood protection to the citizens of the Delta and increasing 
required maintenance. We are requesting $23.2 million to continue this 
project.
    Maintenance of completed works cannot be overlooked. The four flood 
control reservoirs overlooking the Delta have been in place for 50 
years and have functioned as designed. Required maintenance must be 
performed to avoid any possibility of failure during a flood event. We 
are asking for $6.841 million for Arkabutla Lake, $7.174 million for 
Enid Lake, $8.051 million for Grenada Lake, and $12.693 million for 
Sardis Lake.
    We are requesting $15.781 million for Maintenance of the Mainline 
Mississippi River Levees in the Lower Mississippi Valley Division which 
will provide for repair of levee slides, slope repair, and repair of 
the gravel maintenance roadway which is so vital to access during high 
water.
    The Mississippi River and our Ports and Harbors need money for 
maintenance dredging. The Mississippi River carries tons of sediment 
every second. This sediment falls out in slack water areas such as 
entrances to our Ports and Harbors. The Greenville Port needs $1 
million and the Vicksburg Port needs $750,000 to perform annual 
maintenance dredging. This dredging is vital to keep these ports open 
during the low-water season when much of the farm harvest is ready to 
be transported.
    We are requesting $3.03 million for the Lower Mississippi Valley 
Division for Collection of Basic Data under General Investigations. 
This money is used to monitor and collect water quality samples at 
gaging stations located throughout the Mississippi Delta. With the 
emphasis on water quality, water quantity and Total Maximum Daily Loads 
[TMDLs], we must be able to continue to collect good data on water 
quality so we can get a baseline established to be able to monitor and 
improve water quality in the Mississippi Delta. Improvements in water 
quality in the Mississippi Delta will translate into improved water 
quality in the Gulf of Mexico and help the gulf hypoxia issue.
    The Environmental Protection Agency [EPA] has been given too much 
power under section 404(c) of the Clean Water Act [CWA] which allows 
EPA to veto Congressionally authorized projects. During the early 
1990s, due to abuse of the 404(c) power by EPA, Congress considered 
removing this authority from EPA. EPA has again invoked this veto power 
on the Yazoo Backwater Project. EPA is saying that you can't lower the 
water level with a flood control project! By killing this project with 
404(c) veto authority, EPA is drawing a line in the sand over the 
future of flood control in our great Nation. EPA has vetoed the Yazoo 
Backwater Project even though it was approved, authorized and funded by 
Congress and exempt from a 404(c) veto by 404(r). It is now time to 
again take up this issue and remove the 404(c) veto power from EPA 
before they kill another flood control project that has been authorized 
by Congress.
    The Council of Environmental Quality [CEQ] draft proposal of 
changes to the Principals and Guidelines [P&G] for Federal agencies 
fails to establish a clear, concise, and workable framework to guide 
development of water resources projects. It is incoherent and 
inconsistent--and thus not implementable in a practical sense. It 
substantially fails to comply with the explicit directions in section 
2031 of WRDA 07 as well as the large body of previous law and policy 
related to water resources. It is written so as to not require or even 
encourage use of proven analytical tools to distinguish among 
alternatives. It elevates environment considerations over economic 
benefits, social well-being and public safety. Because of these 
critical and extensive failings, we recommend that this effort be put 
aside and restarted from the beginning.
    As Members of the Congress representing the citizens of our Nation 
who live with the Mississippi River everyday, you clearly understand 
both the benefits provided by this resource and the destructive force 
that must be controlled during a flood. On behalf of the Mississippi 
Levee Board, I cannot express enough, our appreciation for your efforts 
in providing adequate funding over the last several years that has 
allowed construction to continue on our much needed projects and thank 
you in advance for your kind consideration of our requests for fiscal 
year 2012.
                                 ______
                                 
  Prepared Statement of the Missouri River Association of States and 
                                 Tribes
    We are requesting your support for three items in the fiscal year 
2012 budget for the U.S. Army Corps of Engineers [USACE], related to 
the Missouri River Basin. These include: (1) $5 million to continue 
funding for the Missouri River Authorized Purposes Study, (2) $72.888 
million to continue implementation of the Missouri River Recovery 
Program, (3) $7 million to increase the operations and maintenance 
budget for the Northwestern Division, Omaha District, for protection of 
cultural and historical sites impacted by the operation of the Missouri 
River Mainstem Reservoir System.
    The Missouri River Association of States and Tribes [MoRAST] is an 
association of representatives of the Governors of the States of 
Wyoming, Montana, North Dakota, South Dakota, Nebraska, Iowa and Kansas 
and many of the American Indian tribes in the Missouri River Basin. 
MoRAST is interested in the proper management and protection of natural 
resources, including water resources, fish and wildlife and other 
related issues of interest to the States and tribes in the basin, 
including cultural resources. The programs and operations of the USACE 
are very important to our members, especially due to the legal 
responsibilities of the States and tribes related to water and the fish 
and wildlife resources in the basin, as well as the trust 
responsibilities of the USACE to the tribes. The following paragraphs 
provide detailed information regarding the bases for our support of the 
three items referred to above for fiscal year 2012 budget of the USACE, 
as outlined below:
    Funding for the Missouri River Authorized Purposes Study [MRAPS].--
MoRAST strongly supports the appropriation of $5 million to continue 
funding for MRAPS in fiscal year 2012.\1\ Congress appropriated $4.483 
million in fiscal year 2010. MRAPS was authorized to study the Missouri 
River Projects under the 1944 Flood Control Act [FCA] to determine 
whether changes to the purposes and existing Federal infrastructure may 
be warranted. The study was authorized for a total cost of $25 million 
at Federal expense. This study does not duplicate any previous study.
---------------------------------------------------------------------------
    \1\ The State of Iowa does not support the continued funding of the 
MRAPS study.
---------------------------------------------------------------------------
    The Missouri River Basin Project (Pick-Sloan Program) envisioned a 
comprehensive system of projects and facilities in the Missouri River 
basin constructed by both the Bureau of Reclamation and the USACE. The 
plan was only partially completed and there continue to be water needs 
and related issues in the basin, many of which are different than they 
were in 1944. This study is important for many reasons. It has been 
over 66 years since the 1944 FCA was enacted and many changes have 
occurred. The Missouri River Mainstem Reservoir System continues to be 
operated in accordance with the 1944 FCA for various authorized 
purposes including flood control, water supply, water quality, 
irrigation, hydropower, navigation, recreation and fish and wildlife. 
However, while the construction of the reservoir system and other works 
have resulted in large project benefits from some of the authorized 
purposes and much less for others, it has also created substantial 
negative impacts on the economies and resources of Indian tribes and 
others, as well as large environmental losses, such as wetlands and 
habitat for a number of native species, including three that are 
threatened or endangered.
    In summary, there have been many changes in the physical, economic 
and environmental conditions that affect the Missouri River Projects 
and the basin since 1944. The USACE needs $5 million for the study in 
fiscal year 2012. However, the USACE has made significant progress with 
the implementation of the study with the assistance of the U.S. Bureau 
of Reclamation and other Federal agencies, as well as extensive input 
from States, tribes, stakeholders and the general public. The USACE 
held over 40 public meetings and tribal focus events throughout the 
Basin and other areas to engage the public and collect information. It 
has recently released a draft scoping summary report and is currently 
holding feedback meetings to receive comments on the draft report until 
April 30. Additional work is needed to complete this process and the 
additional data collection, analysis and public engagement needed to 
complete the study. Funds should be provided so the study can 
objectively determine whether changes are needed to the 1944 FCA in 
order to best meet the contemporary needs of the Missouri River Basin. 
Once the study is complete, Congress can decide whether or not the law 
should be amended, additional project purposes added and/or other 
changes made.
    Funding for Missouri River Recovery Program.--We strongly support 
the $72.888 million recommended in the President's budget. It is the 
minimum necessary for current year compliance with the Biological 
Opinion [BiOP]. The Missouri River Recovery Program [MRRP] was 
established by the USACE as a collaborative program to protect, recover 
and restore the Missouri River ecosystem and its native species, 
including the endangered pallid sturgeon, least tern and piping plover. 
This program is authorized by sections 3109, 3176 and 5018 of the Water 
Resources Development Act [WRDA] 2007. Support for this program is 
critical to ensure at least enough funding is available for compliance 
with the Biological Opinion, as amended in 2003. Compliance with the 
BiOP also protects economic uses as failure to comply with the 
Biological Opinion could require changes to reservoir operations and 
negatively impact other purposes.
    The USACE, various tribal, State and Federal Cooperating Agencies 
and the Missouri River Recovery Implementation Committee [MRRIC], that 
includes these entities and various Stakeholders, are in the process of 
developing a collaborative study and plan known as the Missouri River 
Ecosystem Restoration Plan [MRERP] to identify and guide long term 
actions required to restore ecosystem functions, mitigate habitat 
losses, and recover native fish and wildlife on the Missouri River, 
while seeking to balance social, economic, and cultural values for 
future generations.
    In addition to recovery and mitigation projects on the Missouri 
River Mainstem, a project to provide for fish passage through a 
diversion dam on the Yellowstone River near Intake, Montana is 
especially important to the recovery of the endangered Pallid Sturgeon, 
as it will open up a large segment of free flowing river for the pallid 
to spawn in. Work on this important tributary project is underway and 
is being implemented through a cooperative effort of the U.S. Bureau of 
Reclamation, USACE, U.S. Fish and Wildlife Service [USFWS] and the 
State of Montana.
    On a related matter, we also support removal of the prohibition on 
Federal reimbursement of travel expenses for non-Federal members of the 
Missouri River Recovery Implementation Committee [MRRIC] to attend its 
meetings. No new funds are required for this action as it can be funded 
through the Missouri River Recovery Program [MRRP], but this action is 
needed to improve the functionality and chances for success of MRRIC. 
The basin covers one-sixth of the Continental United States and travel 
to meetings in various parts of the basin is expensive.
    Section 5018 of WRDA 2007 authorized the creation of MRRIC, but 
prohibited Federal reimbursement of travel expenses for non-Federal 
members of the committee. The same section of WRDA 2007 also authorized 
the development of a Missouri River Ecosystem Restoration Plan [MRERP], 
which is a part of the MRRP. The failure to reimburse travel expenses 
hinders participation, prevents balanced representation by tribal, 
State and non-governmental members on the committee and is a hardship 
for some MRRIC members. Lack of travel reimbursement also makes 
participation by States and tribes difficult as cooperating agencies 
for the MRERP study, especially during these trying economic times and 
budget shortfalls for States, tribes and others.
    This issue could be resolved by either the inclusion of a provision 
in the fiscal year 2012 budget bill to allow travel reimbursement for 
attendance at MRRIC meetings or by amending section 5018 of WRDA 2007 
in a new WRDA bill to remove the prohibition on Federal travel 
reimbursement. In any event, this issue needs to be resolved soon so 
that all members can participate, receive the background information, 
interact with other participants and provide meaningful recommendations 
to the USACE and other agencies regarding Missouri River Recovery 
programs as may be appropriate through the MRRIC process.
    The USACE has a unique trust responsibility to the 28 Missouri 
River Basin tribes and their participation in both MRRIC and MRERP 
activities is vital to the success of efforts to restore the ecosystem 
of the Missouri River consistent with the social, cultural and economic 
needs in the Basin. The failure to fund travel for the tribes to attend 
these meetings will not save money and may result in delay or the need 
for more extensive government to government consultations if the tribes 
are not able to participate adequately during the course of efforts by 
MRRIC to make recommendations to the USACE regarding recovery programs 
and the development MRERP.
    In summary, funding the Missouri River Recovery Program at a 
minimum of $72.888 million for fiscal year 2012 is essential to ensure 
compliance with the Amended Biological Opinion on the Missouri River 
and to implement the project on the Yellowstone River near Intake, 
Montana, both of which are of critical importance to the recovery of 
endangered species and the restoration of the ecosystem. We also 
support removal of the prohibition on Federal reimbursement of travel 
for members of MRRIC to meetings of the committee to allow for full 
participation of tribal, State and stakeholder members to the 
committee.
    Funding to Protect Tribal Cultural Resources.--It is requested that 
Congress appropriate an additional $7 million for fiscal year 2012 for 
the Omaha District, Northwestern Division, USACE for the stabilization 
of cultural and historic sites that continue to be negatively impacted 
by the operation of the Missouri River Mainstem Reservoir System. 
Funding for the protection of cultural and historic sites within the 
Omaha District has remained at $3 million for the past several years. 
Past funding through the USACE operation and maintenance budget has 
been woefully inadequate to address the ongoing damage to sites from 
operation of the Missouri River Mainstem Reservoir System.
    The USACE has identified over 400 historic and cultural sites 
protected by Federal law that will be potentially damaged by the 
current Annual Operating Plan and the tribal nations in the Missouri 
River Basin have identified many more sites that could be impacted. 
However, there have only been funds to mitigate damage to a few sites 
each year. The USACE has a unique trust responsibility to the 28 
Missouri River Basin Tribes arising from the government-to-government 
relationship between the tribes and the U.S. Government, as well as an 
obligation under section 106 of the National Historic Preservation Act, 
applicable Executive orders, and other Federal laws, which require the 
USACE to either halt any Federal undertaking that will damage or 
destroy sites protected, or to mitigate the potential damage.
    Summary.--We believe each of these programs is essential to the 
success of efforts to properly manage and protect the natural resources 
of the Missouri River Basin, satisfy the USACE trust responsibilities 
to the Indian Nations in the basin and operate its projects in 
accordance with applicable Federal law. We would appreciate your help 
in providing adequate funding for these important programs and 
projects. Please let David Pope, MoRAST executive director, or chairman 
Sando know if you have questions.
                                 ______
                                 
      Prepared Statement of the Stockton Port District, California
    We wish to thank you for this opportunity to provide Congressional 
testimony by the Port of Stockton, California on behalf of its 
appropriations requests. The Stockton Port District is a California 
public agency created by the California State Legislature. The Port is 
approaching its 80th year of operations.
    The Port is located in the city of Stockton, California, which has 
an unemployment rate over 21 percent, and nearly 18 percent for San 
Joaquin County (source: Feb. 2011 data, CA Employment Dept.). The Port 
is the economic portal for the San Joaquin Valley and beyond. It is 
considered by many to be the economic engine that generates jobs and 
income for the Central Valley and the region.
    The Port suffered significantly during the economic downturn but it 
is recovering rapidly with strong growth and jobs creation. We have 
more than 1,200 acres available for development, which is almost unique 
among California ports. In CY 2010, the Port achieved a throughput of 
3.83 million tons. With the introduction of iron ore exports in January 
2011, we expect total throughput to double in the very near future and 
expect export tonnages to surpass import tonnages within 2 years. We 
are expanding our rail capacity right now and during the next fiscal 
year, starting on July 1, 2011, we will spend another $1 million as 
well with a goal of being able to increase the throughput capacity of 
iron ore and coal unit trains from two per week to seven per week. This 
would equate to over 3 million tons per year and provide for an export 
gateway to Asia that is only available at few ports situated on the 
west coast. For our bulk commodities, the availability of a year round 
authorized channel depth of 35 feet or deeper is a very critical 
factor. Currently our iron ore ships have to top off downstream in 
deeper channels before export to Asia. It is inefficient. Nevertheless, 
we are rapidly fulfilling the President's National Export Initiative.
    The Port and its waterway are of national significance as a 
``Marine Highway'' (M-580), a recent designation by the U.S. Department 
of Transportation. This is 1 of 18 marine highway corridors nationally. 
Additionally we are officially designated a ``strategic corridor of the 
future'' by the U.S. Department of Transportation. The Port is also 
designated as a reserve facility by the U.S. Department of Defense in 
time of need.
    Logistically, the Port has direct access to two transcontinental 
rail lines. Direct rail-to-ship facilities exist at the Port which is 
nearly unique for California ports. We are within a mile of Interstate 
5, which serves the entire west coast, north to south.
    We are highlighting and updating the three priority projects in our 
appropriations requests for your consideration.
  --The San Joaquin--Stockton Project is under the Operations & 
        Maintenance Budget of the U.S. Army Corps of Engineers. It is 
        our most urgent and highest priority request. For the past 
        several years, the COE has not been able to maintain the John 
        F. Baldwin and Stockton Ship Channels to the federally 
        authorized depth of 35 feet on a year round basis. We have been 
        restricted to 31-33 foot channel depths for many months and 
        have been unable to do any dredging. This consistent problem 
        stems from insufficient funding, unpredictable shoaling 
        locations, and a very short dredging window. Unfortunately, our 
        only dredging window closes just before the winter when storm 
        flows create shoaling at unpredictable locations in the 
        channels. This has impaired the efficient movement of commerce 
        and sustained employment for the Port, its tenants, and the 
        region.
      We have requested the COE for maintenance dredging to 37 feet 
        plus 1 foot overdraft to insure a year round controlling depth 
        of 35 feet. We believe the COE supports our case through its 
        expressed budget capabilities to Congress. The Port is 
        requesting $12.5 million for fiscal year 2012. The President's 
        fiscal year 2012 budget contains only $3.7 million for this 
        project, which is not enough to assure a year round authorized 
        depth. Bulk commodities vessels are very sensitive to any loss 
        of authorized depth; shippers would incur several hundred 
        thousand dollars of losses per vessel for each foot of channel 
        depth blocked by shoaling.
  --The San Francisco Bay to Stockton Channel Deepening Project is in 
        the Construction General Budget of the COE. This project would 
        deepen the John F. Baldwin Channel to 45 feet and the Stockton 
        Ship Channel to 40 feet. Our fiscal year 2012 request is for 
        $2.5 million to keep pace with a State of California 
        construction award of $17.5 million toward the non-Federal 
        share of the project. This State construction grant expires in 
        CY 2013 if construction is not started. No funds are shown in 
        the President's budget for fiscal year 2012. This deepen marine 
        highway project would significantly increase goods movement 
        efficiencies, especially iron ore and other bulk exports, 
        increase employment in an area where unemployment rates are 
        more than twice the national rate, and keep thousands of trucks 
        off of congested roadways, especially I-880, I-80, I-580, and 
        I-205. One ship utilizing the ship channel can take 
        approximately 1,300 trucks off of congested highways between 
        the Central Valley and the San Francisco Bay Area. The economic 
        and environmental benefits, especially in air quality, are very 
        robust.
      A preliminary economic analysis by the COE show a conservative 
        National Economic Development [NED] average annual benefits of 
        $73.5 million for this project. Not all the commodity 
        movements, especially CY 2011 iron ore exports, are included in 
        this preliminary analysis. A very robust and positive benefit--
        cost ratio is expected once the NED costs are prepared. The 
        Stockton Ship Channel is the primary access route for 
        waterborne shipping from and into the Central Valley and 
        beyond.
  --The Rough and Ready Island Storm Water Project would be in the 
        Construction General Budget of the COE. This project would 
        replace an obsolete storm water system and include drainage 
        detention and lift facility on Rough and Ready Island. The 
        project would also reduce environmental problems, increase 
        flood protection, and create more usable land for development 
        on the island. Rough and Ready Island is one of the State's 
        last remaining large parcels of industrial property available 
        for immediate development. The amount of $3 million is 
        requested and is authorized pursuant to the Water Resources 
        Development Act of 2007, Public Law 110-114. The project can be 
        constructed within a short time period and benefit employment 
        in the immediate area experiencing a very high rate of 
        unemployment.
    We thank you for your consideration for the Port of Stockton 
requests.
                                 ______
                                 
        Prepared Statement of The Little River Drainage District
    Dear Senator Feinstein: My name is Dr. Sam M. Hunter, DVM of 
Sikeston, Missouri. I am a veterinarian, landowner, farmer and resident 
of southeast Missouri.
    I am the President of The Little River Drainage District, the 
largest such entity in the Nation. Our District serves as an outlet 
drainage and flood control District to parts of seven counties in 
southeast Missouri. We provide flood control protection to a sizable 
area of northeast Arkansas as well. Our District is solely tax 
supported by more than 3,500 private landowners in southeast Missouri.
    My remarks will be directed toward the Mississippi River and 
Tributaries Project [MR&T] and the St. Francis River Basin portion of 
the MR&T. Those funds when properly expended are investments yielding a 
return of substantial benefits to the American taxpayer throughout this 
Nation. They are used to prevent flooding to much of our valuable 
farmland, to industrial sites, and to upgrade our ever aging locks and 
dam system on our navigable streams which will prevent unscheduled lock 
closures, modernize our hydro-electric plants, and restore some of our 
environmental assets. MR&T authorized by Congress in 1928 and still not 
completed is returning back to our Nation more than $25 for every 
dollar expended. This can be a job creating project for our Nation each 
year.
    We are fully aware of the financial situation of our Nation and we 
must all learn to do more with less and strive to reduce out national 
debt, balance the budget and create more jobs for our citizens. There 
are projects and programs which are funded 100 percent or cost shared 
by our national treasury which need to be eliminated or at least 
reduced in scope. However, the MR&T Project is not one of them. I will 
point out for you the reasons why.
  --This project has paid back to our treasury more than $25 for every 
        dollar invested for damages prevented and benefits derived.
  --The project was authorized by Congress almost 90 years ago. Our 
        Nation made a commitment to our citizens to improve a very 
        valuable resource of our Nation and then maintain it. We must 
        keep that commitment.
  --Investing and making funds available for the MR&T will create jobs 
        and it will bring additional funds into our treasury.
  --It is the most environmental friendly form of transportation in our 
        Nation.
  --It is the most fuel efficient means of moving commodities. For 
        instance consider 1 gallon of fuel moves 155 tons of freight by 
        truck 413 tons by rail and 576 tons by water.
  --It serves over 75 percent of the population of this Nation and 
        touches 36 States.
  --It provides a means for our commodity producers and manufacturers 
        to compete fairly in a global market.
  --It provides protection from flooding to the many people who live 
        along the Mississippi River and its tributaries.
  --It provides much needed energy from hydropower and provides many of 
        our cities with drinking water.
  --It is used extensively each year for recreational purposes such as 
        boating, camping, fishing, sightseeing and the like.
    The above is a short list of the benefits of the MR&T Project which 
is a line item in the budget. This administration and administrations 
for the past 30 years each year submit budgetary amounts which are not 
sufficient to adequately maintain the channel as well as the locks and 
dams of which some are over 75 years old. We must invest and we must 
improve this vital part of our infrastructure. One lock failure 
upstream can have a devastating effect downstream for each and every 
port and other users of this system.
    We currently spend less than $6 billion annually for maintenance 
and construction on our major waterways system whereas China and Brazil 
are spending $15 and $30 billion annually to modernize and expand 
theirs respectively. We must close that discrepancy so we can compete 
on the open markets.
    There is $210 million in the President's budget for fiscal year 
2012 for this project. This is totally unacceptable. This amount might 
pay the salaries of current employees without layoffs. We ask you to 
support funding of $335 million for fiscal year 2012 which will provide 
some funds for maintenance and a small amount for new construction. The 
Corps capability is $550 million. The overall Corps budget is less than 
$5 billion yet it is estimated we need $110-$200 billion over the next 
20 years just to modernize and keep our waterway system functional.
    Further, I would be remiss to not mention the hardships and lengthy 
delays due to the restrictive nature of policies and regulations being 
implemented by EPA and other such agencies. EPA needs to be reduced in 
authority and the powers they have been asserting the past few years. 
Some of the policies and restrictions they are implementing are 
detrimental to the progress our Nation needs to be making. The delays, 
lengthy reviews, and unnecessary requirements are costly and causes 
many worthwhile projects from being completed.
    Also we ask you to review the mission and purposes of FEMA. The 
nationwide re-mapping of flood plains and zones is costly and having an 
adverse impact on those who live within our delta areas and who are 
protected by a well maintained levee system. Recent concessions made by 
Director Fugate will help but much more is needed.
    I wish to thank you very much for your time and kind attention and 
for taking the time to review the above. We would be very appreciative 
of anything this subcommittee can do to help us improve our 
environment, improve our livelihood, and improve the area in which we 
live and work which ultimately is good for America. We are also very 
appreciative of all this subcommittee has done for us in the past. We 
trust you will hear our pleas once more and act accordingly.
                                 ______
                                 
              Prepared Statement of The Nature Conservancy
    Mr. Chairman and members of the subcommittee: Thank you for the 
opportunity to present The Nature Conservancy's testimony on the fiscal 
year 2012 appropriations for the U.S. Army Corps of Engineers (Corps) 
and Bureau of Reclamation. The Nature Conservancy is a nonprofit 
organization dedicated to the conservation of biological diversity. Our 
on-the-ground conservation work is carried out in all 50 States and in 
30 foreign countries and is supported by approximately 1 million 
individual members.
    We recognize the challenges of working in a constrained fiscal 
environment and that Congress is making appropriation decisions 
differently than in years past. We also recognize the continued 
importance of our water resources and the benefits those resources 
provide to people, our economy, our environment, and the quality of 
life in our communities. Our focus is on the programs and investments 
needed to ensure those benefits are enhanced today and made sustainable 
for tomorrow.
    The Nature Conservancy supports the overall approach of building 
sustainability into the development and management of our Nation's 
water infrastructure, including the ecosystem restoration projects 
essential to ensuring that sustainability. These ecosystem restoration 
projects pay dividends through higher quality water, natural flood 
control, sustaining commercial fisheries, and supporting economically 
important outdoor recreation; with impacts stretching out for decades 
to come, the projects and proposals that follow represent a very high 
return on investment.
                       sustainable rivers project
    The Sustainable Rivers Project (SRP) is an initiative launched by 
the Corps in partnership with the Conservancy to update decades-old 
water management practices to meet society's needs today and in the 
coming decades. The SRP is developing and demonstrating innovative 
approaches to provide for, and improve, water supply and flood risk 
management while restoring critical ecosystems. The President's budget 
includes two specific initiatives that support these efforts:
    Global Change Sustainability.--This project will allow the Corps to 
advance a variety of new practices through several initiatives, 
including the SRP, working with State and other Federal agencies to 
develop a national strategy to update drought contingency plans and 
other initiatives to ensure a sustainable water supply and adapt to 
projected changes in precipitation patterns and other out-year 
conditions impacting the Nation's water supplies. The Conservancy 
supports the $10 million in the President's budget for this program.
    National Portfolio Assessment for Reallocations.--Launched in 
fiscal year 2008, this assessment is a national effort to learn from 
past water management techniques and then apply the lessons learned 
more broadly. Part of this effort will develop new methods and tools 
that can be transferred to Corps projects nationwide. The Conservancy 
supports the $571,000 included for this program.
                     corps construction priorities
    Hamilton City Flood Damage Reduction and Ecosystem Restoration.--We 
were pleased to see Hamilton City selected as one of two new 
construction starts in the Corps' fiscal year 2012 proposed budget. 
This project, developed with substantial assistance by the Conservancy, 
will increase flood protection for Hamilton City, CA, while restoring 
approximately 1,500 acres of riparian habitat. Appropriations for the 
first phase will initiate construction of approximately 2 miles of 
levee, removal of one-half of the existing levee, and roughly one-third 
of the habitat restoration. The Conservancy strongly supports the $8 
million proposed in fiscal year 2012 to complete the first phase of 
construction.
    South Florida Ecosystem Restoration Program.--Corps flood control 
projects, coupled with agricultural and urban development, have 
degraded the Everglades, one of the most diverse and ecologically rich 
wetlands ecosystems in the world. WRDA 2007 authorized construction of 
the first projects under the Comprehensive Everglades Restoration Plan 
[CERP], and we encourage funding the Indian River Lagoon South, 
Picayune Strand, and the Site 1 Impoundment projects. The Conservancy 
supports the $162,724,000 proposed for the South Florida Ecosystem 
Restoration Program in fiscal year 2012.
    Upper Mississippi River Environmental Management Program [EMP].--
Authorized in 1986, this program supports coordinated habitat 
rehabilitation and enhancement projects in the Upper Mississippi River 
system. Over the 25 years of the program, the Corps has completed more 
than 54 projects, benefiting over 94,000 acres of aquatic and 
floodplain habitat. Currently, 22 projects in the program are in 
planning, design, or under construction. Completion of these projects 
will benefit an additional 70,000 acres of aquatic and floodplain 
habitat. The Conservancy supports the $18,150,000 proposed for EMP in 
fiscal year 2012.
    Missouri River Fish and Wildlife Recovery Program [MRRP].--Under 
this program, the Corps has completed 30 projects in the lower Missouri 
basin States to assist in the recovery of three listed species, 
restoring more than 40,000 acres of habitat. New authority was provided 
in WRDA 2007 for the expenditure of funds in the upper basin States and 
for the Intake Dam project on the Yellowstone River in Montana. 
Construction of fish passage and screens at Intake Dam is a priority 
for the recovery of the endangered pallid sturgeon and other warm-water 
fish. The Conservancy supports the $72,888,000 proposed for the MRRP in 
fiscal year 2012, including funding to continue progress on the design 
and construction of fish passage and screens at Intake Dam.
    Chesapeake Bay Oyster Recovery.--Eastern oyster populations in the 
Chesapeake Bay have been decimated from historical levels by a century 
of overfishing, disease, and pollution. This project will help move the 
oyster population toward sustainable levels. The $5 million proposed 
for the fiscal year 2012 budget will create more than 60 acres of 
additional oyster habitat.
    Great Lakes Aquatic Nuisance Species Dispersal Barrier.--Invasive 
fish, plants, and invertebrates have had severe economic impacts to 
human uses and to freshwater biodiversity of the Great Lakes. 
Preventing further invasions through the waterway system is the most 
cost-effective way to protect the plethora of Federal lands and 
infrastructures threatened. The Nature Conservancy supports the budget 
request of $13.5 million in the Construction account; $10,565,000 from 
Operations and Maintenance; and no less than $3 million in the 
Investigations account to expedite the Great Lakes and Mississippi 
River Interbasin Study [GLMRIS].
                     continuing authorities program
    We urge the subcommittee to continue its strong support of the 
section 1135: Project Modifications for Improvement of the Environment 
and section 206: Aquatic Ecosystem Restoration programs. Demand for 
these valuable programs continues to outstrip funding. The Conservancy 
supports adequate funding for these programs in the fiscal year 2012 
budget.
    Adequate funding will ensure support for two section 1135 projects, 
Spunky Bottoms (IL) and the Lower Cache River (AK). The Spunky Bottoms 
project is a model floodplain restoration and reconnection effort on 
the Illinois River that needs $750,000 to complete the Plans and 
Specifications phase and initiate construction. The Lower Cache River 
project seeks to restore natural meanders to the lower 7 miles of the 
river, improving bottomland hardwood forests and expanding habitat for 
a variety of sportfish and mussels.
    The Conservancy also supports the request for $4,001,000 to 
complete design and initiate construction for a section 206 project for 
Emiquon East (IL), a floodplain restoration and reconnection project.
                     corps investigation priorities
    Illinois River Basin Restoration Program.--This Federal-State 
partnership sustains the health of the entire Illinois River Basin 
through projects that restore habitats, species, and the natural 
processes that sustain them. It complements other Federal programs such 
as the Illinois Conservation Reserve Enhancement Program and 
Environmental Management Program of the Upper Mississippi, yet is 
unique in its basin-wide approach to restoration. The Conservancy 
supports the $400,000 funding proposed for this program in fiscal year 
2012.
    Puget Sound Nearshore Marine Habitat Restoration.--This study, when 
completed, will identify restoration and protection needs and 
opportunities in the nearshore regions of Puget Sound. The Sound 
supports the second largest U.S. port (combined Ports of Seattle and 
Tacoma) for container traffic that has accounted for over $70 billion 
in foreign trade; it is an economic priority to ensure that Puget Sound 
maintains the ecological resiliency to sustain vital services for both 
people and nature. The Conservancy supports the proposed $400,000 in 
fiscal year 2012 to carry out this investigation.
    Willamette River Floodplain Restoration Study.--The Corps and the 
Conservancy are working together to identify ecological flow 
requirements downstream of Corps dams on the Willamette River and 
incorporate those flows into dam operations to improve fish and 
wildlife habitat and community flood protection. Additionally, this 
study will assess the potential for floodplain restoration in the 
Middle Fork and Coast Fork tributaries of the Willamette River to 
reduce flood damage while restoring natural wetlands and promoting 
ecosystem restoration. The Conservancy supports the $213,000 proposed 
in fiscal year 2012 to continue this study.
    Yellowstone River Corridor Comprehensive Study.--Funding these 
ongoing economic, fisheries, and wetlands studies will help ensure that 
the longest free-flowing river in the lower 48 States maintains its 
natural functions while supporting irrigation and other uses of its 
waters. The study will help determine the significance of the 
cumulative effects of water use on aquatic species and riparian 
hardwood forests, while guiding the establishment of beneficial 
management practices. The Conservancy supports the proposed $200,000 
for fiscal year 2012.
                         bureau of reclamation
    Upper Colorado River Endangered Fish Recovery and San Juan River 
Basin Recovery Programs.--These programs take a balanced approach to 
restore four endangered fish species--the pikeminnow, humpback chub, 
razorback sucker, and bonytail--that adhere to existing and State-
specific water law while facilitating each State's development of their 
Colorado River Compact allocation. These programs implement a range of 
basin-wide strategies, including improved management of Federal dams, 
river and floodplain habitat improvement, stocking of endangered fish, 
and management of non-native fish species. The Conservancy supports the 
proposed $6.2 million in fiscal year 2012 for the two programs.
    Platte River Recovery Implementation Program.--The program helps 
restore the four endangered or threatened species in the basin--
whooping crane, interior least tern, piping plover, and pallid 
sturgeon--while enabling existing water projects in the basin to 
continue operations. Specifically, the program is working to increase 
stream flows in the central Platte River at ecologically and 
economically important times; enhance, restore and protect lands for 
target bird species; and offset post-1997 depletions. The Conservancy 
supports the proposed $11,037,000 for this recovery effort in fiscal 
year 2012.
    Basin Studies and WaterSMART.--We support the request for the basin 
study programs and WaterSMART grant programs. These programs support 
sustainable water use and management by focusing on water conservation, 
reuse and recycling, and on environmental protection and restoration. 
We also support the proposed funding for the Bureau's environmental 
restoration work, including the programs in the California Bay Delta 
and Colorado River.
                       potential additional funds
    We recognize that previous year's appropriations for the Corps of 
Engineers, including 2010 and 2008 appropriations, have been higher 
than the President's fiscal year 2012 request. Should the subcommittee 
decide to appropriate more than the amount requested by the President, 
we would work with the Corps of Engineers and partners to promote use 
of additional funds for other priority projects, including:
    Upper Mississippi and Illinois Navigation and Ecosystem 
Sustainability Program.--This project would begin construction on 11 
ecosystem restoration and 5 navigation projects while continuing 
planning and design work for lock expansion on the Illinois and 
Mississippi Rivers.
    Cartersville Diversion Dam Fish Passage.--This project would 
construct a fish passage at Cartersville Dam, allowing fish, including 
the federally listed endangered pallid sturgeon, to reach the upstream 
portions of the Yellowstone River.
    Connecticut River Watershed Study.--This project will restore 410 
miles of river flow and thousands of acres of natural habitat in the 
Connecticut River Basin. The study identifies dam management 
modifications for environmental benefits while maintaining beneficial 
human uses.
    White River Basin-Wide Comprehensive Study.--This project will 
evaluate the impact of Federal impoundments, navigation, and water 
withdrawals for agriculture, power generation, modifications and a 
variety of other uses on the White River basin and help determine 
ecological and human needs.
    Big Cypress Basin Watershed Study.--This project will restore the 
natural river flow of Big Cypress Bayou to enhance the health of Caddo 
Lake and the downstream wetlands, wetlands recognized as globally 
significant by the Ramsar Convention.
    Long Island Sound Oyster Restoration.--This project will develop a 
comprehensive plan for restoring oysters and other shellfish in Long 
Island Sound to support the ecological and economic well-being provided 
by a sustainable oyster fishery.
    Lower Mississippi River Resource Assessment.--Flood control and 
drainage systems have accelerated erosion and habitat loss along the 
Lower Mississippi River and its tributaries. Working with the 
Department of Interior, the Corps will evaluate river management, 
habitat, and public access to recommend actions for addressing current 
and future needs.
    West Pearl River Navigation Study.--The aquatic communities of the 
Pearl, West Pearl, and Bogue Chitto Rivers are severely disrupted by 
old and disused navigation structures. This study will examine the 
feasibility of removing them or repurposing the structures to improve 
environmental and recreational conditions.
    Thames River Basin Watershed Study.--This study for the Thames 
River Basin ecosystem, including its tributaries to Long Island Sound, 
will determine the research and management measures necessary to 
improve the management of water control structures in the basin.
    Middle Potomac River Watershed Comprehensive Study.--This study 
will develop a comprehensive, multi-jurisdictional sustainable 
watershed management plan for the Middle Potomac River watershed, 
balancing the ecological functions and services provided by the river 
with the human demands upon it.
    We appreciate the opportunity to present our comments on the Energy 
and Water Appropriations bill.
                                 ______
                                 
        Prepared Statement of the City of Morro Bay, California
    The city of Morro Bay is providing testimony to the Senate 
Subcommittee on Energy and Water Development to respectfully request 
that funding of $2.5 million be included in the fiscal year 2012 budget 
for the Army Corps of Engineers to dredge the Entrance/Transition 
channels in Morro Bay Harbor and to fund a condition survey of the 
North Breakwater.
    During World War II the Army Corps of Engineers [USACE] designed 
and constructed a new harbor entrance at Morro Bay with two rock 
breakwaters. Since the initial construction, over 60 years ago, the 
Federal Government has maintained the harbor entrance, breakwaters and 
navigational channels. In fiscal year 1995, the USACE completed the 
Morro Bay Harbor Entrance Improvement Project to improve safety for 
commercial fishing and coastal navigation. The city of Morro Bay 
contributed almost $1 million in local cost share to this project.
    Since 1995 the Federal Government has funded maintenance dredging 
of Morro Bay Harbor entrance area every year and schedules a larger 
project to maintain the Morro and Navy Navigation channels every 3 to 5 
years, as those channels accumulate sediment at a slower rate than the 
entrance area.
    Below is a summary of dredging history for the federally designated 
navigation channels in Morro Bay.

------------------------------------------------------------------------
               DATE                     AREA DREDGED       CUBIC YARDAGE
------------------------------------------------------------------------
1997..............................  Outer Entrance......          63,009
1998..............................  Entrance, Main,              695,080
                                     Navy, Morro & Sand
                                     Trap.
1999..............................  Entrance &                   134,234
                                     Transitional
                                     Channel.
2000..............................  Entrance &                   236,883
                                     Transitional
                                     Channel.
2001..............................  Entrance &                   180,467
                                     Transitional
                                     Channel.
2002..............................  Entrance, Navy,              868,483
                                     Morro & Sand Trap.
2003..............................  Entrance &                   170,817
                                     Transitional
                                     Channel.
2004..............................  Entrance &                   155,708
                                     Transitional
                                     Channel.
2005..............................  Entrance &                   133,989
                                     Transitional
                                     Channel.
2006..............................  Entrance &                   196,237
                                     Transitional
                                     Channel.
2007..............................  Entrance &                   150,581
                                     Transitional
                                     Channel.
2008..............................  Entrance &                   140,789
                                     Transitional
                                     Channel.
2009..............................  Entrance &                   151,067
                                     Transitional
                                     Channel.
2010..............................  Entrance, Main,              823,749
                                     Navy, Morro & Sand
                                     Trap.
------------------------------------------------------------------------

    A condition survey of the North Breakwater has not been completed 
since 1986. Since that time Morro Bay Harbor was subject to effects 
from the San Simeon Earthquake of 2003, the Chilean Tsunami of 2010 and 
the recent Japanese Tsunami of 2011. In March 2011, the Morro Bay 
Harbor saw 9 foot surges and large waves at the entrance area during 
the Tsunami generated by a 9.0 earthquake centered in Japan. Due to the 
long period of time since the last condition survey and to the unusual 
stresses the breakwater has been subject to, we feel it is critical to 
complete this condition survey of the North Breakwater in fiscal year 
2012.
    Morro Bay Harbor is the only all-weather harbor of refuge between 
Santa Barbara and Monterey along the rough waters of California's 
central coast. Our Harbor directly supports almost 250 home-ported 
fishing vessels and marine dependent businesses. We provide critical 
maritime facilities for both recreational and commercial interests. 
Businesses that depend on the harbor generate $50,000,000 annually and 
employ over 700 people. In addition to the home-ported commercial 
fishing vessels, Morro Bay Harbor serves as port for 15-25 additional 
fishing vessels either transiting the coast, or here to fish during 
certain seasons. Over 400 recreational vessels come through Morro Bay 
Harbor while transiting the California coast.
    The United States Coast Guard [USCG] maintains a 27 person National 
Security Base and Search and Rescue Station at Morro Bay Harbor, which 
provides Coast Guard services for the entire central California coast, 
including port safety coverage for the Diablo Canyon Nuclear Power 
Plant and Vandenberg Air Force Base.
    The California State Department of Fish and Game home ports their 
65 foot enforcement vessel ``Blue Fin'' in Morro Bay. The Blue Fin 
enforces Federal and State Fish and Game regulations from Monterey to 
the Channel Islands and out 200 miles. The Fish and Game Department has 
an agreement with the Coast Guard to assist them with Homeland Security 
within this area as well. The Blue Fin is also made available through 
mutual aid agreements to all other law enforcement agencies, for 
enforcement assistance and search and rescue operations. It is vital 
that these vessels be able to safely transit the Morro Bay Harbor 
entrance and navigate within the Harbor to perform their missions.
    The Morro Bay Harbor Patrol provides routine and emergency response 
to boaters within Morro Bay Harbor and responds to incidents as far as 
Montana de Oro to the south and Cambria to the north. The Morro Bay 
Harbor Patrol provides assistance to the United States Coast Guard, the 
Morro Bay National Estuary Program, the California Department of Fish 
and Game, the California Department of Parks and Recreation and San 
Luis Obispo County.
    In 2000 the California legislature designated Morro Bay and several 
other small ports along the California coast as ``Harbors of Safe 
Refuge''. This legislation recognizes the critical role many small 
harbors play in affording a safety zone for commercial and recreational 
vessels transiting the California coast.
    Morro Bay Harbor's configuration exposes the entrance to the open 
ocean and strong winter storms, creating swells and currents that 
constantly carry sand and sediment into the navigation channels. The 
Morro Bay National Estuary Program recognizes the need to maintain the 
navigational channels in the harbor not only for the safe access of 
emergency and fishing vessels, but also to maintain adequate tidal 
exchange for the health of the Morro Bay Estuary.
    Morro Bay is a city of 10,000 people, with a total annual operating 
budget of approximately $25 million. We are almost entirely reliant on 
tourism and a small fishing fleet for our revenue. The city simply 
cannot afford to maintain the harbor without continued Federal 
assistance. If the channels are not dredged, all of the past local and 
Federal investment will be lost. It is imperative that the federally 
constructed navigation channels, entrance area and protective jetties 
be maintained on a consistent schedule.
    The Army Corps of Engineers has the capability to execute $2.5 
million in maintenance dredging operations and a North Breakwater 
condition survey for fiscal year 2012. We respectfully request that 
your distinguished subcommittee include $2.5 million in funds for Morro 
Bay to keep our harbor open and safe in all conditions, to provide a 
safe base of operations for the United States Coast Guard, California 
Department of Fish and Game and the Morro Bay Harbor Patrol, and to 
protect the health of the Morro Bay National Estuary.
    Thank you for your actions and support, and for the opportunity to 
present these requests to your subcommittee on behalf of the citizens 
of the city of Morro Bay.
                                 ______
                                 

                       DEPARTMENT OF THE INTERIOR

                         Bureau of Reclamation

               Prepared Statement of the State of Wyoming
    Dear Chairman Feinstein and Senator Alexander: I am writing to 
request your support and assistance in insuring continued funding for 
the Upper Colorado River Endangered Fish Recovery Program and the San 
Juan River Basin Recovery Implementation Program. These two successful 
ongoing cooperative partnership programs involve the States of 
Colorado, New Mexico, Utah and Wyoming, Indian tribes, Federal agencies 
and water, power and environmental interests. Wyoming joins the other 
participating States and non-Federal partners in requesting your 
support for an appropriation for fiscal year 2012 of $6,248,000 to the 
Bureau of Reclamation within the budget line item entitled ``Endangered 
Species Recovery Implementation Program'' for the Upper Colorado 
Region. Recognizing the need for fiscal responsibility, I must also 
point out, with respect to the fish recovery programs, that it will 
cost the program participants including, Wyoming, much more in terms of 
ESA costs if these programs do not continue.
    The Upper Colorado and San Juan recovery programs are national 
models of collaborative conservation partnerships working to recover 
endangered species while meeting water use and water development 
demands in compliance with the Federal Endangered Species Act [ESA], 
State law, and interstate compacts in the Intermountain West.
    Since 1988, the two programs, collectively, have provided ESA 
section 7 compliance (without litigation) for over 2,160 Federal, 
tribal, State and privately managed water projects depleting more than 
3.7 million acre-feet of water per year. The Department of the Interior 
recognized these programs with its nation-wide Cooperative Conservation 
Award in April 2008 as outstanding collaborative partnerships 
accomplishing substantial on-the-ground conservation results. 
Substantial non-Federal cost-sharing funding exceeding 50 percent is 
occurring pursuant to their authorization in Public Law 106-392, as 
amended.
    The requested Federal appropriations are critically important to 
these efforts moving forward. The past support of your subcommittee has 
greatly facilitated the success of these multi-state, multi-agency 
programs. On behalf of the citizens of Wyoming, I thank you for that 
support and request the subcommittee's assistance for fiscal year 2012 
funding to ensure the Bureau of Reclamation's continuing financial 
participation in these vitally important programs.
                                 ______
                                 
    Prepared Statement of the Tri-County Water Conservancy District
    Dear Chairman Feinstein and Senator Alexander: The Board of the 
Tri-County Water Conservancy District is writing to request your 
support for continued funding in fiscal year 2012 for the Upper 
Colorado River Endangered Fish Recovery Program and the San Juan River 
Basin Recovery Implementation Program as authorized by Public Law 106-
392. These two successful ongoing cooperative partnership programs 
involve the States of Colorado, New Mexico, Utah and Wyoming, Indian 
tribes, Federal agencies and water, power and environmental interests. 
We request your support for an appropriation for fiscal year 2012 of 
$6,248,000 to the Bureau of Reclamation within the budget line item 
entitled ``Endangered Species Recovery Implementation Program'' for the 
Upper Colorado Region, consistent with the President's recommended 
budget. Substantial non-Federal cost-sharing funding is occurring 
pursuant to Public Law 106-392, as amended.
    The requested Federal appropriations are critically important to 
these efforts moving forward. The past support of your subcommittee has 
greatly facilitated the success of these multi-state, multi-agency 
programs. We thank you for the subcommittee's past support and request 
the subcommittee's assistance for fiscal year 2012 funding to ensure 
the Bureau of Reclamation's continuing financial participation in these 
vitally important programs.
                                 ______
                                 
   Prepared Statement of the Central Utah Water Conservancy District
    Dear Chairman Feinstein and Senator Alexander: I am writing to 
request your support for continued funding in fiscal year 2012 for the 
Upper Colorado River Endangered Fish Recovery Program and the San Juan 
River Basin Recovery Implementation Program as authorized by Public Law 
106-392. These two successful ongoing cooperative partnership programs 
involve the States of Colorado, New Mexico, Utah and Wyoming, Indian 
tribes, Federal agencies and water, power and environmental interests. 
I request your support for an appropriation for fiscal year 2012 of 
$6,248,000 to the Bureau of Reclamation within the budget line item 
entitled ``Endangered Species Recovery Implementation Program'' for the 
Upper Colorado Region, consistent with the President's recommended 
budget. Substantial non-Federal cost-sharing funding is occurring 
pursuant to Public Law 106-392, as amended.
    The requested Federal appropriations are critically important to 
these efforts moving forward. The past support of your subcommittee has 
greatly facilitated the success of these multi-state, multi-agency 
programs. I thank you for the subcommittee's past support and request 
the subcommittee's assistance for fiscal year 2012 funding to ensure 
the Bureau of Reclamation's continuing financial participation in these 
vitally important programs.
                                 ______
                                 
       Prepared Statement of the Orchard Mesa Irrigation District
    Dear Chairman Feinstein and Senator Alexander: I am writing to 
request your support for continued funding in fiscal year 2012 for the 
Upper Colorado River Endangered Fish Recovery Program and the San Juan 
River Basin Recovery Implementation Program as authorized by Public Law 
106-392. These two successful ongoing cooperative partnership programs 
involve the States of Colorado, New Mexico, Utah and Wyoming, Indian 
tribes, Federal agencies and water, power and environmental interests. 
I request your support for an appropriation for fiscal year 2012 of 
$6,248,000 to the Bureau of Reclamation within the budget line item 
entitled ``Endangered Species Recovery Implementation Program'' for the 
Upper Colorado Region, consistent with the President's recommended 
budget. Substantial non-Federal cost-sharing funding is occurring 
pursuant to Public Law 106-392, as amended.
    The requested Federal appropriations are critically important to 
these efforts moving forward. The past support of your subcommittee has 
greatly facilitated the success of these multi-state, multi-agency 
programs. I thank you for the subcommittee's past support and request 
the subcommittee's assistance for fiscal year 2012 funding to ensure 
the Bureau of Reclamation's continuing financial participation in these 
vitally important programs.
                                 ______
                                 
                   Prepared Statement of Denver Water
    Dear Chairman Feinstein and Senator Alexander: On behalf of Denver 
Water, I am writing to request your support for continued funding in 
fiscal year 2012 for the Upper Colorado River Endangered Fish Recovery 
Program and the San Juan River Basin Recovery Implementation Program as 
authorized by Public Law 106-392. These two successful ongoing 
cooperative partnership programs involve the States of Colorado, New 
Mexico, Utah and Wyoming, Indian tribes, Federal agencies and water, 
power and environmental interests. I request your support for an 
appropriation for fiscal year 2012 of $6,248,000 to the Bureau of 
Reclamation within the budget line item entitled ``Endangered Species 
Recovery Implementation Program'' for the Upper Colorado Region, 
consistent with the President's recommended budget. Substantial non-
Federal cost-sharing funding is occurring pursuant to Public Law 106-
392, as amended.
    The requested Federal appropriations are critically important to 
these efforts moving forward. The past support of your subcommittee has 
greatly facilitated the success of these multi-state, multi-agency 
programs. I thank you for the subcommittee's past support and request 
the subcommittee's assistance for fiscal year 2012 funding to ensure 
the Bureau of Reclamation's continuing financial participation in these 
vitally important programs.
                                 ______
                                 
         Prepared Statement of the APS Four Corners Power Plant
    Dear Chairman Feinstein and Senator Alexander: I am writing to 
request your support for continued funding in fiscal year 2012 for the 
Upper Colorado River Endangered Fish Recovery Program and the San Juan 
River Basin Recovery Implementation Program as authorized by Public Law 
106-392. These two successful ongoing cooperative partnership programs 
involve the States of Colorado, New Mexico, Utah and Wyoming, Indian 
tribes, Federal agencies and water, power and environmental interests. 
I request your support for an appropriation for fiscal year 2012 of 
$6,248,000 to the Bureau of Reclamation within the budget line item 
entitled ``Endangered Species Recovery Implementation Program'' for the 
Upper Colorado Region, consistent with the President's recommended 
budget. Substantial non-Federal cost-sharing funding is occurring 
pursuant to Public Law 106-392, as amended.
    The requested Federal appropriations are critically important to 
these efforts moving forward. The past support of your subcommittee has 
greatly facilitated the success of these multi-state, multi-agency 
programs. I thank you for the subcommittee's past support and request 
the subcommittee's assistance for fiscal year 2012 funding to ensure 
the Bureau of Reclamation's continuing financial participation in these 
vitally important programs.
                                 ______
                                 
  Prepared Statement of the State of New Mexico, Office of the State 
                           Engineer, Santa Fe
    Dear Chairman Feinstein and Senator Alexander: I am writing to 
request your support and assistance in insuring continued funding for 
the Upper Colorado River Endangered Fish Recovery Program and the San 
Juan River Basin Recovery Implementation Program. These two successful 
ongoing cooperative partnership programs involve the States of 
Colorado, New Mexico, Utah and Wyoming, Indian tribes, Federal agencies 
and water, power and environmental interests. The State of New Mexico 
requests your support for an appropriation in the President's 
recommended budget for fiscal year 2012 of $6,248,000 to the Bureau of 
Reclamation within the budget line item entitled ``Endangered Species 
Recovery Implementation Program'' for the Upper Colorado Region.
    The Upper Colorado and San Juan recovery programs are national 
models of collaborative conservation partnerships working to recover 
endangered species while meeting water use and water development 
demands in compliance with the Federal Endangered Species Act [ESA], 
State law, and interstate compacts in the Intermountain West.
    Since 1988, the two programs, collectively, have provided ESA 
section 7 compliance (without litigation) for over 2,160 Federal, 
tribal, State and privately managed water projects depleting more than 
3.7 million acre-feet of water per year. The Department of the Interior 
recognized these programs with its nation-wide Cooperative Conservation 
Award in April 2008 as outstanding collaborative partnerships 
accomplishing substantial on-the-ground conservation results. 
Substantial non-Federal cost-sharing funding exceeding 50 percent is 
occurring pursuant to their authorization in Public Law 106-392, as 
amended.
    The requested Federal appropriations are critically important to 
these efforts moving forward. The past support of your subcommittee has 
greatly facilitated the success of these multi-state, multi-agency 
programs. On behalf of the citizens of New Mexico, I thank you for that 
support and request the subcommittee's assistance for fiscal year 2012 
funding to ensure the Bureau of Reclamation's continuing financial 
participation in these vitally important programs.
                                 ______
                                 
     Prepared Statement of the Grand Valley Water Users Association
    Dear Chairman Feinstein and Senator Alexander: I am writing to 
request your support for continued funding in fiscal year 2012 for the 
Upper Colorado River Endangered Fish Recovery Program and the San Juan 
River Basin Recovery Implementation Program as authorized by Public Law 
106-392. These two successful ongoing cooperative partnership programs 
involve the States of Colorado, New Mexico, Utah and Wyoming, Indian 
tribes, Federal agencies and water, power and environmental interests. 
I request your support for an appropriation for fiscal year 2012 of 
$6,248,000 to the Bureau of Reclamation within the budget line item 
entitled ``Endangered Species Recovery Implementation Program'' for the 
Upper Colorado Region, consistent with the President's recommended 
budget. Substantial non-Federal cost-sharing funding is occurring 
pursuant to Public Law 106-392, as amended.
    The requested Federal appropriations are critically important to 
these efforts moving forward. The past support of your subcommittee has 
greatly facilitated the success of these multi-state, multi-agency 
programs. I thank you for the subcommittee's past support and request 
the subcommittee's assistance for fiscal year 2012 funding to ensure 
the Bureau of Reclamation's continuing financial participation in these 
vitally important programs.
                                 ______
                                 
           Prepared Statement of the BHP Navajo Coal Company
    Dear Chairman Feinstein and Senator Alexander: I am writing to 
request your support for continued funding in fiscal year 2012 for the 
Upper Colorado River Endangered Fish Recovery Program and the San Juan 
River Basin Recovery Implementation Program as authorized by Public Law 
106-392. These two successful ongoing cooperative partnership programs 
involve the States of Colorado, New Mexico, Utah and Wyoming, Indian 
tribes, Federal agencies and water, power and environmental interests. 
I request your support for an appropriation for fiscal year 2012 of 
$6,248,000 to the Bureau of Reclamation within the budget line item 
entitled ``Endangered Species Recovery Implementation Program'' for the 
Upper Colorado Region, consistent with the President's recommended 
budget. Substantial non-Federal cost-sharing funding is occurring 
pursuant to Public Law 106-392, as amended.
    The requested Federal appropriations are critically important to 
these efforts moving forward. The past support of your subcommittee has 
greatly facilitated the success of these multi-state, multi-agency 
programs. I thank you for the subcommittee's past support and request 
the subcommittee's assistance for fiscal year 2012 funding to ensure 
the Bureau of Reclamation's continuing financial participation in these 
vitally important programs.
                                 ______
                                 
         Prepared Statement of the Utah Water Users Association
    Dear Chairman Feinstein and Senator Alexander: I am writing to 
request your support for continued funding in fiscal year 2012 for the 
Upper Colorado River Endangered Fish Recovery Program and the San Juan 
River Basin Recovery Implementation Program as authorized by Public Law 
106-392. These two successful ongoing cooperative partnership programs 
involve the States of Colorado, New Mexico, Utah and Wyoming, Indian 
tribes, Federal agencies and water, power and environmental interests. 
I request your support for an appropriation for fiscal year 2012 of 
$6,248,000 to the Bureau of Reclamation within the budget line item 
entitled ``Endangered Species Recovery Implementation Program'' for the 
Upper Colorado Region, consistent with the President's recommended 
budget. Substantial non-Federal cost-sharing funding is occurring 
pursuant to Public Law 106-392, as amended.
    The requested Federal appropriations are critically important to 
these efforts moving forward. The past support of your subcommittee has 
greatly facilitated the success of these multi-state, multi-agency 
programs. I thank you for the subcommittee's past support and request 
the subcommittee's assistance for fiscal year 2012 funding to ensure 
the Bureau of Reclamation's continuing financial participation in these 
vitally important programs.
                                 ______
                                 
           Prepared Statement of the Jicarilla Apache Nation
    Dear Chairman Feinstein and Senator Alexander: On Behalf of the 
Jicarilla Apache Nation, I am writing to request your support for 
continued funding in fiscal year 2012 for the Upper Colorado River 
Endangered Fish Recovery Program and the San Juan River Basin Recovery 
Implementation Program as authorized by Public Law 106-392. These two 
successful ongoing cooperative partnership programs involve the States 
of Colorado, New Mexico, Utah and Wyoming, Indian tribes, Federal 
agencies and water, power and environmental interests. Jicarilla Apache 
Nation has been a participant in the San Juan River Basin Recovery 
Implementation Program since its inception in 1992, and I want to 
stress that the continuation of the Program is of the utmost importance 
to the Nation and the economic viability of the region. Therefore, I 
request your support for an appropriation for fiscal year 2012 of 
$6,248,000 to the Bureau of Reclamation within the budget line item 
entitled ``Endangered Species Recovery Implementation Program'' for the 
Upper Colorado Region, consistent with the President's recommended 
budget. Substantial non-Federal cost-sharing funding is occurring 
pursuant to Public Law 106-392, as amended.
    The requested Federal appropriations are critically important to 
these efforts moving forward. The past support of your subcommittee has 
greatly facilitated the success of these multi-state, multi-agency 
programs. I thank you for the subcommittee's past support and request 
the subcommittee's assistance for fiscal year 2012 funding to ensure 
the Bureau of Reclamation's continuing financial participation in these 
vitally important programs.
                                 ______
                                 
          Prepared Statement of the San Juan Water Commission
    Dear Chairman Feinstein and Senator Alexander: I am writing to 
request your support for continued funding in fiscal year 2012 for the 
Upper Colorado River Endangered Fish Recovery Program and the San Juan 
River Basin Recovery Implementation Program as authorized by Public Law 
106-392. These two successful ongoing cooperative partnership programs 
involve the States of Colorado, New Mexico, Utah and Wyoming, Indian 
tribes, Federal agencies and water, power and environmental interests. 
I request your support for an appropriation for fiscal year 2012 of 
$6,248,000 to the Bureau of Reclamation within the budget line item 
entitled ``Endangered Species Recovery Implementation Program'' for the 
Upper Colorado Region, consistent with the President's recommended 
budget. Substantial non-Federal cost-sharing funding is occurring 
pursuant to Public Law 106-392, as amended.
    The requested Federal appropriations are critically important to 
these efforts moving forward. The past support of your subcommittee has 
greatly facilitated the success of these multi-state, multi-agency 
programs. I thank you for the subcommittee's past support and request 
the subcommittee's assistance for fiscal year 2012 funding to ensure 
the Bureau of Reclamation's continuing financial participation in these 
vitally important programs.
                                 ______
                                 
           Prepared Statement of the Colorado River District
    Dear Chairman Feinstein and Senator Alexander: I am writing to 
request your support for continued funding in fiscal year 2012 for the 
Upper Colorado River Endangered Fish Recovery Program and the San Juan 
River Basin Recovery Implementation Program as authorized by Public Law 
106-392. These two successful ongoing cooperative partnership programs 
involve the States of Colorado, New Mexico, Utah and Wyoming, Indian 
tribes, Federal agencies and water, power and environmental interests. 
I request your support for an appropriation for fiscal year 2012 of 
$6,248,000 to the Bureau of Reclamation within the budget line item 
entitled ``Endangered Species Recovery Implementation Program'' for the 
Upper Colorado Region, consistent with the President's recommended 
budget. Substantial non-Federal cost-sharing funding is occurring 
pursuant to Public Law 106-392, as amended.
    The requested Federal appropriations are critically important to 
these efforts moving forward. The past support of your subcommittee has 
greatly facilitated the success of these multi-state, multi-agency 
programs. I thank you for the subcommittee's past support and request 
the subcommittee's assistance for fiscal year 2012 funding to ensure 
the Bureau of Reclamation's continuing financial participation in these 
vitally important programs.
                                 ______
                                 
                   Prepared Statement of Aurora Water
    Dear Chairman Feinstein and Senator Alexander: I am writing to 
request your support for continued funding in fiscal year 2012 for the 
Upper Colorado River Endangered Fish Recovery Program and the San Juan 
River Basin Recovery Implementation Program as authorized by Public Law 
106-392. These two successful ongoing cooperative partnership programs 
involve the States of Colorado, New Mexico, Utah and Wyoming, Indian 
tribes, Federal agencies and water, power and environmental interests. 
I request your support for an appropriation for fiscal year 2012 of 
$6,248,000 to the Bureau of Reclamation within the budget line item 
entitled ``Endangered Species Recovery Implementation Program'' for the 
Upper Colorado Region, consistent with the President's recommended 
budget. Substantial non-Federal cost-sharing funding is occurring 
pursuant to Public Law 106-392, as amended.
    The requested Federal appropriations are critically important to 
these efforts moving forward. The past support of your subcommittee has 
greatly facilitated the success of these multi-state, multi-agency 
programs. I thank you for the subcommittee's past support and request 
the subcommittee's assistance for fiscal year 2012 funding to ensure 
the Bureau of Reclamation's continuing financial participation in these 
vitally important programs.
                                 ______
                                 
 Prepared Statement of the Northern Colorado Water Conservancy District
    Dear Chairman Feinstein and Senator Alexander: On behalf of the 
Boards of Directors of the Northern Colorado Water Conservancy District 
and Municipal Subdistrict, Northern Colorado Water Conservancy 
District, I am writing to request your support for continued funding in 
fiscal year 2012 for the Upper Colorado River Endangered Fish Recovery 
Program and the San Juan River Basin Recovery Implementation Program as 
authorized by Public Law 106-392.
    These two successful, ongoing cooperative partnership programs 
involve the States of Colorado, New Mexico, Utah and Wyoming, Indian 
tribes, Federal agencies, and water, power and environmental interests. 
I request your support for an appropriation for fiscal year 2012 of 
$6,248,000 to the Bureau of Reclamation within the budget line item 
entitled ``Endangered Species Recovery Implementation Program'' for the 
Upper Colorado Region consistent with the President's recommended 
budget. Substantial non-Federal, cost-sharing funding is occurring 
pursuant to Public Law 106-392, as amended.
    The requested Federal appropriations are critically important to 
these efforts. The past support of your subcommittee has greatly 
facilitated the success of these multi-state, multi-agency programs. I 
thank you for the subcommittee's past support and request the 
subcommittee's assistance for fiscal year 2012 funding to ensure the 
Bureau of Reclamation's continuing financial participation in these 
vitally important programs.
                                 ______
                                 
          Prepared Statement of the Southern Ute Indian Tribe
    Dear Chairman Feinstein and Senator Alexander: On behalf of the 
Southern Ute Indian Tribe, I am writing to request your support for 
continued funding in fiscal year 2012 for the Upper Colorado River 
Endangered Fish Recovery Program and the San Juan River Basin Recovery 
Implementation Program as authorized by Public Law 106-392. These two 
successful ongoing cooperative partnership programs involve the States 
of Colorado, New Mexico, Utah and Wyoming, the Southern Ute Indian 
Tribe, the Ute Mountain Ute Indian Tribe, the Navajo Nation, the 
Jicarilla Apache Nation, Federal agencies and water, power and 
environmental interests. The tribe requests your support for an 
appropriation for fiscal year 2012 of $6,248,000 to the Bureau of 
Reclamation within the budget line item entitled ``Endangered Species 
Recovery Implementation Program'' for the Upper Colorado Region, 
consistent with the President's recommended budget. Substantial non-
Federal cost-sharing funding is occurring pursuant to Public Law 106-
392, as amended.
    The requested Federal appropriations are critically important to 
these efforts moving forward. The past support of your subcommittee has 
greatly facilitated the success of these multi-state, multi-agency 
programs. The tribe thanks you for the subcommittee's past support and 
requests the subcommittee's assistance for fiscal year 2012 funding to 
ensure the Bureau of Reclamation's continuing financial participation 
in these vitally important programs.
                                 ______
                                 
   Prepared Statement of the Southwestern Water Conservation District
    Dear Chairman Feinstein and Senator Alexander: We are writing to 
request your support for continued funding in fiscal year 2012 for the 
Upper Colorado River Endangered Fish Recovery Program and the San Juan 
River Basin Recovery Implementation Program as authorized by Public Law 
106-392. These two successful ongoing cooperative partnership programs 
involve the States of Colorado, New Mexico, Utah and Wyoming, Indian 
tribes, Federal agencies and water, power and environmental interests. 
We request your support for an appropriation for fiscal year 2012 of 
$6,248,000 to the Bureau of Reclamation within the budget line item 
entitled ``Endangered Species Recovery Implementation Program'' for the 
Upper Colorado Region, consistent with the President's recommended 
budget. Substantial non-Federal cost-sharing funding is occurring 
pursuant to Public Law 106-392, as amended.
    The requested Federal appropriations are critically important to 
these efforts moving forward. The past support of your subcommittee has 
greatly facilitated the success of these multi-state, multi-agency 
programs. Thank you for the subcommittee's past support and request the 
subcommittee's assistance for fiscal year 2012 funding to ensure the 
Bureau of Reclamation's continuing financial participation in these 
vitally important programs.
                                 ______
                                 
   Prepared Statement of the Upper Gunnison River Water Conservancy 
                                District
    Dear Chairman Feinstein and Senator Alexander: I am writing to 
request your support for continued funding in fiscal year 2012 for the 
Upper Colorado River Endangered Fish Recovery Program and the San Juan 
River Basin Recovery Implementation Program as authorized by Public Law 
106-392. These two successful ongoing cooperative partnership programs 
involve the States of Colorado, New Mexico, Utah and Wyoming, Indian 
tribes, Federal agencies and water, power and environmental interests. 
I request your support for an appropriation for fiscal year 2012 of 
$6,248,000 to the Bureau of Reclamation within the budget line item 
entitled ``Endangered Species Recovery Implementation Program'' for the 
Upper Colorado Region, consistent with the President's recommended 
budget. Substantial non-Federal cost-sharing funding is occurring 
pursuant to Public Law 106-392, as amended.
    The requested Federal appropriations are critically important to 
these efforts moving forward. The past support of your subcommittee has 
greatly facilitated the success of these multi-state, multi-agency 
programs. I thank you for the subcommittee's past support and request 
the subcommittee's assistance for fiscal year 2012 funding to ensure 
the Bureau of Reclamation's continuing financial participation in these 
vitally important programs.
                                 ______
                                 
 Prepared Statement of the Colorado River Basin Salinity Control Forum
    This testimony is in support of funding for the title II Colorado 
River Basin Salinity Control Program. The Congress has designated the 
Department of the Interior, Bureau of Reclamation (Reclamation), to be 
the lead agency for salinity control in the Colorado River Basin. This 
role and the authorized program were refined and confirmed by the 
Congress when Public Law 104-20 was enacted. A total of $17,500,000 is 
requested for fiscal year 2012 to implement the needed and authorized 
program. Failure to appropriate these funds will result in significant 
economic damage in the United States and Mexico.
    In recent years, the President's requests have dropped to below $10 
million. The Colorado River Basin Salinity Control Forum (Forum) finds 
this unacceptable. Reclamation has requests for funding of many very 
cost-effective proposals through its Basinwide Program that far exceed 
this funding level. In the judgment of the Forum, this amount is 
inappropriately low. Water quality commitments to downstream United 
States and Mexican water users must be honored while the Basin States 
continue to develop their Colorado River Compact-apportioned waters. 
Concentrations of salts in the river cause about $353 million in 
quantified damage in the United States with significantly greater 
unquantified damages. Damages occur from:
  --A reduction in the yield of salt sensitive crops and increased 
        water use for leaching in the agricultural sector;
  --A reduction in the useful life of galvanized water pipe systems, 
        water heaters, faucets, garbage disposals, clothes washers, and 
        dishwashers, and increased use of bottled water and water 
        softeners in the household sector;
  --An increase in the use of water for cooling, and the cost of water 
        softening, and a decrease in equipment service life in the 
        commercial sector;
  --An increase in the use of water and the cost of water treatment, 
        and an increase in sewer fees in the industrial sector;
  --A decrease in the life of treatment facilities and pipelines in the 
        utility sector;
  --Difficulty in meeting wastewater discharge requirements to comply 
        with National Pollutant Discharge Elimination System permit 
        terms and conditions, and an increase in desalination and brine 
        disposal costs due to accumulation of salts in groundwater 
        basins; and
  --Increased use of imported water for leaching and the cost of 
        desalination and brine disposal for recycled water.
    The Forum, therefore, believes implementation of the program needs 
to be accelerated to a level beyond that requested by the President in 
the past.
    The program authorized by the Congress in 1995 has proven to be 
very successful and very cost effective. Proposals from the public and 
private sector to implement salinity control strategies have far 
exceeded the available funding and Reclamation has a backlog of 
proposals. Reclamation continues to select the best and most cost-
effective proposals. Funds are available for the Colorado River Basin 
States' cost sharing for the level of Federal funding requested by the 
Forum. Water quality improvements accomplished under title II of the 
Colorado River Basin Salinity Control Act also benefit the quality of 
water delivered to Mexico. Although the United States has always met 
the commitments of the International Boundary and Water Commission's 
(Commission) Minute No. 242 to Mexico with respect to water quality, 
the United States section of the Commission is currently addressing 
Mexico's request for better water quality at the International 
Boundary.
    Some of the most cost-effective salinity control opportunities 
occur when Reclamation can improve irrigation delivery systems at the 
same time that the U.S. Department of Agriculture's (USDA) program is 
working with landowners (irrigators) to improve the on-farm irrigation 
systems. Through the USDA Environmental Quality Incentives Program, 
adequate on-farm funds appear to be available and adequate Reclamation 
funds are needed to maximize the effectiveness of the effort. These 
salinity control efforts have secondary water conservation benefits at 
the point of use and downstream at other points of use.
                                overview
    In 2000, the Congress reviewed the program as authorized in 1995. 
Following hearings, and with administration support, the Congress 
passed legislation that increased the ceiling authorized for this 
program by $100 million. Reclamation has received cost-effective 
proposals to move the program ahead and the Basin States have funds 
available to cost-share up-front.
    The Colorado River Basin Salinity Control Program was originally 
authorized by the Congress in 1974. The title I portion of the Colorado 
River Basin Salinity Control Act responded to commitments that the 
United States made, through Minute No. 242, to Mexico concerning the 
quality of water being delivered to Mexico below Imperial Dam. Title II 
of the act established a program to respond to salinity control needs 
of Colorado River water users in the United States and to comply with 
the mandates of the then newly legislated Clean Water Act. Initially, 
the Secretary of the Interior and Reclamation were given the lead 
Federal role by the Congress. This testimony is in support of adequate 
funding for the title II program.
    After a decade of investigative and implementation efforts, the 
Basin States concluded that the Salinity Control Act needed to be 
amended. The Congress revised the act in 1984. That revision, while 
leaving implementation of the salinity control policy with the 
Secretary of the Interior, also gave new salinity control 
responsibilities to the USDA and to the Bureau of Land Management 
[BLM]. The Congress has charged the administration with implementing 
the most cost-effective program practicable (measured in dollars per 
ton of salt removed). The Basin States are strongly supportive of that 
concept as the Basin States cost share 30 percent of Federal 
expenditures up-front for the salinity control program, in addition to 
proceeding to implement salinity control activities for which they are 
responsible in the Colorado River Basin.
    The Forum is composed of gubernatorial appointees from Arizona, 
California, Colorado, Nevada, New Mexico, Utah and Wyoming. The Forum 
has become the seven-state coordinating body for interfacing with 
Federal agencies and the Congress to support the implementation of the 
program necessary to control the salinity of the river system. In close 
cooperation with the Environmental Protection Agency [EPA] and pursuant 
to requirements of the Clean Water Act, every 3 years the Forum 
prepares a formal report analyzing the salinity of the Colorado River, 
anticipated future salinity, and the program elements necessary to keep 
the salinities at or below the concentrations in the river system in 
1972 at Imperial Dam, and below Parker and Hoover Dams.
    In setting water quality standards for the Colorado River system, 
the salinity concentrations at these three locations have been 
identified as the numeric criteria. The plan necessary for controlling 
salinity and reducing downstream damages has been captioned the ``Plan 
of Implementation.'' The 2008 Review of water quality standards 
includes an updated Plan of Implementation. The level of appropriation 
requested in this testimony is in keeping with the agreed upon plan. If 
adequate funds are not appropriated, significant damages from the 
higher salt concentrations in the water will be more widespread in the 
United States and Mexico.
                             justification
    The $17,500,000 requested by the Forum on behalf of the seven 
Colorado River Basin States is the level of funding necessary to 
proceed with Reclamation's portion of the Plan of Implementation. In 
July 1995, Congress amended the Colorado River Basin Salinity Control 
Act. The amended act gives Reclamation new latitude and flexibility in 
seeking the most cost-effective salinity control opportunities, and it 
provides for utilization of proposals from project proponents, as well 
as more involvement from the private as well as the public sector. The 
result is that salt loading is being prevented at costs often less than 
one-half the cost under the previous program. The Congress recommitted 
its support for the revised program when it enacted Public Law 106-459. 
The Basin States' cost sharing up-front adds 43 cents for every Federal 
dollar appropriated. The federally chartered Colorado River Basin 
Salinity Control Advisory Council, created by the Congress in the 
Salinity Control Act, has met and formally supports the requested level 
of funding. The Basin States urge the Energy and Water Development 
Subcommittee to support the funding as set forth in this testimony.
                     additional support of funding
    In addition to the funding identified above for the implementation 
of the most recently authorized program, the Forum urges the Congress 
to appropriate funds requested by the administration to continue to 
maintain and operate salinity control facilities as they are completed 
and placed into long-term operation. Reclamation has completed the 
Paradox Valley unit which involves the collection of brines in the 
Paradox Valley of Colorado and the injection of those brines into a 
deep aquifer through an injection well. However, the only means of 
disposing of the brine collected is this injection well. This well has 
a limited life expectancy. Funds are needed now to allow for planning 
of alternatives as the end of the life expectancy of this injection 
well is approached. The continued operation of this project and the 
Grand Valley Unit will be funded primarily through the Facility 
Operations activity.
    The Forum also supports funding to allow for continued general 
investigation of the Salinity Control Program as requested by the 
administration for the Colorado River Water Quality Improvement 
Program. It is important that Reclamation have planning staff in place, 
properly funded, so that the progress of the program can be analyzed, 
coordination between various Federal and State agencies can be 
accomplished, and future projects and opportunities to control salinity 
can be properly planned to maintain the water quality standards for 
salinity so that the Basin States can continue to develop their 
Colorado River Compact-apportioned waters.
                                 ______
                                 
           Prepared Statement of the Colorado Water Congress
    Dear Chairman Feinstein and Senator Alexander: I am writing to 
request your support for continued funding in fiscal year 2012 for the 
Upper Colorado River Endangered Fish Recovery Program and the San Juan 
River Basin Recovery Implementation Program as authorized by Public Law 
106-392. These two successful ongoing cooperative partnership programs 
involve the States of Colorado, New Mexico, Utah and Wyoming, Indian 
tribes, Federal agencies and water, power and environmental interests. 
I request your support for an appropriation for fiscal year 2012 of 
$6,248,000 to the Bureau of Reclamation within the budget line item 
entitled ``Endangered Species Recovery Implementation Program'' for the 
Upper Colorado Region, consistent with the President's recommended 
budget. Substantial non-Federal cost-sharing funding is occurring 
pursuant to Public Law 106-392, as amended.
    The requested Federal appropriations are critically important to 
these efforts moving forward. The past support of your subcommittee has 
greatly facilitated the success of these multi-state, multi-agency 
programs. I thank you for the subcommittee's past support and request 
the subcommittee's assistance for fiscal year 2012 funding to ensure 
the Bureau of Reclamation's continuing financial participation in these 
vitally important programs.
                                 ______
                                 
Prepared Statement of the New Mexico State Engineer and the New Mexico 
                      Interstate Stream Commission
                                summary
    This statement is submitted in support of fiscal year 2012 
appropriations for the Colorado River Basin Salinity Control Program of 
the Department of the Interior's Bureau of Reclamation (Reclamation). 
Congress designated Reclamation to be the lead agency for salinity 
control in the Colorado River Basin by the Colorado River Basin 
Salinity Control Act of 1974, and reconfirmed Reclamation's role by 
passage of Public Law 104-20. A total of $17,500,000 is requested for 
fiscal year 2012 to implement the authorized salinity control program 
of the Bureau of Reclamation. Recent years have followed a trend of 
inadequate funding for the needs of the program. An appropriation of 
$17,500,000 for Reclamation's salinity control program is necessary to 
restore the program to the level needed to protect water quality 
standards for salinity and to prevent unnecessary levels of economic 
damage from increased salinity in water delivered to the Lower Basin 
States of the Colorado River. In addition, funding for operation and 
maintenance of existing projects and sufficient general investigation 
funding is required to identify new salinity control opportunities.
                               statement
    The water quality standards for salinity of the Colorado River must 
be protected while the Basin States continue to develop their compact 
apportioned waters of the river. The salinity standards for the 
Colorado River have been adopted by the seven Basin States and approved 
by the Environmental Protection Agency. While currently the standards 
have not been exceeded, salinity control projects must be brought on-
line in a timely and cost-effective manner to prevent future effects 
that could result in unnecessary damages from higher levels of salinity 
in the water delivered to the Lower Basin States of the Colorado River.
    The Colorado River Basin Salinity Control Act was authorized by 
Congress and signed into law in 1974. The seven Colorado River Basin 
States, in response to the Clean Water Act of 1972, formed the Colorado 
River Basin Salinity Control Forum (Forum), a body comprised of 
gubernatorial representatives from the seven States. The Forum was 
created to provide for interstate cooperation in response to the Clean 
Water Act and to provide the States with information necessary to 
comply with sections 303(a) and (b) of the act. The Forum has become 
the primary means for the Basin States to coordinate with Federal 
agencies and Congress to support the implementation of the salinity 
control program for the Colorado River Basin.
    Bureau of Reclamation studies show that quantified damages from the 
Colorado River to United States water users are about $353 million per 
year. Unquantified damages are significantly greater. Damages are 
estimated at $75 million per year for every additional increase of 30 
milligrams per liter in salinity of the Colorado River. Control of 
salinity is necessary for the States of the Colorado River Basin, 
including New Mexico, to continue to develop their compact-apportioned 
waters of the Colorado River.
    Timely appropriations for the funding of the salinity control 
program are essential to comply with the water quality standards for 
salinity, prevent unnecessary economic damages in the United States, 
and protect the quality of the water that the United States is 
obligated to deliver to Mexico. The Basin States and Federal agencies 
agree that increases in the salinity of the Colorado River will result 
in significant increases in damages to water users in the Lower 
Colorado River Basin. Although the United States has always met the 
water quality standard for salinity of water delivered to Mexico under 
Minute No. 242 of the International Boundary and Water Commission, the 
United States through the U.S. section of IBWC is currently addressing 
a request by Mexico for better quality water. Continued strong support 
and adequate funding of the salinity control program is required to 
control salinity-related damages in the United States and Mexico.
    Congress amended the Colorado River Basin Salinity Control Act in 
July 1995 (Public Law 104-20). The salinity control program authorized 
by Congress by the amendment has proven to be very cost-effective, and 
the Basin States are standing ready with up-front cost-sharing. 
Proposals from public and private sector entities in response to 
Reclamation's requests for proposals and funding opportunity 
announcements have far exceeded available funding appropriated in 
recent years. Basin States cost-sharing funds are available for the 
$17.5 million appropriation request for fiscal year 2012. The Basin 
States' cost-sharing adds 43 cents for each Federal dollar 
appropriated.
    Public Law 106-459 gave the Bureau of Reclamation additional 
spending authority for the salinity control program. With the 
additional authority in place and significant cost-sharing available 
from the Basin States, it is essential that the salinity control 
program be funded at the level requested by the Forum and Basin States 
to protect the water quality of the Colorado River. Some of the most 
cost-effective salinity control opportunities occur when Reclamation 
improves irrigation delivery systems concurrently with on-farm 
irrigation improvements undertaken by the U.S. Department of 
Agriculture's Environmental Quality Incentives Program [EQIP]. The 
Basin States cost-share funding is available for both on-farm and off-
farm improvements. The EQIP funding appears to be adequate to 
accomplish the on-farm work. Adequate funding for Reclamation's off-
farm work is needed to maintain timely implementation and effectiveness 
of salinity control measures.
    Maintenance and operation of Reclamation's salinity control 
projects and general investigations to identify new cost-effective 
salinity control projects are necessary for the continued success of 
the salinity control program. Investigation of new opportunities for 
salinity control is critical while the Basin States continue to develop 
and use their compact-apportioned waters of the Colorado River. The 
water quality standards for salinity are dependent on timely 
implementation of salinity control projects, adequate funding to 
maintain and operate existing projects, and sufficient general 
investigation funding to determine new cost-effective opportunities for 
salinity control.
    Continued funding primarily through Reclamation's Facility 
Operations activity to support maintenance and operation of the Paradox 
Valley Unit and the Grand Valley Unit is critically needed. General 
Investigation funding through Reclamation's Colorado River Water 
Quality Improvement Program needs to be restored to a level that 
supports the need for identification and study of new salinity control 
opportunities to maintain the levels of salinity control needed to meet 
water quality standards and control economic damages in the Lower 
Colorado River Basin.
    I urge the Congress to appropriate $17.5 million to the Bureau of 
Reclamation for the Colorado River Basin Salinity Control Program, plus 
adequate funding for operation and maintenance of existing projects and 
adequate funding for general investigations to identify new salinity 
control opportunities. Also, I fully support testimony by the Forum's 
Executive Director, Don Barnett, in request of this appropriation, and 
the recommendation of an appropriation of the same amount by the 
federally chartered Colorado River Basin Salinity Control Advisory 
Council.
                                 ______
                                 
          Prepared Statement of the Wyoming Water Association
    Dear Chairman Feinstein and Senator Alexander: I am writing to 
request your support for continued funding in fiscal year 2012 for the 
Upper Colorado River Endangered Fish Recovery Program and the San Juan 
River Basin Recovery Implementation Program as authorized by Public Law 
106-392. These two successful ongoing cooperative partnership programs 
involve the States of Colorado, New Mexico, Utah and Wyoming, Indian 
tribes, Federal agencies and water, power and environmental interests. 
I request your support for an appropriation for fiscal year 2012 of 
$6,248,000 to the Bureau of Reclamation within the budget line item 
entitled ``Endangered Species Recovery Implementation Program'' for the 
Upper Colorado Region, consistent with the President's recommended 
budget. Substantial non-Federal cost-sharing funding is occurring 
pursuant to Public Law 106-392, as amended.
    The requested Federal appropriations are critically important to 
these efforts moving forward. The past support of your subcommittee has 
greatly facilitated the success of these multi-state, multi-agency 
programs. I thank you for the subcommittee's past support and request 
the subcommittee's assistance for fiscal year 2012 funding to ensure 
the Bureau of Reclamation's continuing financial participation in these 
vitally important programs.
                                 ______
                                 
Prepared Statements of the Oglala Sioux Rural Water Supply System, West 
 River/Lyman Jones Rural Water System, Rosebud Rural Water System, and 
                   the Lower Brule Rural Water System
                        fiscal year 2012 request
    The Mni Wiconi Project beneficiaries respectfully request $26.238 
million in appropriations for construction and $11.754 million for 
operation and maintenance [OMR] activities for fiscal year 2012, a 
total request of $37.992 million:

                     FISCAL YEAR 2012 TOTAL REQUEST
------------------------------------------------------------------------
                                                              Amount
------------------------------------------------------------------------
Construction............................................     $26,238,000
OMR.....................................................      11,754,000
                                                         ---------------
      Total.............................................      37,992,000
------------------------------------------------------------------------

    The construction request includes $0.960 million for Bureau of 
Reclamation oversight, and the OMR request includes $1.447 million for 
Bureau of Reclamation oversight.
                           construction funds
    Construction funds would be utilized as follows:

------------------------------------------------------------------------
                                                   Construction Request
                  Project Area                       Fiscal Year 2012
------------------------------------------------------------------------
Oglala Sioux Rural Water Supply System:
    Core.......................................                  ( \1\ )
    Distribution...............................              $10,848,000
West River/Lyman-Jones RWS.....................                5,475,000
Rosebud RWS....................................                9,915,000
                                                ------------------------
      Total....................................               26,238,000
------------------------------------------------------------------------
\1\ Complete.

    As shown in the table below, the project will be 89 percent 
complete at the end of fiscal year 2011. Construction funds remaining 
to be spent after fiscal year 2011 will total $49.568 million within 
the current authorization (in October 2010 dollars). Additional 
administrative and overhead costs of extending the project, additional 
construction costs, and inflation at 3.89 percent over the next 2 years 
will increase remaining project costs to $83.217 million after fiscal 
year 2011.

------------------------------------------------------------------------

------------------------------------------------------------------------
Total Federal Construction Funding (Oct 2010 dollars)...    $464,669,000
Estimated Federal Spent Through Fiscal Year 2011........    $415,101,000
Percent Spent Through Fiscal Year 2011..................           89.33
Amount Remaining after 2010:
    Total Authorized (Oct 2010 dollars).................     $49,568,000
    Adjusted for Extension to Fiscal Year 2013 and Other     $78,607,000
     Cost...............................................
    Adjusted for Annual Inflation.......................     $83,217,000
Completion Fiscal Year (Statutory Fiscal Year 2013;                 2013
 Public Law 110-161.....................................
Years to Complete.......................................               2
Average Annual Required for Fiscal Year 2013 Finish w/       $41,609,000
 Re-authorization.......................................
Average Annual Required for Fiscal Year 2013 Finish w/o      $26,238,000
 Re-authorization.......................................
------------------------------------------------------------------------

    Cost indexing over the last 5 years has averaged 3.89 percent for 
pipelines, primarily due to a 7.7 percent reduction in 2009 during 
recession. The increase in pipeline costs last year was 6.17 percent. 
Pipelines are the principal components yet to be completed (see chart 
below). Assuming average 3.89 percent inflation in construction costs 
over the remaining 2 years, average funding of $26.238 million is 
required to complete the project within the existing authorization, and 
$41.609 is required to complete the project if re-authorized to finish 
the project as planned.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The extension of the project from 2008 to 2013 did not provide for 
budgeting of Reclamation oversight, administration and other 
``overhead'' costs, which will total $27.157 million by the end of 
2013. These costs have been and will be incurred at the expense of 
construction elements, and a $29.039 million re-authorization of the 
construction ceiling is needed to recover those overhead costs, due 
primarily to the slow pace of budgeting by the administration. The 
administration's budget for construction for fiscal year 2012 is $16.0 
million, far less than the $26.238 million needed, and threatens to 
extend the project beyond 2013 with continued increases in overhead 
costs and depletion of funds that would otherwise be applied to 
finishing construction.
    The request will create an estimated 210 full-time equivalent [FTE] 
construction jobs and 94 OMR jobs in an area of the Nation with the 
lowest per capita income and deepest poverty.
    Poverty is the harbinger of the severe healthcare crisis facing the 
Indian people in the Northern Great Plains. The present value of extra 
costs of health-care during the lifetime of each 24,000 members of the 
Indian population in the Mni Wiconi Project is estimated at $1.12 to 
$2.25 billion (in 2010 dollars). The costs are based on extraordinarily 
high rates of mortality due to heart disease, cancer and diabetes. The 
Mni Wiconi Project has the direct effect of employing part of our 
unemployed and underemployed Indian population and creates the 
necessary infrastructure for more employment in indirect commercial and 
industrial development. This will reduce poverty, mortality and the 
national cost burden of Indian healthcare.
            oglala sioux rural water supply system [osrwss]
Core System
    The Oglala Sioux Tribe has completed the core system. The 
completion of the OSRWSS core system was an historic milestone and 
permits greater focus in remaining years of the project on completion 
of the distribution systems.
Distribution System
    The Pine Ridge Indian Reservation will receive significantly more 
water from the OSRWSS core system in fiscal year 2011. Major segments 
of the main transmission system will be completed across the 
Reservation and connect many of the larger communities with safe and 
adequate drinking water. OSRWSS pipelines now deliver water from the 
Missouri River to the communities of Georgetown, Wanblee, Crazy Horse 
School, Lakota Fund Housing and Potato Creek Community and the large 
number of rural homes between the communities. The communities of 
Hisle, Kyle, Manderson, Red Shirt, Porcupine and Wounded Knee can be 
served with Missouri River water by the end of 2011.
    Fiscal year 2012 will be another historic year, but considerable 
work remains to distribute the water supply throughout the Reservation. 
Over 40 percent of the project's population resides on the Pine Ridge 
Indian Reservation, and only 78 percent of the distribution system will 
be complete at the end of 2011. The Reservation public received its 
first Missouri River supply in 2009 after waiting 15 years for 
construction of core facilities to the Reservation.
    Project funds in fiscal year 2012 will continue building the on-
reservation transmission system. Funding will be used for transmission 
and service line development east of Pine Ridge Village between 
Wakpamni, Batesland and Allen and south toward the Nebraska State line. 
This area has been deferred in the past due to funding constraints. The 
supervisory control and data acquisition [SCADA] facilities will be 
installed with State of the art electronic equipment.
    As set forth above, activity on the Pine Ridge Indian Reservation 
in fiscal year 2012 continues to focus on constructing the transmission 
system that serves as the ``backbone'' of the Project on the 
Reservation from the White River in the northeast corner of the 
Reservation to Pine Ridge Village. The tribe will continue to focus on 
the disinfection requirements to blend Missouri River water and high 
quality groundwater without creating harmful contaminants. State-of-
the-art designs are being implemented for water quality control, and 
the Project will serve as a model for other projects requiring these 
facilities.
    The Oglala Sioux Tribe is supportive of the funding request of 
other sponsors.
               west river/lyman-jones rural water system
    West River/Lyman-Jones RWS projects for fiscal year 2012 include 
standby generation facilities, conversion of community water systems, 
storage reservoirs, SCADA, and cold storage additions.
    The upper Midwest and specifically the Mni Wiconi project area 
regularly experience power outages as the result of winter weather 
conditions. Regulatory authorities in South Dakota have recommended 
standby generation as the result of statewide power outages experienced 
during the winters of 2005-2006 and 2009-2010. The Bureau of 
Reclamation has concurred in the addition of standby generation to the 
Mni Wiconi plan of work. WR/LJ has outlined a 3 year standby generation 
project schedule.
    The WR/LJ project includes four areas in which area ranchers are 
served by a common well of limited capacity and unacceptable water 
quality. The construction of WR/LJ facilities to serve them as 
individual members of WR/LJ will provide the pipeline capacity and 
water quality meeting Mni Wiconi project design standards.
    Water storage needs include an elevated tower in the Reliance 
service area, a ground storage reservoir in Mellette County and 
supplemental storage in the Elbon service area.
    System Control and Data Acquisition [SCADA] capability provides 
accurate and efficient transmission of data and allows remote control 
of pumping and storage facilities. The WR/LJ SCADA system will be 
completed using the requested funding.
    Storage facilities at the Murdo and Philip operations centers will 
complete the building components of the WR/LJ project.
    Previous Federal appropriations to the Mni Wiconi project have made 
possible the delivery of much needed quality water to members of the 
West River/Lyman-Jones RWS and to the livestock industry in the project 
area. This would not have been possible without State and Federal 
assistance.
           rosebud sioux rural water system--fiscal year 2012
    Funding for fiscal year 2012 will be used to complete two major 
projects begun in fiscal year 2011 and further work on the Rosebud 
Sioux Rural Water System (RSRWS or Sicangu Mni Wiconi) distribution 
system. In fiscal year 2011 work began on the water supply for the 
Rosebud Adult Correctional Facility [ACF]. The ACF is a major project 
that will be constructed in 2011 and in operation in August 2012. The 
intent of locating the facility on Rosebud is that incarcerated 
individuals are closer to the family and culture and the recidivism 
rate will be lower and the local economy also benefits. The Mni Wiconi 
Project is responsible for delivering water to the ACF and providing 
adequate volumes to meet peak demands. An elevated storage tank appears 
to be the only feasible option available.
    The other major project initiated in fiscal year 2011 requiring 
fiscal year 2012 funds is the Sicangu Village Supply Project. Because 
of unexpected quality and quantity limitations of the aquifer in 
southern Todd County, high quality surface water from OSRWSS will be 
conveyed by a transmission pipeline to a new elevated storage reservoir 
at Sicangu Village. The elevated reservoir is currently under contract 
and will be completed this summer. Sicangu Village is an expanding 
housing area and the local wells cannot meet demands of expansion. The 
transmission line and elevated reservoir will provide a reliable supply 
of high quality water to the development corridor along Highway 83 
between Mission and Sicangu Village. It was hoped that this area of the 
Rosebud Reservation would not need to be connected to the Mni Wiconi 
Project because of the presence of the Ogallala aquifer. The estimated 
demands for the area were however included in system planning and it 
now appears this foresight was beneficial because portions of the 
aquifer have high nitrates and other areas are not as high yielding as 
originally thought.
    Distribution system projects will extend service to two schools in 
southern Todd County and meet domestic needs in other areas of the 
Primary Service Area (Todd and Mellette Counties). It was hoped to 
connect the Lakeview and Littleburg schools to the system in fiscal 
year 2011 but fiscal year 2011 funds are not sufficient. The wells that 
supply water to both of the schools have high nitrates. The Mni Wiconi 
Project will ensure that future generations on the Rosebud Reservation, 
both Indians and non-Indians alike, will be supplied with water that 
meets safe drinking water standards.
    The other distribution system expansion planned for 2012 is the 
completion of the East Todd Project. The initial phase of this project 
was completed by the Tribal Force Account Program in late 2009 and 
rights-of-way have now been obtained to undertake the remainder of the 
project. This project also serves an area where water quality has been 
declining due to elevated nitrate levels.
    The ongoing effort to connect rural homes to transmission and 
distribution lines will also continue in 2012. This work is undertaken 
through the Tribal Force Account Program. The Force Account Program not 
only provides a reliable source of high quality water to rural homes, 
it also provides employment to numerous tribal members and helps 
circulate dollars on the Reservation thereby stimulating the local 
economy.
              operation maintenance and replacement [omr]
    The Sponsors will continue to work with Reclamation to ensure that 
their budgets are adequate to properly operate, maintain and replace 
[OMR] respective portions of the core and distribution systems. The 
Sponsors will also continue to manage OMR expenses to ensure that the 
limited funds can best be balanced between Construction and OMR. 
Unfortunately the administration's budget for fiscal year 2012 ($10.058 
million) is under-stated for the first time in the history of the 
project. The project needs $11.754 million. The Reclamation budget for 
2012 will cause the project to fall into a state of disrepair and will 
threaten the considerable investment of the United States from 1994 to 
date.
    The project has been treating and delivering more water each year 
from the OSRWSS Water Treatment Plant near Fort Pierre as construction 
is advanced in the Rosebud, WRLJ and Oglala service areas. Completion 
of significant core and distribution pipelines has resulted in more 
deliveries to more communities and rural users. The need for sufficient 
funds to properly operate and maintain the functioning system 
throughout the project has grown as the project has now reached 89 
percent completion. The OMR budget must be adequate to keep pace with 
the system that is placed in operation.
    The Lower Brule Rural Water System [LBRWS] is essentially complete 
with all major components such as the water treatment plant, booster 
stations and tanks/reservoirs in full operation. As a result, LBRWS's 
operation and maintenance portion of the budget has reached a baseline 
amount to which only slight adjustments along with inflation should be 
made each year. The portion of the LBRWS OM&R budget that is somewhat 
variable is the Replacement Additions and Extraordinary [RAX] 
maintenance items. LBRWS will continue to work with the Bureau of 
Reclamation and the other sponsors to prioritize their needs and ensure 
that their system is operating to the standards that have been 
established over the past several years. With that in mind, the LBRWS 
request for OMR for fiscal year 2012 is $1,550,000.
    The RSRWS expanded significantly in 2010 and surface water now 
reaches Todd County. To accomplish this, two additional high capacity 
pumping stations were added to the system. The new pumping stations 
increase operational costs for both energy, maintenance and personnel. 
In addition, energy costs increases have significantly impacted Rosebud 
for electrical costs and vehicle expenses. With the oldest parts of the 
system in service for 15 years replacement costs covered under RAX are 
also becoming more significant. RAX funds must be included in the Mni 
Wiconi Project appropriations because they are not funded through the 
Bureau's RAX program.
    OSRWSS will incur unanticipated core OMR expenses in fiscal year 
2012 to replace valves, remove sludge at the water treatment plant and 
supplement ARRA funds for chlorine booster stations and generators/
transfer switches. The unanticipated costs are $661,000, which will 
improve facilities that benefit all project sponsors.
    The Mni Wiconi Project tribal beneficiaries (as listed below) 
respectfully request appropriations for OMR in fiscal year 2012 in the 
amount of $11.754 million.

                          FISCAL YEAR 2011 OMR
------------------------------------------------------------------------
                      Project Area                            Request
------------------------------------------------------------------------
Oglala Sioux Rural Water Supply System:
    Core................................................      $3,380,000
    Distribution........................................       3,100,000
Lower Brule.............................................       1,550,000
Rosebud RWS.............................................       2,277,000
Reclamation.............................................       1,447,000
                                                         ---------------
      Total.............................................      11,754,000
------------------------------------------------------------------------

                          trust responsibility
    Public Law 100-516, the Mni Wiconi Project Act, provides that:

    ``. . . United States has a trust responsibility to ensure that 
adequate and safe water supplies are available to meet the economic, 
environmental, water supply, and public health needs of the . . . 
Indian Reservation[s] . . .''

    The field staff and the Regional Office of the Bureau of 
Reclamation have been extremely helpful in advancing this project, but 
there has been concern that Reclamation mid-managers and OMB are making 
unilateral decisions that harm the trust relationship. The following 
are specific instances:
  --Reclamation has re-distributed funds allocated to the Oglala Sioux 
        Tribe to West River/Lyman Jones without the urging of West 
        River/Lyman Jones to further Reclamation performance 
        objectives. While OSRWSS has consistently carried funds over 
        from one fiscal year to another, there has never been an 
        instance or a threat of an instance of not spending funding 
        appropriated in a given year in that year or the year that 
        follows. The rate of completion of the OSRWSS project is 
        decelerated and the rate of other projects has been accelerated 
        without the urging of recipients of re-distributed funding;
  --To our complete satisfaction on construction, Reclamation has 
        yielded to the leadership of the Indian and non-Indian sponsors 
        to permit their collaborative development of annual 
        construction funding allocations and budgets. On the other 
        hand, Reclamation has imposed its structure and budget 
        specifics in lieu of Indian leadership on the formulation of 
        annual OMR allocations and budgets;
  --OMB has budgeted funds to the Bureau of Reclamation for its Rural 
        Water Program without separation of Construction and OMR 
        accounts, and the constraints on the total budget have fallen 
        heavily on the funds available to complete construction. OMR 
        budgeting has been held relatively constant with higher 
        percentages of construction completion, and construction 
        budgeting has decreased. The fixed level of OMR funding has 
        constrained the activities needed on the Indian distribution 
        systems. The construction budget is diminishing at a time when 
        acceleration of construction is needed to deliver the benefits 
        of the project to the Indian people. At a minimum, the 
        construction budget should be a priority and should be held at 
        a level needed to complete the project on the statutory 
        schedule in 2013 while providing an adequate OMR budget;
  --Mid-levels managers have often view the project as a Reclamation 
        project, rather than as an Indian project as provided by Public 
        Law 100-516, and their vision is affected.
    Improvement of the relationship and performance has been observed 
over the last year as Reclamation has responded to this concern.
                                 ______
                                 
              Prepared Statement of the City of Farmington
    Dear Chairman Feinstein and Senator Alexander: I am writing to 
request your support for continued funding in fiscal year 2012 for the 
Upper Colorado River Endangered Fish Recovery Program and the San Juan 
River Basin Recovery Implementation Program as authorized by Public Law 
106-392. These two successful ongoing cooperative partnership programs 
involve the States of Colorado, New Mexico, Utah and Wyoming, Indian 
tribes, Federal agencies and water, power and environmental interests. 
I request your support for an appropriation for fiscal year 2012 of 
$6,248,000 to the Bureau of Reclamation within the budget line item 
entitled ``Endangered Species Recovery Implementation Program'' for the 
Upper Colorado Region, consistent with the President's recommended 
budget. Substantial non-Federal cost-sharing funding is occurring 
pursuant to Public Law 106-392, as amended.
    The requested Federal appropriations are critically important to 
these efforts moving forward. The past support of your subcommittee has 
greatly facilitated the success of these multi-state, multi-agency 
programs. I thank you for the subcommittee's past support and request 
the subcommittee's assistance for fiscal year 2012 funding to ensure 
the Bureau of Reclamation's continuing financial participation in these 
vitally important programs.
                                 ______
                                 
                Prepared Statement of The Navajo Nation
    Dear Chairman Feinstein and Senator Alexander: The Navajo Nation is 
an active participant in, and strong supporter of, the San Juan River 
Recovery Implementation Program. On behalf of the Navajo Nation, I am 
writing to request your support for continued funding in fiscal year 
2012 for the Upper Colorado River Endangered Fish Recovery Program and 
the San Juan River Basin Recovery Implementation Program as authorized 
by Public Law 106-392. These two successful ongoing cooperative 
partnership programs involve the States of Colorado, New Mexico, Utah 
and Wyoming, Indian tribes, Federal agencies and water, power and 
environmental interests. I request your support for an appropriation 
for fiscal year 2012 of $6,248,000 to the Bureau of Reclamation within 
the budget line item entitled ``Endangered Species Recovery 
Implementation Program'' for the Upper Colorado Region, consistent with 
the President's recommended budget. Substantial non-Federal cost-
sharing funding is occurring pursuant to Public Law 106-392, as 
amended.
    The requested Federal appropriations are critically important to 
these efforts moving forward. The past support of your subcommittee has 
greatly facilitated the success of these multi-state, multi-agency 
programs. The Navajo Nation thanks the subcommittee for its past 
support and requests the subcommittee's assistance for fiscal year 2012 
funding to ensure the Bureau of Reclamation's continuing financial 
participation in these vitally important programs.
                                 ______
                                 
               Prepared Statement of PNM Resources, Inc.
    Dear Chairman Feinstein and Senator Alexander: I am writing to 
request your support for continued funding in fiscal year 2012 for the 
Upper Colorado River Endangered Fish Recovery Program and the San Juan 
River Basin Recovery Implementation Program as authorized by Public Law 
106-392. These two successful ongoing cooperative partnership programs 
involve the States of Colorado, New Mexico, Utah and Wyoming, Indian 
tribes, Federal agencies and water, power and environmental interests. 
I request your support for an appropriation for fiscal year 2012 of 
$6,248,000 to the Bureau of Reclamation within the budget line item 
entitled ``Endangered Species Recovery Implementation Program'' for the 
Upper Colorado Region, consistent with the President's recommended 
budget. Substantial non-Federal cost-sharing funding is occurring 
pursuant to Public Law 106-392, as amended.
    The requested Federal appropriations are critically important to 
these efforts moving forward. The past support of your subcommittee has 
greatly facilitated the success of these multi-state, multi-agency 
programs. I thank you for the subcommittee's past support and request 
the subcommittee's assistance for fiscal year 2012 funding to ensure 
the Bureau of Reclamation's continuing financial participation in these 
vitally important programs.
                                 ______
                                 
      Prepared Statement of the Dolores Water Conservancy District
    Dear Chairman Feinstein and Senator Alexander: I am writing to 
request your support for continued funding in fiscal year 2012 for the 
Upper Colorado River Endangered Fish Recovery Program and the San Juan 
River Basin Recovery Implementation Program as authorized by Public Law 
106-392. These two successful ongoing cooperative partnership programs 
involve the States of Colorado, New Mexico, Utah and Wyoming, Indian 
tribes, Federal agencies and water, power and environmental interests. 
I request your support for an appropriation for fiscal year 2012 of 
$6,248,000 to the Bureau of Reclamation within the budget line item 
entitled ``Endangered Species Recovery Implementation Program'' for the 
Upper Colorado Region, consistent with the President's recommended 
budget. Substantial non-Federal cost-sharing funding is occurring 
pursuant to Public Law 106-392, as amended.
    The requested Federal appropriations are critically important to 
these efforts moving forward. The past support of your subcommittee has 
greatly facilitated the success of these multi-state, multi-agency 
programs. I thank you for the subcommittee's past support and request 
the subcommittee's assistance for fiscal year 2012 funding to ensure 
the Bureau of Reclamation's continuing financial participation in these 
vitally important programs.
                                 ______
                                 

                          DEPARTMENT OF ENERGY

          Prepared Statement of Technology International, Inc.
    The development and acceptance by the industry of technology 
development designed to minimize drilling risks needs to be supported 
by the United States Government to assure the safety of offshore 
drilling, especially in the deep water Gulf of Mexico.
    Surface seismic surveys provide the initial reservoir information 
for well planning deepwater wells. Seismic techniques are increasingly 
being developed to better image potential drilling hazards, such as 
unstable shallow gas pockets and abnormal high pressures ahead of the 
bit using so called ``look-ahead'' seismic. Accurate, high resolution 
seismic data often are not available for critical deepwater development 
projects because of inherent limitations of surface seismic technology 
and difficulties in getting an accurate characterization of formations 
where salt layers are present. Using borehole seismic technology 
throughout the drilling process can play an important role in 
generating more accurate, higher resolution seismic data for reducing 
the often substantial risks and uncertainty associated with deepwater 
drilling.
    Borehole seismic systems with a surface noise source and a downhole 
receiver are currently commercially available. However, these systems 
are expensive, cumbersome to deploy, have difficulty working in a salt 
environment, they do not provide the ability to ``look ahead of the 
drill bit,'' and the information available at the surface for real-time 
decisionmaking is constrained by the bandwidth of the MWD 
communications link, making this type of Seismic while Drilling [SWD] 
less practical in deep Gulf of Mexico applications. SWD with a downhole 
noise source, currently not available, could effectively overcome these 
limitations. Seismic while drilling would help reduce uncertainty and 
risk, and improve safety in the deepwater well construction process.
    A workshop sponsored by the DOE funded Research Partnership to 
Secure Energy for America [RPSEA] included invited 125 industry 
experts, selected based on their individual technical qualifications. 
The workshop was held on July 22, 2010 at the Houston Area Research 
Council [HARC] facility in Houston, where a diverse group of 
technologies that would help minimize drilling risks were identified 
and evaluated. Afterwards, a poll was taken of the workshop 
participants to identify those technologies that would be of greatest 
value for GOM drilling in deep water and should be the industry's 
highest priority. Two areas selected as highest priority to prevent 
another GOM well blowout were early detection of gas influx and better 
SWD data. Looking ahead of the bit, SWD using a downhole source is 
practical, and will, after sufficient funding becomes available, 
provide real-time seismic images used to accurately determine pressures 
ahead of the drill bit. The availability could be accelerated if DOE 
were to provide ``emerging technology funding'' to RPSEA to make ``look 
ahead'' seismic technologies available to the deepwater operators 
within 12-18 months.
                                 ______
                                 
              Prepared Statement of the Altira Group, LLC
    Gentlemen: I am writing this letter in support of the Department of 
Energy [DOE] Oil and Gas Research and Development Program and against 
the President's 2012 budget request to zero out this program.
    Oil and gas is an essential part of our energy needs now and for 
the foreseeable future. As a Nation we should be supportive of efforts 
to extract and utilize our natural resources as cheaply and cleanly as 
possible. These efforts require the R&D to identify new technologies 
and methodologies that are being actively supported by the RPSEA 
program.
    The RPSEA program that administers these research dollars is 
supported with matched funding of 50 percent or more from industry and 
the technical support and liaison of thousands of scientists and 
engineers. It is an archetype for an efficient public private 
partnership and serves a unique place in fostering research at a pre-
commercial stage in the development of technologies that are not 
supported by venture capital or industrial research programs.
    The oil and gas industry is a technologically driven industry. 
However, oil and gas companies produce oil and gas as their end 
products, not technology and they rely heavily on outside service 
companies. (This is particularly true for the U.S. Independents who 
develop most of our reserves.) Service companies, while good at 
deploying new technologies, are not adequately addressing our need for 
technological development. In addition, universities have not coped 
well with the boom bust industry patterns and are struggling to provide 
students adequate research opportunities. RPSEA has done a nice job of 
pulling these three constituencies together for relatively low cost and 
building a forward looking R&D structure for the country.
    Ultimately the R&D supported by RPSEA will lead to additional oil 
and gas development (and royalties to government), jobs to many of the 
providers of these technologies and ultimately greater energy security 
at a lower price.
    Please note, I am a venture capitalist (former oil and gas 
geophysicist) and a former Board Member of RPSEA. Our firm focuses on 
energy technology. Altira's portfolio companies have not received money 
from this program.
                                 ______
                                 
   Prepared Statement of the Universities Research Association, Inc.
    Chairman Feinstein, Ranking Member Murkowski, members of the 
subcommittee, on behalf of Universities Research Association, Inc. 
[URA], I appreciate this opportunity to comment on the administration's 
fiscal year 2012 budget submission for the Department of Energy [DOE]. 
URA, a non-profit organization comprised of 86 member universities, 
serves together with the University of Chicago through the Fermi 
Research Alliance, LLC, as the DOE contractor for the management and 
operation of the Fermi National Accelerator Laboratory (Fermilab). I 
write to express our grave concern for the future of fundamental 
research in the physical sciences in light of the proposed 2012 budget.
    Scientific research is critical to innovation, which is fundamental 
to job creating, economic growth, and global competitiveness. Studies 
have demonstrated unequivocally double-digit percent returns on the 
Nation's investments in fundamental discovery research. Once in an 
unquestioned lead role across all fields of research, we now face 
significant competition from other countries, like China, that have 
understood the importance of investment in science and technology for 
economic growth.
    The President continues to place a priority on the Department of 
Energy in his fiscal year 2012 budget request, proposing $29.5 billion 
which represents an increase of $3.1 billion (11.8 percent) above the 
fiscal year 2010 enacted level. Within the President's proposed overall 
freeze on non-security discretionary spending, this is a significant 
commitment by the administration. For DOE, as the Nation's premier 
funding agency for the physical sciences, it is welcome news that the 
President proposes $5.42 billion for the basic research carried out by 
the DOE Office of Science. The President would increase funding for 
fundamental research by about 9 percent above the fiscal year 2010 
level.
    However, the lack of balance within the research programs of the 
Office of Science is troubling. For example, the President proposes a 
24 percent funding increase for the Office of Basic Energy Sciences; a 
22 percent increase for the Office of Biological and Environmental 
Research; and a 21.5 percent increase for Advanced Scientific Computing 
Research. In contrast, High Energy Physics is essentially frozen at the 
fiscal year 2010 enacted level ($797.2 million, an increase of $6.4 
million or 0.8 percent), and Fusion Energy Sciences is reduced below 
the fiscal year 2010 funding request to $399.7 million (a reduction of 
$18 million or 4.3 percent).
    This is a particularly critical time for High Energy Physics as 
Fermilab, the Nation's only national laboratory devoted to research in 
particle physics, transitions from the highly successful running of the 
Tevatron Collider to new projects at the Intensity Frontier of particle 
physics. The Tevatron will shut down at the end of fiscal year 2011, as 
originally planned, now that the Large Hadron Collider in Europe has 
become the focus of research at the Energy Frontier. Fermilab is ready 
to begin new experiments that will put the United States at the 
forefront of studies of neutrinos, a key area of study to understand 
the Standard Model and how the universe began. The delay in completing 
the fiscal year 2011 appropriations bills, in turn, has delayed the 
start of the new undertakings critical to the future of the laboratory.
    High Energy Physics has blazed the path of international 
cooperation on large scientific projects with scientists collaborating 
on the planning, design, construction, and operation of facilities all 
over the world. The field hosts thousands of researchers each year at 
the various experiments and serves as a premier training ground for 
American university students to develop the next generation of 
scientists, engineers, and technicians to carry out discovery science 
and innovation. High Energy Physics, and Fermilab in particular, has 
long reached out to K-12 students to engage their interest in the 
science, technology, engineering, and mathematics [STEM] fields, which 
are important to the future economic competitiveness of the Nation.
    The COMPETES Act, reauthorized by Congress only this past December, 
affirms a bipartisan commitment to double the science budgets of DOE 
and NSF over the next 10 years. The current budget situation is indeed 
critical. But the growth, prosperity, and employment increase needed to 
deal with it over the long term are not achievable without the vibrant 
economy made possible through the innovation and research in which the 
physical sciences play a key role.
    As a university-based organization in partnership to operate and 
manage Fermilab, we urge the subcommittee to support funding for High 
Energy Physics within an overall balanced research program in the basic 
physical sciences within the Office of Science. We urge that the 
subcommittee approve, at a minimum, the President's request for High 
Energy Physics and specifically that it approve the $56 million 
associated with the planned new experiments at Fermilab.
    Board of Trustees: Norman R. Augustine, CEO (ret.), Lockheed Martin 
Corporation; Steven C. Beering, President Emeritus Purdue University; 
Robert Brown, President, Boston University; Jared L. Cohon, President, 
Carnegie-Mellon University; David E. Daniel, President, University of 
Texas at Dallas; Marye Anne Fox, Chancellor, University of California, 
San Diego; Emanuel J. Fthenakis, Fairchild Industries (ret.); Robert W. 
Galvin, CEO (ret.), Motorola, Inc.; William H. Joyce, Chairman and CEO, 
NALCO Company and Chairman and CEO, Advanced Fusion Systems; Leon M. 
Lederman, Illinois Math and Science Academy and Director Emeritus, 
Fermi National Accelerator Laboratory; Bernard Machen, President, 
University of Florida; John H. Marburger, Vice President for Research 
and Professor of Physics, Stony Brook University; Richard A. Meserve, 
President, Carnegie Institution of Washington; Lou Anna Simon, 
President, Michigan State University; Robert N. Shelton, President, 
University of Arizona; Joe B. Wyatt, Chancellor Emeritus, Vanderbilt 
University, Chairman Universities Research Association, Inc.
                                 ______
                                 
Prepared Statement of the New Mexico Institute of Mining and Technology
    Dear subcommittee members: I am appealing to you to help deter the 
proposed budget cuts to the U.S. DOE's Fossil Energy Research and 
Development Program. My specific concern is for the National Energy 
Technology Laboratory [NETL] and its programs (such as Strategic Center 
for Natural Gas and Oil, NETL), which will be affected by the proposed 
cuts. The NETL provides the sustenance for important programs in 
research, education, and technology transfer.
    The NETL is the only U.S. National Laboratory dedicated to fossil 
energy technology. It funds a wide range of energy and environmental 
research and development programs that will benefit the United States 
for years to come. The NETL truly plays a crucial role in keeping 
oilfield research alive in the United States, increasing in importance 
in recent years as research activities within the oil industry decline 
drastically. Major companies have dramatically reduced their research 
capabilities while the independent oil and gas producers have virtually 
none. It is possible that the United States could lose its leadership 
role in oil and natural gas research and technology unless the oil and 
gas programs of the NETL can be maintained.
    It has been proposed that NETL's Natural Gas/Oil Technology program 
will be reduced in fiscal year 2011-2012. If this comes to pass, 
research programs both here at New Mexico Tech and all over the country 
could be severely impacted. Research conducted at American colleges and 
universities to increase domestic oil and natural gas production, to 
assist independent oil and natural gas producers, and to provide 
education and training in the newest technologies, will suffer. Efforts 
to provide technology transfer to the independent oil and natural gas 
producers of our oil and gas-producing States will likewise be 
drastically curtailed.
    The independent producers of the United States are now responsible 
for most domestic oil and gas production, as the major oil companies 
have increasingly sold their domestic oil assets to independents. 
Research sponsored by the DOE through such entities as NETL is the only 
significant source of unbiased technical research and development for 
these companies. As research at the National Laboratories, and the 
petroleum engineering departments and research institutes all over the 
United States will be severely impacted without this funding, service 
companies cannot fill the void created by this loss of research effort.
    Thus, one of the most strongly affected groups will be the 
independent oil and gas producers of the United States, who are now the 
backbone of the domestic industry. For many years, the NETL has 
supported enhanced oil recovery research in support of our Nation's 
independent producers, as well as natural gas research and technology. 
The lack of NETL-funded energy research may not be significant to major 
oil companies, but it will certainly burden these local, relatively 
smaller, independent oil and gas producers.
    Another facet of technology transfer that must not be overlooked is 
information. The information most needed by small producers are: 
production data, well information, surface leasing information and many 
user-friendly software packages. DOE funding enables outreach groups 
affiliated with universities to offer these data free online. This in 
turn allows small producers to substantially reduce their overhead, 
thus enabling them to compete in the oil and gas industry.
    Finally, if oilfield research is discontinued, the vast amounts of 
residual oil remaining to be recovered in United States oilfields (more 
than 300 billion barrels) will be abandoned. Most of this cannot be 
recovered without the technological breakthroughs currently being 
sought through research funded by NETL. Reduced domestic oil production 
could potentially compromise our Nation's economic growth and security, 
forcing more and more reliance on imports.
    In conclusion, science and industry have looked to the NETL for 
many years to help provide solutions for the survival of domestic oil 
and gas production. The continued existence of many of our research 
organizations and academic departments depends on continuation of 
Federal funding in order to carry out their multiple missions of 
education, technology transfer and research, which will ultimately 
benefit the Nation. Loss of the NETL's oil and gas research funding, on 
the other hand, will damage these missions and ultimately diminish our 
pre-eminence.
                                 ______
                                 
 Prepared Statement of the American Association of Petroleum Geologists
    To the Chair and members of the subcommittee: Thank you for this 
opportunity to provide testimony on the importance and need for strong 
Federal R&D activity in the areas of oil and natural gas, coal, and 
geothermal technologies. These activities reside in the U.S. Department 
of Energy's fossil energy program (oil, natural gas, coal) and energy 
efficiency and renewable energy program (geothermal). They are an 
essential investment in this Nation's energy security.
    The American Association of Petroleum Geologists [AAPG] is the 
world's largest scientific and professional geological association. The 
purpose of AAPG is to advance the science of geology, foster scientific 
research, and promote technology. AAPG has nearly 34,000 members around 
the world, with roughly two-thirds living and working in the United 
States. These are the professional geoscientists in industry, 
government, and academia who practice, regulate, and teach the science 
and process of finding and producing energy resources from the Earth.
    AAPG strives to increase public awareness of the crucial role that 
geosciences, and particularly petroleum geology plays in our Nation's 
economic and social fabric.
    It is widely accepted that U.S. energy supplies will come from 
increasingly diverse sources over coming decades. New and alternative 
energy sources will supplement conventional energy sources to meet the 
Nation's growing energy needs at affordable prices. Diversity in energy 
supplies enhances U.S. energy security by reducing our reliance on any 
single energy source.
    Scientific and technological advances are necessary to ensure that 
this energy diversification occurs without economically damaging 
disruptions. This is very much in the public interest and a compelling 
reason why Federal research and development [R&D] investment is needed.
    What is often misunderstood, however, is that this R&D investment 
cannot be solely focused on new and alternative energy sources. 
Ensuring the uninterrupted availability of conventional energy, which 
provides the bulk of the Nation's energy today, also requires new 
scientific insights and technological breakthroughs.
    In fact, our Nation is not facing a choice between conventional and 
alternative energy sources--a choice between yesterday's energy and 
tomorrow's energy--although that is how the debate is often framed.
    Oil, natural gas, and coal currently supply 83 percent of the 
Nation's energy. These resources are the foundation of our energy 
future. Upon this foundation we are now developing and deploying new 
and alternative energy sources.
    Our Nation's R&D choices must recognize the need to keep this 
foundation strong while also developing new energy sources for the 
future. Both of these tasks require sustained R&D investment.
                oil and natural gas technologies program
    AAPG strongly urges continued funding of the DOE oil and natural 
gas technologies programs, which the President has proposed for 
termination.
    Oil and natural gas supply 62 percent of our Nation's energy. Oil 
is the source of virtually all transportation fuels. Natural gas heats 
homes and businesses, generates electricity, is a chemical feedstock, 
and has potential for transportation systems. Supplying the oil and 
natural gas consumed today and in the future requires significant 
technological advancements.
    Several commonly overlooked trends in the oil and natural gas 
sectors support a Federal role in oil and natural gas technologies R&D:
  --The independent oil and gas producer is responsible for finding and 
        producing most U.S. oil and natural gas resources. According to 
        the Independent Petroleum Association of America [IPAA], a 
        trade association, independent producers produce 68 percent of 
        the Nation's oil, 85 percent of the Nation's natural gas, and 
        drill 90 percent of the Nation's oil and natural gas wells. The 
        median-sized independent producer is the epitome of American 
        small business.
  --Independents typically work on projects that are too small for 
        vertically integrated ``major'' oil and gas companies to 
        develop commercially. Technology is vitally important for 
        locating these resources underground, but these producers do 
        not have the capacity to conduct independent research.
  --Increasingly domestic oil and natural gas production is coming from 
        non-traditional (unconventional) resources, such as the Barnett 
        Shale of Texas or the Bakken formation of the Willison Basin. 
        These resources play a vital role in building our Nation's 
        energy future, and their development requires significant R&D 
        investment.
  --Federal R&D has historically provided support for the Nation's 
        universities and colleges, which have proven to be a rich 
        source of technological innovation. But as Federal support for 
        oil and natural gas technology development has waned, so has 
        the ability to conduct this type of research and train the next 
        generation of U.S. scientists and engineers. There is a serious 
        workforce shortage both in industry and government, and is the 
        subject of a new study by the National Research Council.
    The goal of a robust Federal R&D program in oil and natural gas 
technologies is to enable and encourage the environmentally responsible 
development of the Nation's petroleum resources on behalf of the 
American people. This includes conventional oil and natural gas, non-
traditional resources, and emerging resources, such as methane from 
methane hydrates, which according to a recent study by the National 
Research Council ``could help to provide greater energy security for 
the United States and to help address future energy needs globally.''
    We request the Subcommittee on Energy and Water Development and 
Related Agencies appropriate $100 million for oil and natural gas 
technology programs to be administered by the Department of Energy's 
Office of Fossil Energy to support research projects that target 
increased production of domestic oil and natural gas resources.
                              coal program
    The Nation's coal resources are essential to U.S. energy security. 
AAPG supports research and development funding for coal, including 
clean coal technologies such as carbon capture and sequestration. AAPG 
urges Congress to reject the President's proposed cuts to this program 
and provide funding of $393 million, equal to fiscal year 2010 
appropriations, for these activities.
    Again, these investments must be balanced. In evaluating the DOE 
coal program, I urge you to review the findings of the National 
Academy's report entitled Coal: Research and Development to Support 
National Energy Policy, released in June 2007. The study finds that 
while there are significant uncertainties in U.S. coal reserve and 
resource estimates, there is sufficient coal at current consumption to 
last for more than 100 years.
    However, there is a real need for more ``upstream'' coal research 
to increase our understanding of the Nation's resource base. The study 
group observed that presently over 90 percent of Federal R&D spending 
for coal is on the ``downstream'' side, focused on utilization, carbon 
capture and sequestration, and transport and transmission. Only 10 
percent goes to resource and reserve assessment, mining and processing, 
environment/reclamation, and safety and health.
                 geothermal energy technologies program
    Geothermal energy is an important alternative energy resource that 
provides baseload power to the Nation's electrical grid. Significant 
expansion of geothermal power production may be possible through the 
development of enhanced or engineered geothermal systems, as well as 
mining heat from low-temperature, co-produced, and fluids in permeable 
sedimentary resources.
    AAPG supports the President's $101.5 million request for the DOE 
geothermal program.
                                summary
    Our Nation has the resources and capacity for a bright energy 
future. Realizing this future requires prudent R&D investment to supply 
the conventional energy sources we will rely on in coming decades, and 
the breakthroughs in new and alternative energy sources that will power 
the future. Thank you for the opportunity to submit this testimony.
                                 ______
                                 
    Prepared Statement of Wilkes University, College of Science and 
                              Engineering
    I am writing to provide support and a recommendation for the 
Subcommittee on Energy and Water Development to fund a U.S. Department 
of Energy [DOE] research program on Potential Impacts of Hydraulic 
Fracturing and Shale Gas Development on Drinking Water Resources and 
Environmental Systems (e.g., streams and rivers). I am an aquatic 
ecologist and Dean of the College of Science and Engineering at Wilkes 
University (Wilkes-Barre, Pennsylvania). In the interest of 
transparency, I also need to point out that I am a principal 
investigator on a 1 year water quality research project with DOE NETL 
(National Energy Technology Laboratory, Morgantown, West Virginia) that 
will be addressing short term (1 year) concerns regarding surface water 
quality, watersheds, and aquatic ecology relative to selected sites and 
Marcellus gas development in northeastern and northcentral 
Pennsylvania; our project will also provide information based on the 
best science to the people in the region.
    It should be noted that I am not opposed to shale gas development 
in Pennsylvania (or elsewhere), but do believe this development needs 
to proceed with the necessary protection of public health and 
environmental safeguards for natural resources that are important to 
the State economy and quality of life (hunting, fishing, boating and 
canoeing, recreational use of natural areas, tourism, etc.). These 
safeguards of environment and public health must be based on good 
science (i.e., research that is sorely needed at present), 
comprehensive scientific data relative to regionally unique geology, 
ecology, and hydrology, and best engineering and industrial operations 
and practices by the energy companies.
    It has been my impression over the past year as a participant in 
various meetings, conferences, coordination with DOE, and exchanges 
with energy representatives that some of the leaders in energy 
development (e.g., Range Resources and Chesapeake Energy) are trying to 
implement best operational and engineering practices. Nevertheless, an 
independent research program by Federal agencies such as DOE is 
necessary for evaluating the outcome and appropriateness of these 
practices. Energy companies, concerned with community issues of safe 
drinking water and protection of aquatic resources, may be operating 
with good intentions, but there is no comprehensive research effort by 
a Federal agency to test and evaluate proposed best industrial 
practices (e.g., centralizing water reuse facilities, testing private 
drinking water wells beyond current regulations, providing equipment 
for environmental monitoring of water quality) on their actual 
effectiveness to protect human and environmental health. In short, 
there is little to no impartial, science-based validation of proposed 
best practices before they are widely implemented.
    I wish to make the following points in my testimony: (1) the 
important role that DOE must play in such a research program; (2) the 
need for new research on shale gas development due to the unique 
geology and hydrology of the Appalachian Region (i.e., methods 
developed for Texas and Alaska do not necessarily apply in Pennsylvania 
or New York); (3) relationship of DOE research to EPA's research plan 
on hydraulic fracturing and drinking water alone; and (4) the benefits 
of a broad based research program to gain public acceptance, avoid 
lawsuits and extreme costs of clean-up, and avoid wide-scale public 
rejection.
 role and relevance of a doe research program for shale gas development
    The DOE National Laboratory System (including the National Energy 
Technology Laboratory) is ideally suited to address issues of public 
health and environmental integrity of natural resources from a holistic 
perspective. DOE is the primary Federal agency conducting research on 
technology to support commercial development of energy resources and is 
charged with promoting the energy security needs of our country. Almost 
all of the DOE national labs have a unique capability for environmental 
research. Before coming to Wilkes University in 1991, I spent 7 years 
as an environmental research scientist at DOE's Idaho National 
Engineering Laboratory (with EG&G Idaho, the prime contractor) and over 
a 2 year period, I was a research data facilitator for seven national 
labs from coast to coast. I am familiar with this research mission of 
the DOE national labs and know that its current research budget for the 
environmental aspects and potential impacts from shale gas development 
is very limited. The advantage that DOE has is its interdisciplinary 
approach to energy research, cost effectively matching technology with 
best engineering practice, to best protect human health and 
environmental integrity.
         unique geology and hydrology of the appalachian region
    Hydraulic fracturing for shale gas is not a new technology and it 
has been used in other regions of the United States. However, the 
geology and hydrology of the Appalachian Region of the Marcellus Play 
differs considerably from these other regions (e.g., Texas, Oklahoma, 
and Alaska) where hydrofracing has been implemented with considerably 
less public concern about human health and the environment. Based on 
the experience of Wilkes University faculty geologists and hydrologists 
in northeastern Pennsylvania, our region is extremely variable and 
complex in its geology and groundwater hydrology. There are localized 
faults and fractures in various geologic and hydrologic structures that 
can affect quality of water supply even without the disruptive effects 
of drilling. In addition, Pennsylvania has one of the highest rural 
populations in the United States and many people rely on private 
drinking water wells. Furthermore, there are no State standards for 
casing and most private wells in Pennsylvania do not have casing, or at 
best have inadequate casing. Only good data, designed to ask the 
appropriate research questions, will avoid the ensuing problems of this 
unusual but critical set of circumstances: local and regional faults 
and fractures in various geologic strata, complex geology and 
hydrology, high rural populations, and lack of standards on well 
casings. Without an organized Federal research program in this regard, 
the public outcry and resistance will only increase. Clean-up costs 
where obvious accidents may occur could be enormous. An ounce of 
prevention (good research and data on the effectiveness of best 
practices) is worth a pound of cure.
          relationship of doe research to epa's research plan
    At this time, it appears that Congress has provided some modest 
research funds for EPA's Draft Hydraulic Fracturing Study Plan that was 
posted for peer review by its (http://water.epa.gov/type/groundwater/
uic/class2/hydraulicfracturing/index.cfm) Science Advisory Board on 
February 8, 2011. While this plan is a good start, it is inadequately 
funded for research and monitoring over the necessary longer time 
period of gas development, and it is focused totally on drinking water. 
Also, EPA is a regulatory agency, and its research will take that 
direction. In contrast, if funding is available (i.e., via this 
Subcommittee on Energy and Water Development) to DOE, then this 
agency's unique interdisciplinary mix of technological research with 
outstanding research expertise in environmental and ecological systems 
would complement EPA's expertise and regulatory focus. In short, DOE is 
well-positioned to support both technological advances and improvements 
to gas development and to assess its performance and outcome for 
effectiveness with research on critical environmental and ecological 
endpoints.
         benefits of a shale gas research program to the public
    Recent articles in the New York Times and the Philadelphia Enquirer 
highlight the growing distrust of the public regarding public health 
and protection of natural resources--for example see: (http://
www.nytimes.com/2011/02/27/us/27gas.html?_r=1&ref=us) and (http://
www.philly.com/philly/news/20110403_Shale-
gas_regulation_near_river_divides_Pa_.html?viewAll=y&c=y), 
respectively. In some cases, public reaction amounts to fear of the 
unknown; in other cases, significant environmental or public health 
concerns are real and valid. Nevertheless, the concern by the public 
(and the scientific community) can only be addressed by an adequate 
research program aimed at an integrated approach to groundwater 
concerns (including drinking water wells), and the ecological health of 
streams and rivers, and natural areas (e.g., issues with forest and 
wildlife habitat fragmentation). The DOE national laboratory system is 
well suited to take on this challenge in an effective fashion and work 
with other Federal agencies in a collaborative fashion.
    Recommendation.--For these reasons, I strongly recommend that the 
Subcommittee on Energy and Water Development fund critically needed DOE 
research to help ensure public health and to safeguard environmental 
and ecological resources. A minimum DOE research budget of $10 million 
a year for at least 5 years is recommended. Thank you for considering 
my testimony.
                                 ______
                                 
        Prepared Statement of the American Geological Institute
    To the chairman and members of the subcommittee: Thank you for this 
opportunity to provide the American Geological Institute's perspective 
on fiscal year 2012 appropriations for geoscience programs within the 
subcommittee's jurisdiction. The President's budget request for the 
Department of Energy [DOE] research programs provides important and 
modest investments in research and development [R&D] that will help 
support economic growth, job creation and energy independence, 
diversification and sustainable management. AGI strongly supports the 
wise and increased investments in the Office of Science ($5.4 billion) 
and Energy Efficiency and Renewable Energy ($3.2 billion) (particularly 
the increase for geothermal R&D within EERE). AGI strongly supports 
investments in geoscience education, training and workforce development 
through the Office of Science's Workforce Development for Teachers and 
Scientists ($35 million).
    AGI is concerned about the termination of limited investments in 
oil and natural gas R&D within the Office of Fossil Energy. Oil and 
natural gas supply 62 percent of our Nation's energy and will continue 
to play a major role in the future. These investments will drive 
innovation to support and improve safe and effective domestic 
development of clean fossil fuels. The bulk of DOE's oil and gas R&D 
investments go to institutions of higher education for training and 
research. The United States has a substantial workforce and significant 
investments in oil and natural gas research, development, exploration 
and production. Steady, but modest Federal investments in fossil energy 
R&D with a longer term strategic plan would benefit the academic, 
private and public sectors.
    The Office of Fossil Energy suffers from an unbalanced portfolio 
that focuses primarily on coal, faces uncertainty about direction and 
investments, and receives inconsistent funding. We ask for the 
subcommittee's support for oil and gas, unconventional natural gas, 
geothermal, hydropower, methane hydrates and carbon sequestration R&D 
so the Nation can develop a diverse portfolio of energy resources while 
enhancing carbon mitigation strategies to secure clean, affordable and 
secure energy supplies for now and the future.
    AGI is a nonprofit federation of 49 geoscientific and professional 
associations that represents more than 120,000 geologists, 
geophysicists, and other earth scientists. The institute serves as a 
voice for shared interests in our profession, plays a major role in 
strengthening geoscience education, and strives to increase public 
awareness of the vital role that the geosciences play in society's use 
of resources and interaction with the environment.
                         doe office of science
    The DOE Office of Science is the single largest supporter of basic 
research in the physical sciences in the United States, providing more 
than 40 percent of total funding for this vital area of national 
importance. The Office of Science manages fundamental research programs 
in basic energy sciences, biological and environmental sciences, and 
computational science and, under the budget request, would grow by 
about 9 percent from about $4.9 billion in 2010 to $5.4 billion in 
fiscal year 2012. AGI asks that you support this much needed increase.
    The President's request would provide $35 million for Workforce 
Development for Teachers and Scientists, a program aimed at ensuring 
that DOE and the Nation have a sustained pipeline of highly skilled and 
diverse science, technology, engineering, and mathematics [STEM] 
workers. AGI strongly supports investments in geoscience education, 
training and workforce development within DOE and other Federal 
agencies.
               doe energy efficiency and renewable energy
    Within Energy Efficiency and Renewable Energy, the President's 
fiscal year 2012 budget request would increase investments for R&D for 
many renewable energy resources. AGI applauds the $102 million 
requested for geothermal R&D and greatly appreciates previous support 
from Congress for this key alternative energy resource. The geothermal 
research program within the Renewable Energy account, which funds Earth 
science research in materials, geofluids, geochemistry, geophysics, 
rock properties, reservoir modeling, and seismic mapping, will provide 
the Nation with the best research to build a successful and competitive 
geothermal industry. AGI also supports an Energy Innovation Hub focused 
on critical materials and hope this hub will consider ways to improve 
exploration, extraction and processing of necessary raw materials as 
well as replacement materials.
               doe fossil energy research and development
    AGI urges you to look critically at the Fossil Energy Research and 
Development [R&D] portfolio as you prepare to craft the fiscal year 
2012 Energy and Water Development Appropriations bill. Many members of 
Congress have strongly emphasized the need for a responsible, 
diversified and comprehensive energy policy for the Nation. The growing 
global competition for fossil fuels has led to a repeated and concerted 
request by Congress to ensure the Nation's energy security. The 
President's proposal, which provides no funding for oil and gas R&D, is 
short sighted and inconsistent with congressional and public concerns. 
No funding for oil and gas R&D will hinder our ability to achieve 
energy stability and security.
    The research dollars invested in oil and gas R&D go primarily to 
universities, State geological surveys and research consortia to 
address critical issues like enhanced recovery from known fields and 
unconventional sources that are the future of our natural gas supply. 
This money does not go into corporate coffers, but it helps American 
businesses remain competitive by giving them a technological edge over 
foreign companies. All major advances in oil and gas production can be 
tied to research and technology. AGI strongly encourages the 
subcommittee to ensure a balanced and diversified energy research 
portfolio that does not ignore the Nation's primary sources of energy 
for the near future, fossil fuels.
    Thank you for the opportunity to present this testimony to the 
subcommittee.
                                 ______
                                 
                    Prepared Statement of GE Energy
    Overview.--The following testimony is submitted on behalf of GE 
Energy [GE] for the consideration of the subcommittee during its 
deliberations regarding the fiscal year 2012 budget requests for the 
Department of Energy [DOE]. GE recognizes that particularly difficult 
choices must be made in fiscal year 2012. These budget pressures make 
it essential that the subcommittee prioritize those programs that will 
contribute to economic growth and jobs creation and support core 
technology development. GE recommends: (1) in the coal budget, 
increased investment in integrated gasification combined cycle 
technology development; (2) funding at the levels requested by the 
administration for solar and wind technologies; and (3) support for 
Smart Grid Research and Development.
                             fossil energy
    Coal Program, Advanced Energy Systems, Gasification Systems.--The 
proposed fiscal year 2012 budget would reduce gasification R&D by 32 
percent from the fiscal year 2010 funding level. This trend confirms a 
fundamental shift in DOE's focus to advanced combustion/post-combustion 
carbon capture--ostensibly due to potential application to new and 
existing plants. GE believes that this is a flawed strategy that 
compromises the future of coal. It ignores the superior environmental 
performance of Integrated Gasification Combined Cycle [IGCC] with 
respect to water usage, criteria pollutant emissions, hazardous air 
pollutants and useful coal byproducts. It also ignores the proven 
ability of IGCC with full-scale, commercially proven, pre-combustion 
carbon capture to provide the lowest avoided cost of CO<INF>2</INF> 
compared to other technologies.
    It remains the case, however, that the base cost of IGCC must be 
reduced further to provide a low carbon option for coal that does not 
depend on incentives. Today the higher initial capital cost of IGCC 
combined with the current low cost of natural gas places IGCC at a 
disadvantage. DOE studies have shown that IGCC with carbon capture and 
sequestration [CCS] can achieve a cost of electricity equal to current 
new coal generation without CCS, but not without further technology 
improvements. The fiscal year 2012 budget is insufficient to develop 
these improvements.
    DOE should prioritize technology programs having dual benefits in 
terms of reducing base plant cost that will also reduce the avoided 
cost of CO<INF>2</INF> as compared to conventional coal with carbon 
capture. GE recommends that the fiscal year 2012 budget for IGCC 
restore the fiscal year 2010 funding level of $63 million to support 
programs having nearer term and dual benefits: (1) design for 
constructability and cost/technology tradeoff modeling ($8 million); 
(2) design methodologies and technologies for availability and 
reliability ($7 million); and (3) operational flexibility for 
tomorrow's grid ($5 million) (to support the higher penetration of 
renewable generation).
    Clean Coal Power Initiative [CCPI].--The CCPI is an outlet for 
validation at commercial scale and prototype application of technology 
from the coal R&D programs. The oversubscription of the CCPI-3 
solicitation demonstrated industry's interest in undertaking coal 
projects. However, the continuing uncertainty of carbon policy makes 
private investment in demonstrations that explicitly require carbon 
capture and sequestration--which reduces plant output, reduces 
efficiency, increases fuel consumption and exposes the project 
developer to potential legal risk--difficult to justify.
    Taking these concerns into consideration, GE recommends that DOE 
move forward with the development of a CCPI-4 solicitation no later 
2015. The solicitation should not exclusively require CCS, but should 
include EOR and other beneficial uses of CO<INF>2</INF>, and should 
allow for technologies that have dual benefits as described above. A 
phased program should be employed for projects that incorporate CCS, to 
begin with funding of front-end engineering designs [FEEDs] and site 
characterization before proceeding further. This will enable a utility 
to provide accurate cost data to its regulators and demonstrate that it 
has a sequestration resource with sufficient capacity for the life of 
its plant.
    Advanced Energy Systems, Hydrogen Turbines.--The proposed fiscal 
year 2012 budget will reduce funding for the Hydrogen Turbine program 
by 53 percent from fiscal year 2010. The program has been successful in 
meeting technical goals and working toward offsetting much of the 
performance penalty associated with coal-fueled IGCC carbon capture 
while also achieving very low NO<INF>X</INF> emissions. However, 
funding limitations have delayed the program from meeting its original 
2015 goals until 2016-2017, and the fiscal year 2012 budget reduction 
will extend the delay out until 2020. This presents a high risk of 
technology not being ready for the next CCPI demonstration opportunity. 
GE recommends funding of $45 million in fiscal year 2012 to help 
recover schedule so that advanced hydrogen turbine technology is ready 
for the next CCPI opportunity.
    Water Management.--Large amounts of water are needed to produce or 
extract energy, and large amounts of energy are needed to treat or 
transport water. EPA has recently released a proposed Cooling Water 
Intake Rule that underscores the important linkage between water use 
and energy generation. What is more, CO<INF>2</INF> capture increases 
raw water usage by up to 125 percent, depending on the underlying 
technology. In order to achieve DOE's aggressive goals of reducing 
freshwater withdrawals and consumption 50 percent by 2015 and 70 
percent by 2020, water-related R&D funding is needed. Despite this 
need, yet again this year, DOE has requested no new funding for the 
Water Management subprogram, and also has stated that all projects 
involving Water Management are to be suspended.
    GE believes that funding should be provided for R&D for innovative 
water reuse technologies and demonstration projects including: cooling 
tower blowdown reuse, Flue Gas Desulphurization [FGD] wastewater reuse 
and recovery, ash pond solids reduction, and treatment and reuse of 
produced water from unconventional oil and natural gas production to 
further reduce environmental impacts and operational costs of upstream 
energy processes. Support also is needed to advance reuse/treatment 
technologies for the conversion of impaired wastewater streams into 
sources of renewable water in areas of water scarcity, reducing the 
need to use energy to transport water over long distances and to 
support electricity generation.
                            renewable energy
    Solar.--GE urges Congress to fully fund the DOE's fiscal year 2012 
budget request for Solar Energy. This request for $457 million 
represents a necessary commitment to accelerate the development and 
deployment of solar, particularly Photovoltaics [PV]. GE is investing 
significantly in solar PV technology with a focus on cost reduction. 
Public funding for technology innovation and R&D is critical to 
improving solar's cost competitiveness with traditional power 
generation technologies and to achieving the ambitious goal of a 
dollar-a-watt installed price for solar electricity before the end of 
the decade. In addition, funding for Systems Integration will provide 
more solutions for higher penetration of PV on the grid. By enhancing 
the affordability and reliability of solar, these investments in R&D 
and grid integration can advance the adoption of this technology by 
utilities and other consumers.
    Wind.--GE also urges Congress to fully fund the DOE's fiscal year 
2012 budget request for Wind Energy of $127 million. This funding will 
support the continued evolution and scaling of this technology. GE is 
the leading wind turbine supplier in the United States and has invested 
over $1 billion in wind technology development since 2002. Further 
progress in improving the cost, performance, and reliability of wind 
technology is critical. In particular, we believe the program's 
increased focus on advanced drivetrains, control systems, and 
components represent important investments in areas where public R&D 
plays a critical role in accelerating technology development and 
deployment. In addition, continued support for the DOE's new offshore 
wind R&D and demonstration program will be essential to the development 
of a domestic offshore wind market and manufacturing base.
                               smart grid
    Electricity Delivery and Energy Reliability.--GE supports the 
fiscal year 2012 budget request for Smart Grid Research and 
Development. R&D on Smart Grid technologies will advance reliable, 
affordable, efficient, and secure delivery of electric power to 
industrial, commercial, and residential customers, while at the same 
time transitioning the grid to support new forms of renewable energy. 
Integration of traditional grid electric infrastructures with modern IT 
computer and communications systems will be necessary, and GE is 
working closely with national and international standards development 
organizations in the development of Smart Grid interoperability 
standards. Cybersecurity is a fundamental design principle of this 
effort.
    R&D is required to develop advanced grid analytics software to 
optimize grid efficiency and reliability, including ``Big Data'' 
storage and real time analysis and exascale computing. Funding through 
ARPA-E and its Wireless Innovation Fund also will be critical to the 
development of cutting edge wireless technologies needed for the 
acquisition of data for grid analytic programs.
    In order to reduce risk and accelerate the adoption of new advanced 
Smart Grid technologies R&D funding will be required for the 
development of Smart Grid modeling, simulation, and visualization of 
both the transmission and distribution networks. Advanced modeling 
capabilities will serve as a critical tool in the modernization of the 
electric grid by assisting grid operators in identifying the technical 
limits of conventional grid technologies, and facilitating development 
of new technologies and solutions to respond to a changing energy mix 
and an increasingly responsive consumer base. In addition, advanced 
modeling capabilities can enable grid operators and power systems 
planners to aggregate, analyze, and act upon the vast quantities of 
data collected by Smart Grid technologies, thereby unlocking the full 
potential of the Smart Grid. DOE should expand industry participation 
in this program to fully leverage work already underway.
    Smart Grid Renewables & EV Research and Development.--The Smart 
Grid can fundamentally change the way electricity is generated, 
transmitted, and consumed, thereby delivering substantial improvements 
in the efficiency and reliability of our Nation's electric grid. 
Additional research is needed in areas such as the integration of plug-
in hybrid electric vehicles and advanced management of distribution 
voltage.
    GE recommends that in order to achieve higher levels of renewables 
penetration, R&D funding should be set aside for power electronics 
development. GE recommends that Congress provide support for DOE to 
conduct research into applications of power electronics to support 
Smart Grid technologies.
    Energy Storage.--GE endorses the requested funding for further 
research into energy storage technologies. The fiscal year 2012 budget 
request appropriately broadens the scope of interest to include 
innovations in new battery chemistries. This could lead to radical 
improvements in energy storage performance. Electricity storage is a 
critical technology to enable both deployment of electric vehicles and 
improvements in grid stability and efficiency through utility scale 
storage.
    GE recommends that equal attention should be given to both electric 
vehicles and storage. The requirements of utility scale storage are 
quite different from those of electric vehicles. GE recommends 
inclusion of research into large-scale energy storage into this line 
item. This includes all potential storage modalities such as compressed 
air, pumped hydro, and flywheel technologies.
                        combined heat and power
    Industrial Technologies Program.--GE supports the request for $25 
million in funding for the Combined Heat and Power Generation line item 
of the Industrial Technologies Program. This funding has enabled 
demonstration of a reciprocating natural gas engine operating at 47 
percent efficiency, up from a baseline of 37 percent while preserving 
the exhaust heat for combined heat and power [CHP] applications. When 
used in combined heat and power applications the total efficiency can 
reach 90 percent, making this by far the highest efficiency and lowest 
emission solution for distributed electricity generation. Gas engines 
also have rapid start and efficient load following capability making 
this a key technology to ensure continued stable electric grid 
operation with increasing addition of variable resources such as wind. 
Continued funding will enable completion of the final phase of 
demonstrating 50 percent efficiency.
                                 ______
                                 
        Prepared Statement of the Colorado Oil & Gas Association
    The Colorado Oil & Gas Association [COGA] is submitting written 
testimony to express our concern with the President's 2012 budget 
request to eliminate funding for the Department of Energy's [DOE] Oil 
and Gas Research and Development Program (R&D Program). COGA is worried 
that defunding a program designed to ensure the United States is able 
to take full advantage of clean and abundant domestic energy sources 
will curtail innovative technology, slow economic recovery, and 
increase our dependence on foreign energy sources.
    COGA is a Colorado nonprofit corporation formed to foster and 
promote the beneficial, efficient, responsible and environmentally 
sound development, production and use of Colorado oil and natural gas. 
Colorado's oil and gas industry contributes to the economic recovery by 
supporting over 190,000 jobs for families and much-needed revenues for 
State and local governments while providing Americans with clean, safe, 
affordable, and abundant domestic energy sources. The ramifications of 
defunding the R&D Program will be felt across the Nation, including 
Colorado which has recently had vast amounts of extractable resources 
become economical because of technological innovation.
    Since the late 1970s the DOE has engaged in research and 
development for oil and gas, making valuable contributions to 
development of our vast domestic energy resources. DOE projects have 
achieved success in increasing exploration and production; addressing 
environmental protection through reduction of environmental impacts; 
and in the development of ``game changing'' technology such as fuel 
cells, gas turbines and infrastructure improvements. Projects funded 
through the R&D Program are essential to promote efficiency and 
responsibility in the extraction of our natural resources. Without 
adequate investment, domestic development of innovative technology will 
be hindered and further benefits go unrealized.
    The market alone will not drive technological and environmental 
innovations in the oil and gas industry. While many of the ``majors'' 
(large companies with refining and marketing capabilities) engage in 
research and development, the reality is that 90 percent of all oil and 
gas wells are owned by independents (operations primarily dedicated to 
exploration and production). Although varied in size, the vast majority 
of independents do not have the resources to engage in research and 
development. Thus, without economic encouragement industry research and 
development is likely to yield lesser benefits.
    Additionally, the R&D Program is essential in promoting cleaner and 
more environmentally friendly ways to extract oil and gas resources. 
Many independents lack the resources to pursue these R&D endeavors, 
thus technology to mitigate potential environmental disturbances is 
unlikely to reach its full potential.
    Increasing domestic oil and natural gas production will result in 
increased support for independent producers, less reliance on imported 
oil, and increased government revenues from royalties and taxes. We 
believe that our tremendous domestic oil and natural gas reserves 
provide a significant opportunity for the United States to reduce our 
dependence on foreign oil while reducing environmental impacts 
associated with energy development. But to do this, we need to work 
together in developing technology to ensure we have the energy to power 
our future. Thus, COGA respectfully urges the subcommittee to 
reconsider the proposed defunding of the DOE Oil and Gas Research and 
Development Program.
                                 ______
                                 
    Prepared Statement of the Energy Committee of ASME's Technical 
                              Communities
    Mr. Chairman, ranking member, and members of the subcommittee: The 
Energy Committee [EnComm] of ASME's Technical Communities is pleased to 
provide this testimony on the fiscal year 2012 budget request for 
research and development [R&D] programs in the Department of Energy 
[DOE].
                              introduction
    The 125,000-member ASME is a nonprofit, worldwide educational and 
technical Society. It conducts one of the world's largest technical 
publishing operations, holds more than 30 technical conferences and 200 
professional development courses each year, and sets some 600 
industrial and manufacturing standards, some of which have become de 
facto global technical standards. The Energy Committee of ASME's 
Technical Communities comprises 40 members from 17 Divisions of ASME, 
representing approximately 40,000 of ASME's members.
    ASME has long advocated a balanced mix of energy supplies to meet 
the Nation's energy needs, including advanced clean coal, petroleum, 
nuclear, natural gas, waste to energy, biomass, solar, wind and 
hydroelectric power. ASME also supports energy efficient building and 
transportation technologies, as well as transmission and distribution 
infrastructure sufficient to satisfy demand under reasonably 
foreseeable contingencies. Only such a portfolio will allow the United 
States to maintain its quality of life while addressing future 
environmental and security challenges. Sustained growth in the energy 
systems on which the United States depends will also require stability 
in licensing and permitting processes not only for power generating 
stations but also for transmission and transportation systems.
    A forward-looking energy policy will require enhanced and sustained 
levels of funding for R&D, as well as government policies that 
encourage deployment and commercialization. The Energy Committee 
supports much of the fiscal year 2012 budget request, especially the 
increases in funding for fundamental scientific research. The Energy 
Committee also wishes to emphasize that a balanced approach to our 
energy needs is critical, and this is why we remain concerned about the 
substantial decrease in funding for fossil energy, which is essential 
to meeting our national energy needs now and in the future.
                             fossil energy
    The fiscal year 2012 budget request of $520.7 million for fossil 
energy represents a $206.7 million reduction compared to the fiscal 
year 2010 appropriation; a 44.5 percent decrease. Fossil Energy 
Research and Development [FE R&D] would be reduced by 31.3 percent, or 
$206 million to $452.9 million. The administration continues to point 
out that $3.4 billion was devoted to Fossil Research and Development 
[R&D] as part of the American Recovery and Reinvestment Act [ARRA], and 
conceding this point, other offices, such as EERE and Science, also 
received funding in ARRA and are slated for substantial increases as 
part of the fiscal year 2012 budget.
    Funding for Natural Gas Technologies and for Unconventional Fossil 
Energy Technologies would again be targeted for elimination by the 
administration. The United States has access to significant 
unconventional gas resources with the potential to provide abundant, 
affordable, clean low-carbon energy source for years to come. Prior FE 
R&D has contributed to making this possible. However, this potential 
will not be realized unless this resource can be produced reliably, 
economically, safely and with minimal environmental impact. 
Accomplishing this task and keeping the United States in the forefront 
of unconventional fossil energy technology will require an investment 
in basic research, technology development, and investments in advances 
in low impact environmental technologies that will not be undertaken by 
industry in the current economic climate. The budget for these efforts 
should be maintained at least at the fiscal year 2010 level. The EnComm 
encourages a restoration of funding for coal research programs to at 
least the levels appropriated for fiscal year 2010. Coal remains a 
critical resource for our Nation and its economy; however, we must 
continue to invest in technological advancements that will reduce 
environmental impacts for this energy. The use of more efficient 
processes for coal combustion, such as advanced integrated gasification 
combined cycle [IGCC] technology, combined with carbon sequestration 
will allow the United States to utilize its coal resources in a more 
environmentally sound and cost effective manner. We encourage strong 
and consistent funding for these programs now and in future years. The 
administration has also requested to zero out the section 999 program 
of the Energy Policy Act that is administered by the Research 
Partnership to Restore Energy for America [RPSEA], with oversight by 
FE-NETL. This program funds unconventional natural gas research, a 
small producers program and ultra-deep water. This program addresses 
needed technology developments in safety and environmental protection. 
The EnComm strongly supports the continuation of this important 
program,
           advanced research projects agency-energy [arpa-e]
    The EnComm supports the $550 million budget request for the 
Advanced Research Projects Agency-Energy [ARPA-E]. ARPA-E represents a 
significant opportunity for the United States to cultivate 
technological breakthroughs related to energy sources, and uses. A 
steady commitment to ARPA-E will encourage energy technology innovation 
and the committee believes that this is a worthwhile endeavor for the 
DOE as we seek to accomplish technological breakthroughs in energy 
technology.
                             nuclear energy
    The EnComm is discouraged to see a slight reduction of $5 million 
in the fiscal year 2012 DOE Nuclear Energy budget request to $857 
million over the fiscal year 2010 appropriated amount. Although, this 
represents a minor budget reduction, particularly during sensitive 
budget negotiations, the EnComm is disappointed to see that no funding 
was requested for the creation of the Regaining our ENERGY Science and 
Engineering Edge [RE-ENERGYSE] program, which was requested for $5 
million in fiscal year 2011. Congress has not supported this program 
since it was first proposed in the fiscal year 2010 request and 
repackaged in the fiscal year 2011 proposal. Still, educating the next 
generation of nuclear engineers will be critical to the fulfillment of 
both the administration's Clean Energy Standard as well as national 
security. The EnComm is hopeful that the DOE will work to identify new 
opportunities for nuclear engineering scholarship.
    Similarly, the Energy Committee is concerned about the plan by the 
administration for a discontinuation of the Generation IV Nuclear 
Energy Systems program. The Energy Committee is curious to see how the 
proposed Reactor Concepts RD&D program distinguishes itself from the 
traditional R&D program under the Office of Nuclear Energy. Nuclear 
energy, as a low-carbon, non-greenhouse gas-emitting resource, is a 
critical component of a diverse U.S. power generation mix and should 
play a larger role in the Nation's base power supply. Given the 
President's proposed national ``clean energy standard'' of 80 percent 
by 2035 the EnComm believes very strongly that sustained increases in 
nuclear power research are justified.
                 energy efficiency and renewable energy
    The Office of Energy Efficiency and Renewable Energy [EERE] manages 
America's investments in research, development and deployment of DOE's 
diverse energy efficiency and renewable energy applied science 
portfolio. The fiscal year 2012 request of $3.2 billion, $943 million 
above the fiscal year 2010 appropriated amount of $2.21 billion, and 
provides a broad and balanced set of approaches to address the urgent 
energy and environmental challenges currently facing our Nation. Most 
of the key EERE programs, including Biomass, Solar, Wind, Geothermal, 
Building Technologies, Vehicle Technologies, and Industrial 
technologies, would receive substantial increases in funding to support 
the growth of renewable energy. The EnComm is particularly pleased to 
see large increases for both the Industrial Technologies Program [ITP], 
as well as the Building Technologies Program. ITP conducts energy 
assessments for energy-intensive factories to identify low-cost methods 
to improve their efficiency. The EnComm encourages Congress to include 
waste-to-energy as an important component of the Country's Renewable 
Energy portfolio to provide it with the same benefits as energy from 
biomass.
    The EnComm believes that the development of transportation fuel 
systems that are not petroleum-based is a critical part of our future 
national energy policy. The fiscal year 2012 budget for biomass and 
bio-refinery systems R&D is slated to receive a $124 million increase 
to $340 million for fiscal year 2012, 57 percent above the fiscal year 
2010 appropriated amount. The Energy Committee supports the current 
appropriation and encourages Congress to ensure that these research 
programs continue to receive adequate funding. We are also pleased to 
see the $273 million increase in the effort related to vehicle 
technologies emphasizing plug-in hybrid electric vehicles.
    The integration of all cost effective electric generating 
technologies into the operation of the electricity distribution system 
is critical to economic operation of the national electric grid. The 
EnComm believes that R&D related to the integration of the electric 
grid and its control as a truly national system is imperative for the 
growth of effective and economic energy generation technologies and we 
encourage full funding for such research.
             science and advanced energy research programs
    The EnComm is pleased by the request for the Office of Science [OS] 
which restores the funding trajectory mandated in the America Competes 
Act of 2007 (Public Law 109-69). The fiscal year 2012 budget proposal 
of $5.4 billion is an increase of $452 million from the fiscal year 
2010 appropriation. OS programs in high energy physics, fusion energy 
sciences, biological and environmental research, basic energy sciences, 
and advanced scientific computing, serve, in some small way, every 
student in the country. These funds support not only research at the 
DOE Laboratories, but also the work at a large number of universities 
and colleges. We believe that basic energy research will also improve 
U.S. energy security over the long term, through its support for R&D on 
cellulosic ethanol and other next-generation biofuels, advanced battery 
and energy storage systems, and fusion. The only program slated for a 
decrease in OS is Fusion Energy Sciences. The EnComm has some concerns 
about the recent delays for the International Thermonuclear 
Experimental Reactor [ITER] experiment being conducted in Cadarache, 
France. The EnComm would like to see ITER built by 2018 but, in 
recognition that this is now unlikely; the EnComm will reserve further 
judgment until more information becomes available. The Energy Committee 
strongly supports the budget request for the Office of Science, as well 
as the proposed doubling track for the office by fiscal year 2017.
    The Office of Science, in collaboration with ARPA-E, has announced 
the ``Sunshot Initiative'' to scale down the cost of solar energy by 
roughly 75 percent to $1 per watt of electric power, or about 6 cents 
per kilowatt hour of electricity. The program would cost $425 million 
to begin according to the administration's fiscal year 2012 budget 
request. The EnComm believes that this type of collaboration represents 
a good opportunity to leverage the technical resources available to 
both ARPA-E and the Office of Science. The EnComm would like to see the 
DOE make a strong effort to demonstrate the distinction between this 
project and similar types of research efforts, like the Energy Frontier 
Research Centers, and the Innovation Hubs to avoid redundancy.
                           other doe programs
    DOE is also very active in areas outside of R&D. The environmental 
remediation program that funds the decommissioning and decontamination 
of old DOE facilities is one such research area. The EnComm questions 
the advisability of flat funding for the Environmental Management 
program. The Yucca Mountain Waste Repository is a critical part of the 
environmental cleanup activity. Termination of this project, in the 
short term, will only extend and increase the final cost of the 
environmental management program. The EnComm does not support this 
backward step. The coming resurgence in the commercial nuclear arena is 
likely to deplete the trained professionals available for this program 
as engineers choose to move to the more stable commercial environment. 
Congress should appropriate the funds to ensure that this work is 
accomplished in an expeditious manner.
                               conclusion
    Members of the EnComm consider the issues related to energy to be 
one of the most important issues facing our Nation. The need for a 
strong and coherent energy policy is apparent. We applaud the 
administration and Congress for their understanding of the important 
role that scientific and engineering breakthroughs will play in meeting 
our energy challenges. In order to promote such innovation, strong 
support for energy research will be necessary across a broad range of 
technology options. DOE research can play a critical role in allowing 
the United States to use our current resources more effectively and to 
create more advanced energy technologies.
    Thank you for the opportunity to offer testimony regarding both the 
R&D and other parts of the proposed budget for the DOE. The EnComm is 
pleased to respond to requests for additional information or 
perspectives on other aspects of our Nation's energy programs.
                                 ______
                                 
           Prepared Statement of the American Gas Association
                           executive summary
    Natural gas is America's clean, secure, efficient, and abundant 
fossil fuel.
    DOE should include in its RD&D portfolio energy efficiency of 
natural gas equipment in commercial, residential and industrial 
markets.
    The DOE's Building Technologies Program should spend at least $12 
million of its budget on natural gas RD&D.
    The DOE's Industrial Technologies Program should spend at least $30 
million of its budget on combined-heat-and-power RD&D (request is $25 
million) with activities in small (below 20 KW), medium and large scale 
systems.
    The DOE's Transportation Technologies Program should spend at least 
$30 million on natural gas vehicle RD&D.
                              introduction
    The American Gas Association [AGA], founded in 1918, represents 199 
local energy companies that deliver clean natural gas throughout the 
United States. There are more than 70 million residential, commercial 
and industrial natural gas customers in the United States, of which 91 
percent--more than 64 million customers--receive their gas from AGA 
members. AGA is an advocate for natural gas utility companies and their 
customers and provides a broad range of programs and services for 
member natural gas pipelines, marketers, gatherers, international 
natural gas companies and industry associates. Today, natural gas meets 
almost one-fourth of the United States' energy needs.
    On behalf of the American Gas Association, I urge you to support 
increased research, development and demonstration [RD&D] funding by the 
U.S. Department of Energy [DOE] on the natural gas end-use 
technologies, which are powered by an energy source that is 
domestically abundant, affordable, stable, highly efficient and clean.
    To that end, we request a modest natural gas efficiency investment 
of $12.0 million in the Building Technologies Program, $30 million in 
the Transportation Program and $10 million for small scale combined 
heat and power [CHP], as well as supporting sufficient funding in the 
overall Industrial Program.
    At a time when there is growing instability in oil-producing 
regions such as North Africa and the Middle East, which has resulted in 
$100 per barrel--and rising--oil prices that threaten to derail our 
economic recovery, we believe that DOE needs to reassess its R&D 
funding priorities. The DOE should join with us to develop highly 
efficient natural gas based appliances and systems. The natural gas 
industry, manufacturers and research and development [R&D] partners 
will identify and capture financial support for this effort with 20 to 
40 percent co-funding expected, depending on the type of R&D performed.
    Currently, DOE spends hundreds of millions of dollars yearly on 
energy efficiency research, yet very little of this is directed toward 
energy efficient natural gas products. In particular, over the past 
several years there has been almost no Federal investment in natural 
gas technologies for residential and commercial buildings, the Combined 
Heat and Power Program in the Industrial Technologies Program has been 
dramatically reduced, and the R&D program for natural gas vehicles was 
totally eliminated in fiscal year 2006 through 2009. At a time when the 
value of natural gas for reducing carbon emissions is being recognized 
as never before, this is misguided.
    We feel that it is way past time for the office of EERE, whose 
mandate is furthering America's energy efficiency, to re-engage in 
developing energy efficient natural gas-based technologies. Combining 
our cleanest and most efficient fuel with new, highly efficient end-use 
technologies is the best way to ensure our economic viability in an 
increasingly carbon-constrained environment.
    Such RD&D funding support must focus on highly efficient, superior 
performance technologies in which natural gas is used directly in the 
residential, commercial, industrial and transportation markets. Using 
natural gas directly in traditional end-use applications such as home 
heating, water heating and cooking, as well as increasingly in highly 
promising new applications such as natural gas vehicles and 
distributed--on-site--power generation, can save consumers millions of 
dollars, significantly reduce carbon emissions, and, given natural 
gas's domestic abundance, enhance our Nation's energy security.
    In particular, we urge a small fraction of the funding in the 
Building Technologies Program at DOE's Energy Efficiency and Renewable 
Energy Office be dedicated to natural gas based efficiency 
technologies. A $12 million level would equate to approximately 5 
percent of the appropriations for that office in 2010 and approximately 
2 percent of the President's 2012 buildings budget request.
    Specific Building program initiatives include:
Space Conditioning and Water Heating Efficiency and Operational 
        Improvements $2.9 Million
    This effort will focus on laboratory testing, component and 
technology development and field testing of new gas space conditioning 
technologies and systems. The water heating R&D effort will improve 
performance and cost of components and assembly/installation of 
currently available or soon-to-be available systems for domestic or 
commercial water heating.
    These efforts will be in conjunction with gas utilities working 
closely with component and equipment manufacturers. In the commercial 
sector, the space conditioning effort will focus on developing new and 
improving current gas-based thermally activated (e.g., absorption) 
systems appropriate for space cooling and humidity/indoor air quality 
control in commercial buildings, while helping alleviate peak electric 
demand constraints. Combined space/water heating systems will also be 
developed and tested through laboratory and field testing.
  --Advance energy efficient technologies and systems for space and 
        water heating in existing single and multi-family residential 
        buildings and the light-commercial sector.
  --Improve efficiency and reduce cost of highly efficient condensing 
        gas furnaces and boilers that are poised for wider market 
        adoption.
  --Optimize strategies and technologies for the control of humidity 
        and indoor air quality in conjunction with gas-based space 
        heating and cooling systems.
  --Reduce first costs of emerging tankless and storage type water 
        heaters by at least 20 percent, while achieving efficiencies of 
        over 80 percent for non-condensing and 90 percent for 
        condensing type units.
  --Develop a combination space/water heating system with improved 
        efficiency and reduced first cost to be used in residential, 
        multi-unit and commercial buildings.
Solar/Natural Gas Hybrid Systems $2.8 Million
    This effort will include technology development and laboratory and 
field testing, working with manufacturers of solar thermal or other 
renewable-resource systems. Particular attention will be given to 
integration/control and system sizing issues as well as safety and 
reliability (all of which will strongly impact commercial viability).
  --Develop solar thermal-natural gas hybrid technology and products 
        that cost-effectively generate heat, hot water, and steam, and 
        thermally driven cooling--reducing carbon emissions and the use 
        of fossil fuels.
  --Improve storage and integration of lower temperature thermal heat 
        (solar) with higher temperature natural gas heat system.
  --Integrate concentrated solar with natural gas energy systems.
Breakthrough Technology Development $2.1 Million
    This initiative will focus on developing and testing more advanced 
technologies and systems that will not be available for the market 
place for 3 to 7 years and will make extensive use of longer-term 
laboratory research. The main drivers for this research will be carbon 
emission reductions and improved efficiency thus producing the next 
wave of efficient and clean gas technologies for residential and 
commercial use. As promising technologies, components and systems 
emerge, appropriate lab and field testing will be conducted.
  --Develop catalytic and other approaches for carbon management (e.g., 
        formation, reduction, capture, conversion storage) of specific 
        combustion byproducts like carbon dioxide or carbon monoxide.
  --Support basic combustion research to improve efficiency, reduce 
        pollutant formation, increase heat transfer to improve the 
        operation of gas-based energy systems.
  --Perform hydrogen enrichment mixtures to reduce carbon emissions 
        from gas equipment--(a carbon mitigating approach may be to 
        provide a percentage of hydrogen through the natural gas 
        pipeline system).
Building Systems and Community Energy System Technologies $2.6 Million
    Parallel attention will be given to both residential and selected 
commercial buildings. Different RD&D programs will be developed for 
selected building types (e.g., residential single-family homes 
retrofit, new-construction homes, multifamily dwellings, retail 
building, and institutional building) and regions (e.g., Northeast, 
Southwest). RD&D will include laboratory research but will also 
comprise extensive testing in instrumented buildings that will serve as 
field test facilities. R&D will be coordinated with architects and 
builders as well as developers and manufacturers of emerging energy 
systems and associated components and controls.
  --Develop approaches for optimized integration of gas systems with 
        the evolving Smart Energy Grid providing consumers new option 
        for energy management, comfort control and communication with 
        energy providers.
  --Perform advanced energy efficiency and carbon emission analysis 
        utilizing full fuel cycle protocol, develop new scientific data 
        and tools to support lowering overall energy use and carbon 
        emissions in homes and buildings.
  --Improve the efficiency and flexibility of operation of gas-based 
        equipment when used in combination with emerging building 
        technologies, new communications systems and other energy 
        systems.
Development of Higher-efficiency and Energy Star-rated Commercial Food 
        Service Equipment $1.6 Million
    This effort will include laboratory development and field testing, 
working with manufacturers and food service preparers. It will develop 
improved components that will increase energy efficiency, reduce 
emissions, and improve the productivity of ranges, ovens, grills, 
griddles, fryers, and other food preparation products.
  --Develop new cooking equipment designed to improve the currently 
        very low efficiency for natural gas cooking equipment.
  --Reduce combustion related emissions from gas-fueled residential and 
        commercial cooking equipment.
  --Improve the performance and reduce the cost of critical heat 
        transfer components in residential and commercial cooking 
        equipment.
    In the industrial Program in DOE's Energy Efficiency and Renewable 
Energy Office, we encourage overall funding that accommodates a total 
of $30 million for Combined Heat and Power (the budget request level 
and the fiscal year 2010 appropriations are both $25 million). At least 
$8 million of these funds should be dedicated to small scale systems 
below 20 kW. We also support a budget that directs at least $25 million 
to the Industries of the Future (Specific) Program, which would be in 
line with appropriated levels for the past several years and would be 
used to develop the technologies used in our Nation's heavy industries 
to manage their energy expenditures.
    Specific Combined Heat and Power initiatives include:
Small Scale CHP Research and Development--$8.0 Million
    Micro Combined Heat and Power Products (10kW or less).--Develop, 
using existing technological breakthroughs, a system which would 
provide on-site electric power and domestic hot water and heating for 
homes and small businesses utilizing either propane or natural gas. 
This will include development of ``dark start'' technology for use in 
communities where there is an inability to deliver reliable electricity 
via traditional central power station and transmission/distribution 
systems.
    Gas Heat Pump [GHP] Technology (7.5-15 tons).--Continue previous 
DOE efforts in gas fired heat pumps (80 percent reduction in electric 
peak demand in cooling and 150 percent efficiency in heating mode). 
Necessary work: fuel management and control development, heat recovery 
to provide domestic hot water and space heating, and power generation. 
Further enhancements of the heat exchangers, engine, and compressors 
will result in improved efficiency and lower first costs. This will 
include development of auxiliary power capability for plug in hybrid 
fueling or other potential critical power loads.
    Emissions and Carbon Footprint Reductions R&D.--Continue ongoing 
activity. Although the GHP and Micro-CHP products meet the current air 
quality requirements, further emission reductions are being 
anticipated. This program would take a pro-active stewardship toward 
reducing product carbon footprints for small engine technology that 
requires particular attention.
    Thank you for the opportunity to submit testimony.
                                 ______
                                 
    Prepared Statement of the Fermi National Accelerator Laboratory
    We are the Executive Committee of the Users Organization of the 
Fermi National Accelerator Laboratory (Fermilab) located outside of 
Chicago, Illinois, and represent the 3,000 user scientists of the 
premier U.S. laboratory for particle physics. Our membership includes 
researchers in high energy physics [HEP] who study fundamental 
particles, astrophysics, and accelerators. Eight national laboratories 
are actively engaged in high energy physics research. These 
laboratories host facilities that are used by scientists from other 
national laboratories, from hundreds of U.S. universities, and from 
dozens of foreign institutions. Fermilab is the only one of the 
laboratories dedicated exclusively to the field.
    The U.S. Department of Energy Office of Science and the National 
Science Foundation supports high energy physics research at U.S. 
national laboratories and universities. More than 160 U.S. institutions 
in 43 States host physicists, astrophysicists, engineers, and 
accelerator scientists who work in high energy physics. More than one-
half of these institutions are funded through the DOE Office of 
Science.
    We urge the Senate to support sustained funding for fundamental 
science within the Department of Energy Office of Science and the 
National Science Foundation. We request that the portfolio of funding 
for basic research be balanced. High energy physics research is a key 
part of these programs that yields valuable benefits to our Nation as 
described below. Our field is undergoing a transition with the Fermilab 
Tevatron accelerator program coming to a conclusion after an incredibly 
successful three decades. New programs are underway or just beginning 
that will provide the basis for vibrant, world-class research for the 
next several decades. This transition is a critical time for our field 
in the United States and requires sustained funding to maintain our 
leadership in high energy physics research.
                 value of high energy physics research
    In our modern economy, science and technology [S&T] are driving 
forces of national strength as detailed in the National Academies 
report Rising Above the Gathering Storm: Energizing and Employing 
America for a Brighter Economic Future and the 2010 update Rising Above 
the Gathering Storm Revisited. Continued leadership in S&T fields is 
critical to our economic growth, national security, and world 
leadership. Innovation derived from a highly trained workforce is key.
    Without new technological developments within the United States, 
our economy will not grow and other countries will surpass us. But the 
most revolutionary technologies often require revolutions in our 
fundamental knowledge and understanding, or are invented in the 
research struggle of our most talented minds in pursuit of measuring, 
understanding, and testing new ideas and concepts. No one could have 
predicted the nature of our current society from the first studies of 
the electron, however we would not be communicating via email, fax, or 
text messages without them.
    High energy physics strives to understand the most fundamental 
aspects of nature. We can rarely predict the outcome, but the quest for 
knowledge has always led to numerous advances, some of which are listed 
below. Certain results are predictable: we will educate and train some 
of the best and brightest students who will contribute to our Nation in 
many different arenas.
                    value of technology development
    While the primary purpose of high energy physics research is not 
the creation or development of new technology, our work often requires 
it to accomplish our goals. Many of our experiments require technology 
that does not exist when the project is started. Therefore, many of our 
researchers spend a significant part of their careers advancing high 
tech particle detectors, developing complex computing algorithms, and 
pushing the limits of high speed electronics. Without continuous 
innovation we would not be able to complete our experiments. But once 
these advances are made they are applied by industry.
    An example of this is the construction of the Fermilab Tevatron 
accelerator that reigned as the world's most powerful machine of its 
kind for nearly three decades. It required 1,000 superconducting 
magnets to be placed around a 4 mile ring. Creating superconducting 
magnets requires superconducting wire. At the start of the project in 
the 1970s, it was known how to make such wire but the industry needed 
to make it did not exist. Fermilab researchers helped to build up that 
industry and advance their production techniques through a very 
successful joint government/business venture. Once the accelerator was 
complete in 1983, these businesses looked around to see what other 
projects could use superconducting wire. MRIs that are commonly used 
for medical imaging are an example. Because of the work of Fermilab, 
MRIs became much more widely available in the 1980s.
    A current experiment being led by Fermilab scientists is the Dark 
Energy Survey [DES]. This experiment requires a digital camera larger 
than any ever built. Their technological developments will eventually 
influence the digital cameras available at your local electronics store 
as well as devices no one has even dreamed of yet.
    High energy physicists have been the leaders in accelerator science 
since its beginning. Our work requires the most powerful particle 
accelerators that can be built. However, accelerators are now used in 
thousands of applications. More than 17,000 particle accelerators are 
used throughout the world, only a small fraction of these dedicated to 
high energy physics. Most are used by industry and for medical 
treatment. The tire industry, for example, now uses particle 
accelerators to treat their tires, which has resulted in a reduction of 
3 pounds less rubber per tire and a reduction in the amount of 
chemicals needed in the production process. The industry is more 
efficient and better for our environment because of the application of 
particle accelerators. This success was unanticipated in the early days 
of accelerator development, but is certainly a positive result.
                           value of education
    The United States has long been the destination of choice for the 
best science students from around the world. Our universities provide 
an education that is second to none. Our national laboratories provide 
research opportunities that are unavailable elsewhere. Fermilab is an 
excellent example of this. Numerous students from foreign institutions 
travel to Fermilab to complete their research. Many of these students 
then choose to stay in the United States after completing their 
degrees.
    Our students learn a variety of skills that are applicable in 
numerous fields. They learn how to work on problems where the answer is 
unknown and how to adapt to unforeseen challenges. They learn skills in 
computer programming, data analysis, simulation of complex problems, 
and electronics development, among others. They learn to work in teams 
and do collaborative projects. Most importantly, they learn how to take 
a project from start to finish, write a document detailing it, and 
present it to an audience. These skills are all highly desired by 
businesses.
    Many of our students choose to continue their immediate careers as 
post-doctoral associates. This provides a post-graduate education that 
further develops their skills. Post-docs generally take on more complex 
projects and develop leadership and management skills. Most high energy 
physics experiments involve 20 to 2,000 scientists and face challenges 
that are similar to those in many businesses.
    Scientists trained in high energy physics work in 
telecommunications, software development, aerospace, education, 
medicine, government, and finance, to name a few. Approximately one-
fourth of our Ph.D. students enter new fields. Private businesses are 
the largest and most diverse employers of scientists trained in high 
energy physics. Several former HEP researchers have founded or led 
small and large companies, including Richard Wellner, chief scientist 
at Univa UD, a cloud management software company; Francisco Vaca, CEO 
of Vaca Capital Management LLC; George Coutrakon, director of 
operations at Loma Linda University Medical Center; and Homaira Akbair, 
CEO of SkyBitz, a satellite-based tracking company.
    Our researchers are engaged in all levels of education and 
understand the importance of scientific literacy in our society. We use 
numerous venues to advance this. Hundreds or thousands of public 
lectures are given around the country each year. Our scientists visit 
local schools to share the excitement of science through physics 
demonstrations or presentations of their work. The QuarkNet program, 
funded through the National Science Foundation, trains K-12 teachers in 
28 States in cutting edge research so that they can take it back into 
the classroom. More than 38,000 students attend Fermilab education 
activities each year.
                         impact of budget cuts
    Continued funding of science research is critical to our Nation. 
Severe budgetary cuts will have devastating effects that will be felt 
for decades. Science opportunities will be delayed or lost to other 
nations. Our reputation as the place to be for the best and brightest 
will be damaged. The administration's request for fiscal year 2012 
maintains a funding level for science research that will allow us to 
avoid substantial damage.
    Large cuts will have immediate impacts on our universities and 
national laboratories. Layoffs and/or furloughs will be unavoidable if 
we return to fiscal year 2008 funding levels. Several Fermilab projects 
that were slated to start construction in fiscal year 2011 have already 
been delayed. These projects are key to the near term future of the 
laboratory and the U.S. high energy physics program.
    However, the largest and longest lasting impact will be in our 
training of the next generation of scientists. Severe cuts will force 
us to train fewer students. It will demoralize our current students and 
post-docs, and some will quit. And we will no longer attract the best 
students. It will take a long time to overcome even a short term cut to 
funding. These young people will be the foundation on which our 
economic growth depends. Without the advanced training offered by 
fields such as high energy physics, they will lack the skills to 
develop the next technology or the next new industry. Or they will be 
trained in other countries and that innovation will occur overseas. It 
is critical that we remain attractive to U.S. and foreign students now 
and in the future.
                                summary
    Scientific research in general, and high energy physics in 
particular, provides value to our Nation that will be lost without 
continued funding from the U.S. Government. The knowledge that is 
gained will lead to future innovation that will continue our world 
leadership. The path to that knowledge will lead to advances in 
technology that will help sustain our economic recovery. And the 
education of students from the United States and abroad will provide 
the knowledgeable workforce that will carry us through the next half 
century.
    It is critically important to maintain our leadership position in 
scientific research. The repercussions of severe cuts will be felt for 
a long time. We urge the Senate Appropriations Committee to support the 
President's request to maintain our scientific research program for the 
long-term health of the Nation.
    The Fermilab UEC: Todd Adams; Michael Cooke; Marjorie Corcoran; 
Dick Gustafson; Heather Gerberich; Jonathan Lewis; Ronald Moore; 
Manfred Paulini; Brian Rebel; Mayly Sanchez; David Schmitz; William 
Wester; and Lisa Whitehead.
                                 ______
                                 
           Prepared Statement of the Gas Turbine Association
    The Gas Turbine Association [GTA] appreciates the opportunity to 
provide the United States Senate Appropriations Committee, Subcommittee 
on Energy and Water Development with our industry's statement 
recommending fiscal year 2012 funding levels for the Department of 
Energy.
    While the GTA recognizes the need to reduce Federal spending in 
today's fiscal environment, we respectfully recommend that the fiscal 
year 2012 appropriation for Fossil Energy include $20 million for the 
Advanced Turbines Program R&D to meet critical national goals of fuel 
conservation, greenhouse gas reduction, fuel flexibility (including 
syngas and hydrogen), and criteria pollutant reduction. A spending 
level of $20 million is more appropriate than the administration's 
recommendation $14.6 million considering the fiscal year 2010 spending 
level was $32 million. A spending level of $20 million would still 
represent a significant cut of $37 percent and will result in pushing 
out the timeline for the development and deployment of environmentally 
advanced gas turbines by several years.
    It is clear that dramatic reductions in greenhouse gas emissions 
are in the national interest. It is also clear that our economy needs 
more electric generation capacity to resume and promote further growth. 
Without new technology, the power generation industry will be hard 
pressed to produce additional electric capacity, while at the same time 
meeting the strict greenhouse gas emissions standards being set by 
States and the Federal Government.
    Federal investment in research and technology development for 
advanced gas turbines that are more efficient, versatile, cleaner, and 
have the ability to burn hydrogen-bearing reduced carbon synthetic 
fuels and carbon-neutral alternative fuels is needed to ensure the 
reliable supply of electricity in the next several decades. Domestic 
coal based Integrated Gasification Combined Cycle [IGCC] with carbon 
capture and storage is one such approach that would significantly 
supplement available supplies of domestic natural gas to guarantee an 
adequate supply of clean and affordable electric power. Alternative 
fuel choices range from imported LNG, coal bed methane, and coal-
derived synthetic or process gas to biogas, waste-derived gases and 
hydrogen. Research is needed to improve the efficiency, reduce capital 
and operating costs, and reduce emissions.
technologies for advanced igcc/h<INF>2</INF> gas turbine--reducing the 
                   penalty for co<INF>2</INF> capture
    At current rates of research and development it is unlikely that 
the Nation will have available the gas turbine technologies to meet the 
needs of carbon capture capable power plants. The advancement of these 
technologies must be undertaken by the DOE since there is currently no 
pathway to the development, insertion, and maturation of these 
technologies into the Nation's electric power infrastructure based on 
market forces. Thus, a combined effort by the public and private 
sectors is necessary.
    The turbines and related technologies being developed under the DOE 
Fossil Energy Advanced Turbines program will directly advance the 
performance and capabilities of future power generation with 
CO<INF>2</INF> capture and storage. Advances are needed to offset part 
of the power plant efficiency and output reductions associated with 
CO<INF>2</INF> capture. Program funding is required to cost-share in 
the technology development of advanced natural gas/hydrogen/syngas 
combustors and other components to realize the DOE goals.
    Several GTA member companies are working cost-share programs with 
the DOE to develop technologies for advanced gas turbine power plants 
with carbon capture. These technologies will: (1) increase plant 
efficiency; (2) increase plant capacities; and (3) allow further 
reductions in combustion emissions of hydrogen rich fuels associated 
with CO<INF>2</INF> capture and storage. This will help offset some of 
the efficiency and output penalties associated with CO<INF>2</INF> 
capture. These programs are funding technology advancement at a much 
more rapid rate than industry can do on their own.
    The need for Federal cost-share funding is immediate. The funding 
levels in past years for the Advanced Turbines program has been 
inadequate to meet DOE's Advanced Power System goal of an IGCC power 
system with high efficiency (45-50 percent HHV), near-zero emissions 
and competitive capital cost. To meet this goal, the researchers must 
demonstrate a 2 to 3 percentage point improvement in combined cycle 
efficiency above current state-of-the-art Combined Cycle turbines in 
IGCC applications.
    The plan for the IGCC-based power plants is to develop the 
flexibility in this same machine with modifications to operate on pure 
hydrogen as the primary energy source while maintaining the same levels 
of performance in terms efficiency and emissions. The goal is to 
develop the fundamental technologies needed for advanced hydrogen 
turbines and to integrate this technology with CO<INF>2</INF> 
separation, capture, and storage into a near-zero emission 
configuration that can provide electricity with less than a 10 percent 
increase in cost over conventional plants by 2012.
    The Advanced Turbines program is also developing oxygen-fired (oxy-
fuel) turbines and combustors that are expected to achieve efficiencies 
in the 44-46 percent range, with near-100 percent CO<INF>2</INF> 
capture and near-zero NO<INF>X</INF> emissions. The development and 
integrated testing of a new combustor, turbine components, advanced 
cooling technology, and materials in oxy-fuel combustors and turbines 
is needed to make these systems commercially viable.
    The knowledge and confidence that generating equipment will operate 
reliably and efficiently on varying fuels is essential for the 
deployment of new technology. Years of continued under-funding of the 
Advanced Turbines program has already delayed the completion dates for 
turbine R&D necessary for advanced IGCC.
                      mega-watt scale turbine r&d
    In the 2005 Enabling Turbine Technologies for High-Hydrogen Fuels 
solicitation, the Office of Fossil Energy included a topic area 
entitled ``Development of Highly Efficient Zero Emission Hydrogen 
Combustion Technology for Mega-Watt Scale Turbines''. Turbine 
manufacturers and combustion system developers responded favorably to 
this topic, but DOE funding constraints did not allow any contract 
awards. The turbine industry recommends a follow-up to this 
solicitation topic that would allow the developed combustion technology 
to be tested in machines at full scale conditions and allow for 
additional combustion technology and combustor development for both 
natural gas and high-hydrogen fuels.
    The turbine industry believes that this technology is highly 
relevant to industrial coal gasification applications including: (1) 
site-hardened black-start capability for integrated gasification 
combined cycle applications (the ability to restart an IGCC power plant 
when the electric grid has collapsed); (2) supplying plant electric 
load fueled on syngas or hydrogen; (3) increasing plant steam cycle 
capacity on hot days when large amounts of additional power are needed; 
and (4) in gas turbines for compression of high-hydrogen fuels for 
pipeline transportation. The development of MW-scale turbines (1-100 
MW) fueled with either natural gas or high-hydrogen fuels will promote 
the sustainable use of coal. In addition, highly efficient 
aeroderivative megawatt scale engines operate under different 
conditions than their larger counterparts and are installed for peaking 
or distributed generation applications. Funding is required to design 
efficient and low emissions combustors that accommodate the new fuels.
              gas turbines reduce greenhouse gas emissions
    The gas turbine industry's R&D partnership with the Federal 
Government has steadily increased power plant efficiency to the point 
where natural gas fired turbines can reach combined cycle efficiencies 
of 60 percent, and quick-start simple cycle peaking units can reach 46 
percent. The gas turbine's clean exhaust can be used to create hot 
water, steam, or even chilled water. In such combined heat and power 
applications, overall system efficiency levels can reach 60 to 85 
percent LHV. This compares to 40-45 percent for even the most advanced 
thermal steam cycles (most of which are coal fired).
    Gas turbines already play a very significant role in minimizing 
greenhouse gas emissions worldwide. Gas turbines are both more 
efficient and typically burn lower carbon fuels compared to other types 
of combustion-based power generation and mechanical drive applications. 
The Nation needs to reinvigorate the gas turbine/government partnership 
in order to develop new, low carbon power plant solutions. This can be 
done by funding research to make gas turbines both efficient and more 
capable of utilizing hydrogen and synthetic fuels as well as increasing 
the efficiency, durability and emissions capability of natural gas 
fired turbines. If Congress provides adequate funding to DOE's turbine 
R&D efforts, technology development and deployment will be accelerated 
to a pace that will allow the United States to achieve its emissions 
and energy security goals.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The GTA respectfully requests $20 million in fiscal year 2012 
appropriations for the Fossil Energy Advanced Turbines Program to meet 
critical national goals of fuel conservation, fuel flexibility 
(including natural gas, syngas and hydrogen), greenhouse gas reduction, 
and criteria pollutant reduction.
    GTA Member Companies.--Alstom Power; GE Energy; Florida Turbine 
Technologies; Rolls-Royce; Siemens Energy; Solar Turbines; Pratt & 
Whitney Power Systems; Strategic Power Systems; and VibroMeter.
                                 ______
                                 
        Prepared Statement of the University of Texas at Austin
    Defining priorities for Federal research funding is all the more 
important when reductions in overall Federal spending are being 
discussed. One such priority is the small but impactful Strategic 
Center for Natural Gas and Oil within the National Energy Technology 
Laboratory in the Department of Energy.
    The U.S. economy runs on fossil fuel, including 20 million barrels 
per day of crude oil, the greater part of which is imported. But 30 
billion barrels of this essential resource can be extracted from 
domestic reservoirs if improved technology for injecting CO<INF>2</INF> 
into these reservoirs can be developed. The Strategic Center for 
Natural Gas and Oil has established a visionary program for just this 
purpose.
    Continuation of this program is important for three compelling 
reasons:
  --Recent advances in science and technology outside the oil 
        industry--including nanotechnology, novel synthetic chemistry 
        and efficient computational methods--have opened up truly new 
        possibilities for substantially increasing recovery of oil by 
        injecting carbon dioxide. The Strategic Center for Natural Gas 
        and Oil has committed to exploiting these possibilities.
  --Independents and small operators, not the majors, are conducting 
        essentially all the carbon dioxide injection for oil recovery 
        in the United States. This segment of the oil and gas industry 
        is eager to take advantage of new technology. But these 
        operators do not have the wherewithal to conduct basic research 
        needed to implement new ideas from outside the industry.
  --Federal funding is a critical mechanism for training the next 
        generation of engineers and scientists who will implement these 
        advanced technologies, working for domestic companies operating 
        domestic oil fields--very good jobs that are a boon to local 
        and regional economies.
    In view of the often strident discussion of budget priorities in 
Washington and the rest of the country, it seems timely to remind 
members of the subcommittee that over the last 60 years the United 
States has a proud history of investing in basic research at its 
universities. That investment has been repaid countless times over. 
Practitioners educated in this way have contributed to a decades-long 
stream of technical innovation which has maintained U.S. leadership of 
the global economy. CEOs from all business sectors are unanimous on 
this point: Without continued innovation, the U.S. economic leadership 
will surely falter.
    Many Federal programs have worthy justifications for their 
continued existence. But few can offer as large a return on the Federal 
investment as this one in the Strategic Center for Natural Gas and Oil. 
Even fewer provide that return in an area of unquestionably vital 
importance to the U.S. economy and national interest: the continued 
supply of domestically produced oil.
                                 ______
                                 
               Prepared Statement of NuScale Power, Inc.
    Dear Madame Chairman and ranking member: On behalf of NuScale 
Power, Inc. of Corvallis, Oregon we request that the subcommittee 
approve the President's budget request of $67.0 million for small, 
modular reactors [SMRs] within the Office of Advanced Reactor Research 
Development and Demonstration. This request includes both the research 
portion for advanced SMRs but especially the commercialization cost-
share portion for up to two light water reactor SMR designs.
    Small, modular reactor technologies build on a rich history of 
American innovation and world class nuclear design, manufacturing and 
operations. The President has recognized the need for nuclear power as 
part of a comprehensive energy, environment and employment strategy for 
this country, including new financial incentives. NuScale is ready to 
deliver:
  --NuScale Power uses a one-third scale test facility on the Campus of 
        Oregon State University to document critical tests required to 
        comply with NRC design certification and licensing. The next 
        phases of regulatory approval are costly in the United States 
        and require Federal support.
  --Since last year NuScale Power has conducted extensive discussions 
        with various government operations centers managed by both DOE 
        and DOD. We are in the process of scoping both research and 
        deployment opportunities that have the potential to benefit the 
        Federal Government directly by lowering the facilities' long 
        term costs and reducing their greenhouse gas impacts as an 
        electric power consumer.
  --NuScale Power is constructing a full-scale control room simulator 
        to specifically address digital instrumentation, control and 
        human factors analysis that will be integrated in all of the 
        next generation nuclear plants, regardless of size. NRC staff 
        has visited Corvallis to review these plans and provide input.
  --As confirmed by a panel of independent experts whose work was 
        presented to the NRC in September 2009, NuScale Power has 
        achieved safety margins that are 10 times safer than the next 
        generation of large nuclear plants. This translates into 
        improved public safety and better financial risk management by 
        using scalable technology.
  --NuScale Power's inherently safe technology has received 
        considerable attention since the natural disaster and ensuing 
        nuclear incident in Japan. We have developed a nine page 
        ``safety illustration'' that can be viewed on our Web site. It 
        shows how our reactor and spent fuel pool might have responded 
        to similar events. From what we know now, the results are very 
        positive.
  --Finally, in addition to the President's leadership in requesting 
        funding for research, development and demonstration of small, 
        modular reactors, the Nuclear Regulatory Commission and its 
        staff have also continued to provide the ongoing licensing 
        support efforts in their own separate budget request. In a 
        Commission briefing held on March 29, 2011, NRC staff outlined 
        for the Commission the planned approach to licensing SMRs. 
        Staff concluded by saying, ''It's not a matter of whether we 
        can license these plants but how we best proceed.'' This was 
        encouraging to us, and is a positive sign that Congress can 
        move forward with taxpayer dollars to support the licensing 
        efforts.
    Our company experienced a temporary financial setback earlier this 
year but we are receiving considerable interest in new funding from a 
consortium that includes American manufacturers, fabricators, 
suppliers, constructors and investment firms. We have advised DOE that 
we will be in a position to compete for Federal cost sharing dollars as 
early as fiscal year 2011 if the program is approved by Congress.
    NuScale Power wants to thank you and your subcommittee members for 
the support you have provided SMRs thus far. We look forward to 
continued work with you and your staff.
                                 ______
                                 
           Prepared Statement of the Gas Technology Institute
    GTI welcomes the opportunity to provide comments to the 
Appropriations Subcommittee on Energy and Water Development.
    Gas Technology Institute [GTI] is an independent not-for-profit 
organization serving research, development, and training needs of the 
natural gas industry, gas consumers, and energy markets. Most of the 
250-person GTI staff is based at GTI's headquarters located on an 18-
acre campus in Des Plaines, Illinois. Over 70 percent of our personnel 
are technically trained engineers and scientists. GTI has over 280,000 
square feet of office, laboratory, shop, library, and training space 
with over 110,000 square feet devoted to laboratory, fabrication and 
testing facilities. GTI currently manages approximately $60 million in 
research and development contracts per year (over 100 projects), and 
has been managing contracts of this type since the 1940s. GTI performs 
contract Research and Development [R&D] for the U.S. Department of 
Energy and is very familiar with many of its programs.
                              natural gas
    New opportunities for the production of natural gas in the United 
States will provide a jobs and economic boom to many parts of our 
Nation over the next 10 years. In the last year alone Pennsylvania has 
created 44,000 new jobs and their residents have received over $389 
million in lease payments from private companies for the right to 
explore natural gas trapped in shale formations. By 2020, 211,000 new 
jobs are expected to be created in Pennsylvania and lease payments over 
$1.9 billion \1\ to be paid.
---------------------------------------------------------------------------
    \1\ http://marcelluscoalition.org/wp-content/uploads/2010/05/PA-
Marcellus-Updated-Economic-Impacts-5.24.10.3.pdf.
---------------------------------------------------------------------------
    To assist in accomplishing the goals of energy independence, 
reducing emissions and creating hundreds of thousands of new jobs, the 
Congress and executive branch should provide similar attention and 
resources to the development and deployment of natural gas technologies 
as are provided to other energy sources. Today, the USDOE spends 
billions of R&D dollars on wind, solar, coal and more efficient 
electric technologies. These are all important efforts, however, when 
reviewing the agency's entire R&D budget, less than 1 percent is spent 
on natural gas R&D even though natural gas represents 25 percent of our 
Nation's primary energy use and that is expected to grow over the next 
several decades and natural gas provides compelling public benefits in 
terms of domestic economic growth, improved energy security, source 
energy efficiency, and reduced carbon dioxide emissions.
                           usdoe r&d funding
    For R&D related to natural gas, a review of the combined budgets of 
EERE and Fossil programs alone, show that in 2010, the U.S. Government 
provided an estimated $80 million (3.5 percent), out of an almost $2.3 
billion total. It is clear that if the United States wants to support 
an expanded role for clean burning natural gas, leading to improved 
energy independence, energy efficiency, job creation and reduced 
emissions, scarce R&D dollars should be, in part, focused on natural 
gas. These new natural gas technologies could be utilized in all energy 
sectors including homes, businesses, manufacturing, power generation 
and transportation; as well as to enhance reliability and safety of the 
natural gas production and delivery system.
Natural Gas R&D Funding Information and Observations (Increase Funding 
        for Natural Gas R&D)
  --The $100 million Industrial Technology Program [ITP] continues to 
        be the only program at USDOE that focuses a portion of their 
        budget on developing new more efficient technologies for 
        manufacturing. Many of these technologies will be powered by 
        natural gas.
  --Approximately 60 percent of the $673 million 2010 Fossil Energy 
        budget for research and development was appropriated for coal 
        while only 2.5 percent was directed to natural gas.
  --During 2010, Coal accounted for 22 percent of the country's primary 
        energy use while natural gas represented 25 percent of the 
        county's primary energy use. It would be fair and prudent to 
        spend comparable R&D funding for natural gas.\2\
---------------------------------------------------------------------------
    \2\ http://www.eia.gov/oiaf/aeo/tablebrowser/
#release=AEO2011&subject=0-AEO2011&table=2-AEO2011&region=1-
0&cases=ref2011-d120810c.
---------------------------------------------------------------------------
  --The ARRA spending stimulus provided $3.4 billion to the Fossil 
        Energy Program. All was spent on coal.
  --The approximately $200 million Buildings Program at EERE has no 
        specific program to support natural gas technologies for homes 
        and businesses even though approximately 70,000,000 U.S. homes 
        and businesses use natural gas.\3\
---------------------------------------------------------------------------
    \3\ A.G.A. ``Gas Facts: with 2008 Data'', Tables 8-2 and 8-3.
---------------------------------------------------------------------------
  --Currently natural gas vehicle [NGV] R&D at USDOE is $5 million. 
        Electric vehicle R&D is approximately $128 million.
  --The Office of Electricity and Energy Reliability only funds R&D 
        programs for the Electric Grid, not the entire energy delivery 
        system, thus discounting the importance of our Nation's gas 
        pipeline infrastructure which currently supplies 21 percent of 
        U.S. electricity.
  --No money within the Renewable program is directed toward the 
        development of technologies to produce renewable natural gas 
        [RNG] from livestock manure, landfills, wastewater treatment, 
        or woody-bio-mass even though RNG may offer the most efficient 
        means to deliver non wind or solar renewables to energy 
        consumers.
    The current proposed USDOE budget by the administration provides no 
funding or R&D program direction for natural gas vehicles, efficiency 
improvements for natural gas power generation or home appliances, 
efficiency for natural gas commercial cooking, natural gas carbon 
capture, renewable natural gas technology or development of hybrid 
solar natural gas technologies.
    Following are recommendations that begin to address the lack of 
natural gas R&D at USDOE. Within some of the recommendations are 
suggested resource amounts. GTI suggests these amounts as part of 
whatever allocated dollars are agreed upon between the Congress and the 
administration. We are not suggesting new money--just a reasonable and 
prudent refocus supporting an equitable approach for natural gas R&D.
    Residential homes and commercial buildings consume over 40 
Quadrillion Btu's (or Quads) of energy. Developing building 
technologies that utilize the least amount of total energy; provide 
similar performance as existing technologies and take advantage of 
renewable opportunities can ensure the most efficient use of important 
domestic energy resources such as natural gas.
    Natural gas is an important domestic energy resource, with nearly 
all of U.S. demand for natural gas coming from North America and 52 
percent of all U.S. homes utilizing natural gas for space/hot water 
heating or cooking. While an expanding supply from new sources such as 
gas shales has resulted in a flattening of prices--a trend that is 
expected to continue, this domestic source of energy should be used in 
the most efficient and clean manner ensuring the maximum benefit of 
existing and future supply.
                           buildings program
    The natural gas industry, manufacturers and R&D performers will 
identify and capture financial support for this effort with 20 percent 
to 40 percent co-funding expected, depending on the type of R&D 
performed.
    We recommend natural gas efficiency R&D within the U.S. Department 
of Energy's Buildings Technology Program of $12 million. This is a very 
small request relative to their overall 2010 budget which was over $200 
million, and this request is supported by the American Gas Association 
[AGA] and numerous gas utilities and other gas related trade 
associations.
    Specific program initiatives include:
  --Space Conditioning and Water Heating Efficiency and Operational 
        Improvements--$2.9 million
  --Building Systems and Community Energy System Technologies--$2.6 
        million
  --Breakthrough Technology Development--$2.1 million
  --Development of Higher-efficiency Commercial Food Service 
        Equipment--$1.6 million
  --Solar/Natural Gas Hybrid Systems--$2.8 million
                  industrial technology program [itp]
    Within the Industrial Technology Program, we are concerned of the 
new focus proposed in the Presidents fiscal year 2012 budget proposal. 
This new focus of R&D support for manufacturing of advanced materials 
discounts the 20 years of stakeholder involvement by the steel, glass, 
aluminum, heat treating food processing, and other energy intensive 
industries that have worked with the Industrial Technology Program to 
develop new processes and other means to reduce energy consumption and 
improve manufacturing technologies. Many of these stakeholders have 
already voiced their concerns to members of Congress and the USDOE.
    GTI suggests that a good guide for ensuring that the ITP addresses 
the R&D needs of energy intensive manufacturing industries can be found 
in section 452 of the ``Energy Independence and Security Act of 2007.'' 
We are not suggesting the specific funding outlined in that section, 
but rather the language regarding the scope and focus of the ITP 
presented in section 452 titled ``Energy Intensive Industries 
Program.''
    We also recommend specifically that ITP include a focus on waste 
heat recovery, and combined heat and power.
  --Gas Heat Pump Technology (Combined Heat and Power)
  --Micro Combined Heat and Power Production Development (Combined Heat 
        and Power)
  --CHP Efficiency and Carbon Reduction Improvements (Combined Heat and 
        Power)
                          vehicle technologies
    As mentioned earlier the President's budget request for USDOE in 
2012 provided no funding for natural gas vehicle R&D even though the 
request for the overall budget for the vehicle programs was $588 
million. GTI proposes a budget of $30 million for natural gas vehicle 
R&D. This request is supported by AGA, numerous gas utilities and NGV 
America.
    Specific program initiatives include:
  --Development of new engines to meet a wider range of applications.
  --Integrating natural gas engines into additional medium and heavy 
        duty vehicle platforms such as buses, trash trucks, delivery 
        trucks and over-the-road trucks as well as marine and off-road 
        applications.
  --Develop new natural gas hybrid-electric platforms.
  --Reduce cost and weight of compressed and liquefied natural gas 
        storage systems.
    Renewables.--Ensure that some portion of the Renewables program 
area can support the demonstration of a renewable natural gas 
production facility utilizing gasification to produce pipeline quality 
gas from woody-biomass. (Excellent efficiency--low emissions)
    Fossil.--Currently there is no funding for natural gas and the 
President's USDOE Fossil Energy R&D budget request of $453 million is 
directed for coal carbon capture and sequestration. Program direction 
would be welcome for improving efficiency of natural gas power 
generation, natural gas exploration and production R&D to address 
environmental concerns, and natural gas power generation carbon 
capture.
    Office of Electricity and Energy Reliability.--All funding is 
focused on the Electric Grid. The President's proposed budget of $238 
million should provide program direction, at a minimum, to address the 
synergies of our Nation's pipeline infrastructure in relationship to 
electric grid reliability.
   section 999/the research partnership to secure energy for america 
                                [rpsea]
    In 2005, as part of the Energy Policy Act, (section 999) funding 
was directed from the Nation's Oil and Gas Royalty Trust Fund to create 
a program that would focus on unconventional natural gas exploration 
and production R&D and on deepwater fossil fuel extraction R&D. The 
program was designed to provide $12.5 million to the National Energy 
Technology Laboratory [NETL] and $37.5 million to a nonprofit whose 
sole purpose was to manage and guide an energy R&D program as described 
above. This total of $50 million annually is directed spending.
    RPSEA was eventually chosen by USDOE to manage the $37.5 million 
R&D program. Today RPSEA continues to manage $37.5 million of the 
program and provides a resource plan to USDOE annually for the 
execution of the funding.
    RPSEA disseminates RFP's once USDOE approves its annual plan and a 
majority of the funding supports work performed by universities and 
nonprofits like GTI. The most recent annual plan delivered by RPSEA 
centers on performing environmentally focused R&D for shale gas and 
deepwater fossil fuel exploration. RPSEA stands ready to assist the 
Nation in better understanding and addressing the environmental issues 
related to shale gas and deepwater fossil fuel exploration and 
production.
    Congress should continue support for section 999, (which funds 
RPSEA) at current or increased levels.
  --RPSEA continues to be a model of Private/Public R&D partnerships 
        focused on delivering new technology and analysis.
  --RPSEA is developing environmental and process solutions for shale 
        gas and deepwater fossil energy exploration.
  --Natural gas R&D funding in the 1980s and 1990s supported by the 
        natural gas industry and the Federal Government helped to make 
        possible the current and growing production of natural gas from 
        shale formations, and contributed to the technological 
        breakthroughs that reversed a 40-year decline in domestic oil 
        production.\4\ \5\
---------------------------------------------------------------------------
    \4\ http://www.whitehouse.gov/sites/default/files/microsites/ostp/
pcast-energy-tech-report.pdf.
    \5\ http://mjperry.blogspot.com/2010/12/us-oil-and-gas-reserves-
increased.html and http://www.eia.doe.gov/emeu/mer/pdf/pages/
sec3_3.pdf.
---------------------------------------------------------------------------
  --RPSEA, while having considerably less financial resources than the 
        R&D programs of the 1980's and 1990's, can help continue the 
        development of breakthrough technologies and processes to 
        improve and enhance natural gas exploration and production.
                                 ______
                                 
       Prepared Statement of the American Wind Energy Association
                              introduction
    After experiencing a record year of growth in 2009, the American 
wind industry installed just over 5,000 megawatts [MW] of capacity last 
year. Two of the principal causes for the decrease were the reduced 
demand for electricity due to the economic slowdown and the low price 
of natural gas compared with historic levels. Wind systems are 
commercially deployable today and cost-competitive with virtually all 
other new electricity generation sources. In addition, polling 
consistently shows that a strong majority of Americans want more wind 
power. Just last year, 89 percent of American voters (84 percent of 
Republicans, 88 percent of Independents, and 93 percent of Democrats) 
agreed that increasing the amount of energy our Nation gets from wind 
energy is a good idea.\1\ However, keeping America's domestic wind 
industry competitive with other generation sources and the wind 
industry in other countries depends in part on increased research, 
development, and deployment [RD&D] funding to reduce costs and improve 
reliability.
---------------------------------------------------------------------------
    \1\ March 2010 survey by Neil Newhouse, Public Opinion Strategies; 
Anna Bennett, Bennett, Petts & Norrington.
---------------------------------------------------------------------------
    The American Wind Energy Association [AWEA] requests a funding 
level of $144.2 million for fiscal year 2012 for the Department of 
Energy [DOE] Wind Energy Program, an increase of $17.3 million above 
the President's Congressional budget request. Of this amount, AWEA 
requests that an additional $10.1 million be designated for the 
integration of variable power sources. An additional $6.2 million 
should be provided for the research and development of advanced 
technology components, and an additional $1 million should be provided 
for the study of wind energy and wildlife interactions. While we 
recognize that DOE has proposed a $64 million increase in funding for 
needed offshore wind R&D and generally concur with the proposed 
research activities, we wish to re-emphasize the importance of expanded 
R&D for land-based installations as well.
    We appreciate the recognition of the important role wind energy 
will play in meeting America's future energy needs, which is reflected 
in the 60 percent increase in funding for the DOE Wind Energy Program 
that is included in the President's budget request. This funding 
increase is an important step in overcoming constraints to meeting the 
DOE's scenario of wind energy providing 20 percent of our Nation's 
electricity by 2030,\2\ but funding should be increased in the three 
critical areas mentioned above, and maintained for wind resource 
characterization.
---------------------------------------------------------------------------
    \2\ U.S. Department of Energy, ``20% Wind Energy by 2030'' (July 
2008).
---------------------------------------------------------------------------
                importance of doe's wind energy program
    For years, the DOE Wind Energy Program has provided important help 
to the wind industry by supporting technology advances and identifying 
and addressing other hurdles to wind energy development. The program 
provides needed technical support, guidance, information, and limited 
cost-shared funding for efforts to explore and develop wind energy 
resources. AWEA commends the DOE Wind Energy Program for successfully 
developing programs that are consistent with the wind industry's long-
term needs. We have noticed a growing rigor in the program's 
organization and structure to address the needs of the growing wind 
industry.
    Past investments in wind have resulted in significant improvements 
over the past 30 years, such as increased output, improved reliability, 
and lower costs. In fact, the cost of wind, when adjusted for 
inflation, has dropped from over $0.50/kWh in 1980 to between $0.05 and 
$0.06 today.\3\ Despite this dramatic decrease, there is still plenty 
of room for further reductions that will be critical for wind energy to 
compete in an environment of very low electricity costs.
---------------------------------------------------------------------------
    \3\ Black and Veatch, ``20% Wind Energy Penetration in the United 
States'' (October 2007).
---------------------------------------------------------------------------
    Clearly, more work is necessary. Wind power is still constrained by 
difficulties in market acceptance and the need for improvements in 
cost, performance, and reliability. The DOE's 20 percent Wind Energy by 
2030 report assumes that capital costs must be reduced by 10 percent 
and that turbine efficiency must increase by 15 percent to reach the 
goal of providing 20 percent of our Nation's electricity from wind by 
2030. The DOE report identifies a need for continued Federal investment 
in wind RD&D by stating, ``In a functional sense, wind turbines now 
stand roughly where the U.S. automotive fleet stood in 1940.\4\'' As 
our Nation turns to wind power to meet more of its energy needs, it is 
important for DOE to increase funding to improve wind turbine 
reliability and reduce costs.
---------------------------------------------------------------------------
    \4\ U.S. Department of Energy, ``20% Wind Energy by 2030'' (July 
2008).
---------------------------------------------------------------------------
    Achieving 20 percent of U.S. electric power from wind, with the 
critical help of RD&D, would:
  --Create 500,000 jobs, generating over $1 trillion in economic impact 
        by 2030;
  --Reduce natural gas demand by approximately 7 billion cubic feet/
        day--nearly one-half of the current consumption in the electric 
        sector;
  --Decrease natural gas prices by approximately 12 percent, saving 
        consumers approximately $128 billion;
  --Avoid 825 million tons of carbon dioxide emissions in the electric 
        sector in 2030, equivalent to 25 percent of expected electric 
        sector emissions; and
  --Reduce cumulative water consumption in the electric sector by 17 
        percent in 2030 (one-third of which would come from the arid 
        West).
    The DOE Wind Energy Program currently receives approximately $79 
million annually. In comparison, the RD&D budgets for many other 
traditional and emerging energy sources are much higher. Non-defense 
nuclear RD&D energy programs receive $775 million, coal programs 
receive about $383 million, and solar and biomass energy receive $243 
million and $216 million, respectively. These are historic imbalances 
in funding that date back to the 1970s. A higher Federal funding level 
for wind energy RD&D will help ensure that wind energy remains 
competitive with other forms of energy.
                   specific wind industry priorities
    Each year AWEA and its member companies identify the RD&D 
priorities that will most effectively help realize the vision of 
providing 20 percent of America's electricity from wind by 2030. The 
following four areas are the wind industry's top priorities in addition 
to the funding that has already been requested in the President's 
budget.
Integration of Variable Power Resources
    The integration of variable power sources, such as wind power, into 
the electrical grid is a key area of focus for meeting the 20 percent 
by 2030 wind energy goal. The systems integration program area focuses 
on the operations issues of integrating variable, non-dispatchable 
power sources into the power system. Numerous studies from the United 
States and Europe (with significant involvement from DOE-funded 
experts) have shown that even minor changes to power system operations 
can accommodate much greater amounts of wind.
    Unfortunately, the DOE budget request justification includes a 
reduction in funding for renewable systems interconnection from $14 
million to $3.9 million. The current funding level should be preserved.
Advanced Technology Components
    Advanced technology components, from drive trains to blades to 
towers to controls and sensors, have enormous potential to drive down 
the cost and increase the reliability of all future wind turbine 
systems, not just those located offshore. Such advancements can be 
accelerated and stimulated by DOE, especially as industry deals with 
the current downturn in wind turbine installations. With continued and 
accelerated advancement, studies show that onshore wind turbine 
installations in the United States over the next decade can approach 
150 gigawatts (enough to generate roughly 10 percent of U.S. 
electricity). The reduction in the utility scale R&D testing budget 
line item indicates a reduced emphasis on these important technologies, 
which instead should be receiving greater attention.
    Wind energy is now cost competitive with virtually every other 
energy source and technology advancements can drive the cost down even 
more. Already, these technology advances have enabled a typical modern 
wind turbine to produce 15 times more electricity than the typical 
turbine in 1990, but further improvements are needed to meet the 20 
percent goal by 2030.
Siting Issues
    The DOE 20 percent report also identified siting issues as a 
potential barrier to achieving that level of deployment. To address 
these issues, the wind energy industry invests millions of dollars 
every year in research related to the interactions between wind energy 
and wildlife, including through a variety of collaborative efforts 
involving Federal and State officials, as well as conservation 
organizations. However, given the importance of resolving siting 
issues, including wildlife-related concerns, to the future of the 
industry, it is necessary and appropriate for DOE to support such 
efforts as well. AWEA recommends devoting $1 million of the DOE R&D 
budget to supporting research on wind energy and wildlife interactions.
Wind Resource Characterization
    Discrepancies between the projected and actual performance of wind 
facilities illustrate the urgent and continuing need for improved wind 
resource characterization methods (modeling and measurements). These 
methods include micrositing to reduce wind turbine wake losses and to 
optimize large wind farm array layouts. These key areas can be 
addressed in the short term to reduce the cost of energy. The DOE 
fiscal year 2012 budget justification includes an increase from $5.7 
million to $7.1 million for this area of research. AWEA endorses this 
funding increase.
                               conclusion
    The President and Congress have called for a bolder commitment to 
the development of domestic energy resources to meet our Nation's 
growing energy demand. Continued investments in wind energy RD&D are 
delivering value for taxpayers by fostering the development of a 
domestic energy source that strengthens our national security, provides 
rural economic development, spurs new high-tech jobs, and protects the 
environment.
    While the wind industry continues adding new generation capacity, 
challenges still exist. Continued support for DOE's Wind Energy Program 
is vital to helping wind become a more prominent energy source, which 
will benefit the economy and environment. To ensure that funding levels 
are commensurate with our Nation's need for more domestic energy, AWEA 
urges the subcommittee to provide $144.2 million for the Wind Energy 
Program in fiscal year 2012. Along with other key Federal policies, 
both new and sustained, greater RD&D funding through DOE will help 
transform the 20 percent wind vision into a reality.
    AWEA appreciates this opportunity to provide testimony on DOE's 
fiscal year 2012 Wind Energy Program budget before the Senate 
Appropriations Subcommittee on Energy and Water Development. We thank 
the subcommittee for its time and attention to our request.
                                 ______
                                 
      Prepared Statement of the American Society for Microbiology
    The American Society for Microbiology [ASM] is pleased to submit 
the following testimony on the fiscal year 2012 appropriation for 
science programs at the Department of Energy [DOE]. The ASM is the 
largest single life science organization in the world with over 38,000 
members. The ASM mission is to enhance the science of microbiology, to 
gain a better understanding of life processes, and to promote the 
application of this knowledge for improved health and environmental 
well-being.
    The ASM supports the administration's proposed fiscal year 2012 
budget of $5.4 billion for the DOE's Office of Science, a 9.1 percent 
increase over the fiscal year 2010 appropriation level. The proposed 
fiscal year 2012 budget will enable the Office of Science to continue 
its leadership in critical areas including: renewable energy, 
environmental cleanup, carbon capture and sequestration, climate change 
and basic research across the physical and biological sciences.
    DOE investments in science and technology create new industries and 
jobs, and strengthen United States basic research capabilities. The 
Office of Science funds research in academic institutions, DOE 
laboratories and technology centers that employ over 30,000 scientists 
and engineers. In fiscal year 2012, more than 26,000 researchers from 
universities, national laboratories, industry and international groups 
are expected to use the DOE's world renowned research facilities.
    The Office of Science is the largest Federal sponsor of basic 
research in the physical sciences as well as the largest Federal funder 
of materials and chemical sciences. The 10 national laboratories 
directly overseen by the Office of Science are world leaders in basic 
and applied research, generating breakthroughs in multiple disciplines. 
DOE provides scientific expertise to address challenges including 
events in post-earthquake Japan, the search for clean energy and many 
environmental challenges.
    The ASM has a specific interest in microbiological research 
overseen by the Biological and Environmental Research [BER] program. 
Microorganisms are essential to research areas like biofuels and 
environment remediation. The ASM recommends Congressional approval of 
the proposed budget increase for the BER program to $718 million, about 
22 percent over the fiscal year 2010 level.
    doe investments in biological and environmental research yield 
                          innovative solutions
    The Biological and Environmental Research program cuts across 
scientific and engineering disciplines to understand complicated 
biological, climatic, and environmental systems. BER funded research 
has advanced scientific knowledge providing the foundational research 
to support biofuels development, monitor subsurface contaminants and 
expose the effects of greenhouse gas emissions. BER funding is also 
responsible for new research tools that help investigators explore the 
interface of biological and physical sciences.
    The BER research portfolio has transformed science and technology 
in the United States. An example is the Human Genome Project initiated 
by BER in 1986, a catalyst for the biotechnology industry and the 
emerging field of systems biology. BER sponsored activities have helped 
shape modern climate science with powerful climate modeling 
capabilities. BER's computing experts and facilities have guided new 
disciplines dependent upon high end computer resources, such as 
computational biology and bioinformatics. DOE funding has influenced 
scientific discovery. Recent examples include:
  --Use of a newly patented group of naturally occurring microbes to 
        detoxify chlorinated solvents that contaminate a former DOE 
        reactor site, improving groundwater quality;
  --Genetic mapping of plant digesting microbes from the cow rumen, 
        generating 270 billion letters of the DNA code in a massive 
        data-collecting effort to understand how to efficiently degrade 
        plant biomass for biofuels production: and
  --Atomic-scale X-ray crystallography studies that identified 
        microbial proteins possibly key to formation of drug-resistant 
        biofilms, suggesting new antibiotic targets.
    The fiscal year 2012 budget proposes increases for the areas of 
genomic science and computational biosciences, as well as for BER's 
Joint Genome Institute [JGI], Structural Biology Infrastructure and 
programs.
    BER's major scientific goals for fiscal year 2012 include advances 
in genomic science, radiological sciences, climate research, and 
subsurface biogeochemistry. Relevant research will be distributed 
between BER's two subprograms, Biological Systems Science Division 
[BSSD] and Climate and Environmental Sciences Division [CESD]. The 
former focuses on fundamental principles related to function and 
structure of living systems from microbes to mammals, while the latter 
examines environmental impacts of energy production and use. Both rely 
heavily on microbiological systems and techniques.
    The fiscal year 2012 request for BSSD is $376 million, an increase 
from the fiscal year 2010 level of $310 million. In fiscal year 2012, 
CESD would receive nearly $342 million compared to $278 million in 
fiscal year 2010. Within CESD, Environmental System Science activities 
increase by 22 percent. BER budgets also include support for world 
class facilities and research consortia. The BSSD subprogram manages 
the Joint Genome Institute, the Bioenergy Science Center, the Joint 
Bioenergy Institute, and three DOE Bioenergy Research Centers. The CSSD 
oversees two scientific user facilities, the Atmospheric Radiation 
Measurement Climate Research Facility and the Environmental Molecular 
Sciences Laboratory [EMSL]. The Joint Genome Institute is now 
sequencing more than 4 trillion genome base pairs annually (more than 
130 times that of 5 years ago), while EMSL with its powerful 
instrumentation and computing housed at DOE's Pacific Northwest 
National Laboratory, leads worldwide efforts in the field of 
proteomics. Results reported from BER funded research in the past year 
include:
  --Scientists at Massachusetts Institute of Technology concluded that 
        various microbial species cooperate in marine environments 
        during their cycling of organic matter, important to the global 
        carbon cycle (BSSD-funded).
  --Bioenergy Science Center studies described a new method to 
        genetically modify the cellulose-degrading bacterium 
        Clostridium thermocellum, with potential to expedite critical 
        degradation steps in biofuels production. DOE scientists at 
        Princeton University developed the first-ever quantitative 
        model for metabolic processes in another Clostridium species 
        that produces butanol, ethanol, and hydrogen during biomass 
        fermentation and is already used by industry--a step toward 
        engineering the microbe for biofuels synthesis.
  --Another collaborative CESD study determined that different 
        microorganisms convert soluble uranium to different forms of 
        reduced uranium, pertinent to controlling contaminants at 
        nuclear sites. Other researchers used microbial fuel cell 
        techniques and electrodes inserted into soil to monitor 
        microbial activity as related to the progress of uranium 
        bioremediation, a technique also applicable to other microbial 
        processes in the environment.
           doe research builds r&d infrastructure, workforce
    DOE science programs have evolved and expanded into an R&D 
infrastructure unparalleled in specific areas of science, technology, 
engineering, and mathematics. DOE laboratories operate sophisticated 
equipment often not available elsewhere, and large numbers of non DOE 
researchers from the United States and other countries regularly use 
DOE facilities to conduct studies that would otherwise be impossible.
    The DOE Office of Science has built extraordinary research 
capabilities, including particle accelerator centers, advanced 
computational centers, and atmospheric monitoring facilities. As an 
example, EMSL offers users a supercomputer and over 60 major 
instruments to support environmental sciences, serving more than 700 
users annually. In the past year, an international team of over 80 
researchers from 21 institutions used the world's first hard X-ray 
free-electron laser, the Linac Coherent Light Source at DOE's SLAC 
National Accelerator Laboratory, to produce the first single shot 
images of intact viruses, expected to lead to eventual videos of 
molecules, viruses and live microbes in action.
    Innovative research tools developed at the national labs or other 
DOE funded institutions regularly stimulate multiple scientific fields, 
often transferring to the technology marketplace as valuable commercial 
products. The DOE toolkit includes research protocols, monitoring and 
measuring equipment, computer models and databases, and considerably 
more. One commercialized example is the PhyloChip developed by DOE 
scientists that can detect up to 50,000 species of bacteria and archaea 
in a single environmental sample, which was deployed at last year's 
gulf oil spill. The innovation has already spawned a start up company 
and is expected to have broad applications in monitoring. At BER's 
Joint Bioenergy Institute, scientists developed a mass spectrometry 
based detection technique called multiple-reaction monitoring, to more 
efficiently and accurately identify microbial proteins that convert 
cellulosic sugars to biofuels. Last year, BER sponsored university 
scientists introduced an optimization method that delineates all 
possible metabolic pathways in an organism like biofuels related 
bacteria, then suggests which genetic changes could trick the microbe 
into overproducing a desired product like ethanol.
    The Office of Science also supports the Workforce Development for 
Teachers and Scientists [WDTS] program, at $35.6 million, a substantial 
72 percent increase over fiscal year 2010. The WDTS program continues 
DOE's long history of training scientists, mathematicians, and 
engineers as U.S. technical workforce, principally through research 
grants and contracts at universities, the private sector, and DOE's own 
laboratories. The program also reaches out to all academic levels: Each 
year, participants in training and education programs at DOE 
laboratories include more than 250,000 K-12 students, 22,000 K-12 
educators, 4,000 undergraduate interns, 3,000 graduate students, and 
1,600 post-doctoral employees. In 2010, a new graduate fellowship 
program selected its first cohort of 150 students, beginning an 
initiative to attract more students to careers in physics, chemistry, 
biology, mathematics, engineering, environmental sciences, or computer 
sciences.
           doe partnerships elevate u.s. science & technology
    The BER program collaborates with other Federal agencies including 
the National Science Foundation, the Department of Agriculture [USDA], 
the National Institutes of Health, and the Department of Defense, to 
optimize complementary research. DOE and USDA for example share similar 
goals in finding new bioenergy sources while DOE's climate change 
studies integrate closely with those in multiple Federal agencies. DOE 
collaborations extend to academia, industry, nonprofits and 
international partners. The Office of Science funds more than 7,000 
individual research projects at universities, national laboratories, 
U.S. industry and the nonprofit sector. In fiscal year 2012, the BER 
budget would support approximately 2,400 researchers and graduate 
students in more than 200 U.S. Federal, academic, and private 
institutions. DOE personnel also advise non DOE scientists and 
policymakers; about 40 DOE experts have travelled to Japan with more 
than 17,000 pounds of equipment to help monitor radiation released by 
the recent earthquake.
    Extramural DOE funding contributes significantly to science and 
technology achievements. More than 110 Nobel laureates have received 
DOE support, as did two recipients of the 2011 Franklin Institute 
Medal. Last year, 39 DOE funded projects garnered R&D 100 Awards which 
recognize the world's most promising new products, processes, materials 
or software that had entered the market the previous year. DOE funding 
has supported the basic research for 800 R&D 100 winners since 1962.
                               conclusion
    The ASM recommends that Congress approve the proposed fiscal year 
2012 budget for the DOE science programs that support diverse often 
large scale research, uniquely important to the U.S. economy, national 
security, a healthy environment and the future status of U.S. science 
and technology.
                                 ______
                                 
                   Prepared Statement of Cummins Inc.
    Cummins Inc., headquartered in Columbus, Indiana, is a corporation 
of complementary business units that design, manufacture, distribute 
and service engines and related technologies, including fuel systems, 
controls, air handling, filtration, emission solutions and electrical 
power generation systems. The funding requests outlined below are 
critically important to Cummins' research and development efforts, and 
would also represent a sound Federal investment toward a cleaner 
environment and improved energy efficiency for our Nation. We request 
that the subcommittee fund the programs as identified below.
                     office of vehicle technologies
    Advanced Combustion Engine R&D.--Increase the request of $49.0 
million by $20 million to bring the program total to $69 million in 
fiscal year 2012, $56 million was appropriated in fiscal year 2010. Two 
important areas of research included in the Advanced Combustion Engine 
R&D are: (1) the development of more energy efficient technologies for 
diesel and gas engines, which will contribute to petroleum use 
reduction and (2) the development of robust engineering design tools 
for large scale computational combustion analysis to develop cost 
effective and efficient combustion engines.
    Light duty trucks continue to be a large segment of the surface 
transportation fleet. The Department of Energy launched the Advanced 
Power Train [APT] light duty [LD] initiative to reduce fuel consumption 
in this sector. The goal of the APT-LD program is to deliver cost 
competitive technologies for a standard light duty pickup truck which 
can achieve at least a 40 percent improvement in fuel economy over the 
state-of-the-art gasoline engines while meeting Tier 2 Bin 2 tailpipe 
emissions (the same emissions standard required for gasoline powered 
vehicles). Class 2a trucks consume nearly 3.9 million oil barrels/day 
of petroleum fuel. A fuel efficiency enhancement of 40 percent can 
reduce petroleum consumption by 1.5 million oil barrels/day. This 
enhancement will provide energy security by lowering petroleum imports, 
GHG emissions and the trade deficit. Innovative high risk technologies, 
such as low temperature combustion, variable valve actuation and closed 
loop selective catalytic reduction [SCR] controls are planned under 
this project. The funding increase will address significant technology 
hurdles in the areas of on-board diagnostics, parasitic loss reduction, 
after-treatment requirements and the use of renewable fuels. Without 
the increased funding, research activities would be significantly 
limited. We understand the President's budget would provide $10 million 
in funding for the APT-LD program. We believe $15 million is needed in 
this area to adequately cover all research and development activities.
    Advanced Computing, a large scale computational simulation 
initiative, is targeted at achieving cost effective means for even 
greater fuel efficiency; 60 percent thermal efficiency engines. Models 
will be developed for advanced chemical kinetics, computational fluid 
dynamics [CFD] and large eddy simulations. These models will simulate 
advanced combustion regimes, transient events and cycle to cycle 
variability. Development of better solver algorithms will minimize 
cycle to cycle variations and more rapid optimization of overall 
engine.
    These projects are in line with the administrations investment in 
clean energy technologies to reduce dependence on foreign oil. We 
understand the DOE intends to allocate $15 million out of the Advanced 
Combustion Engine budget to fund Advanced Computing. We support this 
allocation. However, adequate funds do not exist with Advanced 
Combustion Engine to cover this activity. Therefore, we are requesting 
and additional $15 million in funding to cover these important 
activities.
            office of industrial technologies program [itp]
    Industries of the Future (Crosscutting)/Next Generation 
Manufacturing Processes, Combined Heat and Power Generation [CHP]--
Advanced Reciprocating Engine Systems [ARES].--The Combined Heat and 
Power Generation budget line includes the important Advanced 
Reciprocating Engine Systems [ARES] program funded at approximately $10 
million in fiscal year 2012. We request that ARES program funding be 
increased by $3 million to $13 million in fiscal year 2012. The ARES 
program is an important component of distributed generation and has 
applications in Combined Heat and Power [CHP]. The objective of this 
industry cost shared program is to develop high efficiency, low 
emissions and cost effective technologies for stationary engine systems 
(500-6,500 kW) that can use natural gas or domestic renewable resources 
``opportunity'' fuels. Natural gas-fueled reciprocating engine power 
plants are preferred for point of use power generation, low operating 
costs and reliability. Opportunity fuels can be renewable fuels (e.g. 
land fill gases) which exhibit low BTU, lower methane number and 
varying gas composition. Their use reduces the dependence on high 
quality pipe-line natural gas. Technologies sponsored by the ARES 
program have demonstrated 47 percent engine efficiency (a 20-40 percent 
increase from the baseline engines), higher power densities than 
current products, with an expected reduction in life cycle costs and 
green house gas emissions. Recent technology advances include advanced 
ignition systems, analytical tools for optimum combustion and 
prediction of onset of knock in a field test generator set. The funding 
increase in the fiscal year 2012 budget will support advanced 
technology challenges including combustion enhancements with low BTU 
and methane gases, nitrogen oxides (NO<INF>X</INF>) reductions, 
advanced sensors and controls, hardware durability and lower life cycle 
costs. The development of distributed power generation supports 
national energy security needs, improves protection of critical 
infrastructure and decreases dependence on the national electrical grid 
system through point of use energy production.
 industries of the future (crosscutting)/next generation manufacturing 
          processes, combined heat and power generation [chp]
    Support the request of $25 million in fiscal year 2012.--$24.7 
million was appropriated in fiscal year 2010. This project is to 
develop a flexible CHP system which can be deployed in commercial and 
light industrial (100-500kWe) applications at a lower total cost of 
ownership. CHP systems offer higher system energy efficiency, lower 
emissions and economic benefits. Combined heat and power systems use an 
internal combustion engine to produce electricity at point of use and 
recover waste heat for heating or cooling purposes. Energy intensity of 
the CHP systems can be reduced in excess of 35 percent due primarily to 
more efficient electrical generation and recovered waste heat. Modern 
engine designs operate with much lower regulated exhaust emissions and 
carbon dioxide. The fiscal year 2012 budget will support CHP 
performance modeling, cost effective package design, remote modeling 
and CHP system integration. The project will result in a system that is 
easy to use and inexpensive to install, while providing the lowest-
emissions internal combustion natural gas engine for a CHP system of 
this size.
    Advanced Combustion Engines--Health Impacts.--No funds were 
requested by the administration for this program. We request an 
increase of $2.0 million to bring the program total to $2.0 million in 
fiscal year 2012. The objective of this program is to expand the 
knowledge base relating to the heath implications of emissions 
technologies being developed to meet energy efficiency goals. The 
Advanced Collaborative Emissions Study [ACES] is funded under this 
program. The ACES program is a cooperative effort between government 
(DOE, EPA) and industry (EMA, MECA, API) to assess health effects of 
emissions from 2010 compliant heavy-duty engines. The ACES program will 
include emissions characterization, chronic exposure animal bioassays, 
and identification of any unanticipated emissions or health effects 
from new engine technologies. Continuous monitoring of air toxins and 
source apportionment techniques are also proposed.
                                 ______
                                 
           Prepared Statement of Southern Company Generation
    Mr. Chairman and members of the subcommittee: Southern Company 
operates the U.S. Department of Energy's [DOE's] National Carbon 
Capture Center [NCCC] (http://nationalcarboncapturecenter.com) at the 
Power Systems Development Facility [PSDF] in Wilsonville, Alabama for 
DOE's National Energy Technology Laboratory [NETL] and several 
industrial participants.\1\ The PSDF was conceived as the premier 
advanced coal power generation research and development [R&D] facility 
in the world and has fulfilled this expectation. NETL responded to the 
need for cost-effective carbon dioxide (CO<INF>2</INF>) capture 
technologies by establishing the NCCC which is collaborating with 
technology developers world-wide in accelerating development of lower-
cost CO<INF>2</INF> capture technology for application to coal-fueled 
power plants.
---------------------------------------------------------------------------
    \1\ Current PSDF participants include Southern Company, the 
Electric Power Research Institute [EPRI], American Electric Power, 
Luminant, NRG, Peabody Energy, Arch Coal, Inc., and Rio Tinto.
---------------------------------------------------------------------------
    I would like to thank the Senate for its past support of the NCCC 
and request the subcommittee's continued support of the DOE's Fossil 
Energy R&D core budget at recently enacted levels of $404 million per 
year. The Obama administration's fiscal year 2012 budget request of 
$291 million per year for DOE coal R&D is inadequate to provide the 
robust Fossil Energy program needed to enable development of a range of 
advanced technologies necessary to assure continued use of coal. At a 
time when our country's economy is recovering, we need to assure 
continued utilization of domestically produced, low-cost, coal-based 
power generation. DOE's Fossil Energy R&D efforts have produced 
significant results to advance coal-based power. DOE's core R&D 
budgets, combined with investments by the private sector assure a 
sustainable technology base on which to address the environmental and 
economic challenges facing continued coal utilization. The continued 
operation of the NCCC in partnership with DOE will benefit the Nation 
by responding to the need for developing cost-effective CO<INF>2</INF> 
capture technology for coal-fueled power generation by teaming with 
technology developers funded through the DOE Fossil Energy program and 
accelerating the progress of those technologies toward commercial 
deployment by testing and evaluation at the NCCC.
    The NCCC offers a flexible applied R&D test facility which provides 
commercially representative flue gas and syngas and the necessary 
infrastructure in which developers' technologies are installed and 
tested to generate data for performance verification under industrially 
realistic operating conditions. This effort can bridge gaps between 
fundamental R&D and large-scale commercial demonstration and provides 
for a seamless transition for promising CO<INF>2</INF> technologies to 
migrate from laboratory into commercial applications. The DOE program 
for CO<INF>2</INF> capture in coal-fueled power plants is divided into 
three areas: post-combustion capture for conventional pulverized coal 
plants, pre-combustion capture for coal gasification power plants, and 
oxy-combustion processes which produce a more CO<INF>2</INF>-rich flue 
gas than conventional combustion for easier CO<INF>2</INF> capture. The 
NCCC's CO<INF>2</INF> capture efforts address all three areas.
    Southern Company also supports the goals of the Clean Coal 
Technology Roadmaps developed by DOE, EPRI, and the Coal Utilization 
Research Council [CURC]. These Roadmaps identify the technical, 
economic, and environmental performance that advanced clean coal 
technologies can achieve over the next 20 years. Over this time period 
coal-fired power generation efficiency can be increased to over 50 
percent (compared to the current fleet average of 32 percent) while 
producing de minimis emissions and developing cost-effective 
technologies for CO<INF>2</INF> management.
                                summary
    The United States has historically been a leader in energy 
research. Adequate funding for fossil energy research and development 
programs, including environmental and climate change technologies will 
provide our country with secure and reliable energy from domestic 
resources while protecting our environment. Current DOE Fossil Energy 
Research and Development programs for coal, if adequately funded, will 
assure that a wide range of electric generation options are available 
for future needs. Congress faces difficult choices when examining near-
term effects on the Federal budget of funding energy research. However, 
continued support for advanced coal-based energy research is essential 
to the long-term environmental and economic well being of the United 
States. Prior DOE clean coal technology research has already provided 
the basis for $100 billion in consumer benefits at a cost of less than 
$4 billion. Funding the administration's budget request for DOE coal 
R&D and long-term support of the Clean Coal Technology Roadmap can lead 
to additional consumer benefits of between $360 billion and $1.38 
trillion.\2\ But, for benefits to be realized, the critically important 
R&D program in the Clean Coal Technology Roadmap must be conducted.
---------------------------------------------------------------------------
    \2\ EPRI Report No. 1006954, ``Market-Based Valuation of Coal 
Generation and Coal R&D in the U.S. Electric Sector'', May 2002.
---------------------------------------------------------------------------
    One of the key national assets for achieving these benefits is the 
NCCC. The fiscal year 2012 funding for the NCCC needs to be about $45.4 
million to operate (and modify as needed) the facilities to test 
technologies that are critical to the goals of the DOE Carbon 
Sequestration Technology Roadmap and to the success of the development 
of cost-effective climate change technologies that will enable the 
continued use of coal to supply the Nation's energy needs. Any budget 
cuts (for example from $404 million to $291 million per year) in the 
DOE Fossil Energy Core R&D budget could proportionately impact the 
NCCC. A key feature of the NCCC is its flexibility to test new carbon 
capture technologies for coal-based power generation systems in an 
integrated fashion. The NCCC can evaluate solvent, sorbent and membrane 
CO<INF>2</INF> capture technologies as they are integrated into actual 
syngas (from gasification) or flue gas from actual power plant 
operations. Integrated operation allows the effects of system 
interactions, typically missed in un-integrated, laboratory-based, 
component development programs, to be understood. Testing at the NCCC 
allows the maintenance, safety, and reliability issues of a technology 
to be investigated at a cost that is far lower than the cost of 
commercial-scale testing. The NCCC is large enough to produce data to 
support commercial scale demonstration plant designs, yet small enough 
to be cost-effective and adaptable to a variety of technology research 
needs. Moreover, by operating a unique, but central R&D test facility, 
available to all CO<INF>2</INF> technology developers, redundancy in 
testing sites and equipment is minimized and cost-effective use of R&D 
funds is achieved. The major accomplishments at the NCCC/PSDF to date 
and the current test program planned by DOE and the NCCC's industrial 
participants are summarized below.
                         prior accomplishments
    The PSDF test-bed has operated successfully for many years in 
support of U.S. DOE's advanced coal program. The two significant 
achievements were in (1) a gasifier suitable for use with low rank 
fuels, and (2) hot gas filtration to improve energy efficiency. These 
two technologies have progressed to commercialization with integrated 
gasification combined cycle [IGCC] power plant being built at Kemper 
County, Mississippi, and Dong Guan, China. Skilled staff from 
disciplines essential for a successful research program has gained 
experience by designing and operating the test equipment and by working 
with vendors to develop and improve their technologies. The NCCC/PSDF 
has developed testing and technology transfer relationships with over 
50 vendors to ensure that test results and improvements developed at 
the NCCC/PSDF are incorporated into future plants. In some instances, 
testing has eliminated technologies from further consideration. Such 
screening is valuable in that it concentrates R&D effort on those 
technologies most likely to succeed and is an essential part of 
managing the U.S. DOE's financial resources. Major subsystems tested 
and some highlights of the test program at the NCCC/PSDF include: the 
Transport Reactor, Advanced Particulate Control systems, Filter Safe-
Guard Device, Coal Feed and Ash Removal Subsystems: Syngas Cooler 
enhancements, and Sensors and Controls Automation improvements. These 
components were integrated into a Transport Integrated Gasification 
[TRIG<SUP>TM</SUP>] system and successfully tested at the NCCC/PSDF. 
The TRIG<SUP>TM</SUP> process is now being scaled-up for commercial 
deployment. However, the pilot-scale test components remain in place 
and form the basis of a highly-flexible, unique testing infrastructure 
to enable pre-combustion (i.e. Gasification based) CO<INF>2</INF> 
capture technologies to be evaluated.
                       nccc current test program
    Building on success with TRIG<SUP>TM</SUP>, the NCCC/PSDF facility 
has now refocused its mission on supporting the development and scale-
up of cost-effective, commercially viable carbon capture technologies 
for coal-fueled power plants through collaboration with the DOE and 
third party technology developers. Most of the current CO<INF>2</INF> 
capture technologies are being developed at laboratory- or bench-scale 
under ideal conditions. Continued research and development [R&D] under 
realistic field conditions are needed to validate laboratory results 
and identify technical issues that are not present under ideal 
conditions. In collaboration with technology developers, the NCCC makes 
available coal-derived syngas and flue gas to carry out applied R&D on 
components or small pilot-scale systems to bridge gaps between 
fundamental R&D and large-scale commercial demonstration and provides 
for a seamless transition for promising technologies to migrate from 
laboratory into commercial applications.
    The NCCC is a unique applied R&D test facility that consists of two 
major sets of infrastructure to support CO<INF>2</INF> capture 
technology development. One is the existing pilot-scale coal 
gasification facility that produces syngas for pre-combustion 
CO<INF>2</INF> capture technology evaluation and the other is the newly 
constructed Post-Combustion Carbon Capture Center [PC4] which enables 
testing of capture technologies on flue gas from an adjacent pulverized 
coal power plant. Both are readily adaptable to test a variety of 
technologies at multiple scales, providing data for scale-up to 
commercial applications. This flexibility in conjunction with real-
world operating conditions, allows the NCCC to support developers in 
advancing the CO<INF>2</INF> capture technologies that are critical to 
continued use of coal for power generation. Jointly with the DOE, NCCC 
has developed a Technology Screening Process which is a key evaluation 
tool to assess and prioritize technologies for testing at the facility. 
This process also ensures that final technology selection will form a 
balanced portfolio that promotes the advancement of both near-term and 
long-term candidate technologies.
    Post-Combustion.--Today's post-combustion capture technology is 
estimated to increase the cost of electricity [COE] by up to 80 
percent.\3\ For both new and existing power plants, post-combustion 
capture technology must be made more efficient and cost-effective by 
reducing parasitic power and capital cost requirements. In post-
combustion capture, CO<INF>2</INF> is separated from the flue gas in a 
conventional coal-combustion power plant downstream of the pulverized 
coal boiler. Many post-combustion capture technologies need to be 
proven and integrated in an industrial power plant setting. Activities 
at the NCCC for post-combustion capture technology include:
---------------------------------------------------------------------------
    \3\ ``Cost and Performance Baseline for Fossil Energy Plants, 
Volume 1: Bituminous Coal and Natural Gas to Electricity, Final 
Report''; NETL, May 2007.
---------------------------------------------------------------------------
  --PC4.--This test facility is being built to accommodate tests of a 
        wide-range of capture technologies from flue gas. The test 
        facility includes three major test areas: (1) a pilot solvent 
        test unit [PSTU] to test developers' next generation 
        CO<INF>2</INF> absorption solvents; (2) a second test bay to 
        support evaluation of fully integrated test systems supplied by 
        technology developers; and (3) a bench-scale test area to 
        accommodate up to four small test skids of emerging, advanced 
        technologies such as sorbents or membrane systems.
  --PSTU.--This facility is designed and construction and commissioning 
        were recently completed. Testing is underway with a reference 
        solvent and will begin later this year on alternative advanced 
        solvents with potential improvements in loading capacity, 
        kinetics, or lower heats of regeneration.
  --Advanced Technology.--Compact membrane contactors and solid phase 
        CO<INF>2</INF> sorbents, currently being investigated by DOE-
        NETL and private companies, will be assessed and installed. 
        NCCC will provide such technologies a scaled-up testing 
        platform as development progress warrants.
    Pre-Combustion.--In pre-combustion capture, CO<INF>2</INF> is 
separated from the syngas produced by a coal gasification process, 
prior to the combustion of the syngas in gas turbine for power 
generation. CO<INF>2</INF> capture for IGCC is estimated to increase 
COE greater than 35 percent.\3\ Reducing parasitic power and capital 
cost requirements is also needed for development of efficient and cost-
effective pre-combustion technology. R&D activities at NCCC for pre-
combustion capture technology for application to gasification-based 
power generation include:
  --Advanced CO<INF>2</INF> Capture Systems.--New solvents and gas-
        liquid contacting devices are being assessed on syngas. New 
        CO<INF>2</INF> separation technologies (sorbents or membranes) 
        are being scaled-up and tested based on fundamental R&D 
        progress by third party developers.
  --Water Gas Shift [WGS] Enhancements.--WGS catalyst test results have 
        been conducted which reveal that parasitic steam consumption 
        can be reduced, which in turn increases the net power output of 
        an IGCC plant and reduces COE with CO<INF>2</INF> capture. 
        Results have been supplied to catalyst suppliers and findings 
        are being implemented at a commercial IGCC plant currently 
        under construction. Testing of various WGS catalysts will 
        continue.
  --Advanced Syngas Cleanup.--New advanced syngas cleanup systems are 
        being tested for reducing hydrogen sulfide, hydrochloric acid, 
        ammonia, and mercury to near-zero levels.
    Oxy-Combustion.--The NCCC is also evaluating the potential benefits 
of oxy-combustion CO<INF>2</INF> capture using the pressurized 
transport reactor operating in oxygen combustion mode. Preliminary 
screening studies have been conducted with favorable results. Detailed 
system studies, modeling and additional economic analysis are being 
conducted to evaluate the commercial feasibility of this technology.
    Gasification.--In developing a cost-effective advanced coal power 
plant with CO<INF>2</INF> capture, all process blocks within the power 
plant must be optimized in addition to the capture block. Including 
CO<INF>2</INF> capture in an advanced coal power plant will increase 
the plant COE, so opportunities to reduce cost in every part of the 
process will be explored. With highest priority being given to low-cost 
CO<INF>2</INF> capture process development, projects that reduce 
overall capital and operating costs will also be included in the NCCC 
test plan to partially offset incremental cost increases from 
CO<INF>2</INF> capture addition. These cost reduction projects include 
technology development for syngas cleanup, particulate control, fuel 
cells, sensors and controls, materials, and feeders.
                               conclusion
    The collaboration among DOE Fossil Energy core R&D, technology 
developers, and private industry supported National Carbon Capture 
Center is making great strides toward advancing the next generation of 
CO<INF>2</INF> capture technologies. These technologies hold the 
promise of reducing the costs of CO<INF>2</INF> capture to levels 
necessary to assure that affordable, reliable coal-based electric power 
can be produced for America's economy, while also meeting all of the 
environmental challenges associated with coal use. Congress should 
sustain the DOE Fossil Energy R&D budgets at historical levels.
                                 ______
                                 
  Prepared Statement of the Fuel Cell and Hydrogen Energy Association
    On behalf of the members of the Fuel Cell and Hydrogen Energy 
Association, we are writing to urge your continued support for fuel 
cell and hydrogen energy programs for fiscal year 2012 Energy and Water 
Appropriations. These critical programs create green jobs, increase the 
efficient use of our Nation's natural resources, reduce dependence on 
foreign oil and enhance energy security, while reducing criteria air 
pollutants and greenhouse gas emissions.
    As the subcommittee develops the fiscal year 2012 Energy and Water 
Appropriations bill, we urge you to support the fuel cell and hydrogen 
programs at the fiscal year 2010 levels of $174 million managed by the 
Energy Efficiency and Renewable Energy [EERE] and $50 million in Fossil 
Energy [FE] organizations at the Department of Energy. This amount 
would fully fund the critical research, development, demonstration and 
deployment of these technologies in order to gain a stronger foothold 
in current markets and move the others to commercialization in the 
near-term.
    Fuel cell and hydrogen technologies produce jobs and are a crucial 
part of the portfolio of advanced energy technologies that will help 
achieve the Nation's oil and greenhouse gas reduction goals. Fuel cells 
for stationary power and material handling equipment are commercially 
available and creating jobs today in domestic and export-oriented 
manufacturing. The United States is poised to introduce fuel cell 
electric vehicles by 2015, as long as there is continued support for 
technology maturation, supplier development and infrastructure 
deployment. Advanced R&D in FE and EERE, market transformation, 
technology validation and hydrogen efficiencies in EERE are key 
components of the fuel cell budget.
    The United States currently leads the world in fuel cell and 
hydrogen technologies. Japan, Germany, Korea, and China have made it a 
national priority to develop these technologies and attract the skills 
and intellectual property to create a domestic clean energy business as 
a platform for a future export market. In the United States, fuel cell 
commercialization is underway, and businesses are making the necessary 
investments to bring fuel cell-powered products to American customers.
    President Obama has set strong targets for the Nation for clean 
energy generation and manufacturing; and for increasing the number of 
vehicles fueled by biofuels, natural gas, and powered by electric drive 
trains. Fuel cells and hydrogen energy can help America meet those 
goals faster, more efficiently, and with less impact on the 
environment. Fuel cells are always the cleanest way to use any fuel, 
whether renewable or fossil and all fuel cell electric vehicles are 
hybrids, as they use batteries to store energy; moreover, there is no 
cleaner way to use natural gas as a transportation fuel than to reform 
it for use in a fuel cell electric vehicle.
    What the industry needs now is help from the Department of Energy 
in leveraging these private dollars to help mature current markets and 
aid in creating a competitive landscape for budding ones. Realizing the 
budget constraints you are working under, a budget consistent with 
fiscal year 2010 levels will send a strong, positive signal to other 
investors, companies investing in fuel cell products, auto makers, 
supply chain partners and potential customers. We need a robust market 
for fuel cells and hydrogen energy in the United States if we want to 
keep these industry jobs and the resulting economic growth here, as 
well. (or something to that effect)
    Thank you for your consideration of our request.
           strengthen federal hydrogen and fuel cell programs
    PROPOSAL.--Fund DOE fuel cell programs at Congress-approved level 
for fiscal year 2010; restore reductions proposed by the administration 
for fiscal year 2012.
    The Department of Energy's Office of Fuel Cell Technologies, Fuel 
Cell and Infrastructure Technologies Program supports the development 
of fuel cells, hydrogen fuel and supporting infrastructure for power 
generation, backup power, industrial vehicles, portable applications, 
and passenger cars. The program has made exceptional progress in a few 
short years, helping to reduce the cost of fuel cells by 45 percent 
since 2007 and the cost of hydrogen produced from renewable sources and 
natural gas by 40 percent. The program has tested and evaluated 160 
fuel cell vehicles in real-world operation, led the development of 
safety codes and product standards, and helped deploy more than 1,000 
fuel cell systems to Federal agencies and early private sector 
customers where they are improving energy efficiency and security of 
supply with low or zero emissions.
    The United States is the recognized world leader in fuel cell 
technology. DOE research has supported more than 200 patents. But the 
full benefits of commercialization, including, by DOE's estimate, up to 
677,000 jobs in the next 25 years, will go where the government 
policies and public-private partnerships are strongest. Germany, South 
Korea, Japan, and China, among others, are implementing long-term 
programs designed to capture the fuel cell lead and reap the economic 
and energy security benefits that will follow. The Obama 
administration's proposal to reduce fuel cell funding would send just 
the opposite signal to our domestic market, and have long-term 
undesirable consequences.
    Fuel cell technologies are a crucial part of the new energy network 
that is needed to achieve the Nation's energy policy and greenhouse gas 
reduction goals. The U.S. DOE estimates fuel cells can reduce oil 
imports by nearly 8 billion barrels over the next 40 years, reduce 
CO<INF>2</INF> emissions by 2.4 billion tons, and save consumers $1.6 
trillion. A robust public-private partnership focused on cost reduction 
and early deployment will accelerate commercialization and the benefits 
that accrue with marketplace success.
Office of Energy Efficiency and Renewable Energy [EERE] Programs: $174 
        Million
    Vehicles and Infrastructure.--Support for deployment and fueling 
infrastructure, backed by testing and evaluation, is essential to 
accelerating the transition to the marketplace. As its Phase I 
Technology Validation program winds down, DOE should evolve to support 
early volumes of commercial FCEVs and related infrastructure.
    Market Transformation.--The Market Transformation Program provides 
technical and financial support for purchase or lease of fuel cell 
systems entering the marketplace. The program creates U.S. jobs, 
improves security of air travel and communications, and enables a 
commercial transition in early markets by driving down costs through 
economies of scale. DOE should continue Market Transformation 
activities in all market sectors.
    Enabling Activities.--These programs prepare local communities for 
fuel cell installations, fueling stations and vehicles, and help DOE 
evaluate program options. Systems analysis, safety, codes and 
standards, education and manufacturing technology programs all 
contribute to commercialization.
    Research and Development.--DOE's robust program of cost reduction 
via research into materials, catalysts and components should continue. 
Hydrogen is one of a portfolio of fuels that together will achieve U.S. 
energy security while meeting greenhouse gas reduction goals. Improved 
hydrogen storage will reduce vehicle cost and improve capability, and 
will enable efficient use of hydrogen as a storage strategy for 
intermittent renewable resources, such as wind and solar power. 
Hydrogen from biomass uses a renewable domestic energy source and 
provides greater greenhouse gas reductions than biofuel combustion.
Office of Fossil Energy: Solid State Conversion Alliance Program: $50 
        Million
    The SECA is a cost-shared public-private partnership developing 
high-temperature solid oxide fuel cells [SOFCs] for stationary power 
generation that has met or exceeded every benchmark set for it by 
Congress and the DOE in its more than 10 years of existence. Industry 
has spent $3 for every $1 of government funds, and decreased the cost 
of solid oxide fuel cells [SOFCs] tenfold, while increasing their 
efficiency and durability by two to three times. Continued support is 
needed to scale up the technology to central power station levels. The 
U.S.'s lead in SOFCs, and has created commercially viable distributed 
power generation using natural gas, biogas, and landfill gas that emits 
zero criteria pollutants at a low GHG intensity. Continued development 
and commercialization of SECA technology will deliver a significant 
return to the U.S. economy. Walking away now would hand the fruits of 
our investments to our foreign competitors.
                                 ______
                                 
       Prepared Statement of the National Hydropower Association
    The National Hydropower Association [NHA] \1\ appreciates the 
opportunity to submit this statement regarding hydropower research and 
development [R&D] funding priorities for the fiscal year 2012 
appropriations budget cycle.
---------------------------------------------------------------------------
    \1\ NHA is a non-profit, national trade association dedicated to 
promoting the Nation's largest renewable resource and advancing the 
interests of the hydropower and new ocean, tidal, conduit and in-stream 
hydrokinetic industries and the consumers they serve.
---------------------------------------------------------------------------
    NHA requests $100 million in the fiscal year 2012 Energy and Water 
Appropriations bill for the Department of Energy's (DOE) Waterpower 
Program to support initiatives across all hydropower technology 
sectors. The types of technologies covered are conventional hydropower, 
including pumped storage, as well as marine and hydrokinetic [MHK] 
technologies that access energy in ocean waves, tides, and the flowing 
water in rivers and man-made channels.
    A $100 million funding level, split equally between the 
conventional and MHK programs, is necessary to support a national goal 
to double U.S. capacity of renewable hydropower and the research needed 
to increase production and create more than 1.4 million cumulative new 
jobs all across the country. Investment in hydropower R&D will drive 
innovation across the economy and maintain American competitiveness and 
create jobs.
    Taking maximum advantage of our Nation's hydropower infrastructure 
by increasing efficiencies at existing hydro facilities and adding 
capacity at non-powered dams are two near-term steps in the long-term 
effort to expand hydropower resources. However, development of some of 
this capacity requires necessary and needed R&D investment (both short 
and long term) in order to advance the state of the technology, study 
potential impacts, understand the extent of the developable resource 
and more.
    In particular, Government funding is needed at the front end when 
private investments would not recoup the full value of the resulting 
social good. This is especially true in the case of basic R&D 
initiatives, where under-investment is prevalent.
            hydropower's current and potential contribution
    As America's leading renewable electricity resource, hydropower 
currently provides approximately 7 percent of our Nation's electricity 
supply and two-thirds of America's renewable electricity.\2\ In 
addition, hydropower is positioned to meet 20 percent of President 
Obama's goal of 80 percent clean energy by 2035.
---------------------------------------------------------------------------
    \2\ Based on 2009 generation data. Energy Information 
Administration. http://www.eia.doe.gov/cneaf/electricity/epm/
table1_1.html.
---------------------------------------------------------------------------
    Looking to the future, NHA believes hydropower can double its 
contribution to the Nation's electricity portfolio, providing 
affordable, reliable, and sustainable baseload electricity through the 
responsible development and expanded use of conventional hydropower, 
pumped storage and new technologies, both MHK and conduit applications.
    Support for this forecast is evident. With approximately 100,000 MW 
of installed capacity today, recent studies have determined that 60,000 
MW of growth is possible by 2025 alone. Right now, there are projects 
with over 88,000 MW of capacity before the Federal Energy Regulatory 
Commission [FERC]. Applications for DOE Waterpower program funding 
opportunities in the past far outnumbered available funds--both for new 
MHK and conventional technologies. For example, in 2010 DOE awarded $32 
million to 7 projects to pursue upgrades to existing facilities, 
although dozens more projects submitted applications.
    In addition to the new generation this development will bring 
online, hydropower projects provide a host of ancillary services to the 
grid and environmental benefits. Hydropower facilities can quickly go 
from zero power to maximum output, making them exceptionally good at 
meeting rapidly changing demands for electricity throughout the day. In 
fact, because of its ability to be quickly dispatched, and its 
blackstart capability, hydropower was key in restoring power to the 
grid during the 2003 Northeast blackout. From a clean air perspective, 
hydropower generation in 2009 avoided over 196 million metric tons of 
carbon emissions.\3\
---------------------------------------------------------------------------
    \3\ According to EPA Carbon Equivalencies Calculator http://
www.epa.gov/cleanenergy/energy-resources/calculator.html#results.
---------------------------------------------------------------------------
  hydropower's r&d needs span all industry sectors--conventional, new 
              hydrokinetic technologies and pumped storage
    To realize the opportunity to increase hydropower generation that 
will strengthen our economy, environment and renewable energy supplies, 
continued and expanded funding support is needed to develop and deploy 
novel technologies, improve operational procedures, and provide 
rigorous analysis. Under a fully funded DOE Water Power program, all 
involved interests will have better access to information on the 
potential extractable energy from rivers and coastal waters; and 
technical support to harness this renewable resource through 
sustainable and cost-effective electric generation.
    Funding to support these goals should be directed to:
    Technology Development and Demonstration.--Improving hydropower 
technologies is the most important function of the Water Power Program. 
Through previous funding, increases in efficiency and decreases in 
environmental impact have been realized. This investment must continue. 
New materials research and development and testing of better small and 
low-head hydro technologies would bring down the costs of converting 
existing infrastructure for electricity generation and result in 
important upgrades and modernization of existing power plants. Along 
these lines, initiatives that may be pursued include (but are not 
limited to):
  --Deployment support for projects, both MHK and conventional hydro
  --Feasibility studies to identify additional low-cost, advanced-
        technology opportunities (Hydro Advancement Project)
  --Development of operational tools, standard methods, and best 
        practices to maximize generation at existing and new facilities
    Resource Assessment/Environmental.--Innovation in the hydropower 
industry also goes beyond creating new technologies. The DOE program 
plays an important role in gathering baseline industry data, developing 
updated resource assessments and new growth analyses, studying project 
operations for maximization of both energy and environmental values, as 
well as studying new issues that may affect the industry--from 
potential effects of climate change on operations to addressing the 
energy storage needs to maintain a secure and functioning electric 
grid. Another key role for DOE is to determine the potential capacity 
on existing infrastructure. The work on the National Hydropower Assets 
Assessment Program is one example of a valuable tool that needs 
continued support. Also, the creation of a data clearing house of 
studies and funding for operations benchmarking would enable both the 
conventional and MHK industries to better forecast and model data and 
demonstrate the cost effectiveness of projects.
    Additional activities include:
  --Identify resources and address technology/policy needs to maximize 
        medium-long term opportunities
  --Integrate resource assessments and cost curves with key pumped 
        storage and small hydro technology needs to identify critical 
        COE drivers
  --Provide market analysis to accurately quantify and monetize 
        hydropower ancillary services
    Regulatory Analysis.--In addition to these areas, hydropower 
development faces a comprehensive regulatory approval process that 
involves many participants that includes FERC, Federal and State 
resource agencies, local governments, tribes, NGOs and the public. The 
system strives to promote development while protecting important 
environmental values. However, it can also contain redundancies and 
inefficiencies that unnecessarily slow the deployment of clean 
renewable hydropower and delay much-needed environmental enhancements 
and benefits. At a time when we need all the renewable, affordable and 
reliable energy we can get, the United States needs an updated 
regulatory process that gets projects off the drawing board and puts 
people to work in a more efficient way. To support these efforts, 
programmatic funding could:
  --Engage regulators and environmental stakeholders to reduce license 
        time and cost
  --Align energy generation and environmental priorities across river 
        basins to facilitate development
  --Generate data to more accurately correlate generation with 
        environmental impacts
associated funding support for hydropower development within the civil 
             works programs of the army corps of engineers
    NHA is also working in partnership with Federal agencies to 
identify and pursue smarter and more efficient processes to develop 
hydropower projects on Federal facilities. A new Memorandum of 
Understanding signed recently by the Army Corps of Engineers and the 
FERC demonstrates an ongoing and active commitment to work together and 
identify current challenges and opportunities to increase hydropower 
development.
    In this vein, NHA also calls for support of the Corps' own efforts 
to operate, maintain and upgrade its existing hydropower projects. NHA 
specifically supports the work the Corps is doing under its Hydropower 
Modernization Initiative [HMI] to develop a long-term capital 
investment strategy. One significant feature of the HMI is the Asset 
Investment Planning Tool, which was designed to: (1) analyze the 
condition of critical components and the consequences of failure; (2) 
determine the value of additional hydropower and its cost; (3) quantify 
risk exposure for capital investments; and (4) create 20-year funding 
scenarios to allow for timely and cost-effective rehabilitation or 
replacement of hydropower facilities and their components. To assist 
the Federal Government in rehabilitating aging equipment, the Corps 
also is pursuing increased use of non-Federal funds.
                               conclusion
    Unlocking the vast hydropower potential of our rivers, oceans, 
tides and conduits requires funding the R&D initiatives that make 
innovative ideas a reality. The DOE Water Power Program is an important 
source of support for the researchers, scientists and developers 
working to grow hydropower's contribution to our country's clean energy 
resources. Continued investment in this program is crucial to ensuring 
that innovative new technologies come to market and are able to 
generate the clean electricity America needs.
    And the hydropower industry itself is doing its part to support 
investment in new technologies and project improvements. Among the 
hundreds of millions of dollars invested each year in environmental 
enhancements at hydro facilities, companies are supporting the 
development of a new generation of turbines that improve fish passage, 
generate more power, utilize water more efficiently, and improve the 
oxygen content of the water released downstream of a facility, among 
many other inventive technological and operational advancements.
                                 ______
                                 
           Prepared Statement of the Nuclear Energy Institute
    The Nuclear Energy Institute \1\ [NEI] supports the 
administration's request for fiscal year 2012 funding for the Nuclear 
Regulatory Commission ($1.038 billion) and the following Department of 
Energy programs:
---------------------------------------------------------------------------
    \1\ The Nuclear Energy Institute is the industry's policy 
organization, whose broad mission is to foster the beneficial uses of 
nuclear technology in its many commercial forms. Its membership, more 
than 350 corporate members in 17 countries, includes every U.S. utility 
that operates a nuclear power plant as well as international utilities, 
plant designers, architect and engineering firms, uranium mining and 
milling companies, nuclear service providers, universities, 
manufacturers of radiopharmaceuticals, universities, labor unions and 
law firms.
---------------------------------------------------------------------------
  --LWR Small Modular Reactor Licensing Technical Support--$67 million
  --Fuel Cycle Research and Development--$155 million
  --Light Water Reactor Sustainability Program--$21.3 million
  --Nuclear Energy Enabling Technologies--$97 million
  --Integrated University Program--$45 million
  --Next Generation Nuclear Plant--$49.5 million
  --Innovative Technology Loan Guarantee Program Office--$36 billion in 
        new loan guarantee authority for nuclear power projects
    In addition, the nuclear energy industry strongly opposes 
legislation to impose a proposed tax on electric consumers for the 
uranium enrichment facility decontamination and decommissioning fund.
            ensuring a strong nuclear regulatory commission
    An independent, credible regulatory agency is required for public 
confidence in commercial nuclear energy facilities. During the next few 
years, the NRC will be challenged to continue its inspection and 
licensing activities while analyzing the Fukushima Daiichi nuclear 
accident and determine what changes, if any, may be necessary in NRC 
requirements. Continuity and stability of the five-member commission 
during this critical time will be essential to ensure NRC staff and 
licensees have clear guidance on implementation of the lessons learned. 
The Commission functions most effectively when it has a full complement 
of five commissioners, and the nuclear energy industry believes 
Congress' highest priority should be ensuring that vacancies on the 
Commission do not occur.
    The industry supports fiscal year 2012 funding at the NRC's 
requested level of $1.038 billion, which is a $28.7 million decrease 
below its fiscal year 2010 funding levels. The industry remains 
concerned, however, at the steep escalation in agency budgets and 
staffing levels over the last decade, from 2,763 staff in fiscal year 
2001 to 3,981 staff proposed in fiscal year 2012, and from $487 million 
in fiscal year 2001 to more than $1 billion proposed in fiscal year 
2012. The industry recommends, therefore, that any additional 
Fukushima-related work be funded by re-allocating resources and 
achieving greater efficiencies, without compromising safety oversight 
of existing plants and ongoing licensing activities on license renewal, 
power uprates, reactor design certifications, combined construction and 
operating licenses and small modular reactor licensing issues. The 
industry believes the NRC can absorb additional analysis of the 
Fukushima accident without diverting resources from other programs. If 
the NRC cannot do so, the commission should explicitly provide the 
subcommittee with the specific resource needs and what the agency can 
do to accommodate new activities within its current budget.
    The industry applauds the continued oversight of the NRC by 
Congress to prioritize agency actions. The agency has made some 
progress, but should continue to achieve greater transparency in its 
budgeting to reveal planned staffing and resource needs by individual 
divisions. This is particularly true concerning the defense and 
national interest programs funded by the taxpayer in appropriated 
funds. In any one year, the NRC should ensure that these programs are 
funded at the entire 10 percent of available funds. A firewall should 
exist between fee and fee-relief sources of funds so the user fee is 
not used as an additional source of funding for appropriated programs. 
This would demonstrate to Congress, the public and the industry, which 
pays 90 percent of the NRC's budget, that the budget fairly reflects 
those activities that are licensee-specific.
    Once again, the administration has proposed terminating the 
Integrated University Program, which supports the Nation's universities 
and community colleges. This program is unique in supporting important 
nuclear science and engineering research and workforce training. It is 
a vital program that provides financial support for students and junior 
faculty. The program is managed jointly with DOE's Office of Nuclear 
Energy and DOE's National Nuclear Security Administration and has been 
authorized by Congress. NEI supports $15 million for NRC to continue 
its participation in the program in fiscal year 2012 and recommends 
that NRC fund the program at that level, not at the $11.5 million it 
has proposed for fiscal year 2011.
              development of advanced reactor technologies
    The DOE Office of Nuclear Energy fiscal year 2012 budget as 
proposed by the administration is lower than what was appropriated in 
fiscal year 2010. NEI supports the fiscal year 2012 budget as it 
continues the new initiatives for the Office of Nuclear Energy 
requested in fiscal year 2011. NEI believes that the following programs 
deserve support and represent the highest priorities for the nuclear 
energy industry:
  --Light Water Reactor Sustainability Program--$21.3 million
  --LWR Small Modular Reactor Licensing Technical Support--$67 million
  --Nuclear Energy Enabling Technologies--$97 million
  --Integrated University Program--$45 million
  --Next Generation Nuclear Plant--$49.5 million
    The Idaho National Laboratory [INL] is designated as the lead lab 
for nuclear energy. INL maintains an extensive research infrastructure 
and workforce that will become even more vital for post-accident 
analysis and response to the radiological clean-up at Fukushima 
Daiichi.
       uranium enrichment d&d fund tax undue burden on consumers
    The administration's fiscal year 2012 budget calls for legislation 
to reinstate the uranium enrichment decontamination and decommissioning 
fund, with a proposed tax on electric consumers of $200 million a year 
for 10 years. Electric utilities have already paid twice for 
decommissioning and decontamination at uranium enrichment plants that 
were originally operated by the Energy Department--first as part of the 
price for uranium enrichment services from the facilities and again 
under provisions of the Energy Policy Act of 1992. Under the 1992 law, 
the tax on utilities was to end after 15 years or the collection of 
$2.25 billion, adjusted for inflation. The utilities paid this amount 
in full as specified by law. NEI will continue to oppose this proposal 
in legislation and appreciates the support of the subcommittee in 
rejecting this proposal in fiscal year 2010 and fiscal year 2011.
                integrated used fuel management program
    The Government has an obligation under the Nuclear Waste Policy Act 
to dispose of used nuclear fuel from commercial reactors and defense 
applications. The industry believes licensing should be completed. 
Also, numerous State and local governments and the National Association 
of Regulatory Utility Commissioners are actively opposing DOE's 
withdrawal of the application for the Yucca Mountain repository at the 
NRC and in the courts. The project should proceed and be funded so that 
the technical review of the license application is completed. The 
industry opposes the fiscal year 2012 budget request by the NRC to 
terminate the licensing proceeding. We urge the subcommittee to request 
a specific plan and resources required for continuing the Yucca 
Mountain licensing process, assuming the courts rule the application 
cannot be withdrawn.
    Given that it has been terminated, consumer payments into the 
Federal Nuclear Waste Fund should be suspended for the period of time 
for which there is no waste management program against which to assess 
costs. The industry supports a three-part integrated used fuel 
management strategy that includes: (1) on-site storage at reactor sites 
and development of centralized storage at volunteer locations; (2) 
research, development and demonstration of advanced fuel cycle 
technologies; and (3) development of a permanent repository. NEI 
supports the work of the Blue Ribbon Commission on America's Nuclear 
Future to develop recommendations on how the Nation should manage used 
nuclear fuel and high-level radioactive waste and looks forward to 
reviewing the draft report scheduled for release this summer. Given the 
importance of this report, the subcommittee should encourage the 
commission to complete its work as soon as possible.
    The nuclear energy industry consistently has supported research and 
development of the advanced fuel cycle technologies proposed in the 
Fuel Cycle Research and Development program ($155 million). DOE's plans 
should be adjusted based on its review of the recommendations of the 
Blue Ribbon Commission that Congress accepts.
  industry supports $36 billion for doe innovative technologies loan 
                           guarantee program
    The nuclear industry appreciates the support provided by the 
subcommittee for the DOE loan guarantee program for nuclear energy 
plants and uranium fuel cycle facilities. NEI urges members to maintain 
the appropriated funds for projects under development for fiscal year 
2011. The administration has requested an additional $36 billion in 
loan volume in fiscal year 2012. This would provide sufficient loan 
volume for projects already in due diligence at DOE, and would provide 
certainty to other projects in the development pipeline that financing 
support will be available. Absent some certainty that financing will be 
available, companies may slow development of these projects.
    Loan guarantees for nuclear energy projects are not a subsidy and 
there is no cost to the taxpayer. The use of loan guarantees will lower 
the overall cost of nuclear energy projects, ultimately reducing the 
cost of electricity to consumers. Companies granted loan guarantees by 
DOE for nuclear energy projects must pay a premium for use of the 
program, plus cover all administrative costs.
    Budget scoring is not required for nuclear energy loan guarantees, 
because simply approving loan ``volume'' is not an appropriation. It 
simply authorizes the agency to issue loan guarantees up to that 
amount. For most loan guarantee programs, in which the Federal 
Government pays the cost of the loan guarantee, the 1990 Federal Credit 
Reform Act requires authorization of loan volume in an appropriations 
bill. However, the Government Accountability Office determined that the 
clean energy loan guarantee program authorized by the 2005 Energy 
Policy Act should not be subject to this FCRA requirement, because the 
companies receiving the loan guarantee pay the cost to the Federal 
Government of providing that guarantee--not taxpayers.
    NEI continues to believe that the clean energy loan guarantee 
program, although essential, is not yet a workable financing platform, 
and urges the subcommittee to exercise its oversight responsibilities 
on implementation by the executive branch, particularly on the issues 
of the credit subsidy cost that project sponsors are expected to pay.
                         environmental clean up
    NEI supports DOE's budget request of $6 billion for the 
Environmental Management Office.
                                 ______
                                 
      Prepared Statement of the Coal Utilization Research Council
                              introduction
    This statement is submitted on behalf of the membership of the Coal 
Utilization Research Council [CURC], an organization of coal-using 
utilities, coal producers, equipment suppliers, universities and 
institutions of higher learning, and several State government entities 
interested and involved in the use of coal resources and the 
development of coal-based technologies.\1\ Members of CURC have 
developed, together with the Electric Power Research Institute [EPRI], 
a Technology Roadmap that defines a research, development and 
demonstration [RD&D] program that focuses upon the rapid development of 
cost-effective advanced coal and CCS technologies (www.coal.org) and 
the recommendations discussed in this testimony are keyed off this 
program.
---------------------------------------------------------------------------
    \1\ Several members of CURC are not-for-profit organizations 
designated as such for Federal tax law purposes. Such organizations are 
prohibited in whole or in part from undertaking advocacy activities 
with respect to Federal government appropriations. This written 
statement could be construed as such an activity. Membership 
contributions made to CURC by these organizations are not used for 
these advocacy purposes; rather such contributions are utilized to 
undertake analyses and other educational activities as provided by 
CURC.
---------------------------------------------------------------------------
 importance of the department's fossil energy research and development 
                                program
    The President recently announced his intent to launch a program 
aimed at achieving domestic energy security by increasing the 
production of America's domestic energy resources, and by producing 
them in a manner consistent with responsible stewardship of the 
environment. In order to fuel our recovering economy and ensure jobs 
are created, coal must be a part of the President's program. In turn, 
the Department's Fossil Energy RD&D program is fundamental to ensuring 
coal will play a vital role in our Nation's energy future.
    The Department's coal RD&D program seeks to develop more efficient 
and cleaner advanced coal technologies, including technologies to 
capture and store CO<INF>2</INF> emissions from the use of coal. The 
Department's program has a proven track record of partnering with 
industry to overcome the challenges of using coal and controlling its 
emissions. The proof of this successful partnership is evidenced by the 
fact that since the inception of the Clean Air Act in 1970, the use of 
coal in this country has increased by more than 200 percent while the 
emissions of criteria pollutants has decreased by an average of 88 
percent. This success is largely attributable to our Nation's 
continuing investments in the RD&D of clean coal technologies.
    Similarly, the actual tons of coal used in the United States are 
expected to increase over the next several decades. The challenge is to 
accompany these increases in coal use with the development of 
technologies to address environmental concerns at lower and lower 
overall costs. Successful technology investments will enable the Nation 
to continue to reap the economic and energy security benefits 
associated with use of our most abundant domestic fossil fuel resource 
in a manner that is respectful of the environment. It also means that 
the United States will retain technology leadership in the use of coal 
and this can mean exporting products, growing jobs and assuring that 
developing economies that use coal will have access to technologies 
that assure a low carbon and overall environmental footprint.
 comments on significant issues related to the fiscal year 2012 budget 
                                request
    The programs administered and supported through the Department's 
Fossil Energy office have been distinguished by efforts to foster 
partnerships with industry RD&D efforts, as well as a broad spectrum of 
university research organizations. These programs between industry, 
government and the academic community have enabled participants to 
actively engage in each part of the technology development chain from 
basic research to applied research and development, and culminating in 
large-scale technology demonstrations and early commercial deployment. 
During the past several years, a principal focus of the DOE's coal R&D 
program has been the capture and storage of carbon dioxide. CURC 
members have participated in the DOE CCS related activity, and will 
continue to support that RD&D. However, the Nation faces additional 
energy and environmental challenges which would also be amenable to 
collaborative coal-related RD&D by government and the private sector, 
and these challenges may be more immediate that the climate challenge. 
We recommend greater balance between support for CCS-related activities 
and other coal-related RD&D, as set forth below.
                        specific recommendations
    The Energy Information Administration [EIA] projects that coal will 
continue to provide over 40 percent of our Nation's electricity in 
2035. And yet, despite the enormous contributions that the Department's 
Fossil Energy program has made to the development and successful 
commercialization of clean coal technologies, the President's fiscal 
year 2012 budget recommends a 30 percent decrease in funding from 
fiscal year 2010 levels. Understanding the shared desire to constrain 
discretionary spending, we believe that it would be counterproductive 
to reduce Federal investment which results in lower cost electricity 
and increased competitiveness of American goods. At a minimum, CURC 
recommends that the budget be maintained at the fiscal year 2010 level 
of $400 million for the coal R&D program, and that additional resources 
be appropriated to put us in a position to conduct second generation 
technology demonstrations by 2016.
DOE Proposal To Restructure the Coal RD&D Program
    CURC believes that the proposed restructuring of the DOE coal RD&D 
program provides more transparency on the types of activities that are 
under the portfolio of each program area, and provides specific 
recommendations on those programs as proposed under the fiscal year 
2012 budget restructuring:
Demonstrations
    Clean Coal Power Initiative [CCPI].--For the third consecutive 
year, the administration did not request funding for large-scale 
demonstrations of advanced coal technology on the basis of funding 
provided by the Recovery Act for CCPI Round III. As with other new and 
emerging technologies supported by the Department, support cannot be 
discontinued with this limited number of demonstration projects. A 
sustained and expanded demonstration program is integral to the 
commercialization of advanced coal and CCS technologies. In its 
proposed program plan, the Department suggests that CCPI Round IV must 
be initiated in 2016 if the programmatic goal of demonstrating second 
generation technologies by 2020 is to be achieved. Incremental funding 
for the CCPI IV program must be provided in the fiscal year 2012 
budget, and each year thereafter, in order to initiate a CCPI Round IV 
program in 2016.
    FutureGen.--Funding for FutureGen has been made available through 
the Recovery Act. CURC reiterates its support for this project as an 
important and necessary step in the demonstration of an integrated CCS 
system. This type of government supported project is vital to make CCS 
a commercial reality.
Power Systems R&D:
                Carbon Storage
    CURC recommends an increase of $10 million over the President's 
request for a total of $125.5 million. This increase corresponds with 
the funding recommended in the CURC-EPRI roadmap and will allow for the 
Phase III Regional Carbon Sequestration Partnership tests to proceed as 
planned, and will allow a reasonably robust set of projects to be 
selected in the current small-scale-test funding opportunity 
announcement. The program should emphasize beneficial use of carbon 
dioxide for hydrocarbon recovery to accelerate the development of the 
infrastructure needed to permit full scale deployment of CCS in the 
future.
                Advanced Energy Systems
    Advanced Combustion Systems.--This program should support 
development of technologies that increase the efficiency of coal 
conversion to energy and contribute to reducing the costs of carbon 
capture from combustion-based power generation, for both new and 
existing steam power plants. CURC recommends that the budget be 
increased by $20 million (for a total of $30.7 million) in fiscal year 
2012 as follows:
  --Restore the materials budget for ultra supercritical (USC--high 
        temperature and pressure) boilers/steam turbines back to $5 
        million. Without an increase, this program will be phased out 
        and there will be no path forward toward a highly efficient, 
        USC demonstration plant in the United States. Without DOE 
        completing this program, the United States will lag behind 
        India, China, and Japan on technology and competitiveness.
  --Add $5 million for efficiency and heat rate improvements (beyond 
        just higher steam temperature conditions) for both existing and 
        advanced plants. Efficiency improvements are a fundamental step 
        toward zero emission power and contribute toward reduced 
        conventional emissions, reduced CO<INF>2</INF> emissions, and 
        lower cost CO<INF>2</INF> capture systems.
  --Increase the Advanced Combustion Systems budget for oxy-firing 
        systems by $10 million. The proposed fiscal year 2012 budget is 
        well below the CURC-EPRI Roadmap and inadequate to fund both 
        continuing oxy-fired projects plus a new funding opportunity 
        that will focus on second-generation oxy-fired technologies.
    Gasification Systems \2\.--DOE studies have shown that integrated 
gasification combined cycle [IGCC] with carbon capture has the 
potential to achieve a cost of electricity at parity with current new 
coal generation without CCS. Achieving this goal requires (1) 
technology improvements that reduce the parasitic losses of carbon 
capture, (2) reduction of IGCC base cost through advanced modeling and 
construction techniques and (3) increasing gasifier availability to 90 
percent. The proposed fiscal year 2012 budget reduction will add years 
and uncertainty to the schedules for validation and commercial 
availability of currently identified improvements, and it does not 
provide funding for new solicitations needed to advance technology 
innovations. CURC recommends that the fiscal year 2012 gasification 
systems budget be increased by $26 million, for a funding total of 
$64.9 million, to support new RD&D opportunities that improve gasifier 
availability ($10 million); achieve major cost reductions ($10 
million); and improve cost and performance for gasification-based coal 
conversion to chemicals and fuels ($6 million).
---------------------------------------------------------------------------
    \2\ It is also important to note that advances in this area not 
only support advanced IGCC but support all gasification programs in 
general, including industrial gasification, biomass gasification, 
hydrogen and fertilizer production, SNG, and coal-to-liquids programs 
and to these ends this program should encompass the concept of advanced 
gasification technology.
---------------------------------------------------------------------------
    Advanced Turbines.--CURC recommends that the Advanced Turbine 
program be increased by $17.4 million for a total of $32 million. The 
Department has been partnering with industry to develop the latest 
generation of advanced gas turbines (the ``G'' and ``H'' class of 
turbines), but these turbines are not yet ready to meet the demands of 
IGCC plants with high levels of CO<INF>2</INF> capture. Reduced funding 
in the last few years has delayed progress and jeopardized DOE's goal 
of developing advanced turbines capable of improving the total 
efficiency of an IGCC plant by 5 percentage points by 2015. The 
proposed reductions to the turbine budget will lead to an even more 
significant delay in meeting the 2015 targets. These gas turbine 
technologies will be at risk of not being ready for the next CCPI 
demonstration program opportunity; thereby, extending the availability 
of critical technologies to help lower the cost of IGCC well into the 
next decade.
    Fuels.--Although the President's budget proposes to cut this 
program, CURC recommends the addition of $20 million to continue coal 
conversion RD&D under the Fuels program. In 2008, we spent $388 billion 
on imported petroleum products, or 57 percent of our balance-of-trade 
deficit. Production of liquid transportation fuels from 60 percent coal 
and 40 percent biomass could provide 3 million barrels per day of 
gasoline equivalent by 2020. This program would create new jobs through 
increased coal production, operating coal-to-liquid plants in widely 
dispersed geographic locations, and bolster our national, energy, and 
economic security through producing indigenous fuels. Coal plus biomass 
fuels meet the requirements of the Energy Policy Act of 2007 and have 
been shown to be net carbon sinks regarding carbon emissions. Funding 
should be directed toward simulation modeling and pilot plant testing 
on eastern, mid-content, and western coals, biomass characterization 
and feeding, and transformational research to reduce the energy penalty 
costs of conversion processes and plant capital costs which are 
currently a deterrent to implementation coal to liquids technologies.
            Carbon Capture
    Post-Combustion Capture.--CURC agrees with the administration's 
request for fiscal year 2012 of $55.5 million for this program. 
However, funding should also target concepts at pilot scale as well as 
lab scale. In this program, DOE should also consider the development of 
technologies that (1) capitalize on the use of hardware being installed 
or planned for other uses at existing facilities and (2) that seek to 
co-benefit emission reductions that may achieve capture levels of less 
than 90 percent from flue gas streams. Technologies that have the 
ability to achieve incremental reductions at lower costs of electricity 
should be considered as part of the broader CCS goals of the DOE 
program.
    Pre-Combustion Capture.--CURC agrees with the administration's 
request for fiscal year 2012 of $13.4 million for this program. 
Likewise for pre-combustion capture, funding should be robust and 
target concepts at pilot scale as well as lab-scale.
Cross Cutting Research
    CURC recommends that funding for the Cross Cutting Research program 
be increased by $15.4 million (for a total of $54.15 million) to 
support the following activities that will develop the next generation 
of advanced coal plants: (1) increase the budget for high performance 
materials research from $0.973 to $5 million in order to support 
development of new high temperature and pressure materials that will 
allow coal plants to generate electricity much more efficiently and 
therefore reduce overall emissions of both criteria pollutants and 
greenhouse gas emissions; (2) increase funding for university coal 
research from $2.4 to $4.8 million to ensure there is a foundation for 
innovation with our university partners in developing advanced coal 
technologies; and (3) provide $5 million in funding for a water 
management research program to develop technologies that reduce water 
consumption for power plant cooling.
    The new emphasis upon computational modeling in the DOE program is 
conceptually attractive as a means to evaluate different concepts that 
are being developed in the coal research program, and could be useful 
in moving those technologies from basic research into scalable 
component technologies. Modeling is also useful in directing attention 
to targeted areas where further engineering research is needed to solve 
operational problems. While modeling may be successful in reducing the 
amount of time and funding required to develop, demonstrate and deploy 
technology, modeling simply cannot replace practical applications and 
demonstrations of the technology. Members of CURC do not believe that 
modeling and simulation programs should serve as surrogates in lieu of 
demonstrations at any scale that provide real operating results. CURC 
is supportive of efforts to fund the development of computational 
models if the budget is robust enough to fund all of the priorities 
identified in this testimony, but CURC does not believe funding should 
be provided at the expense of funding other R&D and demonstration 
activities.
Title XVII Loan Guarantee Program
    The DOE loan guarantee program is one of several important tools 
that act to reduce the large cost penalty associated with the 
installation of first-of-a-kind [FOAK] advanced coal systems with CCS. 
Other tools, such as the Department's CCPI demonstration program, as 
well as investment tax incentives and CO<INF>2</INF> sequestration 
credits, are also necessary and equally as important, as these 
financial assistance programs (1) must in some cases be used in 
combination in order to bring down the cost of first of a kind projects 
and/or (2) provide different value to different business models, and 
therefore some tools may be used over others for specific projects and 
entities. CURC recommends that additional authority for fossil energy 
projects be provided in the fiscal year 2012 budget to ensure this tool 
is available to support the deployment of new fossil-based projects.
                                 ______
                                 
    Prepared Statement of the Federation of American Societies for 
                          Experimental Biology
    The Federation of American Societies for Experimental Biology 
[FASEB] respectfully requests an appropriation of $5.10 billion for the 
Department of Energy Office of Science [DOE SC] in fiscal year 2012. 
This figure is in keeping with President Obama's vision for strong 
national investment in innovation, and it would enable DOE SC to 
continue to support essential research programs that enhance human 
health and quality of life, invigorate the economy, bring the Nation 
closer to energy independence, and drive scientific advances.
    As a Federation of 23 scientific societies, FASEB represents more 
than 100,000 life scientists and engineers, making it the largest 
coalition of biomedical research associations in the United States. 
FASEB's mission is to advance health and welfare by promoting progress 
and education in biological and biomedical sciences, including the 
research funded by DOE SC, through service to its member societies and 
collaborative advocacy. FASEB enhances the ability of scientists and 
engineers to improve--through their research--the health, well-being, 
and productivity of all people.
    DOE SC provides over 40 percent of the total funding for basic 
research in the physical sciences, including fundamental research in 
energy sciences, biological and environmental sciences, materials and 
chemical sciences, and computational science. In addition to supporting 
research at over 300 colleges and universities, DOE SC funds and 
manages 10 world-class national laboratories.
    The DOE SC national laboratories, located in eight States across 
the country, maintain essential research and development facilities 
containing sophisticated instrumentation such as particle accelerators, 
advanced light sources, and supercomputers. Because large-scale 
facilities provide infrastructure beyond the budget of any individual 
research institution, tens of thousands of university and industry 
scientists rely heavily on access to unique DOE SC instrumentation in 
order to conduct cutting-edge research. For example, x-ray facilities 
housed at DOE SC national laboratories, such as the Advanced Photon 
Source at Argonne National Laboratory, are used by nearly all U.S.-
based pharmaceutical and biotechnology companies to conduct protein 
structure studies critical to the drug design process. Furthermore, the 
oil and gas industry uses DOE SC instrumentation to study the atomic 
structure of chemicals used to process and refine fossil fuels. Without 
strong and sustained support for DOE SC, operations at national 
laboratory facilities could be limited or terminated, forcing U.S. 
companies that depend on them to move their research studies to 
overseas locations providing better access to instrumentation.
    At academic institutions and national laboratories across the 
country, DOE SC-funded scientists have uncovered a wealth of knowledge 
that has led to life-changing developments in energy, medicine, 
computer science, and other fields. For example, a team of DOE SC-
funded scientists is studying a fungus capable of degrading plant 
material into the simple sugars necessary to make biofuels, possibly 
leading to a more economical means of manufacturing ethanol for 
industrial applications. DOE SC also partners with other Federal 
science agencies on projects requiring multidisciplinary resources and 
expertise. Along with the National Science Foundation and the National 
Eye Institute, DOE SC sponsored the research and development of an 
artificial retina to restore sight in patients blinded by eye diseases 
such as macular degeneration and retinitis pigmentosa. The study of 
artificial retina technology has advanced the general field of neural 
prostheses, which has the potential to improve the lives of people with 
spinal cord injuries, Parkinson's disease, deafness, and other 
neurological disorders.
    Now is not the time to abandon investment in the innovative 
research supported by DOE SC. Insufficient funding for the agency would 
curtail groundbreaking scientific discoveries by forcing essential 
research facilities to close, causing thousands of scientific jobs to 
be lost, and deterring the next generation of scientists and engineers. 
A source of abundant, safe, clean, and sustainable energy is critical 
to the Nation's future. Development of new energy sources that can be 
used in place of fossil fuels will create new industries, reduce U.S. 
dependency on foreign oil, protect the environment, provide economic 
opportunities, and strengthen national security. Furthermore, because 
of the collaborative work of science agencies and the increasingly 
interdisciplinary nature of scientific research, support for the 
Federal research and development portfolio has never been more 
important. With its vital mission and unique research facilities, 
investment in DOE SC programs should be one of our highest national 
priorities.
    Thank you for the opportunity to offer FASEB's support for DOE SC.
                                 ______
                                 
   Prepared Statement of the University Corporation for Atmospheric 
                                Research
    On behalf of the University Corporation for Atmospheric Research 
[UCAR] and the university community involved in Earth sciences research 
and education, I submit this written testimony for the record of the 
Senate Committee on Appropriations, Subcommittee on Energy and Water 
Development, and Related Agencies. UCAR is a consortium of 76 research 
universities that manages and operates the National Center for 
Atmospheric Research [NCAR] on behalf of the National Science 
Foundation and the university community.
    This Nation must deal with critical national and global energy 
challenges. At a time when we need more research, technological 
innovation, and solutions, I am deeply troubled by the level of cuts 
that the U.S. House of Representatives has proposed for DOE in fiscal 
year 2011, especially the truly destructive cuts proposed for the DOE 
Office of Science (DOE Science), whose basic research is among the most 
valuable and cross-cutting in the world. While I understand that 
Congress faces difficult budget choices in reining in a growing 
deficit, it would be a mistake for Congress to balance the budget on 
the back of DOE's research and development. I urge the subcommittee to 
fund the fiscal year 2012 budget request for the DOE Office of Science 
at $5.42 billion and the Office of Energy Efficiency & Renewable Energy 
[EERE] at $3.2 billion.
    DOE programs and initiatives in science and education directly 
support university and laboratory communities, funding the work of 
preeminent scientists in our field. Without DOE support, our capacity 
to understand and advance numerous fields of science, including the 
atmospheric sciences, would be seriously compromised. DOE is central to 
the country's economic and technological world leadership and to our 
ability to secure an economically and environmentally sustainable 
future for ourselves and our children. This is why the bipartisan 
National Commission on Fiscal Responsibility & Reform recommended that, 
even amidst major agency spending cuts, the Nation must continue to 
``expand high-value research and development in energy and other 
critical areas.''
    With the following, I highlight several science research and 
education programs that represent DOE's critical contributions to 
American leadership in science and technology.
                   climate and earth system sciences
    The Office of Biological and Environmental Research [BER] within 
DOE Science makes fundamental contributions to the Nation's premier 
Earth system models and data analysis infrastructure that provide the 
scientific foundation for future decisionmaking on environmental 
change. Without them we would not know the level of risk that cities, 
States, and businesses face from long-term weather trends and what 
societal preparation and adaptation might be needed.
    In particular, BER provides indispensable support to the Community 
Earth System Model [CESM], a joint DOE-NCAR effort that is a 
comprehensive and sophisticated model for analyzing Earth's past, 
present, and future. CESM is a major contributor to national and 
international assessments of environmental change. And while CESM is 
housed and managed at NCAR, it is an open source climate model, 
involving scientists across the Nation and around the world in making 
contributions and improvements.
    Thanks in part to BER support, CESM and the Nation's other climate 
models are becoming more realistic, incorporating more precise and 
complex natural and human processes that are shaping the global 
climate. For example, the Climate Science for Sustainable Energy Future 
program, a joint effort between NCAR and DOE's Lawrence Berkeley 
Laboratory, is embedding the socioeconomic and energy technology 
components of integrated assessment models into the CESM model in order 
to better understand how the planting of biofuel crops will affect the 
atmosphere, soil, water, and agriculture. These new capabilities will 
allow the climate science community to address societally relevant 
questions in a way that has not been possible in the past.
    New in fiscal year 2012, BER-supported scientists will study 
methods to rapidly integrate new sub-models, datasets, and other model 
components into global Earth system models. Another focus will be 
enabling Earth system models to effectively use future computer 
architectures, such as the new IBM Blue Gene/Q being commissioned at 
Argonne National Laboratory. BER scientists will also expand arctic 
climate research activities and develop new observation capabilities 
for clouds, aerosols, and the terrestrial carbon cycle in this globally 
important and climatically sensitive region. A new Atmospheric 
Radiation Measurement Climate Research Facility site to be developed in 
the Azores will provide critical long-term observations for marine 
clouds and aerosols. Such new research efforts strengthen existing BER 
atmospheric process studies and modeling and are critical for the 
advancement of this scientific field.
    In order to develop more accurate, increasingly realistic, and 
higher resolution Earth system models, with better environmental 
predictive capabilities for businesses and communities, I urge you to 
fund the Office of Biological and Environmental Research [BER] within 
the DOE Office of Science at the requested $717.9 million for fiscal 
year 2012.
                 advanced scientific computing research
    Also within DOE Science, Advanced Scientific Computing Research 
[ASCR] delivers leading edge computational and networking capabilities 
to scientists nationwide, enabling advances in computer science and the 
development of specialized software tools necessary to answer major 
scientific questions being addressed by the Office of Science and the 
larger university community.
    ASCR's continued progress is of particular importance to 
atmospheric scientists involved with Earth system model development. 
Representing the complex processes and interactions of the Earth's 
systems, while efficiently harnessing the enormous amount of computing 
power necessary, requires very advanced software engineering, computer 
science, and numerical techniques. Because the climate simulations 
using the CESM (described above) are too computationally intensive to 
be run at NCAR alone, they are outsourced to the DOE's Leadership 
Computing Facilities. At Oak Ridge National Laboratory [OLCF], a new 
2.33 petaflop system is available to the scientific community, and 
Argonne National Laboratory [ALCF] has proposed building a 10 petaflop 
IBM Blue Gene/Q supercomputer next year. The fiscal year 2012 request 
supports continued operations of existing supercomputing systems as 
well as the new ALCF 10 petaflop system.
    DOE's computing capacity is essential to the country. Each major 
upgrade unlocks reams of new detail and data on the characteristics of 
our current and future Earth system. A failure to maintain and continue 
to upgrade these Leadership Computing Facilities would seriously 
undermine the steady progress of the scientific enterprise in this 
area.
    The results of this research and other research like it are brought 
to the broader scientific community through the Scientific Discovery 
through Advanced Computing [SciDAC] program. SciDAC facilitates the 
transfer of basic research into computational science applications 
through direct partnerships between applied mathematicians and computer 
scientists.
    I urge you to fund the Advanced Scientific Computing Research 
[ASCR] within the DOE Office of Science at the President's full fiscal 
year 2012 budget request of $465.6 million.
           workforce development for teachers and scientists
    The DOE Office of Science's education programs, such as the 
Workforce Development for Teachers and Scientists [WDTS] Program, are 
essential to maintaining U.S. leadership in science, technology, 
engineering, and mathematics [STEM]. WDTS supports, educates, and 
trains the Nation's STEM workforce and facilitates the development of 
the knowledge and expertise that will prepare us to address future 
energy and environmental challenges.
    WDTS has launched the DOE Office of Science Graduate Fellowship 
Program to support U.S. graduate students pursuing degrees in areas of 
basic science and engineering. The goal of the program is to encourage 
talented students to pursue research-focused graduate studies in 
physics, chemistry, biology, mathematics, computer science, 
engineering, and environmental science.
    Programs like WDTS have produced tens of thousands of leading 
scientists, engineers, and technicians who have dedicated their careers 
to working on the great challenges of the day, including climate 
change, while pursuing answers to many of the most important scientific 
questions in physics, chemistry, biology, environmental and atmospheric 
science, and other areas of basic science. Their work will be critical 
to our Nation's continued leadership in the 21st century.
    I urge you to fund the Workforce Development for Teachers and 
Scientists [WDTS] program within the DOE Office of Science at the 
President's full fiscal year 2012 budget request of $35.6 million.
                          renewable energy r&d
    Federal investment in the scientific research and technology 
development involved with renewable energy is one of the most important 
investments we can make in our Nation's future and our ability to build 
resilience to economic and environmental challenges. Renewable energy 
conveys numerous cross-cutting benefits to society, including reducing 
our dependence on foreign oil, driving innovation in the energy 
economy, decentralizing the energy market, providing new high-tech 
jobs, reducing the human toll on the environment, and improving air 
quality and public health outcomes.
    Our national research universities, along with DOE laboratories and 
an emerging private sector, are driving the country's growth in 
renewable energy and increasing the efficiency of new technologies. One 
example of such collaboration includes an expanding NCAR partnership 
with DOE's National Renewable Energy Laboratory [NREL] and the regional 
utility company, Xcel Energy, to develop sophisticated wind energy 
forecasts for operational use. These provide critical information to 
select the most productive locations for new wind turbine farms, better 
integrate wind-generated electricity into the power grid, and make 
critical decisions about powering down traditional coal- and natural 
gas-fired plants when sufficient winds are predicted. To reduce the 
costs of integrating wind and solar energy into the electrical grid and 
to make renewable energy more cost effective, significant improvements 
in weather forecasting technologies are required and additional weather 
observations are needed in the lower atmosphere.
    Given the critical importance to the Nation of developing 
economically and environmentally sustainable technologies for producing 
energy, I urge the subcommittee to fully fund the fiscal year 2012 
budget request of $3.2 billion for the Office of Energy Efficiency and 
Renewable Energy.
    I want to thank the members of the subcommittee in advance for 
supporting, through the Department of Energy, basic and cutting-edge 
scientific research and for promoting education and workforce 
development in the environmental and other Earth sciences. By doing so, 
you are advancing the Nation's economic recovery and sustaining our 
global scientific leadership.
                                 ______
                                 
     Prepared Statement of the American Society of Plant Biologists
    On behalf of the American Society of Plant Biologists [ASPB], we 
submit this statement for the official record to support the requested 
level of $5.42 billion for the Department of Energy [DOE] Office of 
Science for fiscal year 2012. The testimony highlights the importance 
of biology--particularly plant biology--as the Nation seeks to address 
vital issues such as energy security.
    ASPB and its members recognize the difficult fiscal environment our 
Nation faces, but believe investments in scientific research will be a 
critical step toward economic recovery. We would also like to thank the 
subcommittee for its consideration of this testimony and for its 
support for the basic research mission of the DOE Office of Science.
    The American Society of Plant Biologists is an organization of 
approximately 5,000 professional plant biology researchers, educators, 
graduate students, and postdoctoral scientists with members in all 50 
States and throughout the world. A strong voice for the global plant 
science community, our mission--achieved through work in the realms of 
research, education, and public policy--is to promote the growth and 
development of plant biology, to encourage and communicate research in 
plant biology, and to promote the interests and growth of plant 
scientists in general.
    food, fuel, environment, and health--plant biology research and 
                            america's future
    Plants are vital to our very existence. They harvest sunlight, 
converting it to chemical energy for food and feed; they take up carbon 
dioxide and produce oxygen; and they are the primary producers on which 
all life depends. Indeed, plant biology research is making many 
fundamental contributions in the areas of domestic fuel security and 
environmental stewardship; the continued and sustainable development of 
better foods, fabrics, pharmaceuticals, and building materials; and in 
the understanding of basic biological principles that underpin 
improvements in the health and nutrition of all Americans. In fact, the 
2009 National Research Council [NRC] report A New Biology for the 21st 
Century placed plant biology at the center of urgent priorities in 
energy, food, health, and the environment.
    In particular, plant biology is at the center of numerous 
scientific breakthroughs in the increasingly interdisciplinary world of 
alternative energy research. For example, interfaces among plant 
biology, engineering, chemistry, and physics represent critical 
frontiers in both basic biofuels research and bioenergy production. 
Similarly, with the increase in plant genome sequencing and functional 
genomics, the interface of plant biology and computer science is 
essential to our understanding of complex biological systems ranging 
from single cells to entire ecosystems.
    Despite the fact that plant biology research--the kind of research 
funded by DOE--underpins so many vital practical considerations for our 
country, the amount invested in understanding their basic function and 
mechanisms is relatively small when compared with broader impacts on 
areas including energy security and economic development.
                            recommendations
    Because of our membership's extensive expertise, ASPB is in an 
excellent position to articulate the Nation's plant science priorities 
as they relate to bioenergy and, specifically, with regard to 
recommendations for bioenergy research funding through the Department 
of Energy's Office of Science.
    Within the Office of Science, the programs in Biological and 
Environmental Research [BER] and Basic Energy Sciences [BES] are 
crucial to understanding how basic biological processes work. For this 
reason ASPB is supportive of the fiscal year 2012 request to fund BER 
at $717.9 million and BES at $1.985 billion. Sustained funding for 
these programs is vital as the discoveries made in these areas will 
ultimately be the foundation for the next fuels and technologies we use 
in our daily lives.
    In addition:
  --We commend the DOE Office of Science, through their programs in 
        Basic Energy Sciences and Biological and Environmental Research 
        for funding the Bioenergy Research Centers and the Energy 
        Frontier Research Centers. These centers provide a model for 
        collective science innovation that complements DOE's essential 
        investment in individual investigator and small group science. 
        ASPB strongly encourages funding for the DOE Office of Science 
        that would be specifically targeted to the funding of 
        individual or small group grants for bioenergy research.
  --Photosynthetic research is one clear example of an interface 
        between the physical sciences and biology. Indeed, the 
        importance of disciplinary integration is a central theme of 
        several recent NRC reports including A New Biology for the 21st 
        Century, Research at the Intersection of the Physical and Life 
        Sciences, and Inspired by Biology: From Molecules to Materials 
        to Machines. The DOE Office of Science has been the major 
        source of funding for fundamental studies of photosynthesis, 
        which is the primary source of chemical energy on the planet. 
        However, the current funding available for photosynthetic 
        research is not commensurate with the central role that 
        photosynthesis plays in energy capture and carbon 
        sequestration. Hence, ASPB calls for the Office of Science to 
        expand its research portfolio in the area of photosynthesis and 
        carbon capture.
  --Considerable research interest is now being paid to the use of 
        plant biomass for energy production. If biomass crops are to be 
        used to their full potential, however, considerable effort must 
        be expended to improve our understanding of their basic biology 
        and development, as well as their agronomic performance. 
        Therefore, ASPB calls for DOE to support research targeted at 
        efforts to increase the utility and agronomic performance of 
        bioenergy crops and to enhance understanding of plant cell 
        walls and the production of cellulosic biomass.
    Thank you for your consideration of our testimony on behalf of the 
American Society of Plant Biologists.
                                 ______
                                 
           Prepared Statement of the Diesel Technology Forum
    The Diesel Technology Forum [``DTF''] www.dieselforum.org is a not-
for-profit organization representing diesel engine and equipment 
makers, fuel suppliers and emissions control technology companies. We 
appreciate the opportunity to submit comments regarding certain aspects 
of the fiscal year 2012 proposed budget of the U.S. Department of 
Energy, particularly its Vehicle Technologies Program [VTP] and its 
various budget activities for commercial vehicles, advanced combustion 
Engine R&D [ACE R&D], fuels technology and materials research.
    The fiscal year 2012 EERE budget proposes to substantially reduce 
investments in several key budget activity areas that impact heavy-duty 
diesel engines, commercial vehicles and truck efficiency programs. This 
includes the Advanced Combustion Engine Research and Development ``ACE 
R&D'' (reduced 12.4 percent from fiscal year 2010 appropriated levels 
$55.987 million to $49 million); a reduction of $5 million for Fuels 
technologies; and reduction of $2-$3 million in Materials Technologies.
    Because of well-established future need, proven past performance, 
and extended societal benefits, funding for Vehicle Technologies 
Programs including Advanced Combustion Engine R&D, Fuels and Materials 
Technologies and SuperTruck activities has delivered proven benefits 
and must be restored.
    The subcommittee faces a difficult task of setting priorities among 
many competing programs with limited resources. The subcommittee should 
seek to strike a better balance between fully funding programs that are 
known to improve efficiency of existing energy-intensive sectors on a 
near-term basis while at the same time supporting a reasonable vision 
and funding for infrastructure development, deployment and 
electrification of passenger vehicles; the potential energy-saving 
benefits of which may not be realized for several decades or more. We 
recognize that savings will need to be found across all programs but 
are concerned about the disproportionate impact on proven existing 
programs while unprecedented significant new resources are being 
requested elsewhere for new initiatives.
    The commercial vehicle research activities have been cross-cutting 
in scope and shared risk and benefits between DOE, private industry, 
the U.S. Department of Defense, Department of Transportation and U.S. 
EPA. This suite of programs to make commercial vehicles more energy 
efficient--the 21st Century Truck Partnership and diesel engine and 
fuel research--have been among DOE EERE's most successful investments. 
They are proven to have helped meet important societal goals of 
economic growth and small business development (economics of more 
energy efficient commercial truck acquisition and ownership); cleaner 
air (reducing diesel engine emissions), reduced reliance on imported 
oil (increasing commercial truck energy efficiency). They have also 
enhanced our national security, through contributing to fuel savings of 
U.S. DOD military vehicles. Fuel accounts for 70 percent of the bulk 
tonnage transported to the battlefield and reducing consumption by 1 
percent leads to 6,500 fewer soldier trips, which has been identified 
with saving lives on the battlefield through reduced risk in 
transporting fuel.\1\
---------------------------------------------------------------------------
    \1\ Bochenek, Grace. U.S. Army Tank Automotive Research Development 
and Engineering Center, 2010.
---------------------------------------------------------------------------
  --Existing DOE EERE Commercial Vehicle and Engine Programs Have 
        Delivered Substantial and Proven Economic, Environmental and 
        Energy Saving Benefits.--For every $1 invested, advanced 
        combustion research delivered $53 in benefits. According to a 
        May 2010 study \2\ previous advanced combustion research for 
        laser and optical diagnostics along with combustion modeling 
        undertaken by the U.S. DOE and now having been implemented in 
        commercial vehicles on the road today saved 17.6 billion 
        gallons of diesel fuel over a 12 year period (1995-2007); a 4.5 
        percent savings in fuel consumption over what would have 
        occurred without the program investments. This translates into 
        a monetized saving of $34.5 billion in 2008 dollars, and 
        reduction of over 177 million tons of CO<INF>2</INF> prevented.
---------------------------------------------------------------------------
    \2\ Link, Albert N. Retrospective Benefit-Cost Evaluation of U.S. 
DOE Vehicle Combustion Engine R&D Investments, Department of Economics, 
University of North Carolina at Greensboro; May 2010.
---------------------------------------------------------------------------
      The established goal of improving fuel economy by 20 percent for 
        commercial vehicles in the ACE R&D has the potential to save 
        more energy than the electrification of 1 million cars. Past 
        investments have contributed to diesel engine manufacturers 
        being able to meet the most stringent emissions standards on 
        record, resulting in today's clean diesel technology with near 
        zero emissions of ozone forming compounds (nitrogen oxides) and 
        particulate matter. The total health and environmental benefits 
        in terms of savings in air pollution and energy savings exceed 
        $70 billion according to the previously referenced May 2010 
        study.
  --The Ongoing Need to Reduce Energy Consumption From Commercial 
        Vehicles is Well Established.--Heavy-duty commercial trucks 
        play the central role in the Nation's freight movement and 
        goods delivery system, transporting 70 percent of the U.S. 
        goods purchased. Diesel-power will be the primary technology of 
        choice for providing this service in the foreseeable future due 
        to its unmatched combination of efficiency, power, performance, 
        reliability and durability along with economical ownership and 
        operation. Tractor-trailer type trucks (Class 8) use 80 percent 
        of commercial trucking industry fuel. This accounts for 28 
        percent of total U.S. fuel usage. According to the U.S. 
        Department of Transportation, from 1970-2007, the number of 
        trucks more than doubled while the mileage increased by 3.9 
        percent during the same period. Economic growth and recovery 
        demands more trucking services, more miles traveled and more 
        energy consumption. These past and predicted future trends 
        underscore the need for continued gains in fuel efficiency 
        benefits from continued future investments in commercial truck 
        and diesel engine efficiency. Further, according to the 
        Advanced Energy Outlook (Figure 2, below) with a 75 percent 
        reduction in light-duty oil consumption; heavy-duty vehicles 
        will make up the largest share of the consumption in the 
        future. As global commodity, heavy-duty petroleum consumption 
        already rivals that of light-duty vehicles. U.S.-developed fuel 
        efficient technology for commercial vehicles through the EERE 
        has had and will continue to have a global impact, adding much 
        greater leverage on petroleum demand and cost on a global 
        scale.

        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        

  --Future Societal and Technological Challenges Facing Commercial 
        Vehicles are Significant, and Heighten the Need for Continued, 
        Robust Government EERE Program Investments.--A landmark final 
        rule from the U.S. EPA and U.S. DOT--NHTSA is expected in July 
        2011 that will establish the first-ever greenhouse gas 
        emissions reduction requirements for commercial trucks. Goals 
        for near and long-term reductions in greenhouse gas emissions 
        and fuel efficiency improvement will be established at that 
        time and will likely stretch the limits of currently known 
        technology capabilities. The significant funding reductions in 
        the suite of EERE commercial vehicle and engine programs in the 
        fiscal year 2012 budget could delay or jeopardize gains in 
        meeting these important societal goals.

        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        

      Reaching these challenging goals will require substantial 
        manufacturer investment in the next 3-5 years at a time when 
        economic recovery and market potential for heavy duty 
        commercial trucks remains tentative. More than ever, the 
        combined collaborative approach of the DOE program of shared 
        research toward common energy saving objectives is needed and 
        necessary to assure continued progress and increase the speed 
        of development, deployment of technologies and societal 
        benefits.
  --Fully Funding Commercial Vehicle Research Budgets Assures Continued 
        Gains and Leverage of Ongoing Progress That Will Help Expedite 
        Fuel-saving Technology Development and Deployment While 
        Managing Risks That Will Lead to Greater Future Fuel Savings.--
        Given the substantial progress made in the 21st century truck 
        program, a framework of continuous progress has been developed 
        over time that is a predictive indicator of potential future 
        success. Adequate DOE program funding can assure that the 
        commercial vehicle, engine and SuperTruck program goals of 50 
        percent increase in freight efficiency (ton-miles per gallon) 
        will be more likely to be met. Truck and engine manufacturers 
        face the unique challenge of competing societal demands of 
        improved efficiency, near-zero emissions while meeting customer 
        demands for lowest cost of operation. Significant investments 
        in research are required but there are diminishing 
        opportunities to recoup the substantial investments needed to 
        meet these goals with only an average 200,000-250,000 heavy 
        duty trucks sold annually. A fully funded SuperTruck program 
        can assure these goals are more likely to be accomplished 
        earlier than if companies alone shoulder larger research 
        demands.
  --Commercial Vehicle, Engine and SuperTruck Efficiency Program 
        Benefits Reach Beyond Private Industry in the United States, a 
        Factor to be Carefully Considered in the Final Decision 
        Making.--Collateral benefits have accrued to the Department of 
        Defense from the 21st Century Truck Partnership program through 
        the efficiency advancements extending to military applications 
        and a subsequent reduced dependence on petroleum. Continued 
        funding of the vehicle technologies program, SuperTruck and ACE 
        R&D will have long-term strategic value to reducing petroleum 
        consumption of the U.S. military. The United States is the 
        global leader in advanced clean diesel engines and efficiency 
        gains here in the United States will ultimately impact the 
        global marketplace.
                              conclusions
    There is an incontrovertible and established need to improve energy 
efficiency of the Nation's commercial vehicles. Commercial diesel-
powered trucks are the backbone of the U.S. Economy and the prime 
movers of the Nation's goods movement system, and will be for the 
foreseeable future. Fuel consumption in this sector is projected to 
continue to grow with the economy. Past EERE engine and vehicle 
efficiency programs have delivered substantial and well-documented 
economic, energy and environmental benefits to society. However the 
continued progress of these efforts is in jeopardy due to an imbalanced 
fiscal year 2012 budget request.
    An adequate Government funding stream for the suite of Vehicle 
Technology programs like SuperTruck and the ACE R&D, Fuels Technologies 
and Materials must be restored to fiscal year 2010 levels to assure 
continued progress and accelerate development and deployment of energy 
saving technologies. Proposed reductions to the fiscal year 2012 EERE 
funding will jeopardize continued progress at an especially critical 
time as the industry moves to meet new GHG emissions and fuel 
efficiency goals, near zero emissions levels along with competing 
customer demands with the backdrop of a weakened and recovering 
economy.
    A national energy strategy should seek to balance investments in 
near-term and long-term energy-saving strategies. Proven incremental 
gains in efficiency from existing fuels and technologies, particularly 
in sectors that use the most energy today without viable alternatives 
for the future must be a cornerstone of the national energy program and 
funded accordingly. While battery development and electric-powered 
vehicles may hold great promise, so too should investments in programs 
with assured near-term efficiency gains.
    The diesel engine is the prime mover of America's transportation, 
infrastructure and goods movement today and for the foreseeable future. 
Now near zero emissions and still as the most energy efficient internal 
combustion engine (30 percent more efficient than gasoline), clean 
diesel technology has made great progress and has substantial future 
potential efficiency gains to meet future societal goals.
    We appreciate the opportunity to file these comments. An ongoing 
dialogue with the subcommittee on making best use of limited dollars to 
achieve shared goals of greater energy efficiency while preserving a 
major economic force for the U.S. economy is essential.
                                 ______
                                 
 Prepared Statement of the Center for Advanced Separation Technologies
    Honorable Chairwoman Feinstein, Ranking Member Alexander, and 
members of the subcommittee, I appreciate the opportunity to submit 
this testimony to your subcommittee on behalf of the Center for 
Advanced Separation Technologies [CAST]. The center is a consortium of 
five universities with strong programs in energy and minerals 
resources. I and the representatives of the member universities 
participating in the consortium as listed below, are writing this 
testimony to request that your subcommittee appropriate research 
funding for advanced separations as part of the Fuels Program, Fossil 
Energy Research and Development, U.S. Department of Energy. The 
advanced separations research is mandated by the Energy Policy Act of 
2005, title IX, subtitle F, sec. 962.
    Richard A. Bajura--West Virginia University.
    Rick Q. Honaker--University of Kentucky.
    Peter H. Knudsen--Montana Tech of the University of Montana.
    Jan D. Miller--University of Utah.
    In 2010, the U.S. mining industry produced coal and mineral 
concentrates with a sales value of $107.5 billion at the mine mouth. 
These raw materials were used to produce approximately 50 percent of 
the Nation's electricity and various mineral materials worth $578 
billion. According to the 2011 Mineral Commodity Summary published by 
the U.S. Geological Survey (USGS), the value-added mineral materials 
contributed $2.1 billion to the Nation's economy, which accounted for 
14.4 percent of GDP. Further, some of the mineral materials produced by 
the U.S. mining industry are of strategic importance to the development 
of renewable energy resources and the defense industry. Despite the 
importance of the mining industry, there are no federally funded R&D 
programs that help the industry to do better in meeting the 
environmental regulations and the national needs.
    I would like to address two major issues the U.S. mining industry 
is facing today. One concerns with the coal industry complying with the 
Clean Water Act, and the other is developing domestic mineral resources 
to supply the rare earth elements [REE] for the energy and defense 
industries.
    In 2009, the United States produced 1.07 billion tons of coal, with 
55 percent of which produced in the Western United States and 45 
percent in the East. The bulk of the mined coal in the East is washed 
in water to remove mineral matter impurities. Burning coal as mined 
incurs a high cost of shipping and produces large amounts of ash, 
SO<INF>2</INF>, mercury, and other undesirable elements. Most of the 
mineral matter is removed at mine sites, and the efficiency of cleaning 
coal is high for the coarse coal, which is larger than approximately 
0.15 mm in size. However, cleaning finer coal becomes more costly and 
difficult, causing some operators to discard the finer size fraction 
despite the fact that the fine coal refuse contains recoverable coal. 
Some companies recover part of the fine coal using the process known as 
flotation, while discarding ultrafine coal smaller than 0.044 mm in 
size. A recent Congressionally directed study conducted by the National 
Research Council [NRC] showed that 70-90 million tons of fine refuse is 
being discarded to 713 active slurry and fresh water impoundments in 
the United States. Assuming that 30-40 million tons of the refuse is 
recoverable coal, the dollar value of the coal wasted in this manner is 
estimated to be $2.0-$2.6 billion per year.
    A study conducted by the U.S. Department of Energy [DOE] in the 
1980s showed that approximately 2.0-2.5 billion tons of fine coal has 
been discarded over the years to numerous impoundments. The total 
amounts may be close to 4 billion tons by now as the coal industry 
continued to discard the ultrafine coal since the DOE report was 
written, and the coal production has also been steadily increasing. 
Assuming that roughly one-third of this amount is recoverable, the 
dollar value of the coal discarded in the existing impoundments may 
exceed $100 billion.
    Some companies discard the fine coal slurry to underground mine 
workings, while others store it in large impoundments. There are 
several citizens groups in the Appalachian coal fields opposing to 
these practices by citing violation of the Clean Water Act. Some groups 
contend that the fine coal impoundments represent the worst form of 
valley-fill mining. To address these issues the West Virginia 
legislature is debating legislation. If the legislature bans permits 
for new impoundments or mandates elimination of impoundments by law, 
the cost of producing coal would rise significantly and can adversely 
affect the Nation's economy.
    A better alternative would be a technological solution. CAST has 
been developing advanced technologies that can be used (1) to help 
companies eliminate the problem at the source, i.e., stop discarding 
fine coal to impoundments or injecting it into old underground 
workings, and further (2) to recover the coal from existing 
impoundments. A series of advanced technologies has already been 
developed, which include the Microcel<SUP>TM</SUP> flotation column, 
dewatering aids, and hyperbaric centrifuge, all of which are marketed 
commercially under appropriate license agreements. The hyperbaric 
centrifuge was tested at pilot scale in 2009, and the successful test 
results have been reported in a DOE Fossil Energy Techline report on 
February 9, 2010. Encouraged by the test results, a first full-scale 
unit was tested successfully in February 2010, in Alabama, and the 
results have been reported in the Techline again on January 4, 2011. On 
the basis of the successful test results, the company has installed 
additional units for commercial use. It is believed that other 
companies will follow the suite.
    The hyperbaric centrifuge described above is an advanced dewatering 
technology. It is useful for separating spent water from clean coal; 
however it is not designed to remove mineral matter from ultrafine 
coal. Therefore, CAST has been developing a new technology that can 
remove both mineral matter and water simultaneously, so that it can be 
used to recover coal from the fine coal refuse that has been deposited 
in impoundments. Laboratory experiments conducted on ultrafine refuse 
samples consisting of particles that are finer than 0.044 mm showed 
that this new process can be used to reduce the ash contents to 3-4 
percent by weight and the moisture contents to 1-2 percent by weight, 
with 94-98 percent coal recoveries. An international patent application 
has been filed on the basis of the laboratory test results. It is 
necessary, however, that scale-up tests be conducted at 1-3 tons/hr 
capacity before the technology can be commercialized.
    With the remaining pages of this testimony, I would like to address 
the needs for R&D funding to develop advanced separation technologies 
that can be used to recover minerals containing rare earth elements 
[REE] from domestic resources. China produced 55,000 metric tons of the 
rare earth oxides [REO] in 2009, which accounted for 97 percent of the 
world production. Recently, the Chinese Government announced that it 
would impose production and export quotas for the REO. This new policy 
created serious concerns in the United States and many other countries 
that have been relying on the Chinese export of the rare earths. As 
shown in the CRS report for Congress (R41744), REEs are critical 
elements for the manufacture of the world's strongest permanent 
magnets, which are essential components of various military weapons 
systems such as precision-guided missiles, smart bombs, aircrafts, etc.
    The United States used to be the world's largest producer of REE 
during 1960s and 1980s. Due to the high cost (mainly labor) of 
production, and the stringent environmental constraints, the production 
shifted gradually to China. However, the United States still has 13 
billion metric tons of reserves. The major rare earth minerals in the 
United States are basinasite ((Ce,La,Y)CO<INF>3</INF>F) and monazite 
((Ce,La,Y,Th)PO<INF>4</INF>) that are recovered by flotation. In China, 
the ores containing these minerals are in the range of 4-7 percent, 
which are increased to 50 to 70 percent by flotation. The basinasite 
and monazite concentrates are then treated chemically to extract 
different REOs and rare earth metals.
    As is well known, rare earth elements are not rare. In average, 
they are more abundant than copper and silver except that they do not 
occur in concentrated forms, making it difficult to mine economically. 
Further, the mineral grains are very small, usually smaller than 0.074 
mm, which also contributes to the high costs of separation (or 
processing). In the United States, the mineable rare earth deposits are 
found in Mountain Pass, California; Bear Lodge, Wyoming; Diamond Creek, 
Idaho; Elk Creek, Nebraska; Lemhi Pass, Idaho-Montana; and also in 
South and North Carolinas.
    The key technology that is currently used to separate rare earth 
minerals from associated gangue minerals is flotation, which is also 
used for the separating mineral matter from coal and for the separation 
of one mineral from another in the mining industry. The 
Microcel<SUP>TM</SUP> flotation technology, which has been developed by 
CAST and is used commercially in the coal and base metals industries, 
can also be used for the separation of rare earth minerals. What is of 
critical importance in the flotation separation of these uncommon 
minerals is the control of surface chemistry of the minerals involved. 
If your subcommittee appropriates R&D funding for the fiscal year 2012, 
CAST can develop reagents that can facilitate the beneficiation of 
domestic rare earth mineral resources.
    CAST has also developed a mathematical model for flotation in 
general. Unlike other models developed to date, it is based on first 
principles. Therefore, it has predictive and diagnostic capabilities. 
If funding becomes available, a model-based computer simulator will be 
developed for applications to the separation of rare earth minerals.
    As noted above, CAST has developed a novel separation process for 
fine coal cleaning, in which both mineral matter and water can be 
separated simultaneously from coal. This process is more selective than 
flotation, particularly for the separation of fine particles. This 
process can be further developed to recover rare earth minerals.
    CAST is a premiere research center for developing advanced 
separation technologies for the minerals and coal industries. Many of 
the technologies developed at the center are commercially used in the 
industry. Some of the technologies developed more recently will be able 
to help the coal industry stop the practice of discarding fine coal to 
the environment and at the same time maximize the utilization of a 
valuable energy resource. Further, they can also be used to recover 
coal from the 4 billion tons of fine refuse that has been discarded in 
numerous impoundments and thereby create jobs. CAST also has acquired 
expertise to develop separation technologies that can be used to 
produce rare earth elements from domestic resources, so that the United 
States can continue developing renewable energy resources and secure 
the defense industry.
                                 ______
                                 
      Prepared Statement of the American Public Power Association
    The American Public Power Association [APPA] respectfully requests 
funding for the Renewable Energy Production Incentive, Power Marketing 
Administrations, storage for high-level nuclear waste, the Nuclear Loan 
Guarantee Program, the Department of Energy Water Power Program, energy 
conservation, weatherization, clean coal, fuel cells, fuel and powering 
systems, the Navajo Electrification and Demonstration Program and the 
Federal Energy Regulatory Commission.
    APPA is the national service organization representing the 
interests of over 2,000 municipal and other State and locally owned 
electric utilities in 49 States (all but Hawaii). Collectively, public 
power utilities deliver electricity to 1 of every 7 electric consumers 
(approximately 46 million people), serving some of the Nation's largest 
cities. However, the vast majority of APPA's members serve communities 
with populations of 10,000 people or less.
    We understand that Congress is operating in a tight fiscal 
environment. APPA's priority is to support programmatic requests that 
bring down costs, conserve resources, or benefit our public power 
customers in other ways. We appreciate the opportunity to submit this 
statement outlining our fiscal year 2012 funding priorities within the 
jurisdiction of the Energy and Water Development, and Related Agencies 
Subcommittee.
    Renewable Energy Production Incentive [REPI].--APPA is disappointed 
that the administration and Congress have decided to stop funding the 
Renewable Energy Production Incentive. REPI was the first attempt by 
Congress to provide comparable renewable incentives to the non-profit 
electric utility industry and we continue to seek comparability to this 
day. The elimination of funding for the REPI program was a step 
backward in this process. Defunding not only decreases incentives for 
new production, but utilities who had been receiving the funding are 
stranded mid-program. Five million dollars would restore funding to the 
program for fiscal year 2012, but any funding would help restore 
payments to those already approved for the incentive.
                 power marketing administrations [pmas]
    Power Marketing Administration Proposals.--The President's National 
Commission on Fiscal Responsibility and Reform proposed a measure for 
all four PMAs that would have had the effect of raising the rates for 
PMA customers. We appreciate that the fiscal year 2012 request did not 
include this type of proposal.
    Purchase Power and Wheeling.--We urge the subcommittee to authorize 
appropriate levels for use of receipts so that the Western Area Power 
Administration [WAPA], the Southeastern Power Administration [SEPA] and 
the Southwestern Power Administration [SWPA] can continue to purchase 
and wheel electric power to their municipal and rural electric 
cooperative customers. Although appropriations are no longer needed to 
initiate the purchase power and wheeling [PP&W] process, the 
subcommittee continues to establish ceilings on the use of receipts for 
this important function. The PP&W arrangement is effective, has no 
impact on the Federal budget, and is supported by the PMA customers who 
pay the costs. We support an increase over the funding levels of the 
administration's budget for fiscal year 2012, which are as follows: 
$307 million for Western Area Power Administration [WAPA]; $100 million 
for Southeastern Power Administration [SEPA]; and $40 million for 
Southwestern Power Administration [SWPA].
    Construction.--We urge the subcommittee to authorize appropriate 
levels of funding for the construction budgets of WAPA, SEPA and SWAPA. 
These budgets have continued to decrease over the years however, this 
funding remains critical to the operation and maintenance of the PMAs.
    Storage for High-level Nuclear Waste.--APPA is disappointed that 
the administration closed the Yucca Mountain Project and the Office of 
Civilian Radioactive Waste Management in fiscal year 2010. We support 
the work of the Blue Ribbon Commission on America's Nuclear Future and 
look forward to hearing the Commission's recommendations on how the 
Nation should manage nuclear waste.
    Nuclear Loan Guarantees.--APPA is pleased with the administration's 
request for DOE Loan Guarantee authority up to $36 billion for new 
nuclear facilities and encourages the subcommittee to maintain this 
level of funding.
    Department of Energy Waterpower Program.--APPA was extremely 
disappointed that funding for water power was decreased by 20 percent 
while all other renewable resources were increased in the 
administration's fiscal year 2012 request. APPA believes there should 
be parity among renewable resource funding. APPA requests $100 million 
for fiscal year 2012 for the DOE's Water Power Program. At a time when 
utilities around our country must focus on finding carbon-free sources 
of energy because of pending State and Environmental Protection Agency 
regulations, the importance of hydropower research and development is 
more important than ever before. Not only is hydropower a renewable 
resource, but it can be used as baseload generation to back up more 
intermittent renewables such as wind and solar power.
    Energy Conservation.--APPA appreciates the funding increases for 
energy efficiency programs provided in the President's budget. The 
budget funding levels for fiscal year 2012 are as follows: Building 
Technologies--$470 million; Industrial Technologies--$319 million; 
Federal Energy Management Program--$33 million; and Vehicle 
Technologies--$588 million. We urge the subcommittee to maintain these 
funding levels.
    Weatherization and Intergovernmental Activities.--We are pleased 
that the administration has requested $394 million for the 
Weatherization program in fiscal year 2012, a significant increase from 
fiscal year 2010 and we encourage the subcommittee to maintain that 
level of funding.
    Clean Coal Power Initiative [CCPI] and FutureGen.--APPA is 
disappointed that the budget did not include funding for large scale 
commercial applications of carbon capture and sequestration technology. 
We encourage the subcommittee to include funding for CCPI and 
FutureGen. APPA strongly believes as the need for clean energy 
increases, the FutureGen project, or something similar, will be 
critical in nearing us to the goal of the world's first near-zero-
emissions coal fired plant. We urge the subcommittee and the Congress 
to work with the administration on finding an appropriate role and 
funding level for the FutureGen project and CCPI.
    Fuel Cells.--APPA was disappointed that the administration 
requested zero funding for fuel cell related research and development. 
We urge the subcommittee to allocate additional funding for this 
program for fiscal year 2012.
    Fuels and Power Systems.--We recommend these funding levels for the 
following programs: Innovations for Existing Plants--$84 million; 
Advanced Integrated Gasification Combined Cycle--$80 million; 
Turbines--$45 million; Carbon Sequestration--$150 million; Fuels--$25 
million; and Advanced Research--$48 million.
    Navajo Electrification Demonstration Program.--APPA supports full 
funding for the Navajo Electrification Demonstration Program at its 
full authorized funding level of $15 million. The purpose of the 
program is to provide electric power to the estimated 18,000 occupied 
structures in the Navajo Nation that lack electric power. This program 
has been consistently underfunded.
    Federal Energy Regulatory Commission [FERC]. The fiscal year 2012 
budget requests $305 million for FERC, an increase over fiscal year 
2010 levels. APPA supports this increase.
                                 ______
                                 
         Prepared Statement of Bob Lawrence & Associates, Inc.
    Madam Chairman and members of the subcommittee: My name is Dr. 
Lloyd R. (Bob) Lawrence, Jr., and I am President of Bob Lawrence & 
Associates, Inc., a consulting firm in Alexandria, Virginia. I 
appreciate the opportunity to come before you today to discuss a key 
infrastructure problem facing our Nation, our electric grid; and a key 
solution, Advanced Conductor Technology. Specifically, I wish to 
discuss two key technological solutions for major grid problems, one 
solution being composite conductor technology, and the second solution 
being High Temperature Superconductor technology. During the past 7 or 
8 years, these two technologies, together, have been funded at an 
annual level of about $25 million. For reasons that are not clearly 
explained or understood, the fiscal year 2012 request suggests zeroing 
out the promising technology advances in these areas. I am here to 
request that the subcommittee restore Advanced Conductor Technology to 
a reduced, but needed level of $20 million.
    As you are aware, the backbone of the grid consists of many 
thousands of miles of transmission lines, virtually all of which are 
based on steel core conductors, which are cables constructed with steel 
cores for strength, and wrapped with heavy, aluminum wires which carry 
the electric current. Much of the Nation's electric grid is 40 to 50 
years old, and is in need of modernization and/or expansion to meet the 
growing electrical needs of the country, and the modern need for ultra 
high reliability to service our computer fleet and modern manufacturing 
processes.
    The Congressional Budget Request for the Office of Electricity 
Delivery and Energy Reliability [OE] states that the request is ``OE's 
leadership in developing `next generation' electric grid technologies, 
tools, and techniques.'' Further, the request states that ``today's 
electric grid was designed and constructed in the last century before 
cell phones, personal computers, and the Internet.'' And ``society's 
changing needs have pushed an aging and sometimes congested grid to its 
operating limits.'' Finally; ``A modern electric grid is critical to 
meeting the Nation's energy, environmental, and security goals.''
    The request states, unequivocally, that; ``Without the development 
and deployment of `next generation' electric transmission, 
distribution, and customer technologies, the grid could become a 
barrier to the adoption of cleaner energy supplies and more efficient 
demand-side measures.''
    All that being said, the OE request is for $237,717,000, none of 
which is for research and development on Advanced Conductors, the basic 
structure of the grid.
    One solution which has shown extraordinary success, with additional 
promise, is the ``composite core'' technology. In this case, the steel 
core of conventional cable is replaced with a composite core providing 
for higher temperature operation, with lower sag, and higher 
conductivity. The composite, itself, can be one of a number of 
different materials, individually chosen for its individual properties. 
The most successful to date, developed under a joint DOE-Industry 
program is the Aluminum Matrix Technology composite core, also known as 
ACCR. With a one-for-one replacement against conventional, steel core 
technology, the composite core has shown a doubling of electricity 
carrying capacity, with the same sized cable. This, then, allows for 
the doubling of capacity in critical transmission lines without needing 
any additional rights-of-way or additional tower structures. This 
provides huge environmental and permitting advantages, substantially 
lower cost of increased capacity, and a much shorter time from concept 
to operation. The producer of this modern grid option just celebrated 
the 1,000th mile of commercial production and installation of ACCR. Due 
to the substantial ratepayer benefits demonstrated to date, further 
research in the composite conductor area is a productive and logical 
path to follow.
    A second solution, which will take additional time for broad entry 
into the electrical marketplace, is High Temperature Superconductivity, 
also known as HTS. Twenty years ago, laboratory scientists were 
ecstatic when a small, centimeter-squared wafer of HTS material could 
be shown to conduct electricity, without resistance, at the temperature 
of liquid helium. Today, according to the OE budget request, the 
technology has come to the point where HTS laboratories have 
``Demonstrated consistent production of second generation, High 
Temperature Superconductivity wire (greater than 300 meters long), with 
70,000 ampere-meters critical current-length. Madam Chairman, I first 
worked on a Government grant in a University laboratory in the fall of 
1964, nearly 47 years ago. I have been involved in Research and 
Development all my life. When you see a technology move forward, 
continuously, such as the HTS technology continues to move, it is not 
logical to cut it off and end its forward motion, when it promises such 
substantial benefits. Worst of all, you will lose the experience, 
knowledge, and corporate memories of the researchers and engineers who 
work on the technology, because they will be on to something else. You 
need to provide the funds to keep the present teams together.
    HTS technology will have its first grid applications in high-
capacity, underground transmission cables, Fault Current Limiters, and 
transformers. Additional benefits will come from the smaller 
``footprint'' required to provide HTS substations. The first grid 
application is likely to be underneath our electrically congested 
cities, where HTS transmission and distribution cables can provide much 
higher electrical capacity in the same electrical conduits presently 
occupied by conventional technology.
    In short, it is in the strong public interest to continue the 
Advanced Cables and Conductors program, addressing both composite 
technologies and high temperature superconductors, at a reduced level 
of $20 million for fiscal year 2012.
    I thank you for your attention to this testimony.
                                 ______
                                 
        Prepared Statement of the Anadarko Petroleum Corporation
    Dear Sir or Ma'am: The President's 2012 budget includes the 
elimination of funding for the Oil and Gas Research and Development 
Program at the Department of Energy, as well as a request for 
legislation to repeal section 999 of the Energy Policy Act of 2005, 
which has created a valuable public/private partnership to maximize the 
value of domestic energy resources.
    At this time, when the security of foreign energy sources is 
questionable and the high price of imported energy is damaging the U.S. 
economy, responsible development of domestic resources is a winning 
proposition for the citizens of the United States. The United States 
has vast resources of clean natural gas locked in shale and other tight 
formations, as well as substantial gas and liquid reserves located 
offshore in waters too deep for economic production with current 
technology. Alternative (non-hydrocarbon) energy sources will not make 
a significant contribution to the Nation's energy supply for the next 
10 to 20 years, so our Nation's energy security depends on our ability 
to develop the natural gas resources in a safe and environmentally 
responsible fashion.
    The U.S. oil and gas industry is unparalleled in its ability to 
solve the tough engineering problems associated with oil and gas 
production in challenging environments around the world, but the 
economic development of domestic shale gas and other challenging 
resources requires the development of basic scientific knowledge and 
novel engineering concepts that are best accomplished in partnership 
between industry and the research establishment in the United States. 
The Oil and Gas Research and Development Program in DOE is a hallmark 
of such a partnership. For example, the Program was crucial in bringing 
a resource such as coalbed methane from marginally economic status to 
the state of development where it makes a significant contribution to 
the Nation's gas supply, and attracts industry investment without 
Government subsidy.
    The Nation needs this type of R&D investment in today's marginally 
economic resources in order to develop the technology that will attract 
tomorrow's industry investment and ensure secure domestic sources for 
critical energy needs in the near future. Now is definitely not the 
time to eliminate funding for the Oil and Gas Research and Development 
Program at the Department of Energy.
                                 ______
                                 
              Prepared Statement of GSI Environmental Inc.
    As an environmental consulting firm with over 25 years experience 
in the oil and gas industry, we strongly encourage the U.S. Senate 
Appropriations Committee to continue to fund the important work of U.S. 
Department of Energy [DOE] Oil and Gas Research and Development Program 
for development of new and improved technologies for environmental 
management in the U.S. domestic oil and gas sector.
    Need for Improved Environmental Management Technology.--With the 
current expansion of the shale gas industry into new geographic regions 
of the United States and the over-riding goal of achieving U.S. energy 
independence, the coming years will see ever-increasing exploration, 
drilling, and production activity throughout the country. As this rapid 
expansion is underway, the general public and media are already 
demanding improved measures for protection of natural resources and 
public health.
    Key Role of U.S. DOE.--The U.S. DOE Oil and Gas Research and 
Development Program is the only Federal program currently dedicated to 
addressing these environmental concerns. The U.S. DOE, through the 
Research Partnership to Secure Energy for America [RPSEA], works with 
the scientific community and the oil and gas industry to develop new 
technologies for efficient resource development and environmental 
protection. This information is then shared with both large and small 
producers to improve environmental management practices nationwide.
    Benefits of U.S. DOE Environmental Research and Development 
Program.--The attached table identifies 10 examples of projects 
supported by the U.S. DOE RPSEA program which are providing practical, 
tangible benefits in terms of improved environmental management in the 
domestic oil and gas sector today, including:
  --Environmentally Friendly Drilling Practices to reduce the footprint 
        of drilling operations and enhance environmental protection 
        measures;
  --Treatment of Highly Saline Produced Water to allow reuse and 
        recycling, rather than discharge, of valuable water resources, 
        as well as recovery of a marketable salt product;
  --Protection of Sensitive Eco-Systems in Major Shale Gas Plays in 
        Colorado and Utah, in order to reduce potential environmental 
        impacts and costs of shale gas development;
  --Innovative Methods for Management of Produced Water including 
        generation of electrical energy via waste heat recovery; 
        reduction of saltwater production from mature oilfields by use 
        of particle gel treatments; and improved management methods to 
        reduce water demand and enhance water reuse for hydrofracturing 
        operations;
  --New Road Building Techniques to reduce environmental impacts to 
        sensitive desert terrains and ecosystems of the Western United 
        States during transport of oil and gas production fluids.
    Cost-Effective Research and Development.--The RPSEA program 
provides a unique opportunity to leverage government funding with 
private sector resources. In all grants awarded by RPSEA, the recipient 
is required to secure sponsorship of industry partners and to provide 
matching resources for a significant percentage of the project budget. 
This policy not only ensures that the research work will be directly 
applicable to active oil and gas operations but leverages a relatively 
small investment by DOE to achieve significantly greater economic 
benefit.
    The U.S. DOE Oil and Gas Research and Development Program is the 
only supporter of these and other environmental management initiatives. 
At a time of increasing dependence upon domestic oil and gas resources 
and an unprecedented expansion of shale gas drilling activities 
throughout our country, the practical environmental solutions developed 
by RPSEA are critical for the continued protection of our environment 
and the continued leadership of the U.S. oil industry in the arena of 
environmental stewardship.
    We strongly encourage the U.S. Senate Appropriations Committee to 
preserve and expand the funding of the U.S. DOE Oil and Gas Research 
and Development Program and RPSEA so that they may continue the 
important work for energy independence and environmental protection.

    TABLE 1.--EXAMPLES OF R&D PROJECTS SUPPORTED BY THE DOE RESEARCH
             PARTNERSHIP FOR A SECURE ENERGY AMERICA (RPSEA)
------------------------------------------------------------------------
               Project Title                     Summary Information
------------------------------------------------------------------------

                   2009

Improvement of Fracturing in Gas  Shales..  Use non-damaging fracturing
                                             fluids and light weight
                                             proppants combined with
                                             foams to maximize fracture
                                             length, minimize formation
                                             damage, minimize use of
                                             water in fracturing and
                                             minimize disposal of fluids
                                             for gas shale reservoirs.
Electrical Power Generation from Produced   Identify and demonstrate
 Water--Field Demonstration of Ways to       technology that will reduce
 Reduce Operating Costs of Small Producers.  the field operating cost of
                                             electricity and minimize
                                             environmental impacts by
                                             creating green electricity
                                             using produced water and no
                                             additional fossil fuel.

                   2008

The Environmentally Friendly Drilling       Combine new low-impact
 Systems Program.                            technologies that reduce
                                             the footprint of drilling
                                             activities, integrate light
                                             weight drilling rigs with
                                             reduced emission engine
                                             packages, address on-site
                                             waste management, optimize
                                             the systems to fit the
                                             needs of a specific
                                             development sites and
                                             provide stewardship of the
                                             environment.
Pretreatment and Water Management for Frac  Evaluate the applicability
 Water Reuse and Salt Production.            of three pretreatment
                                             processes to pretreat high-
                                             total dissolved solids
                                             (TDS), high hardness frac
                                             water, such as is found in
                                             the Marcellus shale, for
                                             thermal recovery of water
                                             and a marketable salt
                                             product for both stationary
                                             and mobile pretreatment
                                             facilities.
Barnett and Appalachian Shale Water         Develop water management
 Management and Reuse Technologies.          methods and technologies
                                             that reduce demands for
                                             freshwater, reduce
                                             environmental impact of
                                             brine disposal, and ensure
                                             supplies of water for well
                                             drilling and completion for
                                             natural gas development in
                                             the Barnett and Appalachian
                                             Shale Plays.

                   2007

Cost-Effective Treatment of Produced Water  Test a low temperature
 Using Co-Produced Energy Sources for        distillation unit for
 Small Producers.                            produced water purification
                                             at the wellhead, yielding
                                             water clean enough for
                                             beneficial uses like
                                             drilling, stimulating, or
                                             waterflooding.
Field Site Testing of Low Impact Oil Field  Reduce the environmental
 Access Roads--Reducing the Footprint in     impact of mature field O&G
 Desert Ecosystems.                          operations and reduce the
                                             costs and regulatory delays
                                             associated with additional
                                             resource development.
                                             Identify and test new
                                             techniques to reduce the
                                             environmental impact of oil
                                             field lease roads in desert-
                                             like ecosystems.
Mitigating Water Production and Extending   Establish methods to
 the Life of Mature Oil Wells and Further    optimize particle gel
 Improve Particle Gel Technology.            treatments to increase oil
                                             recovery plus reduce water
                                             production, by improving
                                             waterflood sweep
                                             efficiency. Anticipated
                                             result will be reduction in
                                             the water production rate
                                             to decrease associated
                                             environmental risks and
                                             impact of any spills.
Paleozoic Shale Gas Resources of the        Objectives of this study are
 Colorado Plateau and Eastern Great Basin,   to (1) identify and map the
 Utah: Multiple Frontier Exploration         major trends for target
 Opportunities.                              shale intervals and
                                             identify areas with the
                                             greatest gas potential, (2)
                                             characterize the geologic,
                                             geochemical, and
                                             petrophysical rock
                                             properties of those
                                             reservoirs, (3) reduce
                                             exploration costs and
                                             drilling risk especially in
                                             environmentally sensitive
                                             areas; and (4) recommend
                                             the best practices to
                                             complete and stimulate
                                             these frontier gas shales.
An Integrated Framework for Treatment and   Develop an Integrated
 Management of Produced Water.               Decision Framework to
                                             manage and treat produced
                                             water that has the
                                             potential to substantially
                                             reduce the overall costs
                                             and enhance gas recovery
                                             and economic viability (and
                                             longevity) of CBM and gas
                                             shale fields while
                                             minimizing potential
                                             environmental impacts.
------------------------------------------------------------------------

                                 ______
                                 
     Prepared Statement of the Society for Industrial and Applied 
                              Mathematics
    We are Dr. Lloyd Nicholas Trefethen, President, and Dr. Reinhard 
Laubenbacher, Vice President for Science Policy, of the Society for 
Industrial and Applied Mathematics [SIAM]. On behalf of SIAM, we are 
submitting this written testimony for the record to the Subcommittee on 
Energy and Water Development of the Committee on Appropriations of the 
U.S. Senate.
    SIAM has approximately 13,000 members, including applied and 
computational mathematicians, computer scientists, numerical analysts, 
engineers, statisticians, and mathematics educators. They work in 
industrial and service organizations, universities, colleges, and 
government agencies and laboratories all over the world. In addition, 
SIAM has over 400 institutional members--colleges, universities, 
corporations, and research organizations. SIAM members come from many 
different disciplines, but have a common interest in applying 
mathematics in partnership with computational science toward solving 
real-world problems.
    First, we would like to emphasize how much SIAM appreciates your 
subcommittee's continued leadership on and recognition of the critical 
role of the Department of Energy [DOE] Office of Science and its 
support for mathematics, science, and engineering in enabling a strong 
U.S. economy, workforce, and society. DOE was one of the first Federal 
agencies to champion computational science as one of the three pillars 
of science, along with theory and experiment, and SIAM deeply 
appreciates and values DOE activities.
    Today, we submit this testimony to ask you to continue your support 
of the DOE Office of Science in fiscal year 2012 and beyond. In 
particular, we request that you provide the Office of Science with 
$5.42 billion, the level requested in the fiscal year 2012 budget 
request. SIAM is aware of the significant fiscal constraints facing the 
administration and Congress this year, but we note that, in the face of 
economic peril, Federal investments in mathematics, science, and 
engineering create and preserve good jobs and help to maintain U.S. 
pre-eminence in innovation, upon which our economy depends.
          the role of mathematics in meeting energy challenges
    The Nation faces critical challenges in energy, including in energy 
efficiency, renewable energy, improved use of fossil fuels and nuclear 
energy, future energy sources, and reduced environmental impacts of 
energy production and use. As DOE and the research community design a 
long-term strategy to tackle these issues, the tools of mathematics and 
computational science (theory, modeling, and simulation) have emerged 
as a central element in designing new materials, predicting the impact 
of new systems and technologies, and better managing existing 
resources. Already, mathematical and computing researchers in 
universities, national laboratories, and industry are providing 
insights that propel advances in such fields as nanotechnology, 
biofuels, genomics, climate modeling, and materials fabrication.
    To tackle many of these challenges, DOE must be able to understand 
complex systems such as the U.S. power grid, the dispersion of nuclear 
radiation after a disaster, and the Earth's climate system. These and 
other complex systems have high levels of uncertainty, lack master 
plans, and are susceptible to breakdowns that could have catastrophic 
consequences. Understanding complex systems helps mitigate these risks 
and facilitate the development of controls and strategies to make 
systems more efficient.
    These issues were addressed in a May 2008 report by an independent 
panel of mathematicians that reviewed the challenges and strategic 
plans of all units of DOE in order to better define the goals for the 
DOE Applied Mathematics Program, which is located within the Office of 
Advanced Scientific Computing Research [ASCR] in the Office of 
Science.\1\ In light of the broad need for complex systems 
understanding, the panel recommended that DOE focus on three strategies 
for addressing the gaps in our understanding:
---------------------------------------------------------------------------
    \1\ Applied Mathematics at the U.S. Department of Energy: Past, 
Present and a View to the Future. A Report by an Independent Panel from 
the Applied Mathematics Research Community, May 2008. Available on line 
at http://brownreport.siam.org/Document%20Library/
Brown_Report_May_08.pdf.
---------------------------------------------------------------------------
  --Predictive modeling and simulation of complex systems.
  --Mathematical analysis of the behavior of complex systems.
  --Using models of complex systems to inform policy makers. (This 
        includes advancing the mathematics that supports risk analysis 
        techniques for policy-making involving complex systems that 
        include natural and engineered components, and economic, 
        security, and policy consequences.)
    While progress has been made in these areas since the 2008 report, 
further research is necessary to fully understand these systems and 
address our energy challenges.
                 department of energy office of science
    Activities within ASCR play a key role in supporting research that 
begins to fulfill the needs described above. Particularly critical 
programs include: the Applied Mathematics program, the Scientific 
Discovery through Advanced Computing [SciDAC] program, and programs to 
maintain the pipeline of the mathematical workforce. SIAM supports the 
$466 million requested for ASCR for fiscal year 2012. SIAM appreciates 
that the requested increase for fiscal year 2012 is more balanced among 
ASCR programs and not entirely directed to investments in computing 
hardware as it was in the fiscal year 2011 request. Without investments 
in algorithm research, software development, and partnerships between 
mathematicians, disciplinary researchers, and computer and 
computational scientists, we cannot realize the full benefit of new 
high performance computers or effectively develop the next generation 
of such computers.
    The applied mathematics and computational science and engineering 
work supported by the Applied Mathematics Program is a necessary 
element for many of the flagship efforts of the Office of Science and 
other units of DOE. Therefore, partnerships within the Department are 
critical for applying mathematics to key challenges in effective 
creation and use of a variety of energy sources. SIAM supports ASCR 
plans to initiate new partnerships with other DOE offices such as the 
Office of Electricity Delivery and Energy Reliability, the Office of 
Nuclear Energy, and the Office of Environmental Management. SIAM also 
supports the proposed activity on uncertainty and climate change within 
the Biological and Environmental Research Office, which will help to 
quantify the uncertainty in the predictions of current climate models, 
as well as the proposed activity on Computational Materials and 
Chemistry by Design within the Basic Energy Sciences Office.
        supporting the pipeline of mathematicians and scientists
    Investing in the education and development of young scientists and 
engineers is a major step that the Federal Government can take to 
ensure the future prosperity and welfare of the United States. 
Currently, the economic situation is negatively affecting the job 
opportunities for young mathematicians--at universities, companies, and 
other research organizations. It is not only the young mathematicians 
who are not being hired who will suffer from these cutbacks. The 
research community at large will suffer from the loss of ideas and 
energy that these graduate students, postdoctoral fellows, and early 
career researchers bring to the field, and the country will suffer from 
the lost innovation.
    Maintaining the pipeline of the mathematical workforce with 
programs that fund research and students is especially important 
because of the foundational and cross-cutting role that mathematics and 
computational science play in sustaining the Nation's economic 
competitiveness and national security, and in making substantial 
advances on societal challenges such as energy. DOE programs support 
the educational and professional development of the researchers who 
will, at universities, companies, and the national laboratories, tackle 
the research problems (such as the complex system modeling described 
above) needed to change energy usage in this country. These young 
mathematicians and computational scientists are the drivers and 
employees of the clean energy economy.
    Within the Office of Advanced Scientific Computing Research, the 
Computational Science Graduate Fellowship program is a highly 
successful and model program that enables students to receive robust 
training in mathematics and also learn to interface with a wide variety 
of other fields. We request that strong support for this program 
continue, as well as ongoing support for post-doctoral fellows at DOE 
national laboratories and universities. In addition, we endorse DOE's 
proposed continuation in fiscal year 2012 of the Office of Science 
Early Career Research Awards and Graduate Fellowships programs.
                    fiscal year 2011 appropriations
    Before concluding, we want to make a brief comment on the 
resolution of appropriations for fiscal year 2011. The 18 percent cut 
proposed for the Office of Science for the remainder of fiscal year 
2011 in H.R. 1 would devastate research that is critical for the 
country's energy and economic future while costing thousands of jobs at 
national laboratories and research universities across the country. 
SIAM urges you to provide at least the fiscal year 2010 level of 
funding for the Office of Science in fiscal year 2011.
                               conclusion
    The programs in the Office of Science, particularly those discussed 
above, are important elements of DOE's efforts to fulfill its mission. 
They contribute to the goals of dramatically transforming our current 
capabilities to develop new sources for renewable and low-carbon energy 
supplies and improve energy efficiency to ensure energy independence 
and facilitate DOE's effort to increase U.S. competitiveness by 
training and attracting the best scientific talent into DOE 
headquarters and laboratories, the American research enterprise, and 
the clean energy economy.
    We would like to conclude by thanking you again for your ongoing 
support of the DOE Office of Science and the actions you have already 
taken to enable DOE and the research and education communities it 
supports, including thousands of SIAM members, to undertake the 
activities that contribute to the health, security, and economic 
strength of the United States. The DOE Office of Science needs 
sustained annual funding to maintain our competitive edge in science 
and technology, and therefore we respectfully ask that you continue 
your support of these critical programs.
    We appreciate the opportunity to provide testimony to the 
subcommittee on behalf of SIAM and look forward to providing any 
additional information or assistance you may ask of us during the 
fiscal year 2012 appropriations process.
                                 ______
                                 
Prepared Statement of Richard Newton Hill, Jr., Former President/Owner 
                        of Hill Equipment Corp.
  one-half of 1 percent of the energy in the ocean waves is enough to 
             provide the entire world's energy requirements
    I wish to introduce and obtain a grant for my wave and tide 
actuated renewable energy pump.
                       use and disclosure of data
    This abstract includes data that shall not be disclosed outside the 
Government and shall not be duplicated, used, or disclosed--in whole or 
in part--for any purpose other than to evaluate this abstract in 
particular U.S. Patent Application CIP 12220244. However, if an award 
is made as a result of--or in connection with--the submission of this 
data, the Government shall have the right to duplicate, use, or 
disclose the data to the extent provided in the resulting award. This 
restriction does not limit the Government's right to use information 
contained in this data if they are obtained from another source with 
restriction.
    Patent application CIP No. 12220244 is a continuation of U.S. 
Patent Application 10/600701. Patent Application 10/600701 was ready 
for issuance until this CIP was filed.
    I will explain my way of harnessing the energy in the ocean waves. 
You simply hang a great ballast weighted piston on a chain or cable 
attached to a float or ship. As the float or ship rises and falls the 
ballast weighted piston located at or near the sea floor and enclosed 
in a pipe is raised and lowered, causing a pumping action that then can 
be converted into any form of energy you want. All other attempts up to 
this time, involve mounting fragile and/or complex structures at or 
near sea level to do the work. This gives you the task of dealing with 
changing tides and wave conditions and systems that do not hold up in 
the adverse conditions of the ocean. If you place the ballast weighted 
piston inside a tube, say going up 100 feet high from the ocean floor, 
in say 200 feet of water, you now have a simple, robust pump with an 
approximate vertical 100 foot tide and wave range of operation. 
Alternatively, to use the same example, a hole could be drilled or 
excavated 100-200 feet deep in the ocean floor and the cylinder is 
placed in this hole. The pump, under this arrangement, then can be 
brought right up to the shoreline if needed.
    The initial steps are:
PHASE I
    Provide feasibility studies, which will include modeling.
    Build a laboratory/shop model prototype pump.
    Determine how much energy can be captured by my invention off the 
shores of the United States and its' possessions.
    Determine how much energy can be captured by my invention off the 
shores of other countries.
    Determine the best design for the buoy or float and other 
components. Wave action is the result of molecular excitation and for 
practical purposes extends about 15 feet below the surface.
    Selection of materials for buoy, pump cylinder and piston.
    Submit results to the U.S. Department of Energy for justification 
of additional funding.
PHASE II
    Build a hydroelectric power generating pilot plant approximately 
one-third the size of a full scale electric power plant capable of 
generating approximately 20 MW. This will be a permanent installation, 
will feed power into the power grid and be used to test any future 
modifications before they are put into general use. The renewable 
energy pumps will be placed in holes drilled in the ocean floor and/or 
on the ocean floor bed. The water they pump will be delivered to an 
enclosed dammed area and thence run through turbines to create 
electricity as the water flows back to the sea.
PHASE III
    Build a full scale hydroelectric power plant with accompanying 
pumps and dam based on the experience of phases I and II.
    I have determined five additional significant uses for this pump:
  --Seafood Farming.--Pump water to a levied area and raise fish or 
        shrimp, etc. When ready for harvest, you would let the water 
        out and scoop up the fish or shrimp by hand or mechanically, 
        eliminating the need for shrimp and fish trawlers, while 
        guaranteeing a harvest or catch every time. This is similar to 
        what is being done in some South American Countries now, using 
        their high tides to capture the water behind levees, and is the 
        reason these countries can compete here in the United States 
        with local fishermen.
  --Land Reclamation From the Sea, etc.--Again, a levee would be thrown 
        up with the pump on the ocean or sea side. The suction would 
        run under the levee and excavate the water behind the levee, 
        leaving dry land.
  --There Exists ``Dead'' Areas in the Sea, Depleted of Oxygen.--Pumps 
        could be placed in these areas to circulate oxygen enriched sea 
        water in and eliminate the ``dead'' areas.
  --Oil Contaminant Reclamation.--At surface level, a containment 
        barrier, as is used today, would be put in place. A skimmer 
        funnel would be placed inside the containment area just below 
        the surface, its' suction leading back down to one or more 
        pumps. The contaminants could be pumped up to a Tender where 
        further skimming would transpire. A final phase may be 
        introducing the oil/sea water mix into boiling brine. The water 
        would be absorbed into the brine and the difference in the 
        specific gravity between oil and brine will allow for a clean 
        cut in removing the oil. Alternatively, the contaminants could 
        be moved to a refinery or pumped to a levied area on shore for 
        further processing, containment confinement and removal. A 
        similar process, but with the suction at the bottom of the 
        ocean, can be developed for crude such as Bunker ``C'', which 
        have a tendency to remain on the seabed floor and eventually 
        wash ashore in balls of oil/sea water contaminants.
  --Make the Deserts Bloom.--Pump the ocean water over or tunnel 
        through mountain ranges, such as the Sierra Mountains on our 
        west coast, spread the ocean water out on the desert floor. 
        Hydroelectric power would be created, first to provide booster 
        pumps, if needed, to assist moving the water over the 
        mountains, then on the downside, the energy would again be 
        reclaimed in the form of hydroelectric power, etc. The 
        resultant evaporation from the desert floor would form clouds 
        and the prevailing winds would carry the moisture eastward, 
        causing rain to fall, ``Making the Deserts Bloom,'' as the 
        clouds meet the Rocky Mountains. If this proves feasible on our 
        western deserts, then Morocco with the Atlas Mountains and the 
        Sahara should become a top priority for me and the world to 
        relieve the economic and political tensions building there and 
        affecting us, bringing stability to that portion of the world. 
        The Sahara is equal or larger in size than the entire United 
        States. Hydroelectric power would again be created. Salt water 
        basins could be created to concentrate and extract minerals 
        from the sea as well as removing man made pollutants from the 
        world's oceans. The world populations demand for potable or 
        fresh water and food is projected to exceed the entire amount 
        of fresh water and food available by the year 2020, making this 
        the most important task to achieve as it will alleviate this 
        projected problem. When fully deployed, the additional moisture 
        added to the atmosphere will act like a ``radiator'' for the 
        Earth, moderating the Earth's climate as well as providing a 
        cleansing effect on the atmosphere by way of ``washing'' more 
        pollutants out of the air.
                         background of inventor
    Richard Newton Hill, Jr., hereafter called inventor, attended UCLA, 
majoring in physics and the Georgia Institute of Technology, majoring 
in chemical engineering. The inventor went to work as an oilfield 
roughneck, drilling for oil on offshore drilling rigs in the Gulf of 
Mexico off the coast of Louisiana for about 5 years then worked another 
5 years as a sales engineer selling construction, marine, industrial 
and oilfield equipment in the Louisiana and gulf coast regions. In 
1967, the inventor launched his own business, Hill Equipment Corp., 
selling, repairing, fabricating and inventing equipment for the 
construction, marine, industrial, aerospace and oilfield industries, 
including NASA, Michoud, New Orleans, Louisiana for the manufacture of 
the NASA space shuttle.
    The inventor is currently writing three books, has filed outside 
witness testimony [OWT] with the U.S. Congress Subcommittee on 
Commerce, Justice, Science and Related Agencies regarding allegations 
of the sabotage of the Space Shuttle Columbia and the assassination of 
President John F. Kennedy. This and related information can be viewed 
at the inventor's Web sites--www.sabotagecolumbia.info and 
www.sabotagecolumbia.com.
    The inventor is well versed in the technical feasibility of his 
invention and there is nothing proposed that is not now technically 
feasible.
                                 ______
                                 
         Prepared Statement of the Energy Efficiency Coalition
    We the undersigned represent a broad-based coalition of energy 
efficiency and environmental organizations, public interest 
organizations, and small and large businesses. We write today to ask 
your support for key energy efficiency programs within the Department 
of Energy. These programs provide the foundation for the clean energy 
investments that will ensure the long-term sustainability of the clean 
energy economy.
    Energy efficiency is our cheapest, fastest, and cleanest energy 
resource and a necessary solution to address energy prices, energy 
security, air pollution, and global warming. Energy efficiency already 
is the equivalent of any of the Nation's other energy resources: since 
1973, we save more energy each year from efficiency measures than we 
get from any single energy source, including oil. The following fiscal 
year 2012 funding recommendations build on past successes and provide 
additional support for provisions funded as part of ARRA.
    In the months ahead it will be necessary for you to make difficult 
choices regarding budget priorities for the fiscal year 2012 budget. We 
believe that investments in programs that reduce costs for both 
individuals and businesses, and create greater economic prosperity and 
energy security for our Nation, should be maintained and in some 
instances enlarged. Energy efficiency programs are a source of savings 
that in turn are spent in other sectors of the economy, and it does not 
make sense to cut these programs, especially with our energy security 
imperiled by the turbulence in Libya and the Middle East.
    Now is not the time to cut energy efficiency programs and 
initiatives which help to protect Americans from volatile energy 
prices. Rather, we must increase investment in energy efficiency 
programs in order to meet our country's energy needs and safeguard our 
energy future.
    We support the President's budget request for fiscal year 2012 for 
the Department of Energy's Office of Energy Efficiency and Renewable 
Energy and specifically for the following EERE programs:
  --Building Technologies Program, including the Better Buildings 
        Initiative ($470 million);
  --Industrial Technologies Program ($319 million);
  --Weatherization Assistance ($320 million);
  --State Energy Program ($64 million); and
  --Federal Energy Management Program ($33 million).
    In addition to existing programs, it is important for America to 
maintain its competitive edge through continued research in new 
advanced energy efficiency technologies, such as the research 
undertaken by the Department of Energy's ARPA-E program, for which the 
administration request is $550 million.
    The budget for the 2012 fiscal year presents both a challenge and 
an opportunity. By fully deploying the power of energy efficiency, we 
can help drive the economic recovery we all long for. Increased 
investment in critical energy efficiency programs will help those 
American families and businesses who are struggling today to lower 
their energy costs. It will improve our Nation's energy security in 
these uncertain times. We strongly urge your support for the programs 
identified in this letter, and welcome the opportunity to brief you or 
your staff on the benefits these energy efficiency programs provide to 
consumers and businesses in America.
    Energy Efficiency Coalition.--Alliance to Save Energy; American 
Council for an Energy-Efficient Economy; American Institute of 
Architects; American Public Power Association; Association of State 
Energy Research and Technology Transfer Institutions; Business Council 
for Sustainable Energy; Center for Environmental Innovation in Roofing; 
Citizens for Pennsylvania's Future (PennFuture); Copper Development 
Association; Danfoss; Direct Energy; Energy Future Coalition; Energy 
Platforms; Interfaith Power and Light; National Association for State 
Community Services Programs; National Association of Energy Service 
Companies; National Association of State Energy Officials; National 
Community Action Foundation; Natural Resources Defense Council; 
Polyisocyanurate Insulation Manufacturers Association; Rebuilding 
Together; Rinnai; Schneider Electric; Service Employees International 
Union; Sheet Metal and Air Conditioning Contractors National 
Association, Inc.; Sheet Metal Workers International Association; The 
Stella Group, Ltd.; U.S. Green Building Council; and United 
Technologies Corporation.
                                 ______
                                 
    Prepared Statement of the National Association of State Energy 
                               Officials
    Mr. Chairman and members of the subcommittee, I am Phil Giudice of 
Massachusetts and Chair of the National Association of State Energy 
Officials [NASEO]. NASEO is submitting this testimony in support of 
funding for a variety of U.S. Department of Energy programs. 
Specifically, we are testifying in support of no less than $125 million 
for the State Energy Program [SEP], which is equal to the 
authorization. SEP is the most successful program supported by Congress 
and DOE in this area. This should be base program funding, which allows 
States to set their own energy priorities while contributing to 
national energy goals, with no competitive portion which focuses 
primarily on DOE's internal priorities. SEP is focused on direct energy 
project development, where most of the resources are expended. SEP has 
set a standard for State-Federal cooperation and matching funds to 
achieve critical Federal and State energy goals. As ARRA winds down 
over the remainder of this year, the base SEP funds are the critical 
linchpin to help States in building on these activities and expanding 
energy-related economic development, much as SEP has done for 30 years. 
We also support the $320 million fiscal year 2012 budget request for 
the Weatherization Assistance Program [WAP]. These programs are 
successful and have a strong record of delivering savings to low-income 
Americans, homeowners, businesses, and industry. We also support the 
budget request for the Energy Information Administration [EIA] of $124 
million. EIA's State-by-State data is very helpful. EIA funding is a 
critical piece of energy emergency preparedness and response, and there 
are significant new EIA responsibilities under EISA. NASEO continues to 
support funding for a variety of critical buildings programs, including 
Building Codes Training and Assistance, Energy Star, the commercial 
buildings initiative/Better Buildings and residential energy efficiency 
at least at the fiscal year 2010 level. NASEO also supports funding for 
the Office of Electricity Delivery and Energy Reliability [OE], at 
least at the fiscal year 2010 funding level. Specific funding should be 
provided for the Division of Infrastructure Security and Energy 
Restoration of no less than $18 million, which funds critical energy 
assurance activities. We also strongly support the R&D function and 
Operations and Analysis function within OE. The industries program 
should be funded at least at the fiscal year 2010 level.
    Formula SEP funding provides a basis for States to share best 
practices among themselves. These best practices (even without stimulus 
funds) allow States to get a great deal accomplished. These types of 
activities include energy financing programs, revolving loans, utility-
based programs, energy service performance contracts, etc.
    In January 2003 (and updated in 2005), Oak Ridge National 
Laboratory [ORNL] completed a study and concluded, ``The impressive 
savings and emissions reductions numbers, ratios of savings to funding, 
and payback periods . . . indicate that the State Energy Program is 
operating effectively and is having a substantial positive impact on 
the Nation's energy situation.'' ORNL found that $1 in SEP funding 
yields: (1) $7.22 in annual energy cost savings; (2) $10.71 in 
leveraged funding from the States and private sector in 18 types of 
project areas; (3) annual energy savings of 47,593,409 million source 
BTUs; and (4) annual cost savings of $333,623,619. Energy price 
volatility makes the program more essential as businesses and States 
work together to maintain our competitive edge.
                    stimulus funding implementation
    We want to thank the subcommittee for the tremendous support 
provided in the stimulus package for a variety of State and local 
funding initiatives, including $3.1 billion for the State Energy 
Program, $5 billion for the Weatherization Program, $3.2 billion for 
the Energy Efficiency and Conservation Block Grant and $300 million for 
the Energy Star appliance rebate program. This is a major task. We have 
been working closely with DOE to implement these programs as quickly as 
possible. We have had regular calls with all the State energy officials 
to address implementation questions. We have also had a series of 
regional conference calls among the States, and we have seven regional 
coordinators helping to share ``best practices'' among the States. 
NASEO is sharing best practices and providing information to officials 
at all levels of government in order to more effectively coordinate 
this effort. We are convinced that these funds are helping to engineer 
major positive changes in the U.S. economy that will improve all 
sectors of the economy. NASEO believes it is important to maintain base 
levels of appropriations for critical programs, such as SEP and 
Weatherization, in order to avoid a huge decrease in funding after a 
rapid stimulus increase.
    With respect to ARRA spending for SEP, of the $3.1 billion 
appropriated, virtually all the money is now under contract and work is 
being implemented. We and DOE are working through the barriers that 
slowed spending, including NEPA compliance, Davis-Bacon wage rates, 
Buy-American clauses, historic preservation, lead paint requirements 
and general procurement issues. It is important to stress that the key 
figures are the ``commitment'' and ``contracted'' amounts, because that 
is when people get hired and work commences. States generally do not 
pay until projects are actually completed and milestones are met. We do 
not pay-up front in most cases. In economics jargon, the Federal 
spending figure is actually a lagging indicator. Of the ARRA funds 
dedicated to SEP and EECBG, over $1 billion has been dedicated to 
energy financing programs in cooperation with the private sector. This 
has the greatest long term potential.
    Examples of Successful State Energy Program Activities.--The States 
have implemented thousands of projects. We have previously supplied to 
subcommittee staff examples of programs implemented under ARRA. Here 
are a few representative examples.
    Alabama.--The State has dedicated $25 million for an energy 
revolving loan fund for business and industry, and has dedicated 
millions for energy efficient school retrofit grants. The Walker County 
school project alone is saving $146,000 per year in energy costs with a 
$300,000 SEP investment.
    Alaska.--SEP-supported projects include the Village End-Use 
Efficiency Measures project, which assisted 31 remote villages. In the 
last year, over 400 projects are now being implemented in order to 
reduce the terribly high energy costs in these villages (they have 
historically paid, at a minimum, over six times the national average 
for electricity costs).
    California.--The State is implementing a comprehensive residential 
and commercial ($18.8 million) building retrofit program, an energy 
finance program for municipalities, and State building retrofits 
through revolving loans (over $25 million), clean energy business 
financing, low-interest loans for local governments and ``Green Jobs'' 
workforce training ($20 million). Jobs associated with the residential/
commercial program total 1,200. The Energy Technology Assistance 
Program is creating over 700 jobs.
    Hawaii.--This State is focused on energy efficiency and renewable 
energy projects intending to supplement existing efforts. For example, 
promotion of Energy Star upgrades for hotels, technical assistance to 
develop green buildings and other energy efficient buildings, have been 
two major projects. Funds have supplemented the public benefits 
program, the county energy efficiency efforts and alternative fuel 
efforts. Electric vehicle development, including infrastructure 
expansion, has also been a focus.
    Illinois.--The SEP-supported Green Industry Business Development 
Program is supporting renewable energy and energy efficiency component 
manufacturers and manufacturers of recycled content products. One of 
the State's many school projects installed a geothermal heating and 
cooling system in four, Rantoul schools, which resulted in 145 local 
jobs and important training.
    Iowa.--This State has committed substantial funding to municipal 
energy efficiency projects and green jobs initiatives. A good example 
has been Sun Prairie Vista Court Apartments where over $110,000 is 
being saved annually and the owner contributed $1.7 million. They have 
also instituted an energy loan program. Funding has supplemented 
programs and projects conducted under the State-funded Iowa Power Fund. 
The energy office has also been very involved in preserving propane 
supplies to respond to emergencies.
    Kentucky.--$14 million has been dedicated to the Green Bank of 
Kentucky for energy efficiency financing for public buildings by 
utilizing revolving loans. In addition, funds were provided for an 
advanced energy efficient battery initiative, commercial office 
building energy efficiency retrofits, industrial facility energy 
efficiency retrofits, Home Performance with Energy Star, utility smart 
grid activities and $10 million for energy efficiency in K-12 schools. 
The school districts are targeting over $14 million in savings for the 
program. The partnership with the University of Kentucky is also 
providing funds for ``circuit riders'' to work across the State on 
energy projects.
    Louisiana.--$25.7 million has been committed to energy efficiency 
retrofits in higher education buildings; $15.7 million is dedicated to 
retrofits of commercial buildings and energy efficiency for new and 
existing homes; and $10 million has been committed to renewable energy 
development. Their Home Energy Rebate Option [HERO] program provided 
energy efficiency rebates of over $1 million in 3 months for over 400 
homeowners. The commercial rebates are as high as $5,000 per facility.
    Maine.--The State's SEP-supported project fund helped match funding 
for Tex Tech (sports equipment manufacturer) in North Monmouth, that 
allowed the purchase of new biomass equipment saving $400,000 in fuel 
costs and retaining 40 local jobs. The State's new home energy 
efficiency retrofit program has now begun and is implementing 
residential retrofits.
    Mississippi.--$17 million was dedicated for energy efficient public 
buildings, including retrofits, performance contracting and building 
energy codes; $10 million was allocated for renewable energy projects, 
smart meters on public facilities and support for community college 
workforce training. An additional $10 million was slated for businesses 
to implement energy efficiency or renewable energy upgrades. The 
Mississippi Job Protection through Energy Economic Development Program 
has provided grants to 55 companies for energy retrofits, with annual 
savings of almost $4 million. One example is the Laurel Machine and 
Foundry Company, where they are savings almost $100,000/year and the 
company said that without these funds they would have closed and 32 
employees would have lost their jobs.
    Montana.--$22.3 million has been allocated to State universities, 
community colleges and other State facilities for energy efficiency 
projects; 89 projects are underway. The Montana Veterans Nursing Home 
in Columbia Falls has been the beneficiary of one of these projects, 
allowing the State to be repaid in only 3 months for the energy 
efficiency upgrade, including cost share. Additional funds have been 
dedicated to renewable energy demonstration projects, including CORE 
Wind Power for a 3 MW facility in Ronan, Algae Aqua Culture 
Technologies for biomass projects, the biodiesel blend project in the 
Hi-Line area and a Chester-based oilseed processor project.
    New Jersey.--$7 million has been committed to fund solar 
installations on multi-family buildings, $4 million for residential 
energy efficiency financing, $4 million for multi-family energy 
efficiency loans, $17 million for municipal energy efficiency 
incentives, $6 million for State building energy efficiency and an 
additional $15 million for grants and loans for energy efficiency and 
renewable energy applications. Recently, 430 home energy retrofits were 
completed under their Home Performance with Energy Star program.
    Rhode Island.--Funds have been provided for a green building 
initiative in State facilities, a commercial/industrial energy 
efficiency initiative, building code upgrades and energy efficient 
transportation: $8.4 million has been allocated for renewable energy 
loans; $2.3 million has been allocated for a residential energy 
efficiency initiative with approximately $7.5 million in leveraged 
funds projected. Larger (utility scale) renewable projects received $5 
million. Sixty-nine renewable energy projects were funded in the past 
year alone.
    South Carolina.--In 2010, the South Carolina Energy Office awarded 
grants to 12 non-profit organizations, colleges and governments to 
reduce energy costs and implement alternative energy projects. The 
Columbia College solar water heating systems for the dormitories are 
one example of this initiative. Other projects include solar absorption 
cooling at Claflin University, solar water heating for Central Electric 
Power Cooperative customers and solar projects for Furman University.
    South Dakota.--$20.5 million has been dedicated to a State 
revolving loan for public buildings, with $3 million for a limited 
number of grants. Thirty-six projects are underway and activities 
include energy efficiency retrofits, LEED ratings, on site generation, 
etc. The 100 year old State capitol building was retrofitted, saving $2 
million per year for that project alone.
    Tennessee.--The State committed substantial resources to a 
comprehensive solar development program; 108 grants totaling $9 million 
have been awarded to a variety of solar projects, leveraging $24 
million in private funds. These projects includes both consumer 
projects as well as manufacturing development. The State has also 
expanded its energy efficiency programs.
    Texas.--$137.8 million has been allocated for public sector 
building energy efficiency, including revolving loans for schools, 
hospitals, municipalities, public colleges, etc., $52 million has been 
allocated for a competitive renewable energy grant program. 
Transportation efficiency programs have also been funded. Fifteen 
cities and one county recently installed energy efficient streetlights 
(with $7.8 million in SEP funds) that use one-thirtieth of the energy 
of the old technology. In Beaumont alone, 62 of the 168 traffic signals 
were replaced with energy efficient technology.
    Washington.--More than $20 million was allocated for an energy 
efficiency and renewable energy loan and grant program, including a $2 
million grant to Port Townsend Paper Corp. for a biomass project that 
is supporting 398 full and part-time jobs and leveraged $53 million in 
other funds. Over 10 times the amount of available funds was requested 
by potential recipients. Additional funding of $5 million was provided 
for energy efficiency credit enhancements (supporting $50 million in 
total project expenditures). Community-wide residential and commercial 
energy efficiency pilots received $14 million in grants. Other projects 
include an ``electric highway initiative establishing recharging 
locations on I-5, support for a 7.5 MW wind turbine at the Grays Harbor 
Paper mill in Hoquiam in cooperation with the Grays Harbor PUD and a $1 
million project for a wood-fired boiler at Forks Middle School in the 
Quillayute Valley Schools district.
                                 ______
                                 
 Prepared Statement of the American Society of Agronomy, Crop Science 
      Society of America, and the Soil Science Society of America
    The American Society of Agronomy [ASA], Crop Science Society of 
America [CSSA], and Soil Science Society of America [SSSA] are pleased 
to submit the following funding recommendations for the Department of 
Energy for fiscal year 2012. For the Office of Science, ASA, CSSA, and 
SSSA recommend a funding level of $5.4 billion.
    With more than 25,000 members and practicing professionals, ASA, 
CSSA, and SSSA are the largest life science professional societies in 
the United States dedicated to the agronomic, crop and soil sciences. 
ASA, CSSA, and SSSA play a major role in promoting progress in these 
sciences through the publication of quality journals and books, 
convening meetings and workshops, developing educational, training, and 
public information programs, providing scientific advice to inform 
public policy, and promoting ethical conduct among practitioners of 
agronomy and crop and soil sciences.
                 department of energy office of science
    ASA, CSSA, and SSSA understand the challenges the Senate Energy and 
Water Development Appropriations Subcommittee faces with the tight 
budget for fiscal year 2012. We also recognize that the Energy and 
Water Development Appropriations bill has many valuable and necessary 
components, and we applaud the subcommittee for the support provided to 
the DOE Office of Science. For fiscal year 2012, ASA, CSSA, and SSSA 
recommend a funding level of $5.4 billion.
    Congress approved the America COMPETES Reauthorization Act of 2010 
(Public Law 111-358), recognizing that an investment in basic 
(discovery) scientific research is essential to providing America the 
brainpower necessary to maintain a competitive advantage in the global 
economy and keep U.S. jobs from moving overseas. Such an investment is 
needed to keep U.S. science and engineering at the forefront of global 
research and development in the biological sciences and geosciences, 
computing and many other critical scientific fields. The Office of 
Science supports graduate students and postdoctoral researchers early 
in their careers. However, because of the uncertainty of the Federal 
budget, the Office of Science was not able to provide the essential 
support needed in fiscal year 2011. As a result, it is important that 
increase emphasis is placed on these programs in fiscal year 2012. 
Nearly one-third of its research funding goes to support research at 
more than 300 colleges and universities nationwide. The Office of 
Science also reaches out to America's youth in grades K-12 and their 
teachers to help improve students' knowledge of science and mathematics 
and their understanding of global energy and environmental challenges. 
This recommended funding level of $5.4 billion is critical to ensuring 
our future energy self-sufficiency and as a means to address major 
environmental challenges including global climate change. Finally, a 
funding level of $5.4 billion will allow the Office of Science to: 
maintain and strengthen DOE's core research programs at both the DOE 
national laboratories and at universities; provide support for PhDs, 
postdoctoral associates, and graduate students; ensure maximum 
utilization of DOE research facilities; and allow the Office of Science 
to develop and construct the next generation facilities necessary to 
maintain U.S. preeminence in scientific research.
Basic Energy Sciences
    Within the Office of Science, the Basic Energy Sciences [BES] 
Program is a multipurpose, scientific research effort that fosters and 
supports fundamental research to expand the scientific foundations for 
new and improved energy technologies and for understanding and 
mitigating the environmental impacts of energy use. The research 
disciplines that the BES program supports include condensed matter and 
materials physics, chemistry, soil, mineralogical, and geosciences, 
influencing virtually every aspect of energy resources, production, 
conversion, transmission, storage, efficiency, and waste mitigation. 
Research in geosciences leads to advanced monitoring and measurement 
techniques for reservoir definition. The BES program is one of the 
Nation's largest sponsors of research in the natural sciences. In 
fiscal year 2010, the program funded research in more than 170 academic 
institutions located in 50 States and in 14 DOE laboratories located in 
12 States. Thus, approximately 40 percent of the BES program's research 
activities are sited at academic institutions.
    Within the Basic Energy Sciences Program, the Chemical Sciences, 
Geosciences, and Energy Biosciences subprogram supports fundamental 
research in soil, biogeochemistry, geophysics and biosciences. We 
support funding this subprogram at $394.7 million in fiscal year 2012.
    Within BES there exists several critical pieces of equipment 
essential for elucidating the soil's potential to provide essential 
services--carbon sequestration, nutrient cycling, water purification, 
waste treatment, provisioning of industrial and pharmaceutical goods, 
and a mitigating sink for chemical and biological agents--that enhance 
the resilience of managed and natural systems.
    As such, the Societies support the increases included in the 
President's budget for the Major Items of Equipment projects, including 
the Linac Coherent Light Source [LCLS] at SLAC National Accelerator 
Laboratory, the world's first hard x-ray free electron laser [FEL], 
which produces ultrafast pulses of x-rays millions of times brighter 
than even the most powerful synchrotron light sources. The LCLS 
provides scientists with a unique tool for studying the arrangement and 
motion of atoms and electrons in metals, semiconductors, ceramics, 
polymers, catalysts, plastics, and biological molecules with the 
potential to significantly impact advanced energy research and other 
fields. The Societies support the requested increase for the LCLS 
included in the President's fiscal year 2012 budget (+$30,000,000 over 
fiscal year 2010) to extend the x-ray spectral range at the LCLS.
    Our soil scientists also are users of the National Synchrotron 
Light Source (NSLS-II) built to enable the study of material properties 
and functions, particularly materials at the nanoscale, at a level of 
detail and precision never before possible. We support the increase 
requested in fiscal year 2012 (+$12,000,000 over fiscal year 2010) to 
initiate the fabrication of approximately five to six additional 
instruments.
    The Geosciences Research Program supports research focused at 
developing an understanding of fundamental Earth processes that can be 
used as a foundation for efficient, effective, and environmentally 
sound use of energy resources, and provide an improved scientific basis 
for advanced energy and environmental technologies. We support the 
$19.3 million increase proposed by the President to the Geosciences 
program, specifically for the purposes of continuing to expand research 
on geochemical studies and computational analysis of complex subsurface 
fluids and solids.
Biological and Environmental Research
    Within the Office of Science, the Biological and Environmental 
Research [BER] Program, for more than five decades, has advanced 
environmental and biological knowledge that supports national security 
through improved energy production, development, and use; international 
scientific leadership that underpins our Nation's technological 
advances; and research that improves the quality of life for all 
Americans. BER supports these vital national missions through 
competitive and peer-reviewed research at national laboratories, 
universities, and private institutions. ASA, CSSA, and SSSA support the 
funding of the BES at the President's requested level for fiscal year 
2012 of $717.9 million. A variety of programs within BER are essential 
to continued fundamental research about biological systems science, 
geochemical observations, and determining environmental sustainability 
of our energy production systems. Among other items, the DOE Bioenergy 
Research Centers [BRCs], the Joint Genome Institute, the Environmental 
Molecular Science Laboratory [EMSL], and biological sequencing science 
are essential for overcoming the challenges of ensuring our Nation's 
energy security and environmental health.
    The Climate and Environmental Sciences subprogram, Environmental 
Systems Science will support essential subsurface biogeochemical 
research and basic research on the fate and transport of contaminants 
in the subsurface. The ASA, CSSA, and SSSA support funding for 
Environmental Systems Science at $104.2 million for fiscal year 2012, a 
level which would retain funding for the Terrestrial Carbon 
Sequestration Research, while also investing in research on contaminant 
transport to ensure minimal risk to exposure. This research addresses 
unique physical, chemical, and biological processes controlling the 
flux of contaminants across and within the root zone of soils and the 
flux of contaminants to surface water bodies. Processes in these 
critical zones influence fluxes of carbon and key nutrients between the 
atmosphere and terrestrial biosphere.
                     identifying essential research
    Our members participated in the community-based workshop in March 
2010 that developed the workshop report, ``Complex Systems Science for 
Subsurface Fate and Transport.'' The report emphasized the need to 
understand the role that subsurface biogeochemical processes play in 
determining the fate and transport of contaminants including heavy 
metals and radionuclides. Participants concluded that computational 
models of coupled biological, geochemical, and hydrological processes 
are needed to predict the rates and kinetics of transformation and 
sequestration of these critical DOE contaminants.
    Within BER, we support the increase included in the President's 
budget for the Genomic Science Program, to bring the total level of 
funding to $241.5 million for fiscal year 2012. The Joint Genome 
Institute within the Genomic Program is an essential infrastructural 
component which uses tools from contemporary systems biology to 
understand and predict the energetic relationships between microbes and 
plants. The increase would support synthetic molecular toolkits that 
predict, design, construct, and test new biological systems for clean 
energy solutions.
                         national laboratories
    The Office of Science manages 10 world-class laboratories, which 
often are called the ``crown jewels'' of our national research 
infrastructure.
National Energy Technology Laboratory [NETL]
    NETL's Carbon Sequestration Program is helping to develop 
technologies to capture, purify, and store carbon dioxide 
(CO<INF>2</INF>) in order to reduce greenhouse gas emissions without 
adversely influencing energy use or hindering economic growth. Program 
efforts in this area are focused on increasing carbon uptake on mined 
lands and evaluation of no-till agriculture, reforestation, rangeland 
improvement, wetlands recovery, and riparian restoration.
Oak Ridge National Laboratory [ORNL]
    ORNL is one of the world's premier centers for R&D on energy 
production, distribution, and use and on the effects of energy 
technologies and decisions on society. Clean, efficient, safe 
production and use of energy have long been our goals in research and 
development. At ORNL, unique facilities for energy-related R&D are used 
both for technology development and for fundamental investigations in 
the basic energy sciences that underpin the technology work.
    Thank you for your thoughtful consideration of our requests.
                                 ______
                                 
                    Prepared Statement of Symbiotics
    On behalf of America's independent power producers and hydropower 
developers, I respectfully request the full appropriation in fiscal 
year 2012 of funds authorized in section 242 and section 243 of the 
Energy Policy Act of 2005 (Public Law 109-58). Full funding for the 
Hydroelectric Production Incentives and Hydroelectric Efficiency 
Improvements authorized in Public Law 109-58 is critical for getting 
new hydropower projects into production.
    Currently, there are numerous projects across the United States 
that are under construction, or nearing the construction phase, that 
would be eligible to receive these important incentives if they are 
appropriated for fiscal year 2012. These projects need the incentives 
to remain competitive for private financing. Without these production 
and efficiency incentives, many of the projects under development will 
become uneconomical and may never be built.
    As you may know, the provisions in section 242 and 243 of the 
Energy Policy Act of 2005 were critical in facilitating the financing 
necessary to make many hydroelectric projects economically feasible 
while pursuing the permitting processes. The subsequent appropriation 
of these funds would enable developers across the country to complete 
their projects. This would allow for the production of clean 
electricity that would be more cost effective than other forms of 
renewable energy including wind and solar. Furthermore, it would help 
our Nation achieve energy independence and foster significant new job 
creation.
    Since passage of the Energy Policy Act of 2005, appropriation of 
section 242 and 243 funds was unnecessary because no projects existed 
that were capable of utilizing them. Now, hydropower developers and 
producers are far enough in the development process that these funds 
could be used. In fact, the hydropower projects that are currently 
being developed represent the first new non-municipal hydro projects to 
come on line in over two decades. Full appropriation of section 242 and 
243 funds would provide the critical assistance to get these vital 
projects into production.
    Symbiotics appreciates the opportunity to submit testimony for the 
record.
                                 ______
                                 
             Prepared Statement of West Virginia University
    This testimony is submitted on behalf of West Virginia University 
on topics including Fossil Energy Coal, Oil, and Natural Gas R&D 
Programs; Office of Electricity Programs; and new initiatives. In our 
testimony, we make the following recommendations for fiscal year 2012 
appropriations:
  --Restore the Fuels Program to $20 million for coal conversion 
        research.
  --Restore the Fuel Cells Program to $50 million.
  --Support both modeling and simulation, and experimental research 
        programs for coal systems.
  --Restore funding for oil and natural gas programs, and increase 
        budget to $80 million.
  --Do not repeal section 999 program in EPACT 2005.
  --Maintain core Coal Research Program at $404 million.
  --Initiate programs in water availability, energy security, and rare 
        earth minerals.
                              introduction
    Both the DOE Strategic Plan and the DOE Quadrennial Technology 
Review Framing Document cite a projected long-term dependency of our 
Nation on fossil fuels for electric power and transportation fuels. 
Time frames of 25 years and longer are considered in these projections. 
It is imperative that the United States place strategic importance on 
the use of our Nation's coal, oil, and natural gas resources to meet 
our energy needs. This testimony is directed toward key programs in 
coal, oil, and natural gas research.
                             fuels program
    Consider transportation fuels. Patrolling oil transit routes adds 
an estimated $80 billion annually to our defense costs. In 2008, we 
spent $388 billion on imported petroleum products, 57 percent of our 
balance-of-trade deficit. Production of liquid transportation fuels 
from a mixture of 60 percent coal and 40 percent biomass could provide 
3 million barrels per day of gasoline equivalent by 2020. A coal-plus-
biomass Fuels Program would create new jobs through increased coal 
production that could reach to upwards of 50 percent from our current 
levels. Coal-to-liquid plants located in widely dispersed geographic 
locations would support additional jobs and reduce the risks of supply 
interruptions from events such as major hurricanes in the Gulf of 
Mexico. These plants would bolster our national, energy, and economic 
security through utilizing and producing indigenous fuels. Coal-plus-
biomass fuels meet the requirements of the Energy Policy Act of 2007 
regarding their CO<INF>2</INF> footprint, compared to conventional 
petroleum, and have been shown to be net sinks regarding CO<INF>2</INF> 
emissions (National Academy of Sciences, 2010).
    We recommend restoring funding for the Fuels Program to a level of 
$20 million for coal conversion research using feedstocks such as coal 
and biomass for the production of liquid transportation fuels, 
chemicals, and synthetic natural gas. Funding should be directed toward 
simulation modeling and pilot plant testing on eastern, mid-content, 
and western coals, biomass characterization and feeding, and 
transformational research to reduce the energy penalty costs of 
conversion processes and plant capital costs, which are currently a 
deterrent to building a coal fuels and chemicals industry.
                           fuel cells program
    Solid oxide fuel cells [SOFC] operating on coal-based syngas can 
form a key component of the administration's goal of having 80 percent 
of our Nation's electricity generated by clean energy technologies. 
SOFC technology can be deployed in both central station and distributed 
generation modes. A successful collaboration of government and industry 
under the Solid State Energy Conversion Alliance [SECA] is reducing the 
cost of SOFC. The SECA fuel cell program is a critical element of 
fossil energy's technology portfolio. Integrated gasification fuel cell 
[IGFC] systems are highly efficient with near-zero atmospheric 
emissions of CO<INF>2</INF> and air pollutants, and use minimal amounts 
of water compared to traditional pulverized coal power generation 
systems. We disagree with the administration's recommendation to defund 
the fuel cell program and recommend continuation at a level of $50 
million.
                        modeling and simulation
    The emphasis on computational modeling in the DOE program is 
attractive for evaluating new concepts at scales ranging from molecular 
interactions through system simulations. Information gained from 
modeling will be useful in moving new concepts from scientific research 
discoveries into scalable component technologies, with added benefits 
of attendant time and cost savings afforded by performing numerous 
inexpensive computer experiments versus numerous costly laboratory 
experiments. However, experimental research is an integral part of 
modeling and simulation in that experimental data are essential for 
validating the predictions of model studies. Modeling is also useful in 
directing attention to targeted areas where further engineering 
research is needed to solve operational problems. With successful 
modeling, we can reduce development times for scaling up promising 
technologies by factors of 10-to-15, versus a more conservative scale-
up program in which the size of the system is increased by factors of 
3-to-5, for example.
    Industrial research often discovers unanticipated mechanisms in 
pilot and commercial-scale field research on actual systems that are 
not/cannot be predicted from modeling alone or laboratory-scale 
research. It is essential that the DOE Coal Program continues to 
support pilot-scale and commercial-scale experimental and demonstration 
research to allay the valid concerns of technology developers who must 
invest billions of dollars to prove the cost and performance viability 
of new systems. Close collaboration between computer modelers and 
industrial developers is recommended to ensure the effective use of 
funding in both the modeling and experimental aspects of developing and 
deploying new technologies.
                      oil and natural gas programs
    We recommend restoration of the Oil and Natural Gas Programs in the 
Office of Fossil Energy at a funding level of $80 million for fiscal 
year 2012. We further recommend maintaining the program on Off shore 
and Unconventional Onshore oil and natural gas research funded under 
section 999 of the Energy Policy Act of 2005.
    Shale Research.--NETL-developed technologies for directional 
drilling and hydraulic fracturing of formations can be applied to 
produce the plentiful natural gas reserves of the Marcellus and similar 
shale formations. Much work remains to be done, however, to validate 
estimates of how much gas can be recovered, to develop the geological 
sciences needed to understand these underground reservoirs, to 
effectively treat produced water, to protect groundwater supplies, and 
to allay the concerns of residents affected by drilling and fracking 
operations. We recommend that $40 million be directed to shale gas 
research programs and to related technology transfer programs to 
provide information on environmentally safe drilling practices. The 
Utica shale formation is also a national resource for which little is 
known and research on this formation is also recommended. With the 
administration's focus on using natural gas for transportation fuels in 
addition to current markets for chemicals production and home 
applications, it is necessary to ensure adequate supplies of natural 
gas since existing wells will deplete at approximately the same rate 
that Marcellus shale production is increasing, according to EPA 
projections.
    Oil Research.--Funding of $25 million is recommended for advanced 
oil research to support programs such as the large-scale storage of 
carbon dioxide in enhanced oil recovery applications, and the 
development of new resources such as the Baaken shale and similar 
formations that are now commercially viable, which is accredited to the 
new drilling technologies. Research should be directed toward pilot 
tests, non-core studies, and advanced research and development for 
next-generation technologies.
    Methane Hydrates Research.--The remaining $15 million in our 
recommendation should be directed toward continuation of the methane 
hydrates program within the Office of Fossil Energy. This resource is 
extensive and will provide a needed supplement to our natural gas 
resource base if it can be successfully developed.
    Section 999 Program.--USDOE Secretary Chu recently met with the 
FACA committee providing guidance to the section 999 Offshore and 
Unconventional research program funded by royalties from offshore 
production of oil and natural gas. He asked that the program direct 
some of its activities to ensuring the safety of offshore drilling 
operations to avoid events such as the Macondo well accident of the 
past year. The section 999 program also provides support for small 
operators by funding collaborative research with national universities 
and for technology transfer programs. The past and present 
administrations have recommended that this program be repealed. We 
request support of the subcommittee in not repealing this program, 
especially in view of the need for increased safety in offshore 
drilling operations.
            core fossil energy scientific research programs
    The United States needs a strong core program of scientific 
research in fossil fuels. We recommend maintaining the core Coal 
Research Program at $404 million annually in addition to supporting the 
oil and natural gas program at the $80 million level discussed above.
    Fossil fuels are mainstays of our national energy demand for the 
foreseeable future. Our economic prosperity and national security are 
linked through investment in scientific research. More than one-half of 
our economic growth since World War II can be traced to science-driven 
technological innovation. Today's investments in fossil energy research 
will lead to tomorrow's discoveries that will build a better America.
    NETL, as a fossil energy field laboratory, has a long history of 
support for external entities such as industry and universities. As a 
national laboratory, NETL must also increase its level of program 
support for onsite scientific research. Significant past 
accomplishments include the drilling technologies described above and 
materials developed to reduce criteria pollutants from coal-based power 
systems. Present activities include developing excellence as a 
computational modeling and simulation center and serving as a regional 
engine for economic development through programs with local 
universities to stimulate advanced research that leads to spin-off 
industries under programs such as the Regional University Alliance 
[RUA]. Within the funds provided, NETL should be encouraged to continue 
these scientific research and economic development programs.
    Core research programs should be expanded through the designation 
of additional funding to include an enhanced focus on water-related 
issues. Ground water contamination from Marcellus shale production can 
be addressed under the Oil and Natural Gas Programs described above. 
Additional funding should be identified to address a broader array of 
water issues associated with energy production. Power plants need to 
reduce the amount of water both used and consumed in their operations. 
These needs are especially acute in areas of water shortages, such as 
the arid Western States. Production of fuels and chemicals will require 
additional water supplies. Coal conversion plants in China are 
producing liquid transportation fuels at a ratio of 3 barrels of water 
per barrel of fuel, a level we can attain in the United States through 
the investment of core research funds.
                            energy security
    Fossil energy contributes approximately 70 percent of the 
electricity to the national grid. We recommend the programs in the 
Office of Electricity Delivery and Energy Reliability [OE] include 
components addressing the role of fossil energy in maintaining energy 
supply. Analytical tools should be developed to monitor energy supply 
and reduce risks from upsets in the fuel supply chain and energy 
production infrastructure. The role of the Office of Fossil Energy in 
the Future Smart Grid should be integrated into planning and analysis 
activities. Programs currently at NETL in areas such as energy 
efficiency of appliances can be used as a base to develop the next 
generation of ``smart grid ready'' appliances. We recommend an 
enhancement of the Office of Fossil Energy's role in energy security 
areas, given its expertise in these areas.
                              rare earths
    Advanced materials will increasingly rely on rare earth elements. 
The Office of Fossil Energy has a long history of extraction expertise, 
tracing back from its origins as a part of the U.S. Bureau of Mines, 
and its work in coal cleaning and advanced separations technology that 
can be applied to helping ensure a supply of rare earth minerals 
through improved recovery and processing technologies. We recommend 
that the Department of Energy engage the Office of Fossil Energy in 
programs to maintain our supply of rare earth elements.
                                 ______
                                 
  Prepared Statement of the Electric Drive Transportation Association
    The Electric Drive Transportation Association [EDTA] is the cross-
industry trade association promoting the advancement of electric drive 
technology and electrified transportation and we are writing regarding 
the fiscal year 2012 request for the Department of Energy's Vehicle 
Technologies and other electric drive programs.
    Our members include vehicle manufacturers, battery and component 
manufacturers, utilities and energy companies, and smart grid and 
charging infrastructure developers. We are committed to realizing the 
economic, national security, and environmental benefits of displacing 
oil with battery electric, hybrid, plug-in hybrid and fuel cell 
vehicles.
    Electric drive vehicles, from mild hybrids to full electrics are 
being introduced into the market place in passenger cars; commercial 
trucks, neighborhood electric vehicles, buses; tractors and ground 
support equipment and are poised to advance to commercial scale. As the 
uncertainties roiling the global oil market are spiking the cost of 
gasoline as well as consumer goods in the United States, it is more 
important than ever to push forward in our concerted efforts to 
increase electrification and reduce dependence on imported energy.
    The Department of Energy, working with the electric drive industry 
and other stakeholders, is helping to accelerate technology 
breakthroughs, promoting investment in manufacturing capacity and 
speeding deployment of electric drive vehicles and infrastructure.
    The Department's Vehicle Technologies program promotes government/
industry partnerships and leverages private sector investments to 
accelerate technologies that serve our national energy goals. 
Specifically, we support the Department's efforts to advance energy 
storage technologies and the administration's request for the Batteries 
and Electric Drive Technology program, which will develop next 
generation battery technologies that increase performance and bring 
down costs. We further support the proposed level for Vehicle and 
Systems Simulation and Testing programs, including the Advanced Vehicle 
Testing Activity [AVTA], which are advancing next generation charging, 
systems integration and codes and standard for vehicle to grid 
communication.
    The Vehicle Technologies program is also home to important work in 
reducing the cost and expanding the abilities of medium and heavy duty 
electric drive trucks. Recognizing their enormous potential to 
transform the commercial fleet and reduce oil consumption in that 
transportation segment, we ask that the subcommittee direct sufficient 
resources toward program activities that advance electrification of 
medium and heavy duty vehicles, including work with industry partners 
to reduce component costs and further enhance performance.
    Another key focus for Department of Energy advanced vehicle 
technology efforts is fuel cell electric vehicles, which are important 
zero emission/zero petroleum options that will be integral to meeting 
national goals for energy security and reduced emissions. The industry 
is meeting aggressive cost, performance and deployment milestones as it 
pushes toward commercialization in 2015. A meaningful partnership with 
the Federal research and development community through the Hydrogen 
Technologies Program is critical to keeping that timeframe.
    We believe the fiscal year 2012 budget for Hydrogen should maintain 
the Department's commitment to hydrogen and fuel cell research, 
providing an expanded emphasis on programs that reinforce the vehicle 
commercialization effort. Specifically, we ask that funding for fuel 
cell electric vehicle and infrastructure deployment activities in 
Technology Validation and in early market development, including 
education and other enabling activities, be provided at levels 
sufficient to enable the industry to build on technology and market 
achievements to meet the 2015 target.
    Finally, we strongly support the Vehicle Technologies Deployment 
programs, including Clean Cities' mission of advancing the Nation's and 
energy security by reinforcing communities' own efforts to expand 
deployment of electric drive vehicles (battery electric, hybrid and 
fuel cell electric vehicles), other alternative fuel vehicles and 
recharging/fueling infrastructure. We are pleased that Department's 
fiscal year 2012 budget requests an expansion of these partnerships and 
supports additional resources for communities deploying electric drive 
vehicles and recharging infrastructure.
    Recognizing significant budgetary constraints that the subcommittee 
faces, we respectfully request that the subcommittee make the wise 
investment of resources in the Department of Energy's electric drive 
programs that will enable the Department to continue to be an effective 
partner in accelerating the achievement of a secure and sustainable 
transportation sector.
    We thank you for your consideration.
                                 ______
                                 
  Prepared Statement of the National Association for State Community 
                           Services Programs
    As Chair of the Board of Directors for the National Association for 
State Community Services Programs [NASCSP], I am pleased to submit 
testimony in support of the Department of Energy's [DOE] Weatherization 
Assistance Program [WAP] and in support of DOE's State Energy Programs 
[SEP]. In these difficult budgetary times, we understand that tough 
decisions have to be made. However, WAP and SEP are proven, cost-
effective, measurably successful, and vital to the Nation's energy 
security and energy efficiency movements, delivering savings to low-
income Americans, businesses, and industry. In order to sustain the 
infrastructure and training and technical assistance expertise and 
activities begun with the funding provided by the American Recovery and 
Reinvestment Act of 2009 (Recovery Act), we seek a fiscal year 2012 
appropriations level of $320 million for the WAP and $125 million for 
SEP. These funding levels are essential to continue and improve these 
outstanding programs for our citizens. Due to the close of Recovery Act 
funding in March 2012, normally appropriated funds are even more 
critical to allow the WAP Network to fulfill its administrative duties 
and ensure continued quality and success at the expanded Recovery Act 
level.
    Some examples of the Program's accomplishments include:
  --Creation and continued support of more than 15,000 full time, 
        highly skilled jobs within the service delivery just in 
        Recovery Act funds, with 8,000-10,000 additional jobs from 
        annual grant funding, and many more in related businesses, such 
        as materials suppliers;
  --Weatherization of an additional 650,000 homes occupied by low-
        income families due to the Recovery Act and approximately 
        28,000 homes through annual appropriations, thereby reducing 
        energy use and associated energy bills;
  --Served over 6.7 million low-income homes since the program's 
        inception, with an additional 38.3 million eligible;
  --Saves an estimated 35 percent of consumption for the typical home, 
        with savings continuing year-after-year and actual dollar 
        savings increasing as fuel prices increase;
  --Saves $437 in first year energy savings for households weatherized;
  --Returns $2.51 for every dollar spent in energy and non-energy 
        benefits over the life of the weatherized home;
  --Serves as a foundation for residential energy efficiency retrofit 
        standards, technical skills, and workforce training for the 
        emerging broader market;
  --Supports communities through local purchasing and jobs created 
        nationwide;
  --Reduces residential and power plant emissions of carbon dioxide by 
        2.65 metric tons/year per home;
  --Decreases national energy consumption by the equivalent of 24.1 
        million barrels of oil annually.
    WAP is the largest residential energy conservation program in the 
Nation and serves an essential function by helping low-income families 
reduce their energy use. The program was developed in the late-1970s as 
a response to rapidly rising energy costs associated with oil shortages 
created by oil embargoes. Congress acknowledged that low-income 
families were particularly vulnerable to increased energy price 
fluctuations and created the program to assist those families by 
reducing the cost to heat their homes. WAP was institutionalized within 
the Department of Energy in 1979 and today operates in all 50 States, 
the District of Columbia, five U.S. Territories, and two Native 
American Tribes. Approximately 1,000 local agencies provide services in 
every political jurisdiction of the country using direct hire crews and 
local contractors to do the work. These network providers use program 
funds to improve the energy efficiency of low-income dwellings, 
utilizing the most advanced technologies and testing protocols 
available in the housing industry. Since the Program's inception, more 
than 6.7 million homes have been weatherized using Federal, State, 
utility, and other monies.
    The Weatherization Assistance Program is still as relevant now as 
it was when it was formed in response to the energy crisis 30 years 
ago. The savings to America's most vulnerable citizens are significant 
and make a huge, immediate difference in their lives. These families 
have an average energy burden--the percentage of their income needed to 
pay residential energy bills--around 15 percent of their income as 
compared to around 3 percent for non-low income households, or five 
times greater. And the poorest families have a much higher energy 
burden than that. For example, in the State of California, subcommittee 
Chair Dianne Feinstein's home State, there are over 718,000 households 
below 50 percent of the Federal poverty level. Those families have an 
energy burden of 36.5 percent--over one-third of their income. With 
lower energy bills, these families can increase their usable income and 
buy other essentials like food, shelter, clothing, medicine, and 
healthcare. WAP provides a positive return on investment to meet its 
primary objectives of making homes warmer in winter and cooler in 
summer and creating safer and healthier indoor environments.
    Because of the advanced diagnostics and technology developed in 
WAP, the program is the foundation for the emerging green energy 
efficiency retrofit workforce. There are approximately 25,000 jobs in 
the Weatherization network, with many more supported in related 
businesses, such as material suppliers. These jobs are good, living 
wage jobs, which are more important than ever due to the economic 
downturn in the housing and construction industries. Workers are highly 
trained and receive ongoing instruction to further develop their 
skills. WAP is at the core of the larger energy efficiency retrofit 
market, and its training curricula, methods, and centers play an 
integral role in developing tools and techniques and a workforce. WAP 
managers, trainers, and technical experts figure prominently in the 
Recovery through Retrofit initiative, contributing their expertise to 
the Workforce Guidelines for Residential Energy Efficiency Workers and 
playing a key role in the development of standardized training 
curricula, worker certifications, and training facility accreditations.
    The Recovery Act provided $5 billion over 3 years for the WAP. This 
investment has allowed States and local agencies to increase 
significantly their efforts to weatherize 650,000 homes. WAP has 
created over 15,000 new jobs across the country since 2009, making it 
the 8th highest Recovery Act job creating program. This figure does not 
include the countless jobs and businesses supported with WAP money in 
the foundering housing industry during this period. Furthermore, the 
network has weatherized over 380,000 homes through February 2011, and 
will reach its production goals before the conclusion of Recovery Act 
grants.
    While the Recovery Act invested significantly in energy efficiency 
and independence, in order to sustain the program beyond March 2012 it 
is critical that the WAP maintain adequate funding so the network can 
continue to provide jobs and support local economies as well as promote 
energy efficiency nationwide.
    NASCSP urges the subcommittee to fund the Weatherization Assistance 
Program at $320 million while providing $125 million for the State 
Energy Program. The WAP remains a crucial component of our Nation's 
energy future. WAP is a clearly proven investment, has provided 
significant energy savings, and has helped over 6.7 million families 
live in safer, more comfortable living conditions. This is a program 
that has proved its worth and effectiveness for over 30 years. NASCSP 
looks forward to working with subcommittee members in the future as we 
attempt to create energy self-sufficiency and good jobs for millions of 
American families through these invaluable national programs.
                                 ______
                                 
          Prepared Statement of the Edison Electric Institute
    The Edison Electric Institute [EEI] respectfully submits this 
written testimony for the record to the Senate Appropriations 
Subcommittee on Energy and Water Development.
    The Edison Electric Institute is the association of U.S. 
shareholder-owned electric companies. Our members serve 95 percent of 
ultimate electricity customers in the shareholder-owned segment of the 
industry and represent approximately 70 percent of the U.S. electric 
power industry.
    EEI appreciates this opportunity to share our views on some of the 
Department of Energy's [DOE] programs for the fiscal year 2012. We 
believe a robust national energy policy that supports the full 
portfolio of energy resources is critical to our country's national 
security and economic growth. Therefore, we respectfully ask the 
subcommittee to direct sufficient resources toward these critically 
important activities.
                        electric transportation
    EEI embraces the goal of having 1 million electric vehicles on the 
road by 2015. The United States faces numerous energy policy 
challenges, but perhaps none looms larger than energy security. Ongoing 
conflict in the Middle East and increasing demand as nations' economies 
recover have left crude oil prices hovering around $110 per barrel. 
U.S. drivers are now paying an average of $3.73 per gallon of gas, a 65 
percent increase in 4 months. We strongly support increasing domestic 
oil supply. Turning to electricity as a transportation fuel is 
critical, too.
    The transformation of the Nation's transportation fleet to one 
fueled in part by domestically produced electricity can gradually help 
reduce our dependence on foreign energy sources. Plug-in electric 
vehicles [PEVs] are being rolled out in major U.S. markets, as 
automobile manufacturers join utilities in embracing electricity as an 
important transportation fuel.
    The job creation potential behind electric transportation is 
enormous. As the Nation transitions to a new era of electric 
transportation, demand for jobs in this new technology sector will 
continue to increase. From manufacturing batteries to building the 
necessary electricity recharging stations, PEVs will create high-
quality employment opportunities throughout the country. The Federal 
Government estimates that tens of thousands of American jobs will be 
created to manufacture PEV batteries and components.
    Congress has a significant role to play in securing a place for 
electric vehicles in the transportation fleet. Federal funding is 
crucial to help break down market barriers to the commercial-scale 
deployment of electric vehicles and related infrastructure. 
Accordingly, EEI supports funding for DOE's PEV vehicle technology 
programming, including battery and electric drive technology 
development and grants to communities for the installation of PEV 
recharging infrastructure.
                             fossil energy
    Coal generates almost 45 percent of our electricity and will 
continue to be an important fuel source for our Nation's electricity 
mix. Coal is the largest domestically produced source of energy in the 
United States.
    EEI urges strong support for carbon capture and storage [CCS] and 
advanced coal technology programs, including loan guarantee authority 
for advanced fossil projects. CCS is a promising and important 
technology that will allow continued utilization of our abundant 
domestic coal reserves to generate a reliable and affordable supply of 
electricity in a cleaner manner. CCS commercialization is still in the 
future, but demonstration technologies hold great promise, and we are 
working with Congress and the administration to develop policies that 
will accelerate its commercial availability and deployment.
                             nuclear energy
    EEI urges support for DOE's nuclear loan guarantee program and 
recommends approval of the additional $36 billion requested in loan 
volume for nuclear energy projects. Nuclear power plants generate about 
20 percent of the industry's electricity and are the largest source of 
carbon-free electricity production in the country.
                               smart grid
    EEI supports robust funding for smart grid programs. In addition to 
operational benefits such as automatic outage detection and automated 
meter reading, customers with smart meters receive other types of 
benefits, including easier energy management and the potential of the 
electric grid to act as a platform for future energy technologies, 
including plug-in electric vehicles and distributed generation. 
Currently, electric utilities install between 15,000 and 20,000 smart 
meters every day. By 2019, it is estimated that more than 58 million 
smart meters will be in use in more than one-half of all U.S. 
households.
    Deployment of smart grid technology means job creation across the 
economy. Researchers at the Milken Institute point out that smart grid 
construction requires highly skilled labor from various architectural 
and engineering occupations. Because smart grid investments have a 
significant economic impact, technology deployment would revitalize 
employment in R&D and in construction, where more that 1.3 million jobs 
were lost from 2007 to 2009.
         cyber security and physical infrastructure reliability
    Protecting the Nation's electric grid and ensuring a reliable, 
affordable supply of power are EEI's member companies' top priorities. 
Indeed, system reliability requirements are what set electric utilities 
apart from most other industries. Utilities have an obligation to 
serve, to maintain exceptional reliability, and to keep their systems 
secure in an era of increasing cyber threats.
    The electric power industry is constantly making investments to 
strengthen and improve the operations and security of its cyber systems 
and to identify and address vulnerabilities. One research organization 
has projected that global spending on utility cyber security will top 
$21 billion over the next 5 years. Industry in the United States, 
however, cannot go it alone. We urge Congress to continue public-
private partnerships to help ensure a robust and resilient electric 
grid.
                  transmission, siting and permitting
    Siting new transmission is critical for electric companies to be 
able to move power to where it is needed, to maintain a reliable 
electricity system, and to expand access to renewable energy resources.
    In 2009, shareholder-owned electric utilities and stand-alone 
transmission companies invested an unprecedented $9.3 billion in our 
Nation's transmission infrastructure. This represents a 9 percent 
increase over 2008 levels and an 82 percent increase over 2000 
investment levels. Since the beginning of 2000, industry has invested 
$68 billion in transmission. We anticipate at least $56 billion in 
transmission system investments through 2020.
    The siting of new transmission lines, however, remains a difficult 
and lengthy endeavor, particularly where multiple States or regions 
must approve the project, or when the siting involves Federal lands. 
Sufficient funding to ensure timely coordination between Federal 
agencies and prompt issuance of Federal authorizations and permits is 
essential for a robust transmission system.
                           energy efficiency
    Utility spending on energy efficiency continues to increase. Over 
the past 3 years, electric utilities doubled their budgets for energy 
efficiency, growing from $2.7 billion annually to $5.4 billion. Utility 
efficiency budgets are expected to reach or exceed $12 billion by 2020.
    As in the past, EEI recommends that Federal funding be used for the 
development and deployment of efficient energy technologies to help 
meet electricity demand growth, while enabling consumers to manage 
their energy usage.
                            renewable energy
    EEI supports funding for renewable energy research and development 
to help make these resources cost-competitive. The Energy Information 
Administration [EIA] projects that renewable energy resources will 
continue to increase their share of the Nation's generation mix--from 
11 percent in 2009 to 14 percent in 2035. Twenty-nine States and the 
District of Columbia have renewable portfolio standards.
                      energy storage and batteries
    Improved energy storage is critical for enabling the widespread use 
of electric vehicles, efficient and reliable smart electric grid 
technologies, and variable renewable energy resources. EEI supports 
Federal initiatives to advance and accelerate storage/battery 
technologies.

</pre></body></html>
